No. ___
IN THE

Supreme Court of the United States
————
NORTH CAROLINA UTILITIES COMMISSION,
Petitioner,
v.
FEDERAL ENERGY REGULATORY COMMISSION,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
KATHLEEN L. MAZURE
Counsel of Record
JASON T. GRAY
DUNCAN & ALLEN
1730 Rhode Island Avenue, NW
Suite 700
Washington, DC 20036
(202) 289-8400
klm@duncanallen.com
jtg@duncanallen.com
Counsel for Petitioner
July 2, 2019
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
The Natural Gas Act provides States and State
regulatory commissions procedural rights to challenge
Federal Energy Regulatory Commission orders in
order to protect States’ interests. 15 U.S.C. § 717r(a),
(b). This Court’s opinion in Massachusetts v. Environmental Protection Association, 549 U.S. 497, 518-520
(2007) held that States are entitled to special solicitude in courts’ standing analyses because they are not
normal litigants for purposes of invoking federal
jurisdiction. While courts of appeals have offered
varying views of Massachusetts’ scope, in this case,
the District of Columbia Circuit did not address
Massachusetts. Instead, it held a State litigant had
not demonstrated injury-in-fact and, therefore, lacked
standing to challenge Federal Energy Regulatory
Commission orders that authorized construction of
interstate pipeline facilities that will be located within
the State’s borders and that were marketed to serve
the State’s ratepayers.
The questions presented are:
1. If a court of appeals finds a State litigant failed
to demonstrate injury-in-fact that is traceable to the
challenged action and redressable by the court, must
it separately consider whether the State litigant has
standing under Massachusetts to challenge orders by
a federal agency that implicate the State’s quasisovereign and parens patriae interests?
2. If a federal statute affords a State litigant procedural rights to challenge agency actions that affect
the State’s quasi-sovereign and parens patriae interests, do Massachusetts and Lujan v. Defenders of
Wildlife, 504 U.S. 555, 572 n.7 (1992) require the State
to demonstrate injury-in-fact that is traceable to the
(i)

ii
challenged action and redressable by the court in order
to establish Article III standing?

iii
PARTIES TO THE PROCEEDING
Petitioner appearing in this Court is the North
Carolina Utilities Commission. Petitioner was the
appellant in the court of appeals. Petitioner is a
governmental entity that is not required to file a Rule
29.6 statement.
Respondent is the Federal Energy Regulatory
Commission. Respondent was the appellee in the
court of appeals.
The following entities were intervenors in the court
of appeals: (1) Transcontinental Gas Pipe Line
Company, LLC; (2) The New York State Public Service
Commission; and (3) Oglethorpe Power Corporation.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDING ....................

iii

TABLE OF AUTHORITIES ................................

vii

OPINIONS BELOW ............................................

1

STATEMENT OF JURISDICTION ....................

1

STATUTORY AND REGULATORY
PROVISIONS INVOLVED ..............................

1

STATEMENT OF THE CASE ............................

2

A.

Legal Framework ......................................

3

B.

Procedural Background ............................

5

REASONS FOR GRANTING THE PETITION..

7

A.

The United States Court of Appeals for
the District of Columbia Circuit Decision
Conflicts with the Supreme Court’s Decisions in Massachusetts and Lujan ...........

8

In Reversing the District of Columbia
Circuit’s Dismissal of the North Carolina
Commission’s Appeal, the Court Should
Address the Split Among the Circuits
and Affirm the Scope and Durability of
Massachusetts’ Special Solicitude Doctrine for State Litigants ............................

12

CONCLUSION ....................................................

15

B.

APPENDIX
APPENDIX A: JUDGMENT, U.S. Court of
Appeals for the District of Columbia Circuit
(April 3, 2019) ..................................................
(v)

1a

vi
TABLE OF CONTENTS—Continued
Page
APPENDIX B: ORDER ISSUING CERTIFICATE, U.S. Federal Energy Regulatory
Commission (August 3, 2016) ..........................

5a

APPENDIX C: ORDER DENYING REHEARING, U.S. Federal Energy Regulatory
Commission (November 21, 2017) ...................

81a

APPENDIX D: ORDER ISSUING CERTIFICATE, U.S. Federal Energy Regulatory
Commission (July 7, 2016)...............................

91a

APPENDIX E: ORDER DENYING REHEARING, U.S. Federal Energy Regulatory
Commission (November 21, 2017) ................... 130a
APPENDIX F: ORDER ISSUING CERTIFICATE, U.S. Federal Energy Regulatory
Commission (February 3, 2017) ...................... 136a
APPENDIX G: ORDER ON REHEARING,
U.S. Federal Energy Regulatory Commission
(December 6, 2017) .......................................... 274a
APPENDIX H: 15 U.S.C.S. § 717a .................. 345a
APPENDIX I: 15 U.S.C.S. § 717r .................... 347a
APPENDIX J: N.C. Gen. Stat. § 62-2.............. 351a
APPENDIX K: N.C Gen. Stat. § 62-32 ............ 357a
APPENDIX L: N.C Gen. Stat. § 62-36.01 ....... 358a
APPENDIX M: N.C Gen. Stat. § 62-48 ........... 360a
APPENDIX N: N.C Gen. Stat. § 62-133.4 ....... 362a
APPENDIX O: 18 C.F.R. § 385.214 ................. 364a

vii
TABLE OF AUTHORITIES
CASES

Page(s)

Ark. Elec. Coop. Corp. v. Ark. Pub.
Serv. Comm’n,
461 U.S. 375 (1983) ................................... 3, 7, 9
Arpaio v. Obama,
797 F.3d 11 (D.C. Cir. 2015) .....................

13

Center for Biological Diversity v.
Department of Interior,
563 F.3d 466 (D.C. Cir. 2009) ................... 12, 13
Connecticut v. Am. Elec. Power Co.,
582 F.3d 309 (2d Cir. 2009), juris.
aff’d by an equally divided court,
131 S. Ct. 2527 (2011) ........................... 8, 13, 14
Gvt. Province of Manitoba v.
David Bernhardt,
D.C. Cir. Case No. No. 17-5242
(May 3, 2019)....................................... 7-8, 13-14
Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992) ..................................passim
Md. People’s Counsel v. FERC,
760 F.2d 318 (D.C. Cir. 1985) ...................

4

Massachusetts v. EPA,
549 U.S. 497 (2007) ..................................passim
N. Carolina Utilities Comm’n v. F.E.R.C.,
No. 18-1018 (D.C. Cir. April 3, 2019) ......passim
Texas v. United States,
809 F.3d 134 (5th Cir. 2015), aff’d
by an equally divided Court,
136 S. Ct. 2271 (2016) ...................... 8, 12-13, 14

viii
TABLE OF AUTHORITIES—Continued
ADMINISTRATIVE CASES

Page(s)

Transcontinental Gas Pipe Line Co., LLC,
156 FERC ¶ 61,022 (2016), on reh’g,
161 FERC ¶ 61,212 (2017) ........................

1

Transcontinental Gas Pipe Line Co., LLC,
156 FERC ¶ 61,092 (2016), on reh’g,
161 FERC ¶ 61,211 (2017) ........................

1

Transcontinental Gas Pipe Line Co., LLC,
158 FERC ¶ 61,125, on reh’g,
161 FERC ¶ 61,250 (2017) ........................

1

CONSTITUTION
U.S. Const. art. I, § 8, cl. 3 ...........................

3

U.S. Const. art. III ...................................... 4, 8, 13
STATUTES
15 U.S.C. § 717(a) .........................................

3

15 U.S.C. § 717(b) .........................................

3

15 U.S.C. § 717a(6) .......................................

5

15 U.S.C. § 717f(c) ........................................

3, 5

15 U.S.C. § 717f(e) ........................................

3

15 U.S.C. § 717n(e) ....................................... 4, 5-6
15 U.S.C. § 717r(a) ......................................passim
15 U.S.C. § 717r(b) ......................................passim
28 U.S.C. § 1254(l) ........................................

1

N.C. Gen. Stat. § 62-48(a) .......................... 2, 5, 11

ix
TABLE OF AUTHORITIES—Continued
REGULATIONS

Page(s)

18 C.F.R. § 385.214(a)(2) .............................. 4, 11
RULES
Fed. R. App. P. 36 .........................................

1

OPINIONS BELOW
Pursuant to D.C. Circuit Rule 36, the judgement
below was not published. The judgement was issued
on April 3, 2019 in North Carolina Utilities Commission v. F.E.R.C., D.C. Circuit Case No. 18-1018. Pet.
Appendix-A at 1a-4a.
The orders of the Federal Energy Regulatory
Commission that were on appeal below are reported
at: (1) 156 FERC ¶ 61,092 (2016), Pet. Appendix-B at
5a-80a; (2) 161 FERC ¶ 61,211 (2017), Pet. AppendixC at 81a-90a; (3) 156 FERC ¶ 61,022 (2016), Pet.
Appendix-D at 91a-129a; (4) 161 FERC ¶ 61,212
(2017), Pet. Appendix-E at 130a-135a; (5) 158 FERC
¶ 61,125 (2017), Pet. Appendix-F at 136a-273a; and
(6) 161 FERC ¶ 61,250 (2017), Pet. Appendix-G at
274a-344a.
STATEMENT OF JURISDICTION
The judgement of the court of appeals was entered
on April 3, 2019. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
In pertinent part, 15 U.S.C. § 717r(a) provides that
a “State commission aggrieved by an order issued by
the [Federal Energy Regulatory] Commission in a
proceeding under this chapter to which such . . . State
commission is a party may apply for a rehearing
within thirty days after the issuance of such order.”
Pet Appendix-I at 347a.
In pertinent part, 15 U.S.C. § 717r(b) provides:
Any party to a proceeding under this chapter
aggrieved by an order issued by the [Federal
Energy Regulatory] Commission in such

2
proceeding may obtain a review of such order
in the court of appeals of the United States for
any circuit wherein the natural-gas company
to which the order relates is located or has its
principal place of business, or in the United
States Court of Appeals for the District of
Columbia, by filing in such court, within sixty
days after the order of the Commission upon
the application for rehearing, a written petition praying that the order of the Commission
be modified or set aside in whole or in part.
Pet. Appendix-I at 348-349a.
Other relevant statutes and regulations are contained
in the appendix.
STATEMENT OF THE CASE
This case presents a recurring question of exceptional importance that circuit courts have grappled
with—the scope and durability of this Court’s holding
in Massachusetts v. EPA, 549 U.S. 497 (2007) regarding the special solicitude afforded to State litigants
that challenge federal agency actions affecting the
State’s interests. Petitioner in the case below, the
North Carolina Utilities Commission (“North Carolina
Commission”), “is authorized and empowered to initiate and appear before federal and State courts and
agencies as in its opinion may be necessary to secure
for the users of public utility service in [North
Carolina] just and reasonable rates and service” (N.C.
Gen. Stat. § 62-48(a), Pet. Appendix-M at 360a). The
North Carolina Commission sought judicial review of
Federal Energy Regulatory Commission (“FERC”) orders
that authorized construction of interstate pipeline
facilities that were marketed to the State’s citizens
and that will be constructed and operated within the
State’s borders. The North Carolina Commission

3
asserted that Massachusetts entitled it to special
solicitude in the court’s standing analysis. Petitioner
Initial Brief at 32-34; Petitioner Reply Brief at 19-21.
Without addressing Massachusetts, the District of
Columbia Circuit dismissed the appeal on the grounds
that the North Carolina Commission failed to demonstrate injury-in-fact and, therefore, lacks standing.
Pet. Appendix-A at 1a-4a. This finding conflicts
directly with this Court’s holding in Massachusetts;
ignores the procedural rights the Natural Gas Act
affords State litigants to challenge FERC orders (15
U.S.C. § 717r(a), (b), Pet. Appendix-I at 347a-349a);
and deprives North Carolina of the ability to protect
its quasi-sovereign and parens patriae interests in
interstate pipeline facilities that will be constructed
and operated within North Carolina’s borders and the
rates paid by North Carolina citizens for service on
those facilities.
A. Legal Framework
1. Congress vested the authority to regulate interstate commerce solely in the federal government. US
Const. Art. I, Sec. 8, Cl. 3. The Natural Gas Act vested
the power to regulate interstate transportation of
natural gas to FERC’s predecessor, the Federal Power
Commission. 15 U.S.C. § 717(a), (b). FERC’s regulatory powers include the authority to determine
whether construction and operation of interstate
pipeline facilities is in the public interest. 15 U.S.C.
§ 717f(c), (e).
2. “[T]he regulation of utilities is one of the most
important of the functions traditionally associated
with the police power of the States.” Ark. Elec. Coop.
Corp. v. Ark. Pub. Serv. Comm’n, 461 U.S. 375, 377
(1983). If a State had not joined the Union, it would
have the sovereign right to regulate public utilities

4
that construct facilities located within its borders and
that serve its citizens. By joining the Union, however,
States relinquished that right to the extent those
public utilities engage in interstate commerce. States
must rely on the federal government to protect their
interests when interstate pipelines impact the State
and its citizens.
3. Though the Natural Gas Act vested FERC
with authority to regulate interstate transportation
of natural gas, it recognized States’ special status
concerning matters over which FERC has jurisdiction.
The Natural Gas Act expressly recognizes States and
State commissions as “parties” that may participate in
FERC proceedings. 15 U.S.C. § 717n(e); cf. 18 C.F.R.
§ 385.214(a)(2) (unlike other parties that must seek
leave to intervene, FERC’s regulations authorize State
commissions to intervene in proceedings as a matter
of right, without motion), Pet. Appendix-O at 364a365a. “The special solicitude for states and state
agencies is also reflected in the provision governing
those who may apply for rehearing, which is a prerequisite for judicial review.” Md. People’s Counsel v.
FERC, 760 F.2d 318, 320-21 (D.C. Cir. 1985) (discussing 15 U.S.C. § 717r(a), Pet. Appendix-I at 347a). In
addition, the Natural Gas Act provides a procedural
right to seek relief from federal courts if they are
“aggrieved” by FERC orders. 15 U.S.C. § 717r(b), Pet.
Appendix-I at 348a-349a.
4. To establish Article III standing, a litigant must
demonstrate injury-in-fact that is traceable to the
challenged action and redressable by the court. Lujan
v. Defenders of Wildlife, 504 U.S. 555, 559-61(1992).
However, a litigant “who has been accorded a procedural right to protect his concrete interests can
assert that right without meeting all the normal

5
standards of redressability and immediacy.” Id., at
572, n.7. This Court’s Massachusetts decision requires
courts to afford State litigants special solicitude when
analyzing standing, especially where Congress has
provided the State litigant a concomitant procedural
right to challenge actions by federal agencies that
negatively impact the State’s once-sovereign prerogatives. Massachusetts, 549 U.S. at 518-20.
B. Procedural Background
5. Transcontinental Gas Pipe Line Company, LLC
(“Transco”) is a natural gas pipeline company as
defined by Natural Gas Act section 2(6). 15 U.S.C.
§ 717a(6), Pet. Appendix-H at 345a. In March 2015,
Transco initiated the three FERC proceedings that
give rise to this Petition by seeking authorization
under 15 U.S.C. § 717f(c) to construct and operate
interstate pipeline facilities. Pet. Appendix-B at 5a8a; Pet. Appendix-D at 91a-93a; Pet. Appendix-F at
136a-140a. Those facilities were marketed to serve
North Carolina residents and, in part, be constructed
within North Carolina’s borders. Pet. Appendix-B at
5a-7a; Pet. Appendix-D at 93a, 126a; Pet. Appendix-F
at 136a-140a.
6. North Carolina law authorizes and empowers
the North Carolina Commission “to . . . appear before
federal . . . courts and agencies as in its opinion
may be necessary to secure for the users of public
utility service in [North Carolina] just and reasonable
rates and service.” N.C. Gen. Stat. § 62-48(a), Pet.
Appendix-M at 360a. Given that Transco’s proposed
facilities implicated North Carolina’s quasi-sovereign
and parens patriae interests in interstate natural gas
pipeline facilities that will be constructed and operated in North Carolina and the rates paid by North
Carolina ratepayers for service on those facilities, the

6
North Carolina Commission became “party” to those
FERC proceedings as the Natural Gas Act defines that
term (15 U.S.C. § 717n(e)). Pet. Appendix-B at 10a;
Pet. Appendix-D at 94a-95a; Pet. Appendix-F at 144a.
The North Carolina Commission raised substantive
concerns with Transco’s proposals, arguing that they
negatively impacted North Carolina’s interests. Pet.
Appendix-B at 10a; Pet. Appendix-D at 94a-96a; Pet.
Appendix-F at 144a-145a. Aggrieved by the manner
in which FERC’s orders impacted North Carolina’s
interests, the North Carolina Commission sought
rehearing and judicial review of FERC’s orders under
15 U.S.C. § 717r(a), (b). Pet. Appendix-C at 81a-82a;
Pet. Appendix-E at 130a-131a; Pet. Appendix-G at
275a-282a.
7. On appeal before the District of Columbia
Circuit, the North Carolina Commission asserted that
FERC’s orders resulted in an injury-in-fact to North
Carolina’s interests that was traceable to the orders
and redressable by the court. Petitioner Initial Brief
at 29-32; see also Petitioner Reply Brief at 5-19. The
North Carolina Commission also asserted that the
District of Columbia Circuit must afford the North
Carolina Commission special solicitude when analyzing standing under Massachusetts. Petitioner Initial
Brief at 32-34; see also Petitioner Reply Brief at 19-21.
8. On April 3, 2019, the District of Columbia
Circuit dismissed the appeal on the grounds that the
North Carolina Commission did not demonstrate
injury-in-fact. Pet. Appendix-A at 1a-4a. The District
of Columbia Circuit did not address Massachusetts or
acknowledge North Carolina’s special status as a
State litigant with a concomitant procedural right to
challenge FERC orders.

7
REASONS FOR GRANTING THE PETITION
The Court should grant this Petition because the
District of Columbia’s standing analysis is in direct
conflict with this Court’s decision in Massachusetts.
Massachusetts requires courts to afford State litigants
special solicitude when analyzing questions of standing, especially when Congress has provided the State
a concomitant procedural right to challenge federal
agency actions that negatively impact the State’s oncesovereign prerogatives and interests of its citizens.
Massachusetts, 549 U.S. 518-20. In that regard, the
District of Columbia’s standing analysis is also in
direct conflict with this Court’s holding in Lujan that
a litigant “who has been accorded a procedural right
to protect his concrete interests can assert that
right without meeting all the normal standards of
redressability and immediacy.” Lujan, 504 at 572, n.7.
“The regulation of utilities is one of the most important
of the functions traditionally associated with the police
power of the States.” Ark. Elec. Coop., 461 U.S. at 377.
Because the Natural Gas Act vests FERC with jurisdiction over interstate pipeline matters that affect
North Carolina’s quasi-sovereign and parens patriae
interests, the District of Columbia Circuit’s failure
to follow Massachusetts and Lujan deprives North
Carolina of the ability to protect those interests with
regard to interstate pipeline facilities that are constructed and operated within North Carolina’s borders
and rates paid by North Carolina citizens for service
on those facilities.
The Court should grant this Petition because it
presents an opportunity to address questions of exceptional importance—the scope and durability of Massachusetts. Circuit courts have grappled with interpreting Massachusetts’ scope and meaning. See Gvt.

8
Province of Manitoba v. David Bernhardt, D.C. Cir.
Case No. No. 17-5242, Slip Op. at 13 (May 3, 2019)
(“Massachusetts v. EPA is not a parens patriae case.
There is some confusion on this score most possibly
caused by the opinion’s discussion of quasi-sovereign
interests.”); see also Connecticut v. Am. Elec. Power
Co., 582 F.3d 309, 337 (2d Cir. 2009) (“the Massachusetts Court . . . arguably muddled state proprietary and
parens patriae standing”), aff’d by an equally divided
Court; see also id. at 338 (“The question is whether
Massachusetts’ discussion of state standing has an
impact on the analysis of parens patriae standing[.]
That is, what is the role of the Article III parens
patriae standing in relation to the test set out in
Lujan?”); Texas v. United States, 809 F.3d 134 (5th Cir.
2015) (affording special solicitude doctrine relying on
parens patriae standing), aff’d by an equally divided
Court, 136 S. Ct. 2271, 2272 (2016).
A. The United States Court of Appeals for the
District of Columbia Circuit Decision
Conflicts with the Supreme Court’s Decisions in Massachusetts and Lujan.
On appeal before the District of Columbia Circuit,
the North Carolina Commission submitted that it met
the traditional, three-part standing test for establishing Article III standing. Petitioner Initial Brief at 2732; Petitioner Reply Brief at 5-19. However, the North
Carolina Commission also expressly relied on its
special status as a State litigant to establish standing
under Massachusetts. Petitioner Initial Brief at
32-34; Petitioner Reply Brief at 19-21. The District
of Columbia Circuit dismissed the North Carolina
Commission’s appeal without acknowledging that argument or addressing Massachusetts. Pet. Appendix-A

9
at 1a-4a. That decision is in direct conflict with this
Court’s holding in Massachusetts.
Massachusetts held that “States are not normal
litigants for the purposes of invoking federal jurisdiction.” Massachusetts, 549 U.S. at 518. “It is of
considerable relevance that the party seeking review
here is a sovereign state and not, as it was in Lujan,
a private individual.” Id. The distinction between
State and private litigants is based on the fact that
States “surrender[ed] certain sovereign prerogatives”
when they entered the Union. Id. at 518-19. “These
sovereign prerogatives are now lodged in the Federal
Government” and, as such, states have standing to
protect their parens patriae interests where federal
law preempts them from exercising their once-sovereign abilities to protect the interests of their citizens.
Id. at 519, n.17. As such, Massachusetts requires that
courts afford State litigants special solicitude when
analyzing questions of standing. Id., at 518-20.
Like the petitioner in Massachusetts, North Carolina is a sovereign State that surrendered certain
sovereign prerogatives when it joined the Union, i.e.,
the ability to regulate the rates for, and construction
and operation of, pipeline facilities that are in North
Carolina but that are engaged in interstate commerce.
This Court recognizes that “the regulation of utilities
is one of the most important of the functions traditionally associated with the police power of the States.”
Ark. Elec. Coop. Corp. v. Ark. Pub. Serv. Comm’n, 461
U.S. 375, 377 (1983). By surrendering this important
function to the federal government, it is imperative
that North Carolina be afforded access to federal
courts to challenge FERC actions that harm North
Carolina’s quasi-sovereign and parens patriae interests in interstate natural gas pipeline facilities con-

10
structed and operated within its borders and rates
that North Carolina citizens pay for service on those
facilities.
In discussing the special solicitude to which State
litigants are entitled, Massachusetts emphasized that
the State litigant in that proceeding was afforded
a special procedural right to challenge the federal
agency action at issue there:
Given that procedural right [under the Clean
Air Act to challenge the rejection of a rulemaking petition as arbitrary and capricious]
and Massachusetts’ stake in protecting its
quasi-sovereign interests, the Commonwealth
is entitled to special solicitude in our standing
analysis . . . . [T]here is a critical difference
between allowing a State ‘to protect her
citizens from the operation of federal statutes’
(which is what Mellon prohibits) and allowing
a State to assert its rights under federal law
(which it has standing to do).
Id. at 520, n.17. Similarly, in Lujan, a case addressed
by Massachusetts, the Court discussed the important
role of procedural rights in standing inquiries.
There is this much truth to the assertion that
“procedural rights” are special: The person
who has been accorded a procedural right
to protect his concrete interests can assert
that right without meeting all the normal
standards for redressability and immediacy.
Lujan, 504 U.S. at n.7.
The Clean Air Act’s procedural right to challenge
unlawful agency action is substantially similar to the
procedural rights the Natural Gas Act affords to

11
States and State commissions to challenge FERC’s
actions. Under FERC’s implementing regulations,
State commissions are distinct from parties that must
seek, and be granted, leave before they can become a
party to FERC proceedings. See 18 C.F.R. § 385.214(a)(2)
(permitting State Commissions to intervene in proceedings as a matter of right, without motion), Pet.
Appendix-O at 364a-365a. Given its authority under
State law “to . . . appear before federal . . . courts and
agencies as in its opinion may be necessary to secure
for the users of public utility service in [North
Carolina] just and reasonable rates and service” (N.C.
Gen. Stat. § 62-48(a), Pet. Appendix-M at 360a), the
North Carolina Commission exercised this right and
intervened in the underlying certificate proceedings,
which implicated North Carolina’s quasi-sovereign and
parens patriae interests in interstate natural gas
pipeline facilities constructed and operated within its
borders and rates paid by North Carolina ratepayers
for service on those facilities. Pet. Appendix-B at 10a;
Pet. Appendix-D at 94a-95a; Pet. Appendix-F at 144a.
The Natural Gas Act also provides States procedural rights to challenge FERC orders. 15 U.S.C.
§§ 717r(a), (b), Pet. Appendix-I at 347a-349a. The
North Carolina Commission raised substantive concerns
with Transco’s proposals, arguing that they negatively
impacted North Carolina. Pet. Appendix-B at 10a18a; Pet. Appendix-D at 94a-96a; Pet. Appendix-F at
144a-145a. Aggrieved by the manner in which FERC’s
orders dismissed those challenges, the North Carolina
Commission invoked its procedural rights by seeking
rehearing and judicial review under 15 U.S.C. § 717r(a),
(b). Pet. Appendix-C at 81a-82a; Pet. Appendix-E at
130a-131a; Pet. Appendix-G at 275-282a.

12
The District of Columbia Circuit dismissed the North
Carolina Commission’s appeal without acknowledging
that argument or addressing Massachusetts’ and
Lujan’s discussion of the importance of concomitant
procedural rights. Pet. Appendix-A at 1a-4a. As such,
its decision is in direct conflict with Massachusetts
and Lujan. The effect of that erroneous decision is
significant. It deprives a State litigant of access to
federal courts to challenge federal agency actions that
impact the State’s quasi-sovereign and parens patriae
interests in interstate natural gas pipeline facilities
constructed and operated within its borders and rates
paid by North Carolina ratepayers for service on such
facilities.
B. In Reversing the District of Columbia
Circuit’s Dismissal of the North Carolina
Commission’s Appeal, the Court Should
Address the Split Among the Circuits
and Affirm the Scope and Durability of
Massachusetts’ Special Solicitude Doctrine
for State Litigants.
The courts of appeals interpret Massachusetts differently. For example, despite ignoring Massachusetts
altogether in the case below, the District of Columbia
Circuit narrowly construed Massachusetts in Center
for Biological Diversity v. Department of Interior,
563 F.3d 466, 476 (D.C. Cir. 2009), emphasizing
the “uniqueness” of Massachusetts. According to the
District of Columbia Circuit, Massachusetts “stands
only for the limited proposition that, where a harm is
widely shared, a sovereign, suing in its individual
interest, has standing to sue where that sovereign’s
individual interests are harmed, wholly apart from the
alleged general harm.” Id. at 477. In stark contrast,
the Fifth Circuit found it “obvious that being a state

13
greatly matters in the standing inquiry, and it makes
no difference . . . whether [that] means that states are
afforded a relaxed standing inquiry by virtue of their
statehood or whether their statehood, in [and] of itself,
helps confer standing.” Texas v. United States, 809
F.3d 134, n.26 (5th Cir. 2015), aff’d by an equally
divided Court, 136 S. Ct. 2271, 2272 (2016) (internal
quotations omitted).
Similar to the Fifth Circuit’s interpretation, but in
contrast to the District of Columbia Circuit’s narrow
interpretation in Centers for Biological Diversity,
District of Columbia Circuit Judge Brown opined that
“[S]tate litigants” are afforded “laxity” in the standing
analysis because “the [Supreme] Court lowered the
bar [in Massachusetts], ruling that state litigants were
‘entitled to special solicitude’” that “likely does not
extend to non-state litigants . . . who must clear the
ordinary hurdles to standing.” Arpaio v. Obama, 797
F.3d 11, 27 (D.C. Cir. 2015) (Brown, J., concurring).
The Second Circuit has grappled with how to interpret and apply Massachusetts. For example, it suggested that “the Massachusetts Court . . . arguably
muddled state proprietary and parens patriae standing.” Connecticut v. Am. Elec. Power Co., 582 F.3d 309,
337 (2d Cir. 2009), juris. aff’d by an equally divided
court, 131 S. Ct. 2527, 2535 (2011); see also id. at 338
(“The question is whether Massachusetts’ discussion of
state standing has an impact on the analysis of parens
patriae standing[.] That is, what is the role of
the Article III parens patriae standing in relation to
the test set out in Lujan?”). Despite acknowledging
“confusion” on Massachusetts’ impact on the analysis
of parens patriae standing, the District of Columbia
Circuit purports to know the answers to these
questions. See Gvt. Province of Manitoba v. David

14
Bernhardt, D.C. Cir. Case No. No. 17-5242, Slip Op.
at 13 (May 3, 2019) (“Massachusetts v. EPA is not a
parens patriae case.”). Notably, the Fifth Circuit’s
Texas v. United States decision did not rely on parens
patriae standing in affording special solicitude to the
State litigant.
As demonstrated above, this Petition raises a question of exceptional importance. Indeed, the Court has
twice granted petitions for certiorari that addressed
Massachusetts, splitting four-to-four both times. Texas
v. United States, 136 S. Ct. at 2272; Connecticut v.
Am. Elec. Power Co., 131 S. Ct. at 2535. This Petition
represents a unique opportunity to address this exceptional issue and provide critical clarity to State
litigants that may be denied access to federal courts in
circuits that construe Massachusetts narrowly. In that
regard, had the North Carolina Commission’s appeal
been addressed by the Fifth Circuit, instead of the
District of Columbia Circuit, it is likely that North
Carolina would not have been denied the ability
to challenge FERC orders that directly impact its
quasi-sovereign and parens patriae interests. Thus, in
addition to the importance of granting this Petition
and allowing North Carolina the ability to ensure
the federal government protects its interests, the
Court should grant this Petition to clarify and affirm
the scope and durability of Massachusetts’ special
solicitude doctrine for all State litigants.

15
CONCLUSION
The Petition for a writ of certiorari should be
granted for the foregoing reasons.
Respectfully submitted,
KATHLEEN L. MAZURE
Counsel of Record
JASON T. GRAY
DUNCAN & ALLEN
1730 Rhode Island Avenue, NW
Suite 700
Washington, DC 20036
(202) 289-8400
klm@duncanallen.com
jtg@duncanallen.com
Counsel for Petitioner
July 2, 2019

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
[Filed: April 3, 2019]
————
No. 18-1018
————
NORTH CAROLINA UTILITIES COMMISSION,
Petitioner,
v.
FEDERAL ENERGY REGULATORY COMMISSION,
Respondent,
PUBLIC SERVICE COMMISSION OF THE STATE OF
NEW YORK AND TRANSCONTINENTAL
GAS PIPE LINE COMPANY, LLC,
Intervenors.
————
Consolidated with 18-1019, 18-1020
————
On Petitions for Review of Orders of the
Federal Energy Regulatory Commission
————
September Term, 2018
————
Before: GARLAND, Chief Judge, and GRIFFITH and
WILKINS, Circuit Judges.
————

2a
JUDGMENT
This appeal was considered on the record from the
Federal Energy Regulatory Commission (“FERC”) and
on the briefs of the parties and oral arguments of
counsel. The court has accorded the issues full consideration and has determined that they do not warrant
a published opinion. See D.C. CIR. R. 36(d). For the
reasons stated below, it is
ORDERED and ADJUDGED that the petition for
review be DISMISSED for lack of jurisdiction.
Petitioner North Carolina Utilities Commission
(“NCUC”) and Intervenor New York State Public
Service Commission (“NYSPSC”) ask this Court to
set aside three FERC orders granting certificates
to Transcontinental Gas Pipe Line Company, LLC
(“Transco”) to construct and operate interstate natural gas pipeline projects – the Virginia Southside
Expansion Project, the Dalton Expansion Project, and
the Atlantic Sunrise Project – in the Eastern United
States. NCUC and NYSPSC contend that the recourse
rate used in FERC’s certification orders relies on
an outdated and inflated pre-tax return. Thus, they
argue, the agreed-upon negotiated rate is tainted,
given FERC’s intention for recourse rates to constrain
a company’s ability to exercise market power during
rate negotiations.
The Natural Gas Act instructs that only “aggrieved”
persons may seek judicial review of a FERC order. 15
U.S.C. § 717r(b). “A party is aggrieved only ‘if it
can establish both the constitutional and prudential
requirements for standing.’” PNGTS Shipper’s Grp. v.
FERC, 592 F.3d 132, 136 (D.C. Cir. 2010) (quoting
Exxon Mobil Corp. v. FERC, 571 F.3d 1208, 1219 (D.C.
Cir. 2009)). The “irreducible constitutional minimum”

3a
of standing requires that a petitioner allege an “an
injury in fact” that is “concrete and particularized” and
“actual or imminent, not conjectural or hypothetical.”
Lujan v. Defenders of Wildlife, 504 U.S. 555, 559-61
(1992). These standing requirements apply equally
to intervenors. Alabama Mun. Distributors Group. v.
FERC, 300 F.3d 877, 879 n.2 (D.C. Cir. 2002) (per
curiam).
Petitioner and Intervenor lack standing because
they have failed to provide sufficient evidence to
establish injury in fact. NCUC “assume[s]” that ratepayers in its state will use the facilities certificated
on the Atlantic Sunrise Project. Appellant’s Br. 31.
NYSPSC, through declaration from the Deputy
Director for Natural Gas and Water within the Office
of Electricity, Gas, and Water at the New York State
Department of Public Service, insists that the Atlantic
Sunrise’s project shippers will “almost certainly exercise
their contractual rights to use the expansion capacity
to ship at least some of their gas to New York.”
McCarran Declaration 7-8. But neither NCUC nor
NYSPSC has shown a “substantial probability” that
any capacity from the Atlantic Sunrise project will
flow into their respective states, nor have they shown
that any end-users in their states will pay higher rates
as a result of the project. Kansas Corp. Comm’n v.
FERC, 881 F.3d 924, 930 (D.C. Cir. 2018). Indeed, with
respect to the Dalton Expansion or Virginia Southside
Expansion Projects, they offer no evidence of injury.
Any harm is therefore either non-existent or “conjectural or hypothetical,” which does not suffice to
demonstrate injury in fact. Id.
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to withhold
issuance of the mandate herein until seven days after

4a
resolution of any timely petition for rehearing or
petition for rehearing en banc. See FED. R. APP. P.
41(b); D.C. CIR. R. 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Scott H. Atchue
Deputy Clerk

5a
APPENDIX B
156 FERC ¶ 61,092
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Docket No. CP15-117-000
Before Commissioners: Norman C. Bay, Chairman;
Cheryl A. LaFleur, Tony Clark,
and Colette D. Honorable.
Transcontinental Gas Pipe Line Company, LLC
ORDER ISSUING CERTIFICATE
(Issued August 3, 2016)
1. On March 19, 2015, Transcontinental Gas Pipe
Line Company, LLC (Transco) filed an application
pursuant to section 7(c) of the Natural Gas Act (NGA)1
and Part 157 of the Commission’s regulations for a
certificate of public convenience and necessity authorizing it to construct, lease, and operate pipeline,
compression, metering, and appurtenant facilities in
Virginia, North Carolina, and Georgia (Dalton Expansion
Project). As discussed below, the Commission will grant
the requested authorizations, subject to conditions.
I. Background and Proposal
A. Construction of Facilities
2. Transco is a natural gas company, as defined by
section 2(6) of the NGA,2 which transports natural gas
in interstate commerce. Transco’s natural gas transmission system extends through Texas, Louisiana, the
offshore Gulf of Mexico area, Mississippi, Alabama,
1

15 U.S.C. § 717f(c) (2012).

2

Id. § 717a(6).

6a
Georgia, South Carolina, North Carolina, Virginia,
Maryland, Pennsylvania, and New Jersey, to its
termini in the New York City metropolitan area.
3. Transco proposes to construct and operate
approximately 114.99 miles of 30-, 24-, 20-, and 16inch diameter pipeline (Dalton Lateral), three meter
stations, and one compressor station (Compressor
Station 116) in Georgia, as well as valves, yard piping,
and other appurtenant facilities in Virginia and North
Carolina. Specifically, Transco proposes to construct
and operate:
• Dalton Lateral Segment 1 – Approximately 7.6
miles of 30-inch-diameter pipeline in Coweta
and Carroll Counties, Georgia, from the discharge of the existing Compressor Station 115
to the proposed Compressor Station 116;
• Dalton Lateral Segment 2 – Approximately 51.3
miles of 24-inch-diameter pipeline in Carroll,
Douglas, Paulding, and Bartow Counties, Georgia,
from the discharge of proposed Compressor
Station 116 to the proposed Beasley Road Meter
Station;
• Dalton Lateral Segment 3 – Approximately 53.8
miles of 20-inch-diameter pipeline in Bartow,
Gordon, Murray, and Whitfield Counties, Georgia,
from the proposed Beasley Road Meter Station
to the proposed Looper Bridge Road Meter
Station;
• AGL Spur Lateral – Approximately 2.0 miles of
16-inch-diameter pipeline in Murray County,
Georgia, from milepost (MP) 105.2 of the Dalton
Lateral to the proposed Murray Meter Station;

7a
• Beasley Road Meter Station (formally known
as the AGL-Bartow Meter Station) – a new
190,000 dekatherms (Dth) per day meter
station in Bartow County, Georgia;
• Looper Bridge Road Meter Station (formally
known as the Oglethorpe-Smith Meter Station) – a new 208,000 Dth per day meter station
in Murray County, Georgia;
• Murray Meter Station (formally known as the
AGL-Murray Meter Station) – a new 50,000 Dth
per day meter station in Murray County,
Georgia;
• Compressor Station 116 – a new 21,830 horsepower compressor station in Carroll County,
Georgia, with two Solar Taurus 70 gas turbine
driven compressor units near MP 7.6 on the
Dalton Lateral;
• Valves and yard piping for south flow compression at Compressor Stations 165 in Pittsylvania
County, Virginia, and 180 in Prince William
County, Virginia;
• Odor masking/deodorization of valves at valve
sites between Compressor Stations 160 in
Rockingham County, North Carolina, and 165
in Pittsylvania County, Virginia;
• Odor detection and supplemental odorization
at 20 delivery meters on the South Virginia
Lateral and between Compressor Stations 160
and 165 in Rockingham, Northampton and
Hertford Counties, North Carolina, and
Pittsylvania, Brunswick, Mecklenburg, Halifax,
and Greensville Counties, Virginia;

8a
• Valve site masking/deodorization at Compressor
Station 167 in Mecklenburg County, Virginia;
and
• Related appurtenant underground and aboveground facilities.
4. Transco states that the proposed project will
enable it to provide 448,000 Dth per day of incremental firm transportation service from a receipt point in
Zone 6 on its mainline in Mercer County, New Jersey,
for delivery to an interconnection with Gulf South
Pipeline Company, LP in Pike County, Mississippi,
and to interconnections in northwest Georgia through
the proposed Dalton Lateral.
5. Transco held an open season from May 30
through June 28, 2012. As a result of the open season,
Transco executed binding precedent agreements with
Atlanta Gas Light Company (Atlanta Gas Light or
AGL) and Oglethorpe Power Corporation (Oglethorpe)
for 240,000 and 208,000 Dth per day of firm transportation service, respectively, for 25 years. This
represents all of the capacity associated with the
proposed Dalton Expansion Project.
6. The project’s estimated cost is approximately
$471.9 million. Transco states that it will undertake
permanent financing at a later date as part of its
overall, long-term financing program. Transco has proposed an incremental recourse reservation rate for
firm transportation service on the project facilities,
as described in more detail below. Atlanta Gas Light
and Oglethorpe have agreed to pay a negotiated rate.
Transco will provide service under the terms and
conditions of its existing Rate Schedule FT.

9a
B. Lease of Facilities
7. Transco and Dogwood Enterprise Holdings, Inc.
(Dogwood) will jointly own the Dalton Lateral, as
tenants in common, with each holding a 50 percent
undivided ownership interest.3 Dogwood will hold its
50 percent ownership interest as a “passive owner” of
the lateral. On the in-service date of the Dalton
Lateral, Dogwood will lease its ownership interest in
the lateral, including its share of the capacity rights,
to Transco, which will have full possessory, operational, and capacity rights.
8. The lease agreement provides that Dogwood and
Transco will jointly fund the cost to construct the
Dalton Lateral facilities in proportion to their respective ownership interests. Transco is the sole applicant
for the NGA section 7(c) certificate to construct and
operate the Dalton Lateral, as Dogwood is not currently an NGA jurisdictional entity and does not
intend to become one as part of the Dalton Lateral
ownership structure.
II. Notice, Interventions, and Procedural Issues
9. Notice of Transco’s application was published in
the Federal Register on April 10, 2015 (80 Fed. Reg.
19,312). The parties listed in Appendix A filed timely,
unopposed motions to intervene.4
10. The parties listed in Appendix B filed late
motions to intervene. We will grant the late-filed
motions to intervene, since to do so at this stage of the
3

Dogwood is an affiliate of AGL Resources, the parent
company of Atlanta Gas Light.
4

Timely, unopposed motions to intervene are granted by
operation of Rule 214 of the Commission’s Rules of Practice and
Procedure. See 18 C.F.R. § 385.214 (2015).

10a
proceeding will not delay, disrupt, or unfairly prejudice the proceeding or other parties.5
11. The North Carolina Utilities Commission and
the New York State Public Service Commission (State
Commissions) filed a joint protest to Transco’s application. Transco filed an answer to the State Commissions’
protest and the State Commissions filed an answer to
Transco’s answer. Although the Commission’s Rules of
Practice and Procedure do not permit answers to
protests or answers to answers, the Commission finds
good cause to waive its rules and accept the answers
because they provide information that has assisted in
our decision making process.6
12. The Bartow County School System and Bartow
County Board of Education (Bartow), the 1460
Partnership, LLLP (1460 Partnership), and the
State Commissions request an evidentiary hearing.
Specifically, Bartow seeks a hearing on issues regarding the route of the Dalton Lateral, claiming that the
pipeline is proposed to be located at an unsafe distance
from two elementary schools and that the pipeline’s
proposed location will interfere with its ability to
expand the schools on land that it specifically acquired
for that purpose. The 1460 Partnership seeks a
hearing on the route of the lateral across the Pole Cat
Creek Farms, over which it has a fee simple property
interest.7 The State Commissions seek a hearing on
(1) Transco’s use of a 15.34 percent pre-tax rate of
5

See 18 C.F.R. § 385.214(c)(2) (2015).

6

Id. § 385.213(a)(2).

7

The Pole Cat Creek Farms is an undeveloped tract of land,
consisting of 360 acres of forest wetland, freshwater lake, and
field meadow. The 1460 Partnership states that the tract is home
to more than 50 types of plants and 150 types of animals.

11a
return in developing its proposed recourse rates and
(2) whether the project is being subsidized by prior
expansions that created southbound capacity on Transco’s
mainline. The State Commissions also request that we
partially consolidate this proceeding with Transco’s
proposals to construct and operate the Virginia
Southside Expansion Project II8 and the Atlantic
Sunrise Project9 in order to address issues about
Transco’s pre-tax rate of return.
13. Although our regulations provide for a hearing,
neither section 7 of the NGA nor our regulations
require that such hearing be a trial-type evidentiary
hearing.10 When, as is usually the case, the written
record provides a sufficient basis for resolving the
relevant issues, it is our practice to provide for a paper
hearing.11 That is the case here. We have reviewed the
8

In the Virginia Southside Expansion Project II, Transco was
authorized to construct and operate approximately 4.33 miles of
pipeline and compression facilities. See Transcontinental Gas
Pipeline Co., LLC, 156 FERC ¶ 61,022 (2016).
9

In the Atlantic Sunrise Project, Docket No. CP15-138-000,
Transco proposes to construct and operate approximately 57.3
miles of 30-inch-diameter pipeline and 125.2 miles of 42-inchdiameter pipeline in Pennsylvania.
10

See Minisink Residents for Environmental Preservation
and Safety v. FERC, 762 F.3d 97, 114 (D.C. Cir. 2014) (“FERC’s
choice whether to hold an evidentiary hearing is generally
discretionary.”).
11

See NE Hub Partners, L.P., 83 FERC ¶ 61,043, at 61,192
(1998), reh’g denied, 90 FERC ¶ 61,142 (2000); Pine Needle LNG
Co., LLC, 77 FERC ¶ 61,229, at 61,916 (1996). Moreover, courts
have recognized that even where there are disputed issues the
Commission need not conduct an evidentiary hearing if the
disputed issues “may be adequately resolved on the written
record.” Minisink Residents, 762 F.3d at 114 (quoting Cajun Elec.
Power Coop., Inc. v. FERC, 28 F.3d 173, 177 (D.C. Cir. 1994)).

12a
requests for an evidentiary hearing by Bartow, the
1460 Partnership, and the State Commissions and
conclude that all issues of material fact relating to
Transco’s proposal are capable of being resolved on the
basis of the written record. Accordingly, we will deny
the requests for a formal hearing. As to the State
Commissions’ request for partial consolidation, the
Commission’s policy is to consolidate matters only if a
trial-type evidentiary hearing is required to resolve
common issues of law and fact and consolidation will
ultimately result in greater administrative efficiency.12
Since there is no need for an evidentiary hearing in
this proceeding, we will deny the State Commissions’
request for partial consolidation.
14. The Natural Gas Supply Association, Atlanta
Gas Light, and Oglethorpe filed comments supporting
the project. Numerous other parties filed comments
regarding the routing of the Dalton Lateral, safety,
sufficiency of information, and potential aesthetic,
economic, and environmental impacts of the proposal.
The concerns raised in the State Commissions’ protest
and in the comments by the other parties are addressed
below or in the Environmental Assessment (EA).
III. Discussion
15. Since Transco proposes to construct and operate
facilities used to transport natural gas in interstate
commerce subject to the jurisdiction of the Commission,

12

See Columbia Gulf Transmission Co., 139 FERC ¶ 61,236, at
P 20 (2012); Midcontinent Express Pipeline LLC, 124 FERC
¶ 61,089, at P 27 (2008); Startrans IO, L.L.C., 122 FERC ¶ 61,253,
at P 25 (2008); see also Mobil Oil Explor. & Prod. Serv. v. United
Distrib. Cos., 498 U.S. 211, 230-31 (1991) (agencies “enjoy[] broad
discretion” in determining how best to order its proceedings).

13a
the proposal is subject to the requirements of subsections (c) and (e) of section 7 of the NGA.13
A. Certificate Policy Statement
16. The Certificate Policy Statement provides guidance for evaluating proposals for new construction.14
The Certificate Policy Statement establishes criteria
for determining whether there is a need for a proposed
project and whether the proposed project will serve
the public interest. The Certificate Policy Statement
explains that in deciding whether to authorize the
construction of major new natural gas facilities, the
Commission balances the public benefits against the
potential adverse consequences. The Commission’s
goal is to give appropriate consideration to the enhancement of competitive transportation alternatives, the
possibility of overbuilding, subsidization by existing
customers, the applicant’s responsibility for unsubscribed capacity, the avoidance of unnecessary disruptions of the environment, and the unneeded exercise of
eminent domain in evaluating new pipeline construction.
17. Under this policy, the threshold requirement for
pipelines proposing new projects is that the pipeline
must be prepared to financially support the project
without relying on subsidization from existing customers. The next step is to determine whether the
applicant has made efforts to eliminate or minimize
any adverse effects the project might have on the
applicant’s existing customers, existing pipelines in
13
14

15 U.S.C. §§ 717f(c) and (e) (2012).

Certification of New Interstate Natural Gas Pipeline Facilities, 88 FERC ¶ 61,227 (1999), clarified, 90 FERC ¶ 61,128,
further clarified, 92 FERC ¶ 61,094 (2000) (Certificate Policy
Statement).

14a
the market and their captive customers, or landowners and communities affected by the construction. If
residual adverse effects on these interest groups are
identified after efforts have been made to minimize
them, the Commission will evaluate the project by
balancing the evidence of public benefits to be
achieved against the residual adverse effects. This is
essentially an economic test. Only when the benefits
outweigh the adverse effects on economic interests will
the Commission proceed to complete the environmental analysis where other interests are considered.
18. As discussed above, the threshold requirement
for a new project is that the applicant must be
prepared to financially support the project without
relying on subsidization from its existing customers.
The Commission has determined that, in general,
where a pipeline proposes an incremental recourse
rate for the project – as Transco does here – the
pipeline satisfies the threshold requirement that the
project will not be subsidized by existing shippers.15
Because Transco proposes to charge an incremental
rate for the services proposed in this proceeding that,
as discussed below, exceeds the existing applicable
system rate, we find that the threshold no-subsidy
requirement under the Certificate Policy Statement
has been met.
19. The State Commissions assert that Transco has
not addressed the possibility that the proposed project
will be subsidized by shippers on Transco’s recentlyapproved Leidy Southeast Project in Pennsylvania,
which has a higher recourse rate than the incremental
recourse rate proposed for this project. The bulk of the
15

See, e.g., Dominion Transmission, Inc., 155 FERC ¶ 61,106
(2016).

15a
Leidy Southeast facilities are upstream of the proposed Dalton facilities and transport gas from receipt
points on Transco’s Leidy Line to Transco’s mainline.
We find that the Leidy Southeast facilities are not
integral to the provision of the proposed Dalton
Expansion Project services. The two projects’ transportation paths and facilities are too dissimilar for
subsidization to be a concern. Thus we find that
existing Leidy Southeast Project shippers will not
subsidize the Dalton Expansion Project shippers.
20. Transco has designed the Dalton Expansion
Project to ensure that there will not be any adverse
impacts on its existing shippers. With respect to other
pipeline’s customers, there will be no adverse impact
on other pipelines in the region or their captive
customers because the Project is not intended to
replace service on other pipelines. Also, no pipeline
company or their captive customers have protested
Transco’s application.
21. Regarding effects on landowners and communities, the proposed Dalton Expansion Project will disturb approximately 1,764 acres of land during construction and about 746.3 acres during operation.
To minimize impacts on landowners, Transco will
collocate approximately 49 percent of the proposed
pipeline facilities with existing rights-of-way and on
previously disturbed property. The modifications to
existing compressor stations will take place within the
fence lines of those existing facilities. Accordingly, we
find that Transco has designed the project to minimize
adverse impacts on landowners and surrounding
communities.
22. Transco has entered into binding precedent
agreements for 25 years with Atlanta Gas Light and
Oglethorpe, which fully subscribe the project. Based

16a
on the benefits the project will provide16 and the
minimal adverse impacts on existing shippers, other
pipelines and their captive customers, and landowners
and surrounding communities, we find, consistent
with the Certificate Policy Statement and NGA section
7(c), that the public convenience and necessity
requires approval of Transco’s proposal, subject to the
conditions discussed below.
B. Rates
1. Pre-tax Rate of Return
23. In their protest, the State Commissions take
issue with Transco’s proposed use of a pre-tax return
of 15.34 percent in calculating its proposed incremental recourse rates in its applications for its Dalton
Expansion Project proposal in this proceeding, as
well as in its recently approved Virginia Southside
Expansion II Project in Docket No. CP15-118-000, and
its proposed Atlantic Sunrise Project in Docket No.
CP15-138-000. The State Commissions acknowledge
that Transco’s use of the specified pre-tax return most
recently approved in a section 4 rate case is consistent
with Commission policy, but they emphasize that
that rate case was fifteen years ago. They argue the
incremental recourse rates approved in the current
proceedings should take into account the significant
changes in financial markets since then.17 The State
16

The shippers state that Commission approval of Transco’s
application will provide more diversified natural gas supply
options (Oglethorpe intervention at 2 and comments in support
of the EA at 2) and enable Atlanta Gas Light to meet growing
customer demands in Georgia (Atlanta Gas Light intervention at
2 and June 10, 2016 support letter at 2).
17

Transco’s last section 4 rate case in which a specified rate of
return was used in calculating Commission-approved rates was
in Docket No. RP01-245-000, et al. A letter order issued in that

17a
Commissions assert that the pre-tax return of 15.34
percent accounts for approximately half of Transco’s
proposed cost of service in these proceedings,18 and
their comments included a discounted cash flow (DCF)
analysis, which they contend reflects current market
conditions and reflects a median rate of return on
equity (ROE) of 10.95 percent for natural gas pipelines.19 They request partial consolidation of these
proceedings to consider the appropriate pre-tax return
in a full evidentiary hearing.
24. As the State Commissions argued in the recent
proceeding regarding Transco’s Virginia Southside
Expansion II Project,20 recent Commission orders
provide valuable perspective indicating that Transco’s
proposed 15.34 percent pre-tax return is not reasonable. They reference the 2015 order where the Commission relied on a DCF analysis for a proxy group of
pipelines based on a six-month period ending March
31, 2011, to limit Portland Natural Gas Transmission
System’s ROE to 11.59 percent, the top of the range of
reasonable returns for which the median ROE was
10.28 percent.21 The State Commissions also point to
docket on July 23, 2002, accepted a partial settlement resolving
cost classification, cost allocation, and rate design subject to
certain reservations and adjustments, and revising Transco’s
generally applicable rates. Transcontinental Gas Pipe Line Corp.,
100 FERC ¶ 61,085, at P 2 (2002).
18

State Commissions’ April 22, 2015 Protest in Docket No.
CP15-117-000, et al.
19

Preliminary Pipeline DCF Analysis Exhibit to State Commissions’ Protest.
20

Transcontinental Gas Pipeline Co., LLC, 156 FERC ¶ 61,022,
at PP 23-26 (2016).
21

Portland Natural Gas Transmission System, Opinion No.
524-A, 150 FERC ¶ 61,107, at P 195 (2015).

18a
the Commission’s 2013 orders that limited the ROEs
for El Paso Natural Gas Company, L.L.C. and Kern
River Gas Transmission Company to 10.5 percent and
11.55 percent, respectively.22
25. Transco’s answer emphasizes that this proceeding and the proceedings on its proposed Virginia
Southside Expansion II and Atlantic Sunrise projects
are section 7 certificate proceedings, not section 4 rate
cases, and that its proposed recourse rates in these
certificate proceedings will be initial section 7 rates for
incremental services using new expansion capacity.
Transco further asserts its proposed initial section 7
recourse rates are consistent with Commission policy
in section 7 proceedings, in that they are appropriately
designed to recover each project’s incremental cost of
service.23 In the State Commissions’ answer to Transco’s
answer, they contend that when the Commission grants
a pipeline negotiated rate authority, it relies on the
availability of cost-based recourse rates to prevent the
pipeline from exercising market power by ensuring
that shippers will have the option of choosing to pay
cost-based recourse rates for expansion capacity that
becomes available on either an interruptible or firm

22

El Paso Natural Gas Co., L.L.C., Opinion No. 528, 145
FERC ¶ 61,040, at P 686 (2013); Kern River Gas Transmission
Co., Opinion No. 486-F, 142 FERC ¶ 61,132, at P 263 (2013).
23

Transco cites the Commission’s order that certificated its
Rock Springs Lateral and additional mainline compression to
provide service for another new electric generating plant. In that
order, the Commission approved Transco’s proposed incremental
recourse rate for that expansion capacity, which was calculated
using the pre-tax return of 15.34 percent from its settlement
rates in Docket No. RP01-245. Transcontinental Gas Pipe Line
Co., LLC, 150 FERC ¶ 61,205, at P 17 (2015).

19a
basis. Therefore, the State Commissions assert that
even if a pipeline has negotiated rate agreements for
all of the expansion capacity proposed in a certificate
proceeding, the recourse rates nevertheless need to be
properly designed and based on a reasonable estimate
of the actual costs to construct and operate the
expansion capacity.
24

26. The State Commissions are correct that “the
predicate for permitting a pipeline to charge a negotiated rate is that capacity is available at the recourse
rate,”25 and the Commission therefore requires that
shippers have the option of choosing to pay a costbased recourse rate for expansion capacity that
becomes available. However, as the State Commissions acknowledge, the Commission’s consistent policy
in section 7 certificate proceedings is to require that a
pipeline’s cost-based recourse rates for incrementallypriced expansion capacity be designed using the rate
of return from its most recent general rate case
approved by the Commission under section 4 of the
NGA in which a specified rate of return was used to
calculate the rates.26 Transco’s proposed incremental
24

State Commissions’ May 27, 2015 Answer at 2 (citing
Alternatives to Traditional Cost-of-Service Ratemaking, 74 FERC
¶ 61,076).
25

Columbia Gas Transmission Corp., 97 FERC ¶ 61,221, at
62,004 (2001) (citing Alternatives to Traditional Cost-of-Service
Ratemaking for Natural Gas Pipelines; Regulation of Negotiated
Transportation Services of Natural Gas Pipelines, 74 FERC
¶ 61,076).
26

See, e.g., Trunkline Gas Co., LLC, 135 FERC ¶ 61,019, at
P 33 (2011); Florida Gas Transmission Co., LLC, 132 FERC
¶ 61,040, at P 35 & n.12 (2010); Northwest Pipeline Corp., 98
FERC ¶ 61,352, at 62,499 (2002); and Mojave Pipeline Co., 69
FERC ¶ 61,244, at 61,925 (1994). See also Dominion Cove Point
LNG, LP, 115 FERC ¶ 61,337, at P 132 (2006), order on reh’g, 118

20a
recourse rate for the Dalton Expansion Project is
based on the specified pre-tax return of 15.34 percent
underlying the design of its approved settlement rates
in Docket No. RP01-245-000, et al.27 Since Transco’s
most recently approved general section 4 rate case
settlements in Docket Nos. RP12-993-000, et al.28 and
RP06-569-004, et al.29 were both “black box” settle-

FERC ¶ 61,007, at PP 120 & 122-123 (2007) (allowing, on
rehearing, Dominion Cove Point LNG to recalculate incremental
rates using the rates of return ultimately approved in its pending
rate case, as opposed to its proposed rates of return). If a
pipeline’s most recent general section 4 rate case involved a
settlement that did not specify a rate of return or pre-tax return,
the Commission’s policy requires that incremental rates in the
pipeline’s certificate proceedings be calculated using the rate of
return or pre-tax return from its most recent general section 4
rate case (or rate case settlement) in which a specified return
component was used to calculate the approved rates. See, e.g.,
Equitrans, L.P., 117 FERC ¶ 61,184, at P 38 (2006). This policy
applies even if a pipeline calculated its proposed incremental
rates for expansion capacity using a rate of return lower than the
most recently approved specified rate of return. Id. (rejecting
Equitrans’ proposed use of 14.25 percent ROE component for
incremental rates for mainline extension and requiring
recalculation using the specified pre-tax rate of return of 15
percent that was approved in its rate case).
27

Transcontinental Gas Pipe Line Corp., 100 FERC ¶ 61,085.

28

Transcontinental Gas Pipe Line Co., LLC, 144 FERC
¶ 63,029, at P 13 (2013) (certifying to the Commission an
uncontested settlement in which, “[w]ith the exception of certain
expressly designated items, the cost of service agreement was
reached on a ‘black box’ basis”); Transcontinental Gas Pipeline
Co., LLC, 145 FERC ¶ 61,205 (2013) (approving and accepting
tariff records to implement rate case settlement).
29

Transcontinental Gas Pipe Line Corp., 122 FERC ¶ 61,213
(2008) (approving and accepting tariff records to implement rate
case settlement); Transcontinental Gas Pipe Line Co., LLC, 147
FERC ¶ 61,102, at P 53 (2014) (explaining that the settlement

21a
ments that did not specify the rate of return or most
other cost of service components used to calculate
the settlement rates, Transco calculated its proposed
incremental rates in this certificate proceeding consistent with Commission policy by using the last
Commission-approved specified pre-tax return of
15.34 percent from its prior rate proceeding in Docket
No. RP01-245.
27. Further, in section 7 certificate proceedings the
Commission reviews initial rates for service using
proposed new pipeline capacity under the public convenience and necessity standard, which is a less
rigorous standard than the just and reasonable standard under NGA sections 4 and 5.30 The Commission
reached in Docket No. RP06-569 was a “black box” settlement
that did not specify a rate of return).
30

Atlantic Refining Co. v. Public Serv. Comm’n of New York,
360 U.S. 378 (1959) (CATCO). In CATCO, the Court contrasted
the Commission’s authority under sections 4 and 5 of the NGA to
approve changes to existing rates using existing facilities and its
authority under section 7 to approve initial rates for new services
and services using new facilities. The Court recognized “the
inordinate delay” that can be associated with a full-evidentiary
rate proceeding and concluded that was the reason why, unlike
sections 4 and 5, section 7 does not require the Commission to
make a determination that an applicant’s proposed initial rates
are or will be just and reasonable before the Commission
certificates new facilities, expansion capacity, and/or services. Id.
at 390. The Court stressed that in deciding under section 7(c)
whether proposed new facilities or services are required by the
public convenience and necessity, the Commission is required to
“evaluate all factors bearing on the public interest,” and an
applicant’s proposed initial rates are not “the only factor bearing
on the public convenience and necessity.” Id. at 391. Thus, as
explained by the Court, “[t]he Congress, in § 7(e), has authorized
the Commission to condition certificates in such manner as
the public convenience and necessity may require when the
Commission exercises authority under section 7,” id., and the

22a
develops the recourse rate for expansion capacity
based on the pipeline’s estimated cost of service. As
discussed above, the State Commissions’ protest
included a DCF analysis for natural gas pipelines,
which they contend reflects current market conditions
and a median ROE of 10.95 percent. However, the
Commission does not believe that conducting DCF
analysis in individual certificate proceedings would be
the most effective or efficient way for determining the
appropriate ROEs for proposed pipeline expansions.
While parties have the opportunity in section 4 rate
proceedings to file and examine testimony with regard
to the composition of the proxy group to use in the DCF
analysis, the growth rates used in the analysis, and
the pipeline’s position within the zone of reasonableness with regard to risk, it would be difficult, if
not impossible, to complete this type of analysis in
section 7 certificate proceedings in a timely manner
and attempting to do so would unnecessarily delay
proposed projects with time sensitive in-service schedules. The Commission’s current policy of calculating
incremental rates for expansion capacity using the
Commission-approved ROEs underling pipelines’ existing rates is an appropriate exercise of its discretion
in section 7 certificate proceedings to approve initial
rates that will “hold the line” until just and reasonable
rates are adjudicated under section 4 or 5 of the NGA.
28. Here, Transco is required to file an NGA general
section 4 rate case by August 31, 2018, pursuant to the
comeback provision in Article 6 of the settlement in
Commission therefore has the discretion in section 7 certificate
proceedings to approve initial rates that will “hold the line” and
“ensure that the consuming public may be protected” while
awaiting adjudication of just and reasonable rates under the
more time-consuming ratemaking sections of the NGA. Id. at 392.

23a
Docket No. RP12-993. Parties in that future rate case
will have an opportunity to review Transco’s pre-tax
return and other cost of service components. In
addition, given the possibility that that rate case could
result in another settlement for rates that are not
based on a specified rate of return and, as discussed
above, the Commission’s policy in section 7 certificate
proceedings is to require that a pipeline’s initial
rates for expansion capacity be designed using a
Commission-approved, specified rate of return, the
Commission would advise that parties in the rate case
use that opportunity to address issues of concern
relating to the rate of return that should be used in
calculating initial rates in Transco’s future certificate
proceedings.32
31

29. For the reasons discussed above, and consistent
with the rate of return accepted for the Virginia
Southside Expansion II Project,33 the Commission
finds that it is appropriate to apply its general policy
and accepts Transco’s use of a pre-tax return of 15.34
percent to calculate Transco’s initial recourse rate in
this proceeding. Parties should raise, in Transco’s
upcoming general rate case, any issues and concerns
they have regarding the rate of return or other cost of
service components to be used in calculating Transco’s
recourse rates in subsequent certificate proceedings.

31

Transcontinental Gas Pipe Line Co., LLC, 144 FERC
¶ 63,029.
32

See, e.g., Eastern Shore Natural Gas Co., 138 FERC ¶ 61,050
(2012) (approving settlement that established rates on “black
box” basis but provided a specified pre-tax rate of return).
33

Transcontinental Gas Pipeline Co., 156 FERC ¶ 61,022 at
P 26.

24a
2. Initial Rates
30. Transco proposes an initial incremental recourse
reservation charge of $0.50580 per Dth/day under its
existing Rate Schedule FT for service on the project.
In support of the proposed initial rates, Transco submitted an incremental cost of service and rate design
study showing the derivation of the recourse rate
under the project based on a total first year cost of
service of $82,708,551 and billing determinants of
448,000 Dth/day.34 The proposed cost of service is
based on a pre-tax rate of return of 15.34 percent, and
Transco’s system depreciation rates of 2.61 percent
for onshore transmission facilities, including negative
salvage, and 4.97 percent for solar turbines.35 The
proposed cost of service also includes the lease payments to Dogwood at an annualized amount equal to
approximately $25,691,000.
31. On October 29, 2015, the Commission issued a
data request directing Transco to provide a breakdown
of its Operation and Maintenance (O&M) expenses by
FERC account number and labor and non-labor costs
for the project. In response, Transco identified a total
of $357,883 in non-labor O&M costs in Account Nos.
853 and 864.36 These non-labor costs are classified as
variable costs, and section 284.7(e) of the Commission’s regulations does not allow variable costs to be
recovered through the reservation charge.37 Therefore,
34

See Transco’s Application at Exhibit P.

35

See Transcontinental Gas Pipe Line Co., LLC, 145 FERC
¶ 61,205, which established the current system depreciation rate
and the current negative salvage rate.
36

Transco’s November 2, 2015 Data Response, Response No. 1
and Schedule 1.
37

18 C.F.R. § 284.7(e) (2015).

25a
Transco must recalculate its incremental recourse
reservation rate to reflect the removal of variable costs.
32. Transco’s proposed incremental reservation charge
of $0.50590 per Dth/day is higher than the currently
applicable Rate Schedule FT Zone 6-4 reservation
charge of $0.41704 per Dth/day. We do not expect
that recalculation of the proposed rate to remove the
variable costs identified above will result in an incremental rate that is lower than the existing system
rate. Accordingly, because an appropriately calculated
incremental reservation charge will be higher than the
currently applicable Rate Schedule FT reservation
charge, the Commission will require use of the recalculated incremental reservation charge as the initial
recourse reservation charge for firm service using the
expansion capacity.38
33. Transco did not propose an incremental usage
charge since its initial filing included no variable costs.
An incremental usage charge calculated to recover
the $357,883 in variable costs would be lower than
the currently applicable Rate Schedule FT Zone 6-4
usage charge of $0.02375 per Dth. Therefore, the
Commission will require Transco to charge its currently applicable Rate Schedule FT usage charge for
the project.
34. Transco’s application does not address recourse
rates for interruptible service using the expansion
capacity. Consistent with Commission policy, the Commission will require Transco to charge its currently
38

Under the Certificate Policy Statement there is a presumption that incremental rates should be charged for proposed
expansion capacity if the incremental rate will exceed the
maximum system-wide rate. Certificate Policy Statement, 88
FERC at 61,745.

26a
effective system interruptible rates for interruptible
service using the expansion capacity.39
35. Transco states that Atlanta Gas Light Company
and Oglethorpe have elected to enter into negotiated
rate agreements for their capacity. Transco states that
it will file the negotiated rate agreements prior to the
commencement of service as required by Commission
policy.40
3. Fuel Retention and Electric Power Rates
36. Transco proposes to charge its generally applicable system fuel retention and electric power rates for
service on the project. Transco states that the project
facilities will reduce overall system fuel use (gas fuel
consumption plus the gas equivalent of electric power
consumption) to the benefit of non-project shippers.41
Transco’s fuel study shows that the project impact
of fuel consumption will result in a 30.53 percent
reduction in system fuel use attributable to existing
shippers.42 In view of this, we will approve Transco’s
proposal to charge its generally applicable system gas

39

See, e.g., Trunkline Gas Co., LLC, 153 FERC ¶ 61,300, at
P 62 (2015).
40

Pipelines are required to file any service agreement containing non-conforming provisions and to disclose and identify any
transportation term or agreement in a precedent agreement that
survives the execution of the service agreement. See, e.g., Texas
Eastern Transmission, LP, 149 FERC ¶ 61,198, at P 33 (2014).
41
42

See Transco’s Application at 11, Exhibit Z-1.

Transco’s study was based on ten representative days
between November 1, 2013 and October 31, 2014. Transco states
that the system was modeled with and without the incremental
project facilities and transportation volumes. See Transco’s
Application at Exhibit Z-1.

27a
fuel and electric power rates for service using the
expansion capacity.
4. Inexpensive Expansibility
37. The State Commissions assert that Transco’s
application appears to be deficient because it fails to
address the issue of inexpensive expansibility (i.e.,
whether it was possible to construct the Dalton Expansion Project at a lower cost because of the previous
construction of the Leidy Southeast Project). The State
Commissions claim that the Dalton Expansion Project
allows shippers to transport gas on Transco’s mainline
from New Jersey to Mississippi, but not pay for any
major facilities north of Georgia, which they contend
raises the question of whether this project will be
subsidized by shippers on prior expansions that created southbound capacity on Transco’s mainline. The
State Commissions note that the proposed $0.50580
recourse rate for the Dalton Expansion Project is
significantly lower than the estimated recourse rate of
$0.67393 for Leidy Southeast Project, which will
enable shippers to transport gas from receipt points
on Transco’s Leidy Line in Pennsylvania to various
delivery points along Transco’s mainline as far south
as Transco’s existing Station 85 Zone 4 and 4A pooling
points in Choctaw County, Alabama. Thus, the State
Commissions argue the new Dalton Expansion Project
will allow shippers to transport gas further south on
Transco’s mainline at a lower recourse rate than the
Leidy Southeast Project shippers.
38. Transco states that the inexpensive expansibility doctrine has no application to the Dalton and Leidy
Southeast Projects. Transco states that the Leidy
Southeast Project involves construction of extensive
looping and compression on Transco’s Leidy Line. In
contrast, the Dalton Expansion Project principally

28a
involves the construction of a new, 111-mile lateral
off the Transco mainline in Georgia. Transco states
that the bulk of the Leidy Southeast Project costs are
for facilities upstream of the point where the Dalton
capacity commences, and include pipeline looping
and compressor station horsepower additions on the
Leidy Line necessary to transport gas from the Leidy
Southeast receipt points on the Leidy Line to the
point of interconnection between the Leidy Line and
Transco’s mainline. Thus, Transco asserts that the
Leidy Southeast Project facilities do not beneficially
affect the facility costs underlying the Dalton Expansion
Project. Transco concludes that the primary firm capacity
paths and facilities under the two projects are too dissimilar to consider a roll-in of the costs of the projects.
39. The Commission disagrees with the State
Commissions that the Dalton Expansion Project is a
result of inexpensive expansibility made possible by
the Leidy Southeast Project. As Transco correctly
stated, the bulk of the Leidy Southeast Project are
facilities upstream of the point where the Dalton
capacity commences and were constructed to enable
delivery of gas from Transco’s Leidy Line to Transco’s
mainline. Conversely, the Dalton Expansion Project
transports gas from Transco’s Station 210 Zone 6
Pooling Point in Mercer County, New Jersey, and
transportation of the volumes entering this pool are
not dependent on the Leidy Southeast Project being
constructed. Due to the nature of pipeline construction, service on almost all incremental expansions use
some part of the existing pipeline system to provide
service, since expansion volumes can often be delivered by constructing discrete facilities in key areas to
alleviate bottlenecks or increasing throughput by
adding looping or compression. Thus, as we have here,
the Commission addresses concerns about potential

29a
subsidization by comparing the rate calculated to
recover the costs associated with the proposed expansion capacity to the applicable existing system rate for
the project service and requiring pipelines to use the
higher of the two as the recourse rate for project
service. Given the lack of interdependence between
the Dalton Expansion Project and the Leidy Southeast
Project, there is no basis for basing our subsidization
determination on a comparison, instead, of the rates of
the two expansion projects, as suggested by the State
Commissions.
5. Reporting Incremental Costs
40. Section 154.309 of the Commission’s regulations43
includes bookkeeping and accounting requirements
applicable to all expansions for which incremental
rates are approved to ensure that costs are properly
allocated between pipelines’ existing shippers and
incremental expansion shippers. Therefore, Transco
must keep separate books and accounting of costs and
revenues attributable to Dalton Lateral capacity and
incremental services using that capacity as required
by section 154.309. The books should be maintained
with applicable cross-references. This information
must be in sufficient detail so that the data can be
identified in Statements G, I, and J in any future NGA
section 4 or 5 rate case, and the information must be
provided consistent with Order No. 710.44

43
44

18 C.F.R. § 154.309 (2015).

Revisions to Forms, Statements, and Reporting Requirements
for Natural Gas Pipelines, Order No. 710, FERC Stats. & Regs.
¶ 31,267, at P 23 (2008).

30a
6. Lease Agreement
41. The Dalton Lateral will be jointly owned and
jointly funded by Transco and Dogwood, with each
party holding a 50 percent undivided joint ownership
interest. Dogwood will hold its 50 percent ownership
interest as a “passive owner” of the Lateral. On the inservice date of the project, Dogwood will lease its 50
percent ownership interest to Transco for a primary
term of 25 years. Transco asserts that during the lease
term it will have full possessory and operational rights
to the lateral and will have 100 percent of the capacity
rights on the lateral.
42. The Construction and Ownership Agreement
provides that Dogwood and Transco will jointly fund
the cost to construct the Dalton Lateral facilities in
proportion to their respective ownership interests.
Because Dogwood will be a passive owner, Transco
asserts that the Commission should find that Dogwood
does not require a certificate in connection with the
project. Accordingly, Transco requests that the certificate authority requested herein be granted solely to
Transco and pertain to 100 percent of the Dalton
Lateral facilities.
43. Transco asserts that it will utilize the capacity
rights under the lease, in conjunction with the
capacity to be created by the other project facilities, to
provide transportation services under its Tariff.
Transco further asserts that during the proposed
lease, all operating and maintenance expenses will be
Transco’s responsibility. Transco states that the Lease
Agreement includes a mechanism for Transco and
Dogwood to share maintenance capital expenditures
incurred by Transco to repair or replace the Dalton
Lateral facilities.

31a
44. The Lease Agreement provides for a primary
term of 25 years and may be extended, at Transco’s
option, for two successive five-year terms. Subject to
Transco’s right to extend the term of the Lease
Agreement, the Lease Agreement will continue in
effect for successive one-year extensions until prior
written notice to terminate is provided by Transco to
Dogwood. Transco asserts that at the termination of
the Lease Agreement, possessory and operational
rights to the leased facilities will revert to Dogwood,
subject to the receipt of the necessary authorizations
from the Commission.
45. The Lease Agreement provides that Transco
will pay to Dogwood a fixed monthly payment of
$2,140,916.70 for the 25-year primary term. The
monthly lease charge during each term extension will
be determined in accordance with a formula detailed
in Exhibit A of the Lease Agreement, reflecting an
adjusted annual cost of service for the Dalton Lateral
and a monthly unsubscribed capacity sharing factor,
if any. In addition, Transco will pay Dogwood a
maintenance capital surcharge in the form of a
monthly cost of service payment based on the amount
of maintenance capital expenditures, if any, reimbursed by Dogwood to Transco. Transco asserts that
its annual lease payments to Dogwood under the
Lease Agreement are less than the equivalent cost of
service that would apply if Transco directly owned 100
percent of the Dalton Lateral facilities (i.e., if Transco
constructed Dogwood’s 50 percent ownership share of
the Dalton Lateral instead of leasing Dogwood’s 50
percent ownership share).
46. Consistent with Commission regulations, Transco
proposes to record the lease as a capital lease in
Account 101.1, Property under Capital Leases, and the

32a
related obligation in Account 243, Obligations under
Capital Leases – Current, and Account 227, Obligations under Capital Leases – Noncurrent. Transco
contends that the lease qualifies as a capital lease
because the present value at the beginning of the lease
term of the minimum lease payments exceeds 90
percent of the fair value of the leased property to the
lessor at the inception of the lease. Transco states that
the costs and revenues associated with the project’s
leased facilities will be accounted for separately and
segregated from its other system costs.
47. Historically, the Commission views lease arrangements differently from transportation services under
rate contracts. The Commission views a lease of
interstate pipeline capacity as an acquisition of a
property interest that the lessee acquires in the
capacity of the lessor’s pipeline.45 To enter into a lease
agreement, the lessee generally is required to be a
natural gas company under the NGA and requires
section 7(c) certificate authorization to acquire the
capacity. Once acquired, the lessee in essence owns
that capacity and the capacity is subject to the lessee’s
tariff. The leased capacity is allocated for use by the
lessee’s customers. The lessor, while it may remain the
operator of the pipeline system, no longer has any
rights to use the leased capacity.46
48. The Commission’s practice has been to approve
a lease if it finds that: (1) there are benefits from using
a lease arrangement; (2) the lease payments are less
than, or equal to, the lessor’s firm transportation rates
45

Texas Eastern Transmission Corp., 94 FERC ¶ 61,139, at
61,530 (2001).
46

Texas Gas Transmission, LLC, 113 FERC ¶ 61,185, at P 10
(2005).

33a
for comparable service over the terms of the lease on a
net present value basis; and (3) the lease arrangement
does not adversely affect existing customers.47 We find
that the proposed lease agreement between Transco
and Dogwood satisfies these requirements.48
49. The Commission has found that capacity leases
in general have several potential benefits. Leases
can promote efficient use of existing facilities, avoid
construction of duplicative facilities, reduce the risk of
overbuilding, reduce costs, and minimize environmental impacts.49 In addition, leases can result in
administrative efficiencies for shippers.50
50. The annual amount Transco would pay Dogwood
under the lease is less than what it would cost if
Transco constructed and owned the facilities being
leased from Dogwood; thus, shippers will benefit from
the lease arrangement. During the 25 year primary
term of the Lease Agreement, Transco will pay
47

Midcontinent Express Pipeline LLC, 124 FERC ¶ 61,089
(2008), order on reh’g, 127 FERC ¶ 61,164 (2009), order on
remand, 134 FERC ¶ 61,155 (2011); Colorado Interstate Gas Co.,
122 FERC ¶ 61,256, at P 30 (2008); Gulf South Pipeline Co., L.P.,
119 FERC ¶ 61,281, at P 37 (2007).
48

The second criterion, that “the lease payments [be] less than,
or equal to, the lessor’s firm transportation rates for comparable
service of the terms of the lease on a net present value basis,” is
not applicable to the circumstances here, as Dogwood does not
provide transportation services and thus, has no firm transportation rates to which the lease payments may be compared.
49

See, e.g., Dominion Transmission, Inc., 104 FERC ¶ 61,267,
at P 21 (2003) (Dominion); Texas Gas Transmission, LLC, 113
FERC ¶ 61,185 at P 9; Islander East Pipeline Co., L.L.C., 100
FERC ¶ 61,276, at P 70 (2002).
50

Wyoming Interstate Co., Ltd., 84 FERC ¶ 61,007, at 61,027
(1998), reh’g denied, 87 FERC ¶ 61,011 (1999).

34a
Dogwood a fixed lease payment of $2,140,916.70 per
month for Dogwood’s ownership interest in the Dalton
Lateral. The annualized amount of such lease charge
is $25,691,000,51 which is then compared to the estimated annual cost of service of $46,445,747, assuming
Transco constructed and owned Dogwood’s share of
the Dalton Lateral.52 Since the annual amount to be
paid under the lease is less than the comparable cost
of service if Transco had constructed the facilities,
approval of this lease agreement will reduce Transco’s
costs associated with the project and thus the amount
shippers will pay under the recourse rate by an
estimated $20,754,747 per year.53
51. The State Commissions argue that Transco has
not demonstrated that its annual lease payments will
be less than the equivalent cost of service that would
apply if Transco directly owned 100 percent of the
facilities. The State Commissions assert that Transco’s
analysis of its annual lease payments is deficient,
because while the project lease has a 25-year primary
term, Exhibit N only analyzes one year of the lease.
Therefore, Transco’s analysis does not take into account
the impact of depreciation of the leased facilities on the
cost of service. As the leased facilities are depreciated
over time, the cost of service should decrease due to
the decrease in rate base. The State Commissions
contend that by limiting its analysis to one year,
Transco has failed to show that the lease payments
51

See Exhibit N, Line 14. The annualized amount of such lease
charge was calculated as follows: $2,140,916.70 times 12 equals
approximately $25,691,000.
52

See Exhibit N, Line 13 reflecting an estimated incremental
total cost of service to construct Dogwood’s ownership share of the
Dalton Lateral.
53

See Exhibit N, Line 15.

35a
over the life of the lease will be less than the equivalent cost of service that would apply if Transco directly
owned the facilities.
52. Transco states that it has included in its certificate application an analysis that includes a comparison
of the annual lease charges to an incremental annual
cost of service that would apply if Transco constructed
and owned 100 percent of the project facilities. Transco
states that its analysis used the first year of the lease
arrangement consistent with section 157.14(a)(18) of
the Commission’s regulations, which Transco states
requires Transco to calculate its initial recourse rates
for the project using a cost of service for the first
calendar year of operation after the proposed facilities
are placed in service. Thus, Transco argues that when
comparing Transco’s annual lease payments under the
lease arrangement to the estimated annual cost of
service assuming Transco constructed and owned
Dogwood’s share of the corresponding project facilities,
Transco appropriately used a first-year cost of service
analysis.
53. Transco’s analysis using the first year of the lease
arrangement is consistent with section 157.14(a)(18)
of the Commission’s regulations,54 and our approval
of the lease agreement is consistent with previous
Commission orders in which the Commission approved
the leasing of new capacity being constructed as part

54

Section 157.14(a)(18)(c)(ii)(a) of the Commission’s regulations provides in relevant part that “[w]hen new rates . . . are
proposed . . . [a statement explaining the basis used in arriving
at the proposed rate] shall be accompanied by supporting data
showing . . . system cost of service for the first calendar year of
operation after the proposed facilities are placed in service.”

36a
of a project based on the costs of that capacity.55 With
the lease agreement in place, Transco’s recourse rates
are lower than if Transco had constructed the capacity
itself, because Transco’s cost of service is lower under
the lease. The State Commissions are correct that,
assuming Transco constructed and owned 100 percent
of the facilities, its cost of service should decrease over
time. But, as stated above, rates are based on a first
year cost of service, and the pipeline is under no
obligation to reduce those rates over time. Therefore,
the lease arrangement provides lower rates and a
benefit to shippers.
54. In addition, we find that the lease arrangement
will not adversely affect Transco’s existing customers.
Transco proposes an incremental recourse rate designed
to recover the cost of service attributable to the project
facilities, including the payments under the Lease
Agreement. Therefore, existing shippers will not
subsidize the lease arrangement. In addition, Transco
has agreed to separately account for the costs and
revenues associated with the leased facilities and to
segregate those costs and revenues from its other
system costs during the term of the Lease Agreement.
Accordingly, the lease arrangement will not result in
adverse effects to Transco’s existing customers or on
any other pipelines or its customers.
55. The State Commissions are concerned that at
the termination of the lease agreement, possessory
and operational rights to the leased facilities will
revert to Dogwood, arguing that the use of the lease
ownership structure should not be allowed to evade or
55

See, e.g., Constitution Pipeline Co., 149 FERC ¶ 61,199
(2014); Tennessee Gas Pipeline Co., L.L.C. and National Fuel Gas
Supply Corp., 150 FERC ¶ 61,160 (2015).

37a
weaken the certificate holder’s obligations regarding
continuity of service. Specifically, the State Commissions assert that Transco has not fully fleshed out
the impact of its request that Dogwood, the co-owner
of the leased capacity, be exempt from any certificate
obligations with regard to the leased facilities. The
State Commissions recognize that the reversion at the
end of the term of the lease is subject to the receipt of
the necessary authorization from the Commission;
however, despite that qualification they are concerned
that approval of the lease, including the provision
regarding what occurs at the termination of the lease,
should not prejudge any issues regarding continuity of
service, or any other issue, at the end of the lease.56
The State Commissions assert that the Commission’s
long-standing policy is that when examining proposals
to abandon service, it weighs all relevant factors,
but considers “continuity and stability of existing
services . . . the primary considerations in assessing
whether the public convenience and necessity permit
abandonment.” Accordingly, the State Commissions
request that, in the event the Commission approves
the lease, it should clarify that nothing therein prejudges any issues as to the status of the leased
facilities, or the service provided on those facilities, at
the end of the lease.
56. Transco asserts that it is not requesting pregranted abandonment authority at the end of the
lease term. Transco further asserts that while the
passive owner lessor under the lease arrangement is
not required to apply for certificate authority, any
certificate authority granted will attach to 100 percent
56

State Commission’s Protest at 17 (citing Northern Natural
Gas Co., 142 FERC ¶ 61,120, at PP 10-11 (2013) and El Paso
Natural Gas Co., 136 FERC ¶ 61,180, at P 22 (2011)).

38a
of the project’s facilities and not just to Transco’s
ownership interest. Transco states that if at the end of
the lease the lessor desires to use the facilities for a
purpose other than that authorized by the certificate,
then Transco and the lessor will be required to obtain
the necessary abandonment authority under NGA
section 7(b) and interested parties will have ample
opportunity to participate in the section 7(b) proceeding for such abandonment.
57. The Commission clarifies that upon termination
of the lease at the end of its term or otherwise, Transco
must continue to provide jurisdictional service on the
Dalton Lateral until it requests and is authorized to
abandon the capacity under NGA section 7(b). Similarly,
if Transco files for authorization to abandon the leased
capacity, Dogwood or any other entity seeking to use
the capacity for jurisdictional service will need to file
for and receive the requisite certification authorizations under NGA section 7(c).
C. Environment
58. On April 25, 2014, the Commission staff began
its environmental review of the Dalton Expansion
Project by granting Transco’s request to use the prefiling process and assigning Docket No. PF14-10-000.57
57

Natural Resources Group, LLC (NRG) was selected at that
time as third-party contractor to assist Commission staff in the
development of the environmental assessment for the Dalton
Expansion Project. In September 2014, Environmental Resources
Group (ERM) acquired NRG. Subsequently, ERM notified
Commission staff of a possible conflict of interest, as ERM had
previously been engaged by Transco to provide air permitting
support and air dispersion analyses for inclusion in Transco’s
Dalton Expansion Project application; ERM included updated
Organizational Conflict of Interest forms with its notification. As
mitigation for the potential conflict, ERM proposed to establish

39a
As part of the pre-filing review, staff participated in
open houses sponsored by Transco in Newnan,
Carrollton, Dallas, Cartersville, Calhoun, and Dalton,
Georgia between June 9 and September 25, 2014, to
explain our environmental review process to interested stakeholders.
59. On October 21, 2014, the Commission issued
a Notice of Intent to Prepare an Environmental
Assessment for the Proposed Dalton Expansion Project,
Request for Comments on Environmental Issues, and
Notice of Public Scoping Meetings (NOI). The NOI
was published in the Federal Register58 and mailed
to interested parties including federal, state, and
local officials; elected officials; agency representatives;
environmental and public interest groups; Native
American tribes; local libraries and newspapers; and
affected property owners. FERC environmental staff
conducted three scoping meetings on November 3, 4,
and 5, 2014, in Dalton, Carrollton, and Cartersville,
Georgia to receive verbal scoping comments on the
an internal corporate firewall to isolate NRG and ERM project
and client teams for the duration of the respective third-party
contractor engagements. This mitigation was found to be acceptable. Though wholly-owned by ERM, NRG operated as a separate
entity until after its work for the Commission on the Dalton
Expansion Project was completed. Further, while NRG did review
the analyses done by ERM for Transco, the air dispersion analyses were also independently reviewed by Commission staff and
the conclusions on this modeling presented in the environmental
assessment are those of staff. Moreover, the air permitting
support provided by ERM was also independently reviewed by
the Georgia Department of Natural Resources - Environmental
Protection Division, which issued air quality permits on for
Compressor Station 116 and the Looper Bridge Road Meter
Station on March 11, 2015 and July 10, 2015, respectively.
58

79 Fed. Reg. 64186 (October 28, 2014).

40a
project. On November 14, 2014, the Commission
issued a Supplemental Notice of Intent to Prepare an
Environmental Assessment for the Planned Dalton
Expansion Project and Request for Comments on
Environmental Issues. This notice was also published
in the Federal Register59 and was mailed to over 1,100
interested parties and property owners affected by
the project facilities, notifying them that the scoping
period was extended through December 20, 2014.
60. As a result of concerns raised during the prefiling process by the Georgia Department of Natural
Resources (GADNR), the U.S. Fish and Wildlife
Service (FWS), and the Nature Conservancy, Transco
revised its planned route to avoid and minimize
potential environmental impacts on the biologically
sensitive Raccoon Creek Watershed. Accordingly, on
February 13, 2015, the Commission issued a second
Supplemental Notice of Intent to Prepare an Environmental Assessment for the Planned Dalton Expansion
Project and Request for Comments on Environmental
Issues. This notice was published in the Federal
Register60 and was mailed to over 1,270 interested
parties, including landowners that could be affected by
the route variation. Transco held a public open house
on February 24, 2015, in Dallas, Georgia to introduce
the project to landowners potentially affected by
the newly-developed route. Our environmental staff
held a fourth scoping meeting in Dallas, Georgia on
March 4, 2015, to receive verbal scoping comments
from stakeholders about the adjusted route. Eighteen
people spoke at the meeting. This newly-developed
route, referred to as the Raccoon Creek Alternative,
59

79 Fed. Reg. 69455 (Nov. 21, 2014).

60

80 Fed. Reg. 9710 (Feb. 24, 2015).

41a
was subsequently incorporated into the application for
the project on July 15, 2015.
61. In addition, as noted above, Bartow indicated
concern in its motion to intervene that the proposed
location of the Dalton Lateral would interfere with its
ability to expand two of its elementary schools on land
that it specifically acquired for that purpose. In a
response to those comments filed on October 21, 2015,
Transco stated it had incorporated Route Variation
AK as part of the Dalton Lateral – Segment 3, moving
the pipeline to a location slightly over 1000 feet from
the Taylorsville Elementary School, such that the route
no longer bisects the school property. The modified
route was reflected in Transco’s July 15, 2015 filing
and reviewed in the EA. Regarding the location of the
pipeline in the vicinity of the second school, Kingston
Elementary School, the pipeline follows an existing
overhead powerline, paralleling a corridor located
about 1,500 feet west of the school.
62. To satisfy the requirements of the National
Environmental Policy Act of 1969 (NEPA), our
staff prepared an environmental assessment (EA) for
Transco’s proposal. The analysis in the EA addresses
geology, soils, water resources, wetlands, vegetation,
fisheries, wildlife, threatened and endangered species,
land use, recreation, visual resources, cultural resources,
air quality, noise, safety, socioeconomics, cumulative
impacts, and alternatives. The EA addressed all substantive comments raised during the scoping period.
63. The EA was issued for a 30-day comment period
and placed into the public record on March 31, 2016.
The Commission received several comment letters
on the EA from individual stakeholders, the U.S.
Environmental Protection Agency (EPA), and the
Coosa River Basin Initiative (CRBI) regarding the

42a
impacts on the Etowah River, construction techniques,
potential impacts on water supply, effects of blasting,
cultural resources, cumulative effects, erosion and
production and end-user emissions.
1. April 2016 Modifications
64. On April 13, 2016, Transco filed 27 proposed
modifications to its project and on May 19 and 25,
2016, it filed additional information pertaining to
these modifications. Transco’s proposed modifications
would affect a total of 43 landowners, two of whom
were not previously affected by the project. Since
these proposals were made after the issuance of the
EA, while we will address them in this order, we will
consider them under the criteria established in
Environmental Condition 5. Environmental Condition
5 contemplates that there might be changes, such as
route realignments, facility relocations, new staging
areas, or access roads, identified after a project has
been certificated. Requests for such modifications
must include, among other information, documentation of affected-landowner approval and information
regarding potentially affected cultural resources,
endangered species, and environmentally sensitive
areas. As detailed below and consistent with the
criteria of Environmental Condition 5, we will only
grant approval for the modifications for which Transco
has both obtained landowner agreements and completed environmental surveys. For the remaining
proposed modifications, we will allow Transco to
present the required additional information and/or
justifications for the changes as required by Environmental Condition 5 of this order.
65. While Transco’s proposed modifications would
increase the pipeline length by 0.2 mile and total land
disturbance by 5.3 acres, the modifications would

43a
decrease the amount of forested wetlands impacted by
0.9 acre and eliminate four waterbody crossings.
Based on its May 19, 2016 filing, Transco has agreements with 25 of the 43 landowners impacted by the
modifications (covering 11 of the 27 modifications).
Transco continues to negotiate with the other 18
landowners. Transco has conducted environmental
surveys along 20 of the 27 proposed modifications. We
have reviewed the available survey reports for the
modifications and determined that the modifications
approved herein will not significantly increase impacts
on sensitive resources.
66. Transco proposed relocation of eight of its
mainline valves (MLV). Transco has completed environmental surveys and obtained landowner agreements
for the following six modifications: relocation of MLV
3 (from MP 34.5 to MP 34.3), MLV 6 (from MP 67.8 to
MP 64.2), and MLV 7 (from MP 77.9 to MP 78.2);
shifting MLV 8 at MP 85.3 (no change in MP), and
MLV 10 at MP 98.7 (no change in MP); and adding a
new MLV at MP 71.8. Having reviewed the submitted
information, we approve these modifications.
67. Transco has not completed environmental surveys
and has not obtained landowner agreements for the
property affected by the relocation of MLV 1 at MP
20.4 (no change in MP). Also, Transco has not obtained
landowner agreement for the relocation of MLV 9
(from MP 92.2 to MP 92.3). Accordingly, we will not
approve these modifications at this time.
68. Transco has completed environmental surveys
and obtained landowner agreements for two modifications along the Dalton Lateral: the addition of extra
workspace on the north and south sides of a railroad
crossing near MP 58.2 and a reroute of the Dalton

44a
Lateral between MPs 71.2 and 71.4 to avoid impacts
on Green Pond. We approve these modifications.
69. Transco has not completed environmental
surveys and/or obtained landowner agreement for the
following eight proposed modifications to the Dalton
Lateral: (1) a reroute between MPs 35.9 and 36.4 to
the west based on a landowner request; (2) shifting
the crossing of Highway 278 to the west between MPs
40.4 and 40.8 and the addition of two access roads;
(3) addition of a cathodic protection site at MP 51.0;
(4) reroute to the east between MPs 54.5 and 55.4 to
avoid crossing GADNR-owned lands and addition of a
new temporary access road; (5) reroute of an access
road near MP 56.5; (6) addition of extra workspace at
the Highway 278 crossing; (7) reroute and reduction of
the bore length at the Interstate 75 crossing between
MPs 76.6 and 77.9; and (8) reroute between MPs 95.7
and 96.9 to avoid multiple crossings of Polecat Creek.
We do not approve these modifications.
70. Transco also proposes to: (1) added a new access
road from the existing Compressor Station 115 to the
Dalton Lateral right-of-way; (2) relocate the Beasley
Road Meter Station (now called the Lucas Road Meter
Station) and add a new tap site and pipeline spur from
the Dalton Lateral at MP 53.2 to the new meter station
site; and (3) modify the portage path, which will be
used to move boats and kayaks around the construction area, on the southern side of the Etowah River.
Transco has not completed the environmental surveys
of the first of these modifications and has not obtained
landowner agreements for all the properties affected
by the second and third of these modifications.
Therefore, we do not approve these modifications.
71. Transco proposes five modifications that would
include locating workspace within streams. Because

45a
each of these changes will require modifications to
the project’s Wetland and Waterbody Construction
and Mitigation Procedures (Transco’s Procedures;
Appendix E of the EA), we will require additional
information to evaluate the feasibility of an alternative workspace layout or if additional protection
measures can be used to adequately protect the
streams. Accordingly, we do not approve these modifications at this time.
72. Finally, Transco proposes to reroute a portion of
the Dalton Lateral between MPs 30.3 and 30.4 to the
west to avoid impacts on a cemetery and to maintain
a 30-foot-wide no-disturbance buffer, as requested by
the Georgia State Historic Preservation Office. Transco
has neither completed the environmental surveys nor
obtained landowner agreements for all the properties
affected by this proposed reroute. Therefore, we will
not approve this modification. Further, the workspace
for this reroute would be located approximately 10 feet
from a house that was previously 400 feet from the
workspace. Additional information is needed for us to
evaluate Transco’s request and assess the feasibility of
an alternative route or crossing method to avoid
impacts on that residence.
73. To summarize, we approve incorporation of
eight of Transco’s requested modifications, as described
above, into the route authorized with this order. The
other 19 modifications are not approved. Transco may
present the required additional information and/or
justifications for these changes with its Implementation Plan and in accordance with Environmental
Condition 5 of this order. This condition requires
Transco to demonstrate compliance with Section 106
of the National Historic Preservation Act and Section

46a
7 of the Endangered Species Act prior to receiving
approval of any of the requested modifications.
2. Comments from the U.S. Environmental
Protection Agency
74. In its May 2, 2016 comment letter, the EPA
provided several recommendations and requested that
the Commission issue a supplemental EA to address
deficiencies identified in staff’s EA and to include
additional analysis addressing the 27 route modifications proposed after the EA was issued. In response,
we address the various comments from EPA in this
order and conclude that a supplemental EA for the
Dalton Expansion Project is not warranted.
75. First, the EPA recommends we address the
project’s potential to cause acid rock drainage during
construction. Acid-producing rocks are known to
occur in Georgia, and typically include graphitic
schist, phyllite, slate, coal, and carbonaceous shales,
which often contain pyrite. Counties that are crossed
by the Project in Georgia where these rocks are known
to occur include Paulding, Bartow, and Gordon. Acidproducing rocks are generally recognizable in the field
with an overall color of black or very-dark gray. Pyrite
has a gold metallic appearance.
76. In response to the EPA’s recommendation,
Transco agrees to evaluate the potential presence of
acid-producing rock or acidic soil along the project
route through review of U.S. Geologic Survey geologic
maps, U.S. Department of Agriculture – Natural
Resources Conservation Service Soil Surveys, and the
Soil Survey Geographic database, and to conduct field

47a
testing. Transco states that it will file with the
Commission, prior to construction, the results of its
desktop analysis identifying areas with the potential
for acid-producing rock or acidic soils, and a detailed
mitigation plan that outlines the procedures for field
verification and the mitigation measures that will be
implemented during construction.
61

77. Transco will also include a discussion on acidproducing rock and acidic soils in the environmental
training that will be required for environmental
inspectors before construction begins to familiarize the
environmental inspectors with the specific conditions
and issues associated with acid-producing rock and
acidic soils. We conclude that Transco’s proposed
measures are sufficient to address the EPA concerns.
78. The EPA also recommends that we address
karst areas of concern identified through desktop review
(topographic maps, aerial photographs, and LiDAR) in
Bartow and Murray Counties, Georgia. Transco has
conducted geophysical investigations at eight locations to gather additional information about these
features.62 Based on anomalies that were identified
during the geophysical investigations, soil borings
were performed at two locations to further define the
features and to determine if mitigation measures may
be needed during construction. The results of the soil
borings indicated that the conditions at the investigated locations should support the proposed pipeline
construction without karst mitigation measures. Three
61

See Transco’s Response to our November 13, 2015 Environmental Data Request, stating it will file the test borings before
commencing construction.
62

See Transco’s Report of Geophysical Services Karst Evaluation filed on August 13, 2015 in this proceeding.

48a
additional areas have been identified for soil borings
once access is available prior to construction in order
to determine if karst mitigation measures will be
required. The pipeline was re-routed away from three
of the eight locations where anomalies were identified;
therefore soil borings were not performed at those
locations. Environmental Condition 12 requires that
Transco file a revised Karst Mitigation Plan prior to
construction that includes the results of geotechnical
borings to determine the nature and extent of the
anomalies detected during the electric resistivity
imaging investigations as well as site-specific mitigation measures (e.g., route adjustment) for any karst
features identified. With this additional study, the
Commission’s review of the results, and Environmental Condition 12, we find the EPA’s concerns are
adequately addressed.
79. The EPA recommends that we address potential
scouring, erosion of river banks, and associated sediment discharges that could impact habitat for federally listed mussels where waterbodies are crossed via
dry-ditch and/or wet open crossings. On May 12, 2016,
the FWS filed with the Commission its biological
opinion (BO) on the project’s potential impacts on
aquatic species (see Threatened and Endangered
Species discussion below).63 The FWS states that
federally listed freshwater mussels are not known to
occur in the Oostanaula, Coosawattee, and Conasauga
River tributaries that the pipeline will cross, with the
exception of Holly Creek, where mussel populations
occur well upstream of the proposed crossing location.
The FWS also states that direct impacts on listed
63

See FWS’s Biological Opinion detailing potential impacts of
Transco’s proposed Dalton Expansion Project on aquatic species,
filed on May 12, 2016 in this proceeding.

49a
mussels are not anticipated but that erosion and
excessive sediment transport from these tributaries
due to pipeline construction and right-of-way could
impact listed mussels and their designated critical
habitat. However, the BO states that as proposed, the
project is not likely to jeopardize the continued existence of federally listed freshwater mussels identified
as potentially occurring in the project area and is not
likely to destroy or adversely modify critical habitat.
Based on analysis in the EA and the findings of the
FWS’ BO, we conclude that additional scour analysis
as recommended by the EPA is not warranted.
80. The EPA requests that we assess the cumulative effects of collocating pipeline rights-of-way with
existing rights-of-way, and that we evaluate the impacts
on sensitive ecosystems crossed by the proposed route.
As discussed in section B.3.c of the EA, although the
project may contribute to forest fragmentation, collocation and construction in previously disturbed areas
will minimize the effects of forest fragmentation and
forest edge effect caused by construction of the pipeline.64 In addition, Transco has deviated from existing
rights-of-way in areas where expanding the existing
right-of-way would affect sensitive habitats (e.g.,
portions of the Raccoon Creek watershed, Green Pond,
and Drummond Swamp). Further, as noted in the EA,
the presence of similar habitat types within the vicinity
of the project area will help ensure that the project
does not result in population-level or significant

64

EA at 54, see also EA at 52-53 (noting that much of the
woodland in the project area has already been fragmented
by agricultural land, managed timber operations, and other
developments).

50a
measurable negative impacts on birds of conservation
concern or other migratory birds.65
81. The EPA identifies concerns related to the
transfer of hydrostatic test water between watersheds
and expresses concerns about water withdrawals. The
EPA asserts that the associated aquatic ecosystems
should be assessed, particularly for drought conditions, the hydrostatic-testing frequency needed for
operations/maintenance, and impacts on federally
listed mussel species.
82. Transco states in its May 17, 2016 response
that surface water used for project construction and
operations will be removed from and returned to the
same watershed (8-digit hydrologic unit code) and that
no hydrostatic testing will be performed during
operations/maintenance.66 As stated in section B.2.b of
the EA, Transco will be required to obtain authorization from the GADNR prior to any water withdrawals
and to comply with all conditions set by the GADNR.67
Further, Transco will implement the measures outlined
in its Procedures (subject to Commission review and
modification as necessary) to minimize impacts on
waterbodies during withdrawals including maintaining adequate flow rates to protect aquatic life, provide
for all waterbody uses, and provide for downstream
withdrawals of water by existing users.68 We conclude
that Transco’s measures address the concerns expressed
by the EPA.

65

EA at 54-55.

66

Transco’s May 17, 2016 Response to the EPA’s Comments on
the EA.
67

EA at 40.

68

Id.; see also Environmental Condition 14.

51a
83. The EPA recommends that the EA address the
depth of the pipeline to mitigate the potential effects
of severe flooding events such as a 500-year flood that
could compromise the pipeline due to flood-water
scouring of the stream bottom, and cites as an example
the weakening and rupture of the Enterprise Product
Pipeline that was buried to a depth of 20 feet beneath
the Missouri River bed.
84. The Missouri River is the longest river in the
United States and has a drainage area of more than
half a million square miles. There is no waterbody
crossed by the project that is comparable. Moreover,
most of the larger waterbodies crossed by the project
will be crossed using the horizontal direction drill (HDD)
method, resulting in the pipeline being installed more
than 30 feet below the streambed. Additionally, the
pipeline will be constructed in accordance with Transco’s
Procedures and be subject to post-construction monitoring to identify areas of exposure as discussed in
section A.7.e and Appendix E of the EA.
85. The EPA identifies concerns related to the crossing of three major waterbodies: an unnamed tributary
to Jones Branch, an unnamed tributary to Crane
Eater Creek, and Pole Cat Creek. Transco states in its
May 17, 2016 response that the unnamed tributary to
Jones Branch is a man-made intermittent pond that
will be crossed using dry crossing methods. The unnamed
tributary to Crane Eater Creek is an agricultural stock
pond that will be drained under permission of the
owner. Finally, the referenced crossing of Pole Cat
Creek is no longer part of the proposed project. As
outlined in its Procedures, Transco will file detailed,
site-specific construction plans and scaled drawings
identifying all areas to be disturbed by construction for
each major waterbody crossing for the review and

52a
written approval (and additional mitigation measures
if warranted) by the Director of the Office of Energy
Projects prior to construction.
86. The EPA questions the number of streams
described in the EA. To clarify, the EA states that the
project will cross 55 coldwater fishery streams; 41 of
which will be crossed using a dry crossing method and
one will be crossed using the HDD method. The
remaining coldwater fisheries streams are within the
proposed construction workspace but will not be
crossed by the pipeline. Based on Transco’s April 2016
Supplemental Filing, two additional coldwater fisheries streams will be crossed. Therefore, the current
project, as modified, will cross 57 coldwater fisheries,
43 of which will be crossed using a dry crossing
method, one will be crossed using the HDD method,
and 13 that are within the proposed construction
workspace but will not be crossed by the pipeline.
87. The EPA identifies concerns related to the
crossing of a conservation easement associated with
Snake Creek. This conservation easement was avoided
by a route variation that was adopted in July 2015 and
was considered in the EA.
88. The EPA identifies concerns related to the
future conversion of the proposed pipeline from
natural gas transportation to the transportation of
natural gas liquids or petroleum products. Transco
states that it does not have any plans to abandon or
convert the pipeline to natural gas liquids or
petroleum products. Prior to any abandonment of the
pipeline, Transco would be required to obtain an
approval from the Commission under section 7(b) of
the NGA.

53a
89. The EPA identifies concerns related to the
storage of tert‐butyl mercaptan, the odorant used to
assist in the detection of pipeline leaks. Transco
indicates that odorization facilities are not proposed
for any component of the project. The supplemental
odorization control proposed by Transco will analyze
the gas composition and mercaptan levels in the gas
stream and signal the existing odorization stations to
inject less mercaptan or to supplement up to the
established level. The net effect will be the same
amount of mercaptan by volume in the delivered gas
stream to the customer. Transco anticipates that the
usage of the existing odorization facilities will be
reduced.69
90. The EPA recommends that the Commission
provide an estimate of both the production emissions,
including production-related fugitive emissions, and
end-user GHG emissions associated with the proposed
action in a supplemental NEPA document. As identified by Transco, gas transported by the project will be
delivered to the Oglethorpe Power – Chattahoochee
Energy Facility and to Atlanta Gas Light. We have
determined that there is no pending construction
or air quality permit application pending for the
Oglethorpe Power – Chattahoochee Energy Facility.
The project would deliver approximately 208 million
cubic feet per day to the facility, which may be used for
either future expansion or to displace current natural
gas supply. Should the gas be used for expansion,
there would be an increase in greenhouse gas emissions (GHGs) as well as criteria pollutants. If the
natural gas is displacing an existing gas supply, there
would be no change in emissions. If the gas is used to
69

Transco’s May 17, 2016 Response to the EPA’s Comments on
the EA.

54a
displace another fuel, such as oil or coal, then GHGs
would most likely be reduced. Regardless, changes in
the air permit would require approval by the Georgia
Department of Environmental Protection.
91. The remaining 240 million cubic feet per day
would be delivered to the Atlanta Gas Light, a local
distribution company (LDC). The LDC could distribute
the gas to residential, commercial, or industrial customers. Each of these end use scenarios result in very
different lifecyle GHG or criteria pollutant emissions.
We do not believe the potential increase of emissions
associated with the production and combustion of
natural gas is causally related to our action in approving this project, nor are the potential environmental
effects reasonably foreseeable as contemplated by the
Council on Environmental Quality’s (CEQ) regulations. Moreover, as the Commission has previously
stated, there is no standard method for determining
fugitive methane emissions for pipelines and the level
of fugitive methane releases during the lifecycle of
natural gas are highly debated. Therefore, it is difficult
to accurately quantify fugitive emissions of methane.70
Further, the EA explains that there is no standard
methodology to determine how a project’s incremental
contribution to GHG emissions would result in physical effects on the environment, either locally or
globally.71 We concur.72 Even if we determined that a
lifecycle GHG analysis was warranted, uncertainties
regarding both the LDC end uses, as well as numerous
70

See Transcontinental Gas Pipe Line Co. LLC, 149 FERC ¶
61,258, at P 109 (2014).
71
72

EA at 122.

See, e.g., Sabine Pass Liquefaction Expansion, LLC, 151
FERC ¶ 61,012 at P 97, reh’g denied, 151 FERC ¶ 61,253 (2015).

55a
production/upstream variables (gas source, pipeline
lengths, processing facilities, etc.) would make the
analysis too speculative to permit any meaningful consideration. In addition, given that potential production
areas are far removed from the geographic scope of the
project, identifying emissions of criteria pollutants
from production/upstream is even more speculative.
Speculative estimates of the end use and production/
upstream GHG emissions would not meaningfully
inform the Commission’s decision. There are no
thresholds for significance, nor is there a meaningful
method to determine the local or regional incremental
impacts on ongoing climate change.
92. The EPA expressed concerns about impacts on
carbon sequestration. Currently there are no federal
or state regulations regarding carbon sequestration.
According to the EPA, carbon sequestration is the
process through which plant life removes carbon
dioxide from the atmosphere and stores it in biomass.
The project will affect approximately 796 acres of
forested land, with 400 acres allowed to revert to forest
over time. While there will be a long-term effect of
reduced carbon sequestration due to removal of trees
from the permanent right-of-way, areas of temporary
disturbance will be allowed to revert to pre-existing
conditions. The young vegetation of the restored temporary right-of-way will continue to perform the
carbon sequestration process. The carbon sequestration ability of the permanent right-of-way will be
reduced; however, we conclude that the project will not
significantly impact cumulative carbon sequestration
in the United States. We also do not believe that the
potential reduction of greenhouse gas sinks will
significantly exacerbate ongoing climate change.

56a
3. Etowah River Crossing
93. The Commission received multiple comments
regarding the proposed Etowah River Crossing, including comments from the EPA, the Coosa River Basin
Initiative (CRBI), Darrel Cagle, and Troy Harris.
94. The EPA recommends that the EA evaluate
blasting impacts on karst terrain, specifically the
effects of blasting through karst during the crossing of
the Etowah River, and recommends that we address
sensitive ecosystem impacts.
95. The only waterbody for which blasting is currently proposed is the Etowah River. As discussed in
section B.2.b of the EA, Transco conducted a geotechnical investigation of the Etowah River crossing.
Given the degree of karst found during Transco’s
geophysical investigation, trenching for an open-cut
crossing of the Etowah River will be through karst
bedrock, which is likely to be conducive to techniques
such as rock sawing and hammering. If conditions
encountered are as expected, then blasting will not be
necessary. However, if blasting becomes necessary,
Transco will follow the pre-blasting monitoring requirements and post-blasting mitigation measures
contained in its project blasting plan, which includes
the development of site-specific mitigation measures.
Moreover, Environmental Condition 12 requires that
Transco file – for review and approval by the Commission – a revised Karst Mitigation Plan prior to
construction that will include site-specific mitigation
measures for any karst features identified.
96. The EPA requests information regarding compensatory mitigation related to the Etowah River
crossing. Compensatory mitigation will be addressed
by the U.S. Army Corps of Engineers (COE) during

57a
the COE permitting process for the Etowah River
crossing.73
97. The CRBI questions whether the EA fully
evaluated alternative crossing methods and requests
that the Commission independently review the feasibility of an HDD crossing of the river. Additionally,
the EPA commented that the EA did not include a
detailed analysis of the impacts associated with the
proposed crossing and requests that turbidity modeling be used to determine impacts. Furthermore, the
CRBI and Troy Harris question the reliability of the
borings collected within the river and request the
results of electric resistivity imaging testing near the
river. Lastly, the CRBI, EPA, Darrel Cagle, and Troy
Harris express concern regarding blasting and trenching and the resulting turbidity impacts. Troy Harris
questions the efficacy of turbidity curtains used during
construction, impacts associated with the installation
of the curtains, and potential downstream impacts
including stream bank erosion and sedimentation
affecting a sensitive cultural resource site identified as
the Indian Fish Weir.
98. As discussed in the EA, the information provided in Transco’s application and supplemental
filings is adequate to support the conclusion that the
use of the HDD crossing method is not appropriate at
this location. Environmental Condition 13 requires
that Transco provide, prior to construction, quantitative modeling results of turbidity and sedimentation,
including the duration, extent, and magnitude of
elevated turbidity levels and sedimentation due to
trenching, backfilling, and blasting (should it be
73

See Transco’s May 17, 2016 Response to the EPA’s Comments on the EA.

58a
required). The condition also requires Transco to file
its final Etowah River Turbidity Control and Monitoring
Plan, which was developed in coordination with the
GADNR and was provided to the FWS and COE for
review. The analysis already included in the EA, as
supplemented by the environmental conditions, is
sufficient to assess the impacts.
99. The CRBI questions the appropriateness of the
use of COE Nationwide Permit 12. The COE will make
the final determination on which type of permit the
project requires.
100. The CRBI requests that the Commission consider an alternative crossing location of the Etowah
River that will avoid a wet trench crossing. As
indicated in the EA, based on available U.S. Geological
Survey data and the results of the field investigations,
similar geologic conditions are expected within reasonable proximity to the proposed Etowah River crossing
location.74 Consequently, the alternative route identified by the CRBI would likely encounter similar
geology as the proposed location, which would preclude the use of an HDD crossing method. In addition,
the CRBI’s alternative route is approximately 3 miles
longer than the proposed route, which would result in
additional terrestrial impacts.
101. The CRBI comments that the EA did not
consider impacts on recreational use of the Etowah
River. Impacts on recreational use of the Etowah River
are addressed in section B.5.a of the EA. Transco’s
Draft Aid to Navigation Plan includes a plan identify74

See EA at 24. Environmental Condition 12 requires that,
before commencing construction, Transco must file a revised
Karst Mitigation Plan that includes site-specific mitigation
measures for any karst features identified.

59a
ing portage locations to be used by recreational users
during construction and a detailed signage plan to
inform recreational users of access limitations and
portage locations.
4. Alternatives
102. The Commission received several comments on
the EA regarding alternatives to the proposed pipeline
route, including comments from 1460 Partnership;
Evans & Rhodes, LLC; and the First Baptist Church
of Atlanta. The 1460 Partnership, LLLP provided a
map identifying three specific alternatives that
avoided their property. Evans & Rhodes, LLC did not
identify a specific alternative route but referenced an
alternative route on an adjacent undeveloped property. Based on our review of available information, we
determined that these alternatives are similar in
length or longer and would cross the same sensitive
resources (e.g., forest land) as the corresponding
segment of the proposed route without conferring an
obvious environmental advantage over the proposed
route. Further, these alternatives would require moving the route onto other landowners. For these reasons,
we are not authorizing these alternative routes.
103. The First Baptist Church of Atlanta identified
an alternative that would follow the church property
line, which is located adjacent to an existing powerline
right-of-way. Based on a preliminary review of the
alternative route, it appears to be feasible and remains
on the church property. We agree in this case that colocating along the power line right-of-way at the edge
of the property is preferable to bisecting the property.
Therefore, Environmental Condition 24 requires Transco
to either modify the pipeline route as requested by the
First Baptist Church of Atlanta, provide additional
justification why the alternative route cannot be incor-

60a
porated, or document landowner concurrence with the
currently proposed route.
104. David Shumaker identifies an alternative
route that would follow the existing access road to
Compressor Station 115 then head east along the
northern edge of Mr. Shumaker’s property where it
would connect with the proposed pipeline route. Based
on a preliminary review of the alternative route, it
appears to be feasible without impacting additional
landowners. Environmental Condition 24 requires
Transco to either modify the pipeline route as discussed above, provide additional justification why the
alternative route cannot be incorporated, or document
landowner concurrence with the currently proposed
route.
5. Threatened and Endangered Species
105. The Commission received several comments
on the EA regarding federally and state-listed species,
including comments from the EPA and 1460 Partnership. Section B.4. of the EA determines that constructing and operating the project will result in no effect on
13 threatened and endangered species; may affect, but
is not likely to adversely affect five threatened and
endangered species; and will not contribute to the
listing of one candidate species.
106. On April 5, 2016, the FWS filed a letter with
the Commission stating that it did not concur with
some of our staff’s determinations, based largely on
the possibility of erosion and sedimentation within
affected watersheds. However, the EA does include
measures to avoid and minimize potential erosion,
turbidity, and sedimentation impacts, as well as effects
attributable to hydrostatic test water withdrawals.
Based on our past experience with natural gas pipeline

61a
construction, the EA concludes that these measures
provide adequate protection for all resources that are
directly affected and substantially limits the potential
for any indirect impacts. However, in deference to the
opinions of the FWS, we adopted the FWS determinations in a letter to the FWS dated April 28, 2016. On
May 2, 2016, the FWS concurred with our revised
determinations. With receipt of the FWS concurrence,
and the subsequent BO addressing terrestrial species
dated May 9, 2016, the Endangered Species Act
Consultation process is complete and, as a result, EA
recommendation no. 19 is not included as a condition
of this order.
107. In a letter filed on April 28, 2016, Troy Harris
identifies concerns about the project’s potential impacts on an active bald eagle nest along the Etowah
River at Hardin Bridge. Because the closest construction areas are about 1.5 miles from the nest, construction
or operation of the project is not likely to affect it.75
108. Concerns regarding state-listed species are
adequately addressed in section B.4.b of the EA, which
concludes that the project is expected to have no
impact on 54 of the 58 state-listed species that are not
also federally listed and will have temporary and
minor impacts on four species.
6. Water Resources
109. On May 2, 2016, the CRBI filed a letter
identifying several Clean Water Act section 303(d)listed impaired waterbodies crossed by the proposed
pipeline route that were not specifically discussed in
75

As indicated on page 54 of the EA, Table B.3c-2, our environmental staff completed consultation with the FWS for the bald
eagle as part of the Birds of Conservation Concern, which is a
subset of the Migratory Bird Treaty Act.

62a
the EA. Based on Transco’s proposed construction
techniques and the implementation of minimization
and mitigation measures as outlined in section B.2.b
and Appendix E of the EA, we do not anticipate any
impact on the impairment criteria for these waterbodies during construction or operation of the project.
7. Land Use
110. Evans & Rhodes, LLC questions the use of
Wahoo Overlook Trail as an access road, noting such
use could block access to residents along the road.
Transco states that it no longer proposes to use this
road.76 If Transco proposes to use this road, it must file
a written request for our environmental staff’s review
and approval.
8. Environmental Conclusions
111. Based on the analysis in the EA, as supplemented herein, we conclude that if constructed in
accordance with Transco’s application and supplement(s),
and in compliance with the environmental conditions
in the appendix to this order, our approval of this
proposal would not constitute a major federal action
significantly affecting the quality of the human
environment.
112. Any state or local permits issued with respect
to the jurisdictional facilities authorized herein must
be consistent with the conditions of this certificate. We
encourage cooperation between interstate pipelines
and local authorities. However, this does not mean
that state and local agencies, through application of
state or local laws, may prohibit or unreasonably delay

76

EA Environmental Condition 4.

63a
the construction or operation of facilities approved by
this Commission.77
IV. Conclusion
113. The Commission on its own motion received
and made a part of the record in this proceeding all
evidence, including the application, and exhibits
thereto, and all comments and upon consideration of
the record,
The Commission orders:
(A) A certificate of public convenience and necessity
is issued to Transco authorizing it to construct and
operate the Dalton Expansion Project, as described
and conditioned herein, and as more fully described in
the application.
(B) The certificate authority granted in Ordering
Paragraph (A) is conditioned on Transco’s:
(1) completion of construction of the proposed
facilities and making them available for service
within two years of the issuance of this order
pursuant to section 157.20(b) of the Commission’s
regulations;
(2) compliance with all applicable Commission
regulations under the NGA including, but not
77

See 15 U.S.C. § 717r(d) (state or federal agency’s failure to
act on a permit considered to be inconsistent with Federal law);
see also Schneidewind v. ANR Pipeline Co., 485 U.S. 293, 310
(1988) (state regulation that interferes with FERC’s regulatory
authority over the transportation of natural gas is preempted)
and Dominion Transmission, Inc. v. Summers, 723 F.3d 238,
245 (D.C. Cir. 2013) (noting that state and local regulation is
preempted by the NGA to the extent it conflicts with federal
regulation, or would delay the construction and operation of
facilities approved by the Commission).

64a
limited to Parts 154, 157, and 284, and paragraphs
(a), (c), (e), and (f) of section 157.20 of the
Commission’s regulations;
(3) compliance with the environmental conditions
in Appendix C to this order; and
(4) execution, prior to commencement of construction, of a firm contracts for the volumes and service
terms equivalent to those in its precedent agreement.
(C) A certificate of public convenience and necessity
is issued under section 7(c) of the NGA authorizing
Transco to lease capacity from Dogwood, as described
herein and in the application.
(D) Transco’s initial incremental reservation charge
under Rate Schedule FT as recalculated for the project
to reflect the removal of variable costs is approved, as
discussed above.
(E) Transco shall file actual tariff records with the
recalculated base reservation charge no earlier than
60 days and no later than 30 days, prior to the date the
project goes into service.
(F) As described in this order, not less than 30 days
and not more than 60 days prior to the commencement
of service using the authorized expansion capacity,
Transco must file an executed copy of any nonconforming service agreement associated with the
project as part of its tariff, disclosing and reflecting all
non-conforming language, and a tariff record identifying each such agreement as a non-conforming agreement
consistent with section 154.112 of the Commission’s
regulations.
(G) As described in the body of this order, Transco
must file any negotiated rate agreement or tariff record
setting forth the essential terms of the agreement

65a
associated with the project at least 30 days, but not
more than 60 days before the proposed effective date
of such rates.
(H) Transco shall keep separate books and accounting of costs attributable to the incremental services
using the expansion capacity created by the project, as
discussed herein.
(I) Transco shall notify the Commission’s environmental staff by telephone, e-mail, and/or facsimile of
any environmental noncompliance identified by other
federal, state or local agencies on the same day that
such agency notifies Transco. Transco shall file written
confirmation of such notification with the Secretary of
the Commission (Secretary) within 24 hours.
(J) The State Commissions’ protest and request for
partial consolidation and evidentiary hearing is denied.
(K) The late motions to intervene are granted.
By the Commission.
(SEAL)
Nathaniel J. Davis, Sr.,
Deputy Secretary.

66a
Appendix A
Timely Motions to Intervene
Alabama Gas Corporation
Atlanta Gas Light Company
Atmos Energy Marketing, LLC
Bartow County School System and
Bartow County Board of Education
City of Cartersville, Georgia
Conoco Phillips Company
Consolidated Edison Company of New York, Inc.
and Philadelphia Gas Works
Duke Energy Carolinas, LLC
Municipal Gas Authority of Georgia78 and
Transco Municipal Group79

78

The Gas Authority consists, inter alia, of the following
municipalities which are served directly by Transco: the Georgia
municipalities of Bowman, Buford, Commerce, Covington, Elberton,
Hartwell, Lawrenceville, Madison, Monroe, Royston, Social
Circle, Sugar Hill, Toccoa, Winder, and Tri-County Natural Gas
Company (consisting of Crawfordville, Greensboro and Union
Point); the East Central Alabama Gas District, Alabama; the
towns of Wadley and Rockford, Alabama; the Utilities Board of
the City of Roanoke, Alabama; Wedowee Water, Sewer & Gas
Board, Wedowee, Alabama; and the Maplesville Waterworks and
Gas Board, Maplesville, Alabama.
79

The members of TMG include the Cities of Alexander City
and Sylacauga, Alabama; the Commissions of Public Works of
Greenwood, Greer, and Laurens, South Carolina; the Cities of
Fountain Inn and Union, South Carolina; the Patriots Energy
Group (consisting of the Natural Gas Authorities of Chester,
Lancaster and York Counties, South Carolina); and the cities of

67a
National Grid Gas Delivery Companies
New Jersey Natural Gas Company
NJR Energy Services Company
North Carolina Utilities Commission and New York
State Public Service
Commission
Oglethorpe Power Corporation
Piedmont Natural Gas Company, Inc.
PSEG Energy Resources & Trade LLC
SCE & GPSC of North Carolina
UGI Distribution Company

Bessemer City, Greenville, Kings Mountain, Lexington, Monroe,
Rocky Mount, Shelby, and Wilson, North Carolina.

68a
Appendix B
Late Motions to Intervene
1460 Partnership, LLLP
Coosa River Basin Initiative
David L. Shumaker
Handy Land and Timber, LLC
Ivan Goldenberg and Christine Cali Snellgrove Glenn
Paul Corley
Scott & Judy Mullis, Donna Gordon, Aimee and Phillip
Hutzelman, Kathleen and Michael Rossi, Darlos and
William Biossat, and Cynthia Schiller Jackson
Southern Company Services, Inc.
Virginia Corley Casey, Douglas Van Corley, Edward
Daniel Corley, Wanda Corley Haight, and Mary Corley
White

69a
Appendix C
Environmental Conditions
As recommended in the environmental assessment
(EA) this authorization includes the following
conditions:
1. Transcontinental Gas Pipe Line Company, LLC
(Transco) shall follow the construction procedures and
mitigation measures described in its application,
supplemental filings (including responses to staff data
requests), and as identified in the EA, unless modified
by the Order. Transco must:
a. request any modification to these procedures,
measures, or conditions in a filing with the Secretary
of the Commission (Secretary);
b. justify each modification relative to sitespecific conditions;
c. explain how that modification provides an
equal or greater level of environmental protection
than the original measure; and
d. receive approval in writing from the Director of
the Office of Energy Projects (Director of OEP)
before using that modification.
2. The Director of OEP has delegated authority to
take whatever steps are necessary to ensure the
protection of all environmental resources during construction and operation of the project. This authority
shall allow:
a. the modification of conditions of the Order; and
b. the design and implementation of any additional measures deemed necessary (including stopwork authority) to ensure continued compliance
with the intent of the environmental conditions as

70a
well as the avoidance or mitigation of adverse
environmental impact resulting from construction
and operation of the project.
3. Prior to any construction of the facilities, Transco
shall file an affirmative statement with the Secretary,
certified by a senior company official, that all company
personnel, environmental inspectors (EIs), and contractor personnel will be informed of the EIs’ authority
and have been or will be trained on the implementation
of the environmental mitigation measures appropriate
to their jobs before becoming involved with construction and restoration activities for the project.
4. The authorized facility locations shall be as
shown in the EA, as supplemented by filed alignment
sheets. As soon as they are available and before the
start of construction, Transco shall file with the Secretary
any revised detailed survey alignment maps/sheets for
the project at a scale not smaller than 1:6,000 with
station positions for all facilities approved by the
Order. All requests for modifications of environmental
conditions of the Order or site-specific clearances must
be written and must reference locations designated on
these alignment maps/sheets.
Transco’s exercise of eminent domain authority
granted under NGA section 7(h) in any condemnation
proceedings related to the Order must be consistent
with these authorized facilities and locations. Transco’s
right of eminent domain granted under NGA section
7(h) does not authorize it to increase the size of its
natural gas facilities to accommodate future needs or
to acquire a right-of-way for a pipeline to transport a
commodity other than natural gas.
5. Transco shall file with the Secretary detailed
alignment maps/sheets and aerial photographs at a

71a
scale not smaller than 1:6,000 identifying all route
realignments or facility relocations, and staging areas,
pipe storage and ware yards, new access roads, and
other areas for the project that would be used or
disturbed and have not been previously identified in
filings with the Secretary. Approval for each of these
areas must be explicitly requested in writing. For each
area, the request must include a description of the
existing land use/cover type, documentation of landowner approval, whether any cultural resources or
federally listed threatened or endangered species would
be affected, and whether any other environmentally
sensitive areas are within or abutting the area. All
areas shall be clearly identified on the maps/sheets/
aerial photographs. Each area must be approved in
writing by the Director of OEP before construction in
or near that area.
This requirement does not apply to extra workspace
allowed by Transco’s Plan and/or minor field realignments per landowner needs and requirements that do
not affect other landowners or sensitive environmental
areas such as wetlands.
Examples of alterations requiring approval include
all route realignments and facility location changes
resulting from:
(i) implementation of cultural resources mitigation measures;
(ii) implementation of endangered, threatened, or
special concern species mitigation measures;
(iii) recommendations by state regulatory authorities; and

72a
(iv) agreements with individual landowners that
affect other landowners or could affect sensitive
environmental areas.
6. Within 60 days of the acceptance of the
Certificate and before construction begins, Transco
shall file an Implementation Plan for the project for
review and written approval by the Director of OEP.
Transco must file revisions to the plan as schedules
change. The plan shall identify:
a. how Transco will implement the construction
procedures and mitigation measures described in its
application and supplements (including responses to
staff data requests), identified in the EA, and
required by the Order;
b. how Transco will incorporate these requirements into the contract bid documents, construction
contracts (especially penalty clauses and specifications), and construction drawings so that the
mitigation required at each site is clear to on-site
construction and inspection personnel;
c. the number of EIs assigned per spread, and
how Transco will ensure that sufficient personnel
are available to implement the environmental
mitigation;
d. company personnel, including EIs and contractors, who will receive copies of the appropriate
material;
e. the location and dates of the environmental
compliance training and instructions Transco will
give to all personnel involved with construction and
restoration (initial and refresher training as the
project progresses and personnel changes), with the

73a
opportunity for OEP staff to participate in the
training session;
f. the company personnel (if known) and specific
portion of Transco’s organization having responsibility for compliance;
g. the procedures (including use of contract penalties) Transco will follow if noncompliance occurs;
and
h. for each discrete facility, a Gantt chart (or
similar project scheduling diagram), and dates for:
i. the completion of all required surveys and
reports;
ii. the environmental compliance training of
on-site personnel;
iii. the start of construction; and
iv. the start and completion of restoration.
7. Transco shall employ one or more EIs per
construction spread. The EIs shall be:
a. responsible for monitoring and ensuring compliance with all mitigation measures required by the
Order and other grants, permits, certificates, or
other authorizing documents;
b. responsible for evaluating the construction
contractor’s implementation of the environmental
mitigation measures required in the contract (see
condition 6 above) and any other authorizing
document;
c. empowered to order correction of acts that
violate the environmental conditions of the Order,
and any other authorizing document;

74a
d. a full-time position, separate from all other
activity inspectors;
e. responsible for documenting compliance with
the environmental conditions of the Order, as well
as any environmental conditions/permit requirements imposed by other federal, state, or local
agencies; and
f. responsible for maintaining status reports.
8. Beginning with the filing of its Implementation
Plan, Transco shall file updated status reports on a
weekly basis for the project until all construction and
restoration activities are complete. On request, these
status reports will also be provided to other federal
and state agencies with permitting responsibilities.
Status reports shall include:
a. an update of Transco’s efforts to obtain the
necessary federal authorizations;
b. the current construction status of each spread
of the project, work planned for the following
reporting period, and any schedule changes for
stream crossings or work in other environmentally
sensitive areas;
c. a listing of all problems encountered and each
instance of noncompliance observed by the EI(s)
during the reporting period (both for the conditions
imposed by the Commission and any environmental
conditions/permit requirements imposed by other
federal, state, or local agencies);
d. a description of the corrective actions implemented in response to all instances of noncompliance,
and their cost;
e. the effectiveness of all corrective actions
implemented;

75a
f. a description of any landowner/resident complaints that may relate to compliance with the
requirements of the Order, and the measures taken
to satisfy their concerns; and
g. copies of any correspondence received by
Transco from other federal, state, or local permitting
agencies concerning instances of noncompliance,
and Transco’s response.
9. Prior to receiving written authorization from the
Director of OEP to commence construction of any
project facilities, Transco shall file with the Secretary
documentation that it has received all applicable
authorizations required under federal law (or evidence
of waiver thereof).
10. Transco must receive written authorization
from the Director of OEP before commencing service
on each discrete facility of the project. Such authorization will only be granted following a determination
that rehabilitation and restoration of the right-of-way
and other areas affected by the project are proceeding
satisfactorily.
11. Within 30 days of placing the authorized
facilities for the project into service, Transco shall file
an affirmative statement, certified by a senior
company official:
a. that the facilities have been constructed in
compliance with all applicable conditions, and that
continuing activities will be consistent with all
applicable conditions; or
b. identifying which of the Certificate conditions
Transco has complied with or will comply with. This
statement shall also identify any areas affected by
the project where compliance measures were not

76a
properly implemented, if not previously identified in
filed status reports, and the reason for noncompliance.
12. Prior to construction, Transco shall file with the
Secretary, for review and approval by the Director of
the OEP, a revised Karst Mitigation Plan that
includes a comprehensive karst report providing a
complete discussion of the desktop reviews and field
surveys that were conducted to identify potential karst
features along the route. The report shall:
a. provide the results of geotechnical borings to
determine the nature and extent of the anomalies
detected during the electric resistivity imaging
investigations;
b. provide site-specific mitigation measures for
any karst features identified (e.g., route adjustment); and
c. provide an analysis to determine the pipeline’s
intrinsic ability to span subsidence features and
provide documentation showing where these data
can be found.
13. Prior to any construction within the Etowah
River, Transco shall file with the Secretary, for review
and approval by the Director of OEP, quantitative
modeling results of the turbidity and sedimentation
associated with construction across the Etowah River.
The modeling shall consider blasting activities; trench
excavation and backfilling; and the installation and
removal of the riprap, equipment bridges, and
turbidity curtains. The results of the analysis shall
illustrate the duration, extent, and magnitude of
elevated turbidity levels and sedimentation. In
addition, Transco shall provide its final Etowah River
Turbidity Control and Monitoring Plan.

77a
14. Prior to construction, Transco shall file with the
Secretary, for review and written approval by the
Director OEP, an updated version of its Procedures
that complies entirely with section IV.A.1.d of the
FERC Procedures.
15. Prior to construction, Transco shall file with the
Secretary further site-specific justification for or
modify its proposed workspaces related to waterbodies
noted as “without sufficient justification” in Appendix
L of the EA and file updated alignment sheets, as
appropriate, for review and written approval by the
Director of OEP.
16. Prior to construction, Transco shall file with the
Secretary further site-specific justification for or
modify its proposed workspaces related to wetlands
noted as “without sufficient justification” in Appendix
L of the EA and file updated alignment sheets, as
appropriate, for review and written approval by the
Director of OEP.
17. Prior to construction, Transco shall file with the
Secretary a copy of its final wetland mitigation plan
and documentation of COE approval of the plan.
18. Prior to construction, Transco shall file with the
Secretary a plan describing the feasibility of incorporating plant seeds that support pollinators into
the seed mixes used for restoration of construction
workspaces. These plans shall also describe Transco’s
consultations with the relevant federal and/or state
agencies.
19. Transco shall not begin implementation of any
treatment plans/measures (including archaeological
data recovery); construction of facilities; or use staging
storage, or temporary work areas and new or to-beimproved access roads until:

78a
a. Transco files with the Secretary:
i. all cultural resources survey reports, including special studies such as ground penetrating
radar, evaluation reports, avoidance plans and
treatment plans;
ii. comments on survey reports, special studies,
evaluation reports, avoidance plans and treatment plans from the State Historic Preservation
Office, as well as any comments from federally
recognized Indian tribes;
iii. the Advisory Council on Historic Preservation is afforded an opportunity to comment on the
undertaking if historic properties would be
adversely affected; and
b. the FERC staff reviews and the Director of
OEP approves all cultural resources reports and
plans, and notifies Transco in writing that treatment plans/mitigation measures may be implemented
and/or construction may proceed.
All material filed with the Commission that contains location, character, and ownership information
about cultural resources must have the cover and any
relevant pages therein clearly labeled in bold lettering
“CONTAINS PRIVILEGED INFORMATION – DO
NOT RELEASE.”
20. If changes to the project construction schedule
occur that would materially impact the amount of NOX
emissions generated in a calendar year, Transco shall
file, in its weekly status report, revised construction
emissions estimates prior to implementing the schedule modification with the Secretary demonstrating
that the annual NOX emissions resulting from the

79a
revised construction schedule do not exceed general
conformity applicability thresholds.
21. Prior to construction of the I-20, Highway 120,
and Joe Frank Harris Parkway locations, Transco
shall file with the Secretary, for review and written
approval by the Director of OEP, an horizontal
directional drill noise mitigation plan to reduce the
projected noise level attributable to the proposed
drilling operations at noise-sensitive areas (NSAs)
with predicted noise levels above 55 decibels on the
A-weighted frequency scale (dBA). During drilling
operations, Transco shall implement the approved
plan, monitor noise levels, and make all reasonable
efforts to restrict the noise attributable to the drilling
operations to no more than an day-night averaged
sound level (Ldn) of 55 dBA at the NSAs.
22. Transco shall file a noise survey with the
Secretary no later than 60 days after placing
Compressor Station 116 into service. If a full load
condition noise survey is not possible, Transco shall
provide an interim survey at the maximum possible
power load and provide the full power load survey
within 6 months. If the noise attributable to the
operation of all of the equipment at any compressor
station at interim or full power load conditions exceeds
55 dBA Ldn at any nearby NSAs, Transco shall file a
report on what changes are needed and shall install
additional noise controls to meet the level within 1
year of the in-service date. Transco shall confirm
compliance with the above requirement by filing a
second noise survey with the Secretary no later than
60 days after it installs the additional noise controls.
23. Transco shall file a noise survey with the
Secretary no later than 60 days after placing the
Murray Meter Station in service. If the noise

80a
attributable to the operation of the meter station at
maximum flow exceeds an Ldn of 55 dBA at any nearby
NSAs, Transco shall install additional noise controls
to meet that level within 1 year of the in-service date.
Transco shall confirm compliance with the Ldn of 55
dBA requirement by filing a second noise survey with
the Secretary no later than 60 days after it installs the
additional noise controls.
24. Transco shall incorporate the alternative route
identified by Mr. Shumaker (MPs 0.0 to 0.7) and the
route identified by the First Baptist Church of Atlanta
(MPs 25.0 to 26.0) into the project alignment. If Transco
determines that either of the alternative routes cannot
be constructed, Transco must provide additional justification for the review of FERC staff or document
landowner concurrence with the currently proposed
route.

81a
APPENDIX C
161 FERC ¶ 61,211
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Docket No. CP15-117-001
Before Commissioners:

Neil Chatterjee, Chairman;
Cheryl A. LaFleur, and
Robert F. Powelson.

Transcontinental Gas Pipe Line Company, LLC
ORDER DENYING REHEARING
(Issued November 21, 2017)
1. On August 3, 2016, the Commission issued an
order granting, subject to conditions, a certificate
of public convenience and necessity authorizing
Transcontinental Gas Pipe Line Company, LLC
(Transco) to construct, lease, and operate pipeline,
compression, metering, and appurtenant facilities in
Virginia, North Carolina, and Georgia (Dalton
Expansion Project). 1 In doing so, the Commission
accepted, over protest from the North Carolina
Utilities Commission (North Carolina Commission)
and New York State Public Service Commission
(collectively, State Commissions), Transco’s use of a
pre-tax return of 15.34 percent in calculating its
proposed incremental recourse rates for the Dalton
Expansion Project. 2 The Commission also rejected
1

Transcontinental Gas Pipe Line Co., LLC, 156 FERC
¶ 61,092 (2016) (August 3 Order).
2

Id. PP 23-29. Transco proposed to use the same rate of
return in calculating proposed recourse rates for its Virginia
Southside Expansion II Project in Docket No. CP15-118-000. See
id. P 23.

82a
concerns raised by the State Commissions regarding
Transco’s calculation of annual lease payments under
its project lease, finding that using costs from the
first year of the lease to calculate rates for the 25year term was consistent with Commission regulations and precedent, and that the lease arrangement
provided benefits to shippers.3
2. In a joint request for rehearing filed on August
8, 2016, State Commissions renew their concerns
regarding the rate of return used to calculate
Transco’s incremental recourse rates.4 They contend
that the Commission erred by failing to take into
account the significant changes in the financial
markets which have occurred since the Commission’s
approval of a 15.34 percent pre-tax return for
Transco, which was the last specified rate of return
from Transco’s general rate case approved by the
Commission under section 4 of the Natural Gas Act
(NGA) in 2002 and the rate of return used to
calculate Transco’s incremental recourse rates.
3. In a separate filing on September 2, 2016, the
North Carolina Commission seeks rehearing of the
Commission’s decision to accept Transco’s lease of
capacity based on a single year of cost and revenue.
The North Carolina Commission contends that such
an analysis fails to take into account the depreciation
of the leased facilities and cannot support a finding
that the lease payments will be less than the equiva3
4

Id. P 53.

State Commissions filed the same rehearing request in this
proceeding and in the proceeding on the Virginia Southside
Expansion II Project in Docket No. CP15-118-001. An order is
being issued concurrently in Docket No. CP15-118-001 addressing State Commissions’ rehearing request with respect to the
Virginia Southside Expansion II Project.

83a
lent cost of service had Transco constructed the facilities itself. The North Carolina Commission advocates
for a life-of-the-lease analysis of the pertinent costs.
4. For the reasons discussed below, we deny the
requests for rehearing.
Commission Determination
A. Rate of Return
5. State Commissions acknowledge that, in the
August 3 Order, the Commission applied its established policy in section 7 proceedings of requiring
incremental recourse rates to be designed using the
rate of return specified in the pipeline’s most recent
general rate case approved under section 4 of the
NGA.5 If the most recent section 4 rate case involved
a settlement that did not specify a rate of return or
pre-tax return, we look to the most recent prior rate
case that did so specify.6 State Commissions nevertheless assert that the Commission was arbitrary and
capricious and failed to engage in reasoned decisionmaking because it: (1) failed to protect consumers
from excessive rates by permitting Transco to calculate its recourse rates using an excessive pre-tax
return,7 and (2) did not require that the return be
calculated based on current market conditions. 8
These arguments were advanced by State Commis-

5

State Commissions Rehearing Request at 12. See also
August 3 Order, 156 FERC ¶ 61,092 at P 26 (explaining Commission’s policy).
6

See August 3 Order, 156 FERC ¶ 61,092 at P 26 n.26 (citing
cases).
7

State Commissions Rehearing Request at 9-16.

8

Id. at 16-17.

84a
sions in their initial pleadings,9 and fully addressed
in the August 3 Order.10 State Commissions present
no new evidence or arguments that warrant reversing the Commission’s application of its consistent
policy in the August 3 Order, nor have they demonstrated that circumstances have changed such that
the policy should no longer apply.
6. In addition to reiterating arguments addressed
in the August 3 Order, State Commissions contend on
rehearing that the Commission erred in referring to
Atlantic Refining Co. v. Pub. Serv. Comm’n of N.Y.
(CATCO),11 a case regarding the Commission’s discretion in section 7 proceedings to approve initial
rates that will “hold the line” until just and reasonable rates are adjudicated under sections 4 or 5 of the
NGA. 12 According to State Commissions, the cited
case is inapplicable because it predates the existence
of negotiated rates, and the fact that Transco will
need to file an NGA general section 4 rate case
by August 31, 2018, fails to protect customers
from excessive rates charged before that time. We
disagree.
7. Initially, State Commissions fail to explain
how the advent of negotiated rates constitutes a
“change in circumstance” negating the Commission’s
discretion to approve initial rates in this section 7
certificate proceeding under the public convenience
and necessity standard pending the adjudication of
just and reasonable rates in Transco’s next NGA
9

See State Commissions April 22, 2015 Protest at 9-13; State
Commissions May 27, 2015 Answer at 2-5.
10

August 3 Order, 156 FERC ¶ 61,092 at PP 23-29.

11

360 U.S. 378 (1959).

12

State Commissions Rehearing Request at 17-18.

85a
general section 4 rate case.13 In the August 3 Order,
the Commission cited CATCO to contrast the less
rigorous public convenience and necessity standard of
review employed under section 7 to assess initial
rates for new service or facilities with the just and
reasonable standard of review for rate changes under
sections 4 and 5. 14 The less exacting standard of
review used in a section 7 certificate proceeding is
intended to mitigate the delay associated with a full
evidentiary rate proceeding, and the Commission has
discretion to approve initial rates that will “hold the
line” while awaiting the adjudication of just and
reasonable rates. 15 State Commissions’ observation
that CATCO was decided before the development
of negotiated and recourse rates does not detract
from these basic tenets or their applicability in this
proceeding. Whether the initial rates in question
are recourse rates, serving as a check against the
exercise of market power by pipelines with negotiated
rate authority, or the rates actually charged to
shippers, the Commission retains the discretion to
protect the public interest while preventing the delays that can accompany full evidentiary proceedings.
8. The fact that the rates in Transco’s next NGA
general section 4 rate case will go into effect prospectively does not change this analysis. Indeed, this is
always the case.16 In light of the delay involved in
13

Id. at 17 (“To begin, negotiated rates did not exist in 1959
at the time of this decision. This change in circumstance renders
this decision inapposite.”).
14

August 3 Order, 156 FERC ¶ 61,092 at P 27 and n.30
(citing CATCO, 360 U.S. at 390).
15
16

Id. (citing CATCO, 360 U.S. at 391-92).

See CATCO, 360 U.S. at 389 (noting that new rate changes
filed under section 4 become effective upon filing, subject to

86a
new rates becoming effective following the initial
certification, the Commission must undertake “a
most careful scrutiny and responsible reaction to
initial price proposals of producers under [NGA
section] 7.”17 In this case, the Commission appropriately examined Transco’s proposal under the public
convenience and necessity standard, applied its
consistent policy to accept recourse rates designed
using the last Commission-approved rate of return
from a NGA general section 4 rate case in which a
rate of return was specified in order to calculate
the rates, but pointed out that, in any event, parties
would have the opportunity to raise concerns regarding Transco’s pre-tax return and other cost of service
components in the next NGA general section 4 rate
case, to be filed by August 31, 2018.18 State Commissions have not persuaded us on rehearing to revisit
this determination.
B. Lease Payments
9. In the August 3 Order, the Commission accepted
a proposed lease arrangement under which the new
pipeline lateral constructed for the Dalton Expansion
Project would be jointly owned by Transco and
Dogwood Enterprise Holdings, Inc. (Dogwood), with
Dogwood leasing its 50 percent ownership interest
in the lateral to Transco for a primary term of 25
years.19 As relevant here, the Commission found that
the annual amount Transco would pay Dogwood
suspension and the posting of a bond, where required, and that
just and reasonable rates fixed in a section 5 proceeding become
effective prospectively only).
17

Id. at 390-91.

18

August 3 Order, 156 FERC ¶ 61,092 at P 28.

19

Id. P 41.

87a
under the lease (based on fixed lease payments of
$2,140,916.70 per month) was $20,754,747 less than
the equivalent cost of service that would result if
Transco constructed and owned the facilities itself.
The Commission thus concluded that the lease
arrangement benefited shippers.20 In so finding, the
Commission rejected State Commissions’ contention
that Transco’s analysis of the cost of the lease versus
equivalent service on pipeline-owned facilities was
deficient because Transco only analyzed cost data for
the first year of the lease and did not account for
depreciation of the facilities over the 25-year term.21
10. On rehearing, the North Carolina Commission
again argues that the Commission’s finding that
approval of the lease agreement will reduce the
amount shippers will pay under the recourse rate by
an estimated $20,754,747 per year is unfounded
because the Commission did not take into account
depreciation of the facilities that should decrease the
cost of service over the life of the lease.22 The North
Carolina Commission thus claims that the Commission “ignor[ed] 96% of the life of the lease in its
economic analysis” and therefore failed to evaluate
all factors bearing on the public interest determination regarding the lease.23
20

Id. P 50.

21

Id. PP 51-53. See State Commissions April 22, 2015 Protest
at 14-15; State Commissions May 27, 2015 Answer at 6-8.
22
23

North Carolina Commission Rehearing Request at 5-11.

Id. at 11. The North Carolina Commission also claims that
the Commission’s reliance on section 157.14(a)(18)(c)(ii)(a) of the
Commission’s regulations to approve the lease is misplaced. To
clarify, that regulation addresses the support needed for initial
rates and we agree that it does not directly address our lease
policy. However, as explained in the August 3 Order and herein,

88a
11. We deny rehearing and affirm the Commission’s finding that the lease arrangement provides a
lower rate than if Transco constructed the facilities
itself and, as such, benefits shippers. As explained in
the August 3 Order, rates are based on a first year
cost of service and pipelines are under no obligation
to revise their cost of service and associated recourse
rates over time to account for depreciation.24 Moreover, other cost factors could increase, or billing
determinants could decrease, that would have the
effect of offsetting the impact of depreciation on the
cost of service in the future. There is simply no way
to predict what the future cost of service or rates for
the project would be over the lease term to the extent
that Transco constructed and owned all of the project
facilities. For these reasons, we find that the North
Carolina Commission’s assertion that the Commission ignored all factors bearing on the public interest
is unfounded.
12. The North Carolina Commission alleges that
“[t]he fact that Dogwood does not provide transportation services” has somehow “be[en] used to convert a
life of the lease analysis requirement into a first year
only analysis.”25 That is incorrect. In the August 3
Order, the Commission described and analyzed the
three factors of its lease-approval analysis. 26 The
the Commission’s approval of the lease is consistent with our
precedent.
24

See August 3 Order, 156 FERC ¶ 61,092 at P 53.

25

North Carolina Commission Rehearing Request at 9.

26

See August 3 Order, 156 FERC ¶ 61,092 at P 48 (explaining
that “[t]he Commission’s practice has been to approve a lease
if it finds that: (1) there are benefits from using a lease arrangement; (2) the lease payments are less than, or equal to, the
lessor’s firm transportation rates for comparable service over

89a
Commission noted that the second criterion –
whether lease payments would be less than the
lessor’s firm transportation rates for comparable service over the term of the lease – was not applicable
because Dogwood does not provide transportation
services, and thus has no firm transportation rates
to which the lease payments may be compared. 27
Second, in cases where the Commission applies the
second criterion to compare lease payments to the
lessor’s firm transportation rates for comparable
service over the term of the lease on a net present
value basis, the Commission does not adjust the
lessor’s firm transportation rates to account for
depreciation of the facilities over the term of the
lease, the position the North Carolina Commission
advocates here regarding the costs associated with
Transco constructing the facilities itself. Rather, in
those cases, the Commission compares the existing
firm transportation rate of the lessor with the
amount of the lease payments over the term of the
lease.28 There is no adjustment of the lessor’s transportation rate for depreciation over time, because, as
explained above, pipelines are under no obligation to
revise their cost of service and associated recourse
rates over time to account for depreciation. Accordingly, we continue to find that the lease arrangement
provides lower rates and benefits shippers and is
consistent with Commission precedent.

the term of the lease on a net present value basis; and (3) the
lease arrangement does not adversely affect existing customers”).
27
28

Id. P 48 n.48.

See, e.g., Columbia Gas Transmission, LLC, 145 FERC
¶ 61,028, at P19 (2013).

90a
The Commission orders:
The requests for rehearing are hereby denied, as
discussed in the body of this order.
By the Commission.
(SEAL)
Kimberly D. Bose,
Secretary.

91a
APPENDIX D
156 FERC ¶ 61,022
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Docket No. CP15-118-000
Before Commissioners: Norman C. Bay, Chairman;
Cheryl A. LaFleur, Tony Clark,
and Colette D. Honorable.
Transcontinental Gas Pipe Line Company, LLC
ORDER ISSUING CERTIFICATE
(Issued July 7, 2016)
1. On March 23, 2015, Transcontinental Gas Pipe
Line Company, LLC (Transco) filed an application
under section 7(c) of the Natural Gas Act (NGA)1 and
Part 157 of the Commission’s regulations2 for a certificate of public convenience and necessity to construct
and operate the Virginia Southside Expansion Project
II (VSEP II), which is intended to provide 250,000
dekatherms per day (Dth/day) of incremental firm
transportation service for Virginia Power Services
Energy Corporation, Inc. (Virginia Power).
2. For the reasons discussed below, the Commission
will authorize Transco’s proposal, subject to certain
conditions.
I. Background and Proposal
3. Transco is a natural gas company, as defined by
section 2(6) of the NGA,3 engaged in the transportation
1

15 U.S.C. § 717f(c) (2012).

2

18 C.F.R. pt. 157 (2015).

3

15 U.S.C. § 717a(6) (2012).

92a
of natural gas in interstate commerce. It is a limited
liability company organized and existing under Delaware
law. Transco’s system extends from Texas, Louisiana,
Mississippi, Alabama, and the offshore Gulf of Mexico
area, through Georgia, South Carolina, North Carolina,
Virginia, Maryland, Pennsylvania, and New Jersey, to
its termini in the New York City metropolitan area.
4. Transco proposes to construct and operate the
proposed project to provide 250,000 Dth/day of incremental firm transportation service to a delivery point
at the end of its proposed 4.9-mile-long Greensville
Lateral to serve a new electric power plant to be
constructed in Greensville County, Virginia, by Virginia
Power’s affiliate, Virginia Electric and Power Company
(VEPCO). The 250,000 Dth/day of firm service would
include 165,000 Dth of service from Transco’s Zone 6
Station 210 Pooling Point on Transco’s mainline in
Mercer County, New Jersey, and 85,000 Dth of service
from its Zone 5 Station 165 Pooling Point in
Pittsylvania County, Virginia.
5. Specifically, Transco proposes the construction
and operation of the following new facilities and
modifications to existing facilities:
1) the Greensville Lateral, consisting of approximately 4.19 miles of 24-inch-diameter pipeline
extending from milepost 5.2 on Transco’s existing
Brunswick Lateral in Brunswick County,
Virginia, to VEPCO’s proposed power plant in
Greensville County, Virginia;
2) one 25,000 horsepower (hp) electric-driven compressor unit at Transco’s existing Compressor
Station 185 in Prince William County, Virginia;
3) two 10,915 hp gas-driven compressor units,
three bays of cooling equipment, and the re-

93a
wheeling of two existing compressor units at
Transco’s existing Compressor Station 166 in
Pittsylvania County, Virginia;
4) a new delivery meter station and gas heaters at
the terminus of the Greenville Lateral at
VEPCO’s Greensville power plant;
5) modifications to odorization/deodorization facilities at Transco’s Compressor Station 140 in
Spartanburg County, South Carolina, and to
valve settings and meter stations between
Compressor Station 140 and Transco’s Tryon
Lateral and on Transco’s mainline in North
Carolina and South Carolina; and
6) various related appurtenances underground
facilities and aboveground facilities such as
valves and valve operators, launchers, and
receivers.
Transco estimates that the project will cost approximately $190.8 million.
6. On May 30, 2014, Transco executed a binding
precedent agreement with Virginia Power for 250,000
Dth/day of firm transportation service using the
capacity to be created by VSEP II.4 Subsequently,
Transco held an open season from January 2, 2015
through January 30, 2015; however, Transco received
no other bids for firm service. The precedent agreement with Virginia Power is for firm transportation
service under Transco’s Rate Schedule FT for an
initial 20-year term.

4

The precedent agreement was amended on June 4, 2014 and
June 30, 2014.

94a
7. Transco proposes an initial incremental recourse
reservation charge under its existing Rate Schedule
FT for firm service utilizing VSEP II capacity.5 Transco
proposes to provide any interruptible service using the
expansion capacity at its generally applicable rate
under existing Rate Schedule IT, and to apply its
generally applicable system fuel retention and electric
power rates under its existing Rate Schedules FT
and IT for firm and interruptible services using the
expansion capacity. Transco also requests a predetermination authorizing incremental rate treatment for
the combined costs associated with VSEP II and
Transco’s previously-authorized Virginia Southside
Expansion Project (VSEP I),6 and approval to make a
limited NGA section 4 rate filing for this purpose.
II. Notice, Interventions, and Protests
8. Notice of Transco’s application was issued on
April 1, 2015, and published in the Federal Register on
April 7, 2015.7 The notice established April 22, 2015,
as the deadline for filing comments and interventions.
The parties listed in Appendix A filed timely, unopposed motions to intervene, which were granted by
operation of Rule 214(c)(1) of the Commission’s Rules
of Practice and Procedure.8 Appendix A also includes
the North Carolina Utilities Commission and the New
York State Public Service Commission (collectively,
State Commissions), which jointly filed a timely notice

5

Virginia Power, however, has agreed to a negotiated rate for
its firm service.
6

Transcontinental Gas Pipe Line, LLC, 145 FERC ¶ 61,152
(2013) (Transco VSEP I).
7

80 Fed. Reg. 18,613.

8

18 C.F.R. § 385.214(c)(1) (2015).

95a
of intervention that was granted by operation of Rule
214(a)(2).9
9. On January 12, 2016, Sierra Club and Appalachian Mountain Advocates (collectively, Sierra Club)
jointly filed a late motion to intervene, and comments.
We find that the late intervenors have demonstrated
an interest in the proceeding and that granting
intervention at this stage will not cause undue delay
or disruption, or otherwise prejudice the applicant or
other parties. Accordingly, we grant the motion for
late intervention.10
10. The State Commissions protest Transco’s application. On May 12, 2015, Transco filed an answer to
the protest. On May 27, 2015, the State Commissions
filed an answer to Transco’s answer. Although the
Commission’s Rules of Practice and Procedure do not
permit answers to protests or answers to answers,11
our rules provide that we may, for good cause, waive
this provision.12 We will admit Transco’s and the State
Commissions’ answers because they have provided
information that has assisted us in our decisionmaking process.
11. The State Commissions take issue with the pretax return used by Transco in calculating its proposed
incremental recourse rates in this proceeding and in
its applications for its proposed Dalton Expansion
Project in Docket No. CP15-117-000 and Atlantic
Sunrise Project in Docket No. CP15-138-000. The
State Commissions request that the three certificate
9

18 C.F.R. § 385.214(a)(2) (2015).

10

18 C.F.R. § 385.214(d) (2015).

11

18 C.F.R. § 385.213(a)(2) (2015).

12

18 C.F.R. § 385.101(e) (2015).

96a
applications be partially consolidated to consider the
appropriate pre-tax return in a full evidentiary
hearing. The State Commissions’ protest is addressed
below.
12. Sierra Club’s comments relating to the scope of
the environmental analysis for Transco’s VSEP II proposal were addressed in the Environmental Assessment
(EA) prepared for the project, as discussed below.
III. Discussion
13. Since Transco’s proposed facilities will be used
to transport natural gas in interstate commerce
subject to the jurisdiction of the Commission, the
construction and operation of the facilities are subject
to the requirements of subsections (c) and (e) of section
7 of the NGA.
A. Certificate Policy Statement
14. The Certificate Policy Statement provides guidance for evaluating proposals to certificate new construction.13 The Certificate Policy Statement establishes criteria for determining whether there is a need
for a proposed project and whether the proposed
project will serve the public interest. The Certificate
Policy Statement explains that in deciding whether to
authorize the construction of major new pipeline
facilities, the Commission balances the public benefits
against the potential adverse consequences. The Commission’s goal is to give appropriate consideration to
the enhancement of competitive transportation alternatives, the possibility of overbuilding, subsidization
13

Certification of New Interstate Natural Gas Pipeline Facilities, 88 FERC ¶ 61,227 (1999), order on clarification, 90 FERC
¶ 61,128, order on clarification, 92 FERC ¶ 61,094 (2000)
(Certificate Policy Statement).

97a
by existing customers, the applicant’s responsibility
for unsubscribed capacity, the avoidance of unnecessary disruptions of the environment, and the unneeded
exercise of eminent domain in evaluating new pipeline
construction.
15. Under this policy, the threshold requirement for
existing pipelines proposing new projects is that the
pipeline must be prepared to financially support the
project without relying on subsidization from existing
customers. The next step is to determine whether the
applicant has made efforts to eliminate or minimize
any adverse effects the project might have on the
applicant’s existing customers, existing pipelines in
the market and their captive customers, or landowners and communities affected by the route of the new
facilities. If residual adverse effects on these interest
groups are identified after efforts have been made to
minimize them, the Commission will evaluate the
project by balancing the evidence of public benefits to
be achieved against the residual adverse effects. This
is essentially an economic test. Only when the benefits
outweigh the adverse effects on economic interests will
the Commission proceed to complete the environmental analysis where other interests are considered.
16. As noted above, the threshold requirement for
pipelines proposing new projects is that the pipeline
must be prepared to financially support the project
without relying on subsidization from its existing
customers. Transco proposes an incremental recourse
rate for services using expansion capacity created by
VSEP II. However, while the rate was designed to
recover the cost of service associated with the project,
under the negotiated agreement with the project
shipper, the revenue during the first year of service

98a
would be less than the associated cost of service.14
Therefore, as discussed below, we will not grant a
presumption supporting rolling the VSEP II costs into
either a single incremental rate recovering both the
VSEP I and VSEP II costs, as requested by Transco,
or into Transco’s generally applicable system rates.
If Transco seeks rolled-in rate treatment for costs
associated with the VSEP II expansion capacity in any
future rate proceeding, it will have the burden of proof
to demonstrate that the project has resulted in systemwide benefits sufficient to justify rolled-in rate treatment.15 Because we are denying the presumption, we
find that there is adequate assurance that none of
Transco’s existing customers will subsidize the project,
and the Certificate Policy Statement’s threshold
requirement of no subsidization is satisfied.
17. We find the proposed expansion will have no
effect on service to Transco’s existing customers.
Further, no pipelines or their captive customers filed
adverse comments regarding Transco’s proposal. Thus,
we find that Transco’s proposed project will not adversely
affect its existing customers or other pipelines and
their captive customers.
18. We also find that Transco has routed and
designed the VSEP II to have minimal adverse impact
14

In deciding whether to grant a presumption of rolled-in rate
treatment in a certificate proceeding, the Commission compares
the cost of the project to the revenues that would be generated
using actual contract volumes and the maximum recourse rate
(or the actual negotiated rate if the negotiated rate is lower than
the maximum recourse rate). See Gulf South Pipeline Co., LP, 155
FERC ¶ 61,287, at P 28 (2016).
15

See, e.g., Dominion Transmission, Inc., 153 FERC ¶ 61,382,
at P 44 (2015), and Gulf Crossing Pipeline Company LLC, 144
FERC ¶ 61,196, at P 16 (2013).

99a
on landowners and communities. Proposed new
pipeline construction is limited to the 4.19-mile-long
Greensville Lateral, of which approximately 71.5
percent will be co-located with existing road and/or
utility rights-of-way. While the construction activities
will temporarily affect 180.1 acres of land, Transco will
permanently maintain only approximately 29.3 acres
of land for operation of the project facilities.
19. VSEP II will enable Transco to provide 250,000
Dth/day of incremental firm transportation service for
Virginia Power, which has entered into an agreement
for all of the expansion capacity in order to meet the
gas requirements of the 1,580-megawatt electric generation plant that VEPCO is constructing in Greensville
County, Virginia. In view of the benefits that will
result from the project, with no adverse impacts on
Transco’s existing customers and other pipelines and
their captive customers and minimal impacts on landowners and surrounding communities, the Commission
finds that Transco’s proposal satisfies the Certificate
Policy Statement. Based on this finding and the
environmental review for Transco’s proposed project,
as discussed below, the Commission further finds that
the public convenience and necessity requires approval
and certification of Transco’s proposal under section 7
of the NGA, subject to the environmental and other
conditions in this Order.
B. Rates
1. Pre-tax Rate of Return
20. In their protest, the State Commissions take
issue with Transco’s proposed use of a pre-tax return
of 15.34 percent in calculating its proposed incremental recourse rates in its applications for its VSEP II
proposal in this proceeding, its proposed Dalton

100a
Expansion Project in Docket No. CP15-117-000, and
its proposed Atlantic Sunrise Project in Docket No.
CP15-138-000. The State Commissions acknowledge
Transco’s use of the specified pre-tax return most
recently approved in a section 4 rate case is consistent
with Commission policy, but they emphasize that rate
case was fifteen years ago. They argue the incremental
recourse rates approved in these proceedings should
take into account the significant changes in financial
markets since then.16 The State Commissions assert
that the pre-tax return of 15.34 percent accounts for
approximately half of Transco’s proposed cost of service in these proceedings,17 and their comments included
a discounted cash flow (DCF) analysis, which they
contend reflects current market conditions and reflects
a median rate of return on equity (ROE) of 10.95
percent for natural gas pipelines.18 They request partial
consolidation of these proceedings to consider the appropriate pre-tax return in a full evidentiary hearing.
21. The State Commissions argue that recent Commission orders provide valuable perspective indicating
that Transco’s proposed 15.34 percent pre-tax return
is not reasonable. They reference the 2015 order where
16

Transco’s last section 4 rate case in which a specified rate of
return was used in calculating Commission-approved rates was
in Docket No. RP01-245-000, et al. A letter order issued in that
docket on July 23, 2002, accepted a partial settlement resolving
cost classification, cost allocation, and rate design subject to
certain reservations and adjustments, and revising Transco’s
generally applicable rates. Transcontinental Gas Pipe Line Corp.,
100 FERC ¶ 61,085, at P 2 (2002).
17

State Commissions’ April 22, 2015 Protest in Docket No.
CP15-118-000, et al.
18

Preliminary Pipeline DCF Analysis Exhibit to State Commissions’ Protest.

101a
the Commission relied on a DCF analysis for a proxy
group of pipelines based on a six-month period ending
March 31, 2011, to limit Portland Natural Gas Transmission System’s ROE to 11.59 percent, the top of the
range of reasonable returns for which the median ROE
was 10.28 percent.19 The State Commissions also point
to the Commission’s 2013 orders that limited the
ROEs for El Paso Natural Gas Company and Kern
River Gas Transmission Company to 10.55 percent
and 11.55 percent, respectively.20
22. Transco’s answer emphasizes that this proceeding and the proceedings on its proposed Dalton and
Atlantic Sunrise projects are section 7 certificate
proceedings, not section 4 rate cases, and that its
proposed recourse rates in these certificate proceedings will be initial section 7 rates for incremental
services using new expansion capacity. Transco further
asserts its proposed initial section 7 recourse rates
are consistent with Commission policy in section 7
proceedings, in that they are appropriately designed
to recover each project’s incremental cost of service.21
In the State Commissions’ answer to Transco’s answer,
they contend that when the Commission grants a
19

Portland Natural Gas Transmission System, Opinion 524-A,
150 FERC ¶ 61,107, at P 195 (2015).
20

El Paso Natural Gas Co., Opinion No. 528, 145 FERC
¶ 61,040, at P 686 (2013); Kern River Gas Transmission Co.,
Opinion No. 486-F, 142 FERC ¶ 61,132, at P 263 (2013).
21

Transco cites the Commission’s order that certificated its
Rock Springs Lateral and additional mainline compression to
provide service for another new electric generating plant. In that
order, the Commission approved Transco’s proposed incremental
recourse rate for that expansion capacity, which was calculated
using the pre-tax return of 15.34 percent from its settlement
rates in Docket No. RP01-245. Transcontinental Gas Pipe Line
Co., LLC, 150 FERC ¶ 61,205, at P 17 (2015).

102a
pipeline company negotiated rate authority, it relies
on the availability of cost-based recourse rates to
prevent the pipeline from exercising market power by
ensuring that shippers will have the option of choosing
to pay cost-based recourse rates for expansion capacity
that becomes available on either an interruptible or
firm basis.22 Therefore, the State Commissions assert
that even if a pipeline has negotiated rate agreements
for all of the expansion capacity proposed in a certificate proceeding, the recourse rates nevertheless need
to be properly designed and based on a reasonable
estimate of the actual costs to construct and operate
the expansion capacity.
23. The State Commissions are correct that “the
predicate for permitting a pipeline to charge a negotiated rate is that capacity is available at the recourse
rate,”23 and the Commission therefore requires that
shippers have the option of choosing to pay a costbased recourse rate for expansion capacity that becomes
available. However, as the State Commissions acknowledge, the Commission’s consistent policy in section 7
certificate proceedings is to require that a pipeline’s
cost-based recourse rates for incrementally-priced
expansion capacity be designed using the rate of
return from its most recent general rate case approved
by the Commission under section 4 of the NGA in
22

State Commissions’ May 27, 2015 Answer at 2 (citing
Alternatives to Traditional Cost-of-Service Ratemaking for Natural
Gas Pipelines and Regulation of Negotiated Transportation
Services of Natural Gas Pipelines, 74 FERC ¶ 61,076, at P 4, order
granting clarification, 74 FERC ¶ 61,194 (1996) (Alternatives to
Traditional Cost-of-Service Ratemaking)).
23

Columbia Gas Transmission Corp., 97 FERC ¶ 61,221, at
62,004 (2001) (citing Alternatives to Traditional Cost-of-Service
Ratemaking, 74 FERC ¶ 61,076).

103a
which a specified rate of return was used to calculate
the rates.24 Transco’s proposed incremental project
recourse rate in this certificate proceeding is based on
the specified pre-tax return of 15.34 percent underlying the design of its approved settlement rates in
Docket No. RP01-245-000, et al.25 Since Transco’s more
recently approved general rate case settlements in
Docket Nos. RP12-993-000, et al.26 and RP06-569-004,
24

See, e.g., Trunkline Gas Co., LLC, 135 FERC ¶ 61,019, at
P 33 (2011); Florida Gas Transmission Co., LLC, 132 FERC
¶ 61,040, at P 35 & n.12 (2010); Northwest Pipeline Corp., 98
FERC ¶ 61,352, at 62,499 (2002); and Mojave Pipeline Co., 69
FERC ¶ 61,244, at 61,925 (1994). See also Dominion Cove Point
LNG, LP, 115 FERC ¶ 61,337, at P 132 (2006), order on reh’g,
118 FERC ¶ 61,007, at PP 120 & 122-23 (2007) (allowing, on
rehearing, Dominion Cove Point LNG to recalculate incremental
rates using the rates of return ultimately approved in its pending
rate case, as opposed to its proposed rates of return). If a
pipeline’s most recent general rate case involved a settlement
that did not specify a rate of return or pre-tax return, the
Commission’s policy requires that incremental rates in the
pipeline’s certificate proceedings be calculated using the rate of
return or pre-tax return from its most recent general rate case (or
rate case settlement) in which a specified return component was
used to calculate the approved rates. See, e.g., Equitrans, L.P.,
117 FERC ¶ 61,184, at P 38 (2006). This policy applies even if a
pipeline calculated its proposed incremental rates for expansion
capacity using a rate of return lower than the most recently
approved specified rate of return. Id. (rejecting Equitrans’ proposed use of 14.25 percent ROE component for incremental rates
for mainline extension and requiring recalculation using the
specified pre-tax rate of return of 15 percent that was approved
in its rate case).
25
26

Transcontinental Gas Pipe Line Corp., 100 FERC ¶ 61,085.

Transcontinental Gas Pipe Line Co., LLC, 144 FERC
¶ 63,029, at P 13 (2013) (certifying to the Commission an uncontested settlement in which, “[w]ith the exception of certain
expressly designated items, the cost of service agreement was
reached on a ‘black box’ basis”); Transcontinental Gas Pipeline

104a
et al. were both “black box” settlements that did not
specify the rate of return or most other cost of service
components used to calculate the settlement rates,
Transco calculated its proposed incremental rates in
this certificate proceeding consistent with Commission
policy by using the last Commission-approved specified
pre-tax return of 15.34 percent from its prior rate
proceeding in Docket No. RP01-245.
27

24. Further, in section 7 certificate proceedings the
Commission reviews initial rates for service using
proposed new pipeline capacity under the public convenience and necessity standard, which is a less rigorous
standard than the just and reasonable standard under
NGA sections 4 and 5.28 The Commission develops the
Co., LLC, 145 FERC ¶ 61,205 (2013) (approving and accepting
tariff records to implement rate case settlement).
27

Transcontinental Gas Pipe Line Corp., 122 FERC ¶ 61,213
(2008) (approving and accepting tariff records to implement rate
case settlement); Transcontinental Gas Pipe Line Co., LLC, 147
FERC ¶ 61,102, at P 53 (2014) (explaining that settlement
reached in Docket No. RP06-569 was a “black box” settlement
that did not specify most cost of service components including
rate of return).
28

Atlantic Refining Co. v. Public Serv. Comm’n of New York,
360 U.S. 378 (1959) (CATCO). In CATCO, the Court contrasted
the Commission’s authority under sections 4 and 5 of the NGA to
approve changes to existing rates using existing facilities and its
authority under section 7 to approve initial rates for new services
and services using new facilities. The court recognized “the
inordinate delay” can be associated with a full-evidentiary rate
proceeding and concluded that was the reason why, unlike
sections 4 and 5, section 7 does not require the Commission to
make a determination that an applicant’s proposed initial rates
are or will be just and reasonable before the Commission
certificates new facilities, expansion capacity, and/or services. Id.
at 390. The Court stressed that in deciding under section 7(c)
whether proposed new facilities or services are required by the

105a
recourse rate for expansion capacity based on the
pipeline’s estimated cost of service. As discussed above,
the State Commissions’ protest included a DCF analysis
for natural gas pipelines, which they contend reflects
current market conditions and a median ROE of 10.95
percent. However, the Commission does not believe
that conducting DCF analyses in individual certificate
proceedings would be the most effective or efficient
way for determining the appropriate ROEs for
proposed pipeline expansions. While parties have the
opportunity in section 4 rate proceedings to file and
examine testimony with regard to the composition of
the proxy group to use in the DCF analysis, the growth
rates used in the analysis, and the pipeline’s position
within the zone of reasonableness with regard to risk,
it would be difficult, if not impossible, to complete this
type of analysis in section 7 certificate proceedings in
a timely manner and attempting to do so would
unnecessarily delay proposed projects with time sensitive in-service schedules. The Commission’s current
policy of calculating incremental rates for expansion
capacity using the Commission-approved ROEs underling pipelines’ existing rates is an appropriate exercise
of its discretion in section 7 certificate proceedings to
public convenience and necessity, the Commission is required to
“evaluate all factors bearing on the public interest,” and an
applicant’s proposed initial rates are not “the only factor bearing
on the public convenience and necessity.” Id. at 391. Thus, as
explained by the Court, “[t]he Congress, in § 7(e), has authorized
the Commission to condition certificates in such manner as
the public convenience and necessity may require when the
Commission exercises authority under section 7,” id., and the
Commission therefore has the discretion in section 7 certificate
proceedings to approve initial rates that will “hold the line” and
“ensure that the consuming public may be protected” while
awaiting adjudication of just and reasonable rates under the
more time-consuming ratemaking sections of the NGA. Id. at 392.

106a
approve initial rates that will “hold the line” until just
and reasonable rates are adjudicated under section 4
or 5 of the NGA.
25. Here, Transco is required to file an NGA general
section 4 rate case by August 31, 2018, pursuant to the
comeback provision in Article 6 of the settlement in
Docket No. RP12-993.29 Parties in that future rate case
will have an opportunity to review Transco’s pre-tax
return and other cost of service components. In
addition, given the possibility that that rate case could
result in another settlement for rates that are not
based on a specified rate of return and, as discussed
above, the Commission’s policy in section 7 certificate
proceedings is to require that a pipeline’s initial
rates for expansion capacity be designed using a
Commission-approved, specified rate of return, the
Commission would advise that parties in the rate case
use that opportunity to address issues of concern
relating to the rate of return that should be used in
calculating initial rates in Transco’s future certificate
proceedings.30
26. For the reasons discussed above, the Commission finds that it is appropriate to apply its general
policy to calculate Transco’s initial recourse rate in
this proceeding and that parties raise in Transco’s
upcoming general rate case any issues and concerns
they have regarding the rate of return or other cost of
service components to be used in calculating Transco’s
recourse rates in subsequent certificate proceedings.
29

Transcontinental Gas Pipe Line Co., LLC, 144 FERC
¶ 63,029.
30

See, e.g., Eastern Shore Natural Gas Co., 138 FERC ¶ 61,050
(2012) (approving settlement that established rates on “black
box” basis but provided a specified pre-tax rate of return).

107a
Therefore, the Commission will deny the State Commissions’ request for partial consolidation of Transco’s
certificate proceedings and full trial-type evidentiary
hearing on the rate of return issue.31
2. Initial Rates
27. Transco proposes an initial incremental recourse
reservation charge of $0.44806 per Dth/day and a zero
usage charge. Transco also proposes to assess its
system interruptible, fuel, and lost and unaccounted
for retention charges under its existing Rate Schedules
FT and IT for the project. In support of the proposed
initial rates, Transco submitted an incremental cost of
service and rate design study showing the derivation
of the project recourse rate for the mainline service
based on a total first year cost of service of $40,885,593
and billing determinants of 250,000 Dth/day.32 The
proposed cost of service is based on Transco’s pre-tax
rate of return of 15.34 percent, the most recently
established pre-tax return,33 and its system deprecia31

The Commission’s policy is to consolidate matters only if a
trial-type evidentiary hearing is required to resolve common
issues of law and fact and consolidation will ultimately result in
greater administrative efficiency. Columbia Gulf Transmission
Co., 139 FERC ¶ 61,236, at P 20 (2012); Midcontinent Express
Pipeline LLC, 124 FERC ¶ 61,089, at P 27 (2008). A full trial-type
evidentiary hearing is necessary only where there are material
issues of fact in dispute that cannot be resolved on the basis of
the written record. Moreau v. FERC, 982 F.2d 556, 568 (D.C. Cir.
1993); Dominion Transmission, Inc., 141 FERC ¶ 61,183, at P 15
(2012).
32
33

See Transco’s Application at Exhibit P.

Transcontinental Gas Pipe Line Corp., 100 FERC ¶ 61,085).
Transco has used the specified pre-tax return and certain other
cost factors underlying the Docket No. RP01-245 rates provided
for in the settlement approved by the Commission in that rate
proceeding because, as discussed above, the more recent Docket

108a
tion rates of 2.61 percent for onshore transmission
facilities, including negative salvage, and 4.97 percent
for solar turbines.34
28. On April 30, 2015, the Commission issued a
data request directing Transco to provide a breakdown
of its Operation and Maintenance (O&M) expenses by
FERC account number and labor and non-labor costs
for the new compression, and measuring and regulating facilities. In response, Transco identified a total of
$592,085 in non-labor O&M costs in Account Nos. 853
and 864.35 These non-labor costs are classified as variable costs, and section 284.7(e) of the Commission’s
regulations does not allow variable costs to be recovered
through the reservation charge.36
29. As a part of the April 30, 2015 data request,
Commission staff requested that Transco recalculate
its incremental recourse rates to reflect the removal of
variable costs. Transco’s recalculation reduced the
reservation charge from $0.44806 to $0.44157 per
Dth/day and increased the proposed zero usage charge
to $0.00649 per Dth.37 This recalculated incremental
reservation charge of $0.44157 per Dth/day is still
higher than the currently applicable Rate Schedule
FT reservation charge. Therefore, the Commission will
No. RP12-993 settlement agreement was a “black box” settlement, which does not specify a rate of return or most other cost
of service components.
34

Transcontinental Gas Pipe Line Co., LLC, 145 FERC
¶ 61,205.
35

Transco’s May 11, 2015 Data Response, Response No. 1 and
Schedule 1.
36
37

18 C.F.R. § 284.7(e) (2015).

Transco’s May 11, 2015 Data Response, Response No. 2 and
Schedules 2 and 3.

109a
require that the recalculated incremental base reservation charge of $0.44157 per Dth/day be the initial
recourse charge for firm service using the expansion
capacity.38
30. Transco’s estimated incremental usage charge
of $0.00649 per Dth attributable to the VSEP II
expansion capacity is lower than the currently applicable Rate Schedule FT usage charge. Therefore, the
Commission will require Transco to charge its currently applicable Rate Schedule FT usage charge for
this project.
31. Transco proposes to charge its system interruptible transportation rates under existing Rate
Schedule IT for interruptible service using the VSEP
II expansion capacity.39 The Commission will approve
Transco’s proposal as it is consistent with Commission
policy requiring pipelines to charge their currently
effective system interruptible rates for any interruptible service rendered using expansion capacity integrated
with existing capacity.40 The Commission also is approving Transco’s proposal to assess its generally applicable
system fuel retention and electric power rates.41
32. Transco states its negotiated rate agreement
with Virginia Power contains non-conforming provi38

Under the Certificate Policy Statement, there is a presumption that incremental rates should be charged for proposed expansion
capacity if the incremental rate will exceed the maximum systemwide rate. Certificate Policy Statement, 88 FERC at 61,745.
39

Transco’s May 11, 2015 Data Response, Response No 3.

40

See, e.g., Trunkline Gas Co., LLC, 153 FERC ¶ 61,300, at
P 62 (2015).
41

Transco states that the project facilities are expected to
result in an overall reduction in fuel use. Transco’s Application at
9 and Exhibit Z-1.

110a
sions similar to those approved in connection with
Transco’s VSEP I in Docket No. CP13-30-000. Transco
states that it will file the negotiated rate agreement
prior to the commencement of service as required by
Commission policy.42
3. Preliminary Determination regarding
Rolled-In Treatment for VSEP II Costs
33. Transco requests that the Commission make a
finding that it will be appropriate for Transco to
charge a single incremental recourse rate for firm
VSEP I and VSEP II services, based on the combined
costs of service and billing determinants of both
projects. In addition, Transco requests authorization
to make a filing under section 4 of the NGA for the
limited purpose of consolidating the rates for VSEP I
and VSEP II services into a single incremental rate
to be effective on the projected December 1, 2017,
in-service date for the VSEP II capacity.43 Transco
emphasizes that VSEP II will expand capacity on
Transco’s mainline and South Virginia Lateral for
service utilizing the same path as VSEP I services and
further asserts that VSEP II will benefit significantly
from the relatively inexpensive expansibility made
possible by VSEP I.
42

Pipelines are required to file any service agreement containing non-conforming provisions and to disclose and identify any
transportation term or agreement in a precedent agreement that
survives the execution of the service agreement. See, e.g., Texas
Eastern Transmission, LP, 149 FERC ¶ 61,198, at P 33 (2014).
43

Transco cites Tennessee Gas Pipeline Co., L.L.C., 139 FERC
¶ 61,161 (2012), order on reh’g, 142 FERC ¶ 61,025, at P 19 (2013)
(Tennessee), where the Commission permitted Tennessee Gas
Pipeline to make a section 4 filing for the limited purpose of
consolidating the rates of its Northeast Upgrade Project and 300
Line Project into a single incremental rate.

111a
34. The Commission will deny Transco’s request.
Notwithstanding that Transco is proposing here to roll
the costs of this VSEP II expansion into the rates of
another incrementally-priced project, VSEP I, rather
than into its existing system rates, the standard for
approval is the same. To receive a pre-determination
in a certificate proceeding favoring rolled-in rate
treatment in a future section 4 proceeding, a pipeline
must demonstrate that rolling in the costs associated
with the construction and operation of new facilities
will not result in existing customers subsidizing the
expansion. In general, this means that a pipeline
must show that the revenues to be generated by an
expansion project will exceed the costs of the project.
For purposes of making such a determination, we
compare the cost of the project to the revenues
generated utilizing actual contract volumes and the
maximum recourse rate (or the actual negotiated rate
if the negotiated rate is lower than the recourse rate).44
35. The Commission has determined Transco’s
projected revenue for the first year of project service to
be $39,693,750, compared to the projected cost of
service for the first year of $40,885,593. As a result,
the projected cost of service would exceed projected
revenues, suggesting that rolling the costs of VSEP II
into a single incremental rate for all services using the
combined VSEP I and VSEP II capacity would create
the potential for the VSEP I shippers to subsidize
services using the VSEP II expansion capacity.
36. Given that Transco’s projected revenue for the
first year of VSEP II service is less than the projected
cost of service associated with VSEP II capacity and
44

See Tennessee Gas Pipeline Co., L.L.C., 144 FERC ¶ 61,219,
at P 22 (2013).

112a
service, we find the record does not support a finding
creating a presumption favoring any type of rolled-in
rate treatment for VSEP II’s fixed and non-fuel gas
costs. Further, even if projected VSEP II costs were
less than projected VSEP II revenue, the Commission
does not generally permit a pipeline to file a limited
section 4 proceeding to change the rates for some
services but not others. While Transco is correct that
the Commission made an exception in Tennessee,45 the
circumstances in that proceeding were materially
different.
37. Tennessee sought approval to make a limited
section 4 filing to propose a single incremental recourse
rate for services using capacity created by the
incrementally-priced project authorized in that
proceeding and another incrementally-priced project
authorized in a previous proceeding and already in
service. While the Commission denied Tennessee’s
request in the certificate order, it granted Tennessee’s
request for rehearing on the issue, recognizing that at
the time Tennessee was precluded by a prior rate
settlement moratorium from initiating a general section
4 rate proceeding for another thirteen months.46 Here,
while Transco’s most recent rate settlement does not
require it to initiate a new general rate case until
August 31, 2018,47 it has the option of making an
earlier general section 4 rate case filing including a
proposed single incremental recourse rate for service
using the existing VSEP I expansion capacity or the
45

Tennessee, 139 FERC ¶ 61,16, order on reh’g, 142 FERC
¶ 61,025.
46
47

Tennessee, 142 FERC ¶ 61,025 at P 18.

Transcontinental Gas Pipeline Co., LLC, 145 FERC ¶ 61,205
at P 8.

113a
VSEP II expansion capacity that it plans to place in
service on December 1, 2017.48
38. In view of the above considerations, the
Commission is denying Transco’s requests for authorization to make a limited section 4 filing for purposes
of rolling the costs of VSEP II into a single rate for
VSEP I or VSEP II service and for a predetermination
favoring such rolled-in rate treatment. However, this
finding is without prejudice to Transco proposing to
roll VSEP II’s incremental fixed and non-fuel gas costs

48

The Commission also notes that Tennessee had agreed
before proposing its earlier project to lower the negotiated rate
being paid by that project’s sole shipper once the second project’s
expansion capacity was in service in recognition that the first
project likely would reduce the costs of the second project to
create more expansion capacity for other shippers. Tennessee, 139
FERC ¶ 61,161 at P 24. While neither of Transco’s expansion
shippers subscribing its VSEP I capacity has objected to its
request for a predetermination that would support rolling the
VSEP II costs in with VSEP I costs, Transco does not assert that
it had a similar agreement with the VSEP I shippers. Further,
while Virginia Power will hold both VSEP I and VSEP II capacity,
the other VSEP I shipper (Piedmont) has not subscribed any of
the VSEP II capacity. As discussed above, since projected VSEP
II costs will exceed VSEP II revenue during the first year of
service, the result of Transco’s roll-in proposal would be to
increase the rate for VSEP I capacity. Finally, in granting
Tennessee’s request to make a limited section 4 filing to propose
a single incremental rate for the capacity created by its two
expansion projects, the Commission emphasized that “our ruling
is procedural in nature and does not address the merits of
Tennessee’s specific proposal . . . .” Tennessee, 142 FERC ¶ 61,025
at P 19. In this proceeding, Transco asks not only for approval to
make a limited section 4 filing to propose a single incremental
rate for VSEP capacity, but also requests a finding creating a
presumption that would shift the evidential burden of proof to
any party opposing such rate treatment.

114a
into its incremental VSEP I recourse rate in its next
general section 4 rate case.
4. Reporting Incremental Costs
39. Section 154.309 of the Commission’s regulations49
includes bookkeeping and accounting requirements
applicable to all expansions for which incremental
rates are approved to ensure that costs are properly
allocated between pipelines’ existing shippers and
incremental expansion shippers. Therefore, Transco
must keep separate books and accounting of costs and
revenues attributable to VSEP II capacity and
incremental services using that capacity as required
by section 154.309. The books should be maintained
with applicable cross-references. This information
must be in sufficient detail so that the data can be
identified in Statements G, I, and J in any future NGA
section 4 or 5 rate case, and the information must be
provided consistent with Order No. 710.50
C. Environmental Analysis
40. On May 6, 2015, the Commission issued a
Notice of Intent to Prepare an Environmental Assessment for the proposed Virginia Southside Expansion
Project II and Request for Comments on Environmental
Issues (NOI). The NOI was published in the Federal
Register and mailed to interested parties including
federal, state, and local officials; agency representatives; environmental and public interest groups;
Native American tribes; local libraries and newspapers;
and affected property owners.
49
50

18 C.F.R. § 154.309 (2015).

Revisions to Forms, Statements, and Reporting Requirements
for Natural Gas Pipelines, Order No. 710, FERC Stats. & Regs.
¶ 31,267, at P 23 (2008).

115a
41. We received comments in response to the NOI
from the Virginia Department of Conservation and
Recreation, the Virginia Department of Environmental Quality, the Virginia Department of Transportation,
the Virginia Department of Historic Resources, the
Prince William County Service Authority, and two
individuals. The scoping comments concerned potential
impacts on state-managed natural heritage resources,
including state-listed Manassas stonefly habitat and a
freshwater mussel concentration area, waterbodies,
wildlife, public safety, and historic properties.
42. To satisfy the requirements of the National
Environmental Policy Act of 1969, our staff prepared
an EA for Transco’s proposal. The analysis in the EA
addresses geology, soils, water resources, wetlands,
vegetation, fisheries, wildlife, threatened and endangered species, land use, recreation, visual resources,
cultural resources, air quality, noise, safety, cumulative impacts, and alternatives. The EA was placed into
the public record on May 13, 2016. All substantive
environmental comments received in response to the
NOI were addressed in the EA, as were comments by
Sierra Club that Transco’s proposed VSEP II, its previously authorized VSEP I, and its proposed Atlantic
Sunrise Project should be considered as connected,
cumulative, and/or similar projects in the same environmental document, and that the environmental
analysis also should include indirect and cumulative
impacts of the Greensville power plant to be served
using the VSEP II expansion capacity.51 No further
environmental comments were filed.
51

The environmental analysis for Transco’s VSEP II considered VSEP I and the Atlantic Sunrise Project and concluded that
each of the three projects is functionally independent and that
the projects therefore did not need to be addressed in a single

116a
43. The EA included a recommendation that prior
to construction, Transco should file the results of an
air quality screening (AERSCREEN), or refined modeling
analysis (AERMOD or U.S. Environmental Protection
Agency-approved alternative) for all of the emission
generating equipment (including existing equipment)
at Compressor Station 166. We note that Transco filed
the required modeling on June 14, 2016, showing that
the modeled existing emissions, plus the modeled incremental increase in emissions of criteria pollutants
from the modifications, result in local concentrations
below the national ambient air quality standards.
Therefore, we will not include the EA’s environmental
recommendation regarding air modeling as a condition
in this Order.
44. Based on the analysis in the EA, the Commission concludes that if constructed and operated in
accordance with Transco’s application and in compliance with the environmental conditions in the appendix
to this Order, approval of this proposal would not
constitute a major federal action significantly affecting
the quality of the human environment.
45. Any state or local permits issued with respect to
the jurisdictional facilities authorized herein must be
NEPA document. EA, Section A.3, at 3-4. However, the cumulative impacts analysis included VSEP I and the Atlantic Sunrise
Project and 14 other past, current, and planned jurisdictional
and non-jurisdictional projects in the region, including the
Greensville Power Station. EA, Section B.9, at 62 et seq., and
Appendix E. The EA concluded that with the customary and
recommended additional mitigation measures, VSEP II’s impacts
would be temporary and relatively minor and have a small and
insignificant cumulative effect when added to the mostly temporary and minor impacts from the other projects. EA, Section B.9,
at 78.

117a
consistent with the conditions of this certificate. The
Commission encourages cooperation between interstate pipelines and local authorities. However, this
does not mean that state and local agencies, through
application of state or local laws, may prohibit or
unreasonably delay the construction or operation of
facilities approved by this Commission.52
46. The Commission on its own motion received and
made a part of the record in this proceeding all evidence, including the application, and exhibits thereto,
and all comments and upon consideration of the record,
The Commission orders:
(A) A certificate of public convenience and necessity
is issued to Transco authorizing it to construct and
operate the Virginia Southside Expansion Project II,
as described in the application and conditioned herein.
(B) The certificate issued in ordering paragraph (A)
is conditioned on Transco’s:
(1) completion of construction of the proposed
facilities and making them available for service
within two years of the date of this order pursuant
to section 157.20(b) of the Commission’s regulations;
(2) compliance with all applicable regulations
under the NGA, including paragraphs (a), (c), (e), and
(f) of section 157.20 of the Commission’s regulations;
52

See, e.g., Schneidewind v. ANR Pipeline Co., 485 U.S. 293
(1988); Dominion Transmission, Inc. v. Summers, 723 F.3d 238,
243 (D.C. Cir. 2013) (holding state and local regulation is preempted by the NGA to the extent it conflicts with federal
regulation, or would delay the construction and operation of
facilities approved by the Commission); and Iroquois Gas
Transmission System, L.P., 52 FERC ¶ 61,091 (1990) and 59
FERC ¶ 61,094 (1992).

118a
(3) compliance with the environmental conditions
listed in Appendix B of this order; and
(4) executing, prior to the commencement of
construction, firm contracts for volumes and service
terms equivalent to those in its precedent agreements.
(C) Transco’s initial incremental reservation charge
under Rate Schedule FT as recalculated for the project
to reflect the removal of variable costs is approved, as
discussed above.
(D) Transco is required to charge its generally
applicable Rate Schedule FT Zone 5-6 usage charge as
part of its initial recourse rate.
(E) Transco’s request to charge its generally applicable Zone 5-6 interruptible rates and fuel is approved.
(F) Transco’s request for a pre-determination to
roll-in its project costs with its Virginia Southside
Expansion Project I is denied.
(G) Transco shall file actual tariff records with the
recalculated base reservation charge no earlier than
60 days and no later than 30 days, prior to the date the
project facilities go into service.
(H) As described in this order, not less than 30 days
and not more than 60 days prior to the commencement
of service using the authorized expansion capacity,
Transco must file an executed copy of any nonconforming service agreement associated with the
project as part of its tariff, disclosing and reflecting all
non-conforming language, and a tariff record identifying each such agreement as a non-conforming agreement consistent with section 154.112 of the Commission’s regulations.
(I) As described in the body of this order, Transco
must file any negotiated rate agreement or tariff

119a
record setting forth the essential terms of the
agreement associated with the project at least 30 days,
but not more than 60 days before the proposed
effective date of such rates.
(J) Transco shall keep separate books and accounting of costs attributable to the incremental services
using the expansion capacity created by the project, as
discussed herein.
(K) Transco shall notify the Commission’s environmental staff by telephone, e-mail, and/or facsimile of
any environmental noncompliance identified by other
federal, state, or local agencies on the same day that
such agency notifies Transco. Transco shall file written
confirmation of such notification with the Secretary of
the Commission within 24 hours.
(L) The requests for partial consolidation and a full,
trial-type evidentiary hearing are denied.
(M) The untimely motion to intervene filed jointly
by Sierra Club and Appalachian Mountain Advocates
is granted.
By the Commission.
(SEAL)
Nathaniel J. Davis, Sr.,
Deputy Secretary.

120a
Appendix A
Virginia Southside Expansion Project II
Docket No. CP15-118-000
Timely, Unopposed Interventions
Alabama Gas Corporation
Atmos Energy Marketing, LLC
Columbia Gas of Virginia, Inc.
ConocoPhillips Company
Consolidated Edison Company of New York, Inc.,
and Philadelphia Gas Works
Duke Energy Carolinas, LLC; Duke Energy Progress,
Inc.; and Duke Energy Florida, Inc. (jointly)
Exelon Corporation
Municipal Gas Authority of Georgia,53 and
Transco Municipal Group54 (jointly)

53

Municipal Gas Authority of Georgia includes the following
municipalities served by Transco: the Georgia municipalities of
Bowman, Buford, Commerce, Covington, Elberton, Hartwell,
Lawrenceville, Madison, Monroe, Royston, Social Circle, Sugar
Hill, Toccoa, Winder, and Tri-County Natural Gas Company
(consisting of Crawfordville, Greensboro, and Union Point); the
East Central Alabama Gas District, Alabama; the towns of
Wadley and Rockford, Alabama; the Utilities Board of the City of
Roanoke, Alabama; Wedowee Water, Sewer & Gas Board,
Wedowee, Alabama; and the Maplesville Waterworks and Gas
Board, Maplesville, Alabama.
54

The Transco Municipal Group includes: the cities of
Alexander City and Sylacauga, Alabama; the Commissions of
Public Works of Greenwood, Greer, and Laurens, South Carolina;
the cities of Fountain Inn and Union, South Carolina; the Patriots
Energy Group (consisting of the Natural Gas Authorities of
Chester, Lancaster, and York Counties, South Carolina); and the

121a
New Jersey Natural Gas Company
National Grid Gas Delivery Companies
New York State Public Service Commission
NJR Energy Services Company
North Carolina Utilities Commission
Piedmont Natural Gas Company, Inc.
PSEG Energy Resources & Trade, LLC
Public Service Company of North Carolina, and
South Carolina Electric & Gas Company (jointly)
UGI Distribution Companies55
Virginia Power Services Energy Corporation, Inc.
Washington Gas Light Company

cities of Bessemer City, Greenville, Kings Mountain, Lexington,
Monroe, Rocky Mount, Shelby, and Wilson, North Carolina.
55

UGI Distribution Companies include: UGI Utilities, Inc. and
UGI Penn Natural Gas, Inc.

122a
Appendix B
Virginia Southside Expansion Project II
Docket No. CP15-118-000
Environmental Conditions
As recommended in the Environmental Assessment
(EA), this authorization includes the following conditions:
1. Transcontinental Gas Pipe Line Company, LLC
(Transco) shall follow the construction procedures and
mitigation measures described in its application and
supplements (including responses to staff data requests)
and as identified in the EA, unless modified by the
Order. Transco must:
a. request any modification to these procedures,
measures, or conditions in a filing with the Secretary;
b. justify each modification relative to site-specific
conditions;
c. explain how that modification provides an
equal or greater level of environmental protection
than the original measure; and
d. receive approval in writing from the Director of
the Office of Energy Projects (OEP) before using
that modification.
2. The Director of OEP has delegated authority to
take whatever steps are necessary to ensure the
protection of all environmental resources during construction and operation of the project. This authority
shall allow:
a. the modification of conditions of the Order; and
b. the design and implementation of any additional
measures deemed necessary (including stop-work
authority) to assure continued compliance with the

123a
intent of the environmental conditions as well as the
avoidance or mitigation of adverse environmental
impact resulting from project construction and
operation.
3. Prior to any construction, Transco shall file an
affirmative statement with the Secretary, certified by
a senior company official, that all company personnel,
environmental inspectors (EI), and contractor personnel will be informed of the EI’s authority and have
been or will be trained on the implementation of the
environmental mitigation measures appropriate to
their jobs before becoming involved with construction
and restoration activities.
4. The authorized facility locations shall be as
shown in the EA. As soon as they are available, and
before the start of construction, Transco shall file with
the Secretary any revised detailed survey alignment
maps/sheets at a scale not smaller than 1:6,000 with
station positions for all facilities approved by the
Order. All requests for modifications of environmental
conditions of the Order or site-specific clearances must
be written and must reference locations designated on
these alignment maps/sheets.
Transco’s exercise of eminent domain authority
granted under the Natural Gas Act section 7(h) in
any condemnation proceedings related to the Order
must be consistent with these authorized facilities and
locations. Transco’s right of eminent domain granted
under the Natural Gas Act section 7(h) does not
authorize it to increase the size of its natural gas pipeline or facilities to accommodate future needs or to
acquire a right-of-way for a pipeline to transport a
commodity other than natural gas.

124a
5. Transco shall file with the Secretary detailed
alignment maps/sheets and aerial photographs at a
scale not smaller than 1:6,000 identifying all route
realignments or facility relocations, and staging areas,
pipe storage yards, new access roads, and other areas
that would be used or disturbed and have not been
previously identified in filings with the Secretary.
Approval for each of these areas must be explicitly
requested in writing. For each area, the request must
include a description of the existing land use/cover
type, documentation of landowner approval, whether
any cultural resources or federally listed threatened or
endangered species would be affected, and whether
any other environmentally sensitive areas are within
or abutting the area. All areas shall be clearly identified on the maps/sheets/aerial photographs. Each area
must be approved in writing by the Director of OEP
before construction in or near that area.
This requirement does not apply to extra workspace allowed by the FERC Upland Erosion Control,
Revegetation, and Maintenance Plan or the company
project specific plan described in the document and/or
minor field realignments per landowner needs and
requirements, which do not affect other landowners or
sensitive environmental areas such as wetlands.
Examples of alterations requiring approval include
all route realignments and facility location changes
resulting from:
a. implementation of cultural resources mitigation measures;
b. implementation of endangered, threatened, or
special concern species mitigation measures;
c. recommendations by state regulatory authorities; and

125a
d. agreements with individual landowners that
affect other landowners or could affect sensitive
environmental areas.
6. Within 60 days of the acceptance of the authorization and before construction begins, Transco shall
file an Implementation Plan with the Secretary for
review and written approval by the Director of OEP.
Transco must file revisions to the plan as schedules
change. The plan shall identify:
a. how Transco will implement the construction
procedures and mitigation measures described in its
application and supplements (including responses to
staff data requests), identified in the EA, and
required by the Order;
b. how Transco will incorporate these requirements into the contract bid documents, construction
contracts (especially penalty clauses and specifications), and construction drawings so that the
mitigation required at each site is clear to onsite
construction and inspection personnel;
c. the number of EIs assigned per spread, and
how the company will ensure that sufficient personnel are available to implement the environmental
mitigation;
d. company personnel, including EIs and contractors, who will receive copies of the appropriate
material;
e. the location and dates of the environmental
compliance training and instructions. Transco will
give to all personnel involved with construction and
restoration (initial and refresher training as the
project progresses and personnel change);

126a
f. the company personnel (if known) and specific
portion of Transco’s organization having responsibility for compliance;
g. the procedures (including use of contract penalties) Transco will follow if noncompliance occurs; and
h. for each discrete facility, a Gantt or PERT
chart (or similar project scheduling diagram), and
dates for:
(1) the completion of all required surveys and
reports;
(2) the environmental compliance training of
onsite personnel;
(3) the start of construction; and
(4) the start and completion of restoration.
7. Transco shall employ at least two EIs for the
project facilities in Virginia, and one EI for the facility
modifications in North Carolina and South Carolina.
The EIs shall be:
a. responsible for monitoring and ensuring
compliance with all mitigation measures required
by the Order and other grants, permits, certificates,
or other authorizing documents;
b. responsible for evaluating the construction
contractor’s implementation of the environmental
mitigation measures required in the contract (see
condition 6 above) and any other authorizing
document;
c. empowered to order correction of acts that
violate the environmental conditions of the Order,
and any other authorizing document;

127a
c. for the Greensville Lateral, a full-time position,
separate from all other activity inspectors;
d. responsible for documenting compliance with
the environmental conditions of the Order, as well
as any environmental conditions/permit requirements imposed by other federal, state, or local
agencies; and
e. responsible for maintaining status reports.
8. Beginning with the filing of its Implementation
Plan, Transco shall file updated status reports with
the Secretary on a biweekly basis until all construction
and restoration activities are complete. On request,
these status reports will also be provided to other
federal and state agencies with permitting responsibilities. Status reports shall include:
a. an update on Transco’s efforts to obtain the
necessary federal authorizations;
b. the construction status of the project, work
planned for the following reporting period, and any
schedule changes for stream crossings or work in
other environmentally-sensitive areas;
c. a listing of all problems encountered and each
instance of noncompliance observed by the EIs
during the reporting period (both for the conditions
imposed by the Commission and any environmental
conditions/permit requirements imposed by other
federal, state, or local agencies);
d. a description of the corrective actions implemented in response to all instances of noncompliance,
and their cost;
e. the effectiveness of all corrective actions
implemented;

128a
f. a description of any landowner/resident complaints which may relate to compliance with the
requirements of the Order, and the measures taken
to satisfy their concerns; and
g. copies of any correspondence received by
Transco from other federal, state, or local permitting
agencies concerning instances of noncompliance,
and Transco’s response.
9. Prior to receiving written authorization from the
Director of OEP to commence construction of any
project facilities, Transco shall file with the Secretary
documentation that it has received all applicable
authorizations required under federal law (or evidence
of waiver thereof).
10. Transco must receive written authorization
from the Director of OEP before placing the project
into service. Such authorization will only be granted
following a determination that rehabilitation and restoration of the right-of-way and other areas affected by
the project are proceeding satisfactorily.
11. Within 30 days of placing the authorized
facilities in service, Transco shall file an affirmative
statement with the Secretary, certified by a senior
company official:
a. that the facilities have been constructed in
compliance with all applicable conditions, and that
continuing activities will be consistent with all
applicable conditions; or
b. identifying which of the conditions in the Order
Transco has complied with or will comply with. This
statement shall also identify any areas affected by
the project where compliance measures were not

129a
properly implemented, if not previously identified in
filed status reports, and the reason for noncompliance.
12. Transco shall file a noise survey for Compressor
Stations 166 and 185 no later than 60 days after
placing the stations into service. If a full power load
condition noise survey is not possible, Transco shall
file an interim survey at the maximum possible power
load within 60 days of placing the station into service
and file the full power load survey within 6 months. If
the noise attributable to operation of all equipment at
the station under interim or full power load conditions
exceeds predicted values at any nearby noise sensitive
area, Transco should:
a. file a report with the Secretary, for review and
written approval by the Director of the OEP, on
what changes are needed;
b. install additional noise controls to meet that
level within 1 year of the in-service date; and
c. confirm compliance with this requirement by
filing a second full power load noise survey with the
Secretary for review and written approval by the
Director of the OEP no later than 60 days after it
installs the additional noise controls.

130a
APPENDIX E
161 FERC ¶ 61,212
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Docket No. CP15-118-001
Before Commissioners: Neil Chatterjee, Chairman;
Cheryl A. LaFleur, and
Robert F. Powelson.
Transcontinental Gas Pipe Line Company, LLC
ORDER DENYING REHEARING
(Issued November 21, 2017)
1. On July 7, 2016, the Commission issued an order
granting, subject to conditions, a certificate of public
convenience and necessity authorizing Transcontinental
Gas Pipe Line Company, LLC (Transco) to construct
and operate the Virginia Southside Expansion Project
II.1 In doing so, the Commission accepted, over protest
from the North Carolina Utilities Commission and
New York State Public Service Commission (collectively, State Commissions), Transco’s use of a pre-tax
return of 15.34 percent in calculating its proposed
incremental recourse rates for the Virginia Southside
Expansion Project II.2
2. In a joint request for rehearing filed on August 8,
2016, State Commissions renew their concerns regarding the rate of return used to calculate Transco’s
1

Transcontinental Gas Pipe Line Co., LLC, 156 FERC ¶ 61,022
(2016) (July 7 Order).
2

Id. PP 20-26. Transco proposed to use the same rate of return
in calculating proposed recourse rates for its Dalton Expansion
Project in Docket No. CP15-117-000. See id. P 20.

131a
incremental recourse rates.3 They contend that the
Commission erred by failing to take into account the
significant changes in the financial markets which
have occurred since the Commission’s approval of a
15.34 percent pre-tax return for Transco, which was
the last specified rate of return from Transco’s general
rate case approved by the Commission under section 4
of the Natural Gas Act (NGA) in 2002 and the rate of
return used to calculate Transco’s incremental
recourse rates.
3. For the reasons discussed below, we deny the
request for rehearing.
Commission Determination
4. State Commissions acknowledge that, in the
July 7 Order, the Commission applied its established
policy in section 7 proceedings of requiring incremental recourse rates to be designed using the rate of
return specified in the pipeline’s most recent general
rate case approved under section 4 of the NGA.4 If the
most recent section 4 rate case involved a settlement
that did not specify a rate of return or pre-tax return,
we look to the most recent prior case that did so
specify.5 State Commissions nevertheless assert that
the Commission was arbitrary and capricious and failed
to engage in reasoned decision-making because it: (1)
failed to protect consumers from excessive rates by
3

State Commissions filed the same rehearing request in this
proceeding and in the proceeding on the Dalton Expansion Project
in Docket No. CP15-117-001. An order is being issued concurrently in Docket No. CP15-117-001 addressing State Commissions’
rehearing request with respect to the Dalton Expansion Project.
4

State Commissions Rehearing Request at 12. See also July 7
Order, 156 FERC ¶ 61,022 at P 23 (explaining Commission’s policy).
5

See July 7 Order, 156 FERC ¶ 61,022 at P 23 n.24 (citing cases).

132a
permitting Transco to calculate its recourse rates
using an excessive pre-tax return;6 and (2) did not
require that the return be calculated based on current
market conditions.7 These arguments were advanced
by State Commissions in their initial pleadings,8 and
fully addressed in the July 7 Order.9 State Commissions present no new evidence or arguments that
warrant reversing the Commission’s application of its
consistent policy in the July 7 Order, nor have they
demonstrated that circumstances have changed such
that the policy should no longer apply.
5. In addition to reiterating arguments addressed in
the July 7 Order, State Commissions contend on
rehearing that the Commission erred in referring to
Atlantic Refining Co. v. Pub. Serv. Comm’n of N.Y.
(CATCO),10 a case regarding the Commission’s discretion in section 7 proceedings to approve initial rates
that will “hold the line” until just and reasonable rates
are adjudicated under section 4 or 5 of the NGA.11
According to State Commissions, the cited case is
inapplicable because it pre-dates the existence of
negotiated rates, and the fact that Transco will need
to file an NGA general section 4 rate case by August
31, 2018, fails to protect customers from excessive
rates charged before that time. We disagree.

6

State Commissions Rehearing Request at 9-16.

7

Id. at 16-17.

8

See State Commissions April 22, 2015 Protest at 9-13; State
Commissions May 27, 2015 Answer at 2-5.
9

July 7 Order, 156 FERC ¶ 61,022 at PP 20-26.

10

360 U.S. 378 (1959).

11

State Commissions Rehearing Request at 17-18.

133a
6. Initially, State Commissions fail to explain how
the advent of negotiated rates constitutes a “change in
circumstance” negating the Commission’s discretion
to approve initial rates in this section 7 certificate
proceeding under the public convenience and necessity
standard pending the adjudication of just and reasonable rates in Transco’s next NGA general section 4
rate case.12 In the July 7 Order, the Commission cited
CATCO to contrast the less rigorous public convenience and necessity standard of review employed under
section 7 to assess initial rates for new service or
facilities with the just and reasonable standard of
review for rate changes under sections 4 and 5.13 The
less exacting standard of review used in a section 7
certificate proceeding is intended to mitigate the delay
associated with a full evidentiary rate proceeding, and
the Commission has discretion to approve initial rates
that will “hold the line” while awaiting the adjudication of just and reasonable rates.14 State Commissions’
observation that CATCO was decided before the
development of negotiated and recourse rates does not
detract from these basic tenets or their applicability in
this proceeding. Whether the initial rates in question
are recourse rates, serving as a check against the
exercise of market power by pipelines with negotiated
rate authority, or the rates actually charged to shippers, the Commission retains the discretion to protect
the public interest while preventing the delays that
can accompany full evidentiary proceedings.
12

Id. at 17 (“To begin, negotiated rates did not exist in 1959 at
the time of this decision. This change in circumstance renders
this decision inapposite.”).
13

July 7 Order, 156 FERC ¶ 61,022 at P 24 and n.28 (citing
CATCO, 360 U.S. at 390).
14

Id. (citing CATCO, 360 U.S. at 391-92).

134a
7. The fact that the rates in Transco’s next NGA
general section 4 rate case will go into effect prospectively does not change this analysis. Indeed, this is
always the case.15 In light of the delay involved in new
rates becoming effective following the initial certification, the Commission must undertake “a most careful
scrutiny and responsible reaction to initial price proposals of producers under [NGA section] 7.”16 In this
case, the Commission appropriately examined Transco’s
proposal under the public convenience and necessity
standard, applied its consistent policy to accept
recourse rates designed using the last Commissionapproved rate of return from a NGA general section 4
rate case in which a rate of return was specified in
order to calculate the rates, but pointed out that, in
any event, parties would have the opportunity to raise
concerns regarding Transco’s pre-tax return and other
cost of service components in the next NGA general
section 4 rate case, to be filed by August 31, 2018.17
State Commissions have not persuaded us on
rehearing to revisit this determination.

15

See CATCO, 360 U.S. at 389 (noting that new rate changes
filed under section 4 become effective upon filing, subject to
suspension and the posting of a bond, where required, and that
just and reasonable rates fixed in a section 5 proceeding become
effective prospectively only).
16

Id. at 390-91.

17

July 7 Order, 156 FERC ¶ 61,022 at P 25.

135a
The Commission orders:
State Commissions’ request for rehearing is hereby
denied, as discussed in the body of this order.
By the Commission.
(SEAL)
Kimberly D. Bose,
Secretary.

136a
APPENDIX F
158 FERC ¶ 61,125
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Docket No. CP15-138-000
Before Commissioners: Cheryl A. LaFleur, Acting
Chairman; Norman C. Bay,
and Colette D. Honorable.
Transcontinental Gas Pipe Line Company, LLC
ORDER ISSUING CERTIFICATE
(Issued February 3, 2017)
1. On March 31, 2015, Transcontinental Gas Pipe
Line Company, LLC (Transco) filed an application
under section 7(c) of the Natural Gas Act (NGA)1 and
Part 157 of the Commission’s regulations2 for authorization to construct and operate its proposed Atlantic
Sunrise Project in Pennsylvania, Maryland, Virginia,
North Carolina, and South Carolina. The purpose of
the project is to increase firm incremental transportation service on the Transco system by 1,700,002
dekatherms (Dth) per day.
2. For the reasons discussed below, the Commission
grants Transco’s requested certificate authorizations,
subject to conditions.

1

15 U.S.C. § 717f(c) (2012).

2

18 C.F.R. pt. 157 (2016).

137a
I. Background
3. Transco,3 a Delaware limited liability company,
is a natural gas company4 that transports natural gas
in interstate commerce through its natural gas
transmission system extending from Texas, Louisiana,
and the offshore Gulf of Mexico area, through
Mississippi, Alabama, Georgia, South Carolina, North
Carolina, Virginia, Maryland, Pennsylvania, and New
Jersey, to its termini in the metropolitan New York
City area.
II. Proposal
4. Transco proposes to construct and operate its
Atlantic Sunrise Project to provide 1,700,002 Dth per
day of incremental firm transportation service from
northern Pennsylvania in its rate Zone 6 to its Station
85 in Alabama, including to markets along its pipeline
system in Pennsylvania, Maryland, Virginia, North
Carolina, South Carolina, Georgia, Alabama, and to
interconnects with existing pipelines serving Florida
markets.
5. Specifically, Transco proposes to construct the
following pipeline facilities:
• Central Penn Line North, a 58.7-mile-long,
30-inch-diameter natural gas pipeline with a
maximum allowable operating pressure (MAOP)
3

Transco is a wholly-owned subsidiary of Williams Partners
Operating LLC, which is a subsidiary of Williams Partners L.P.,
which is a subsidiary of the Williams Companies, Inc. On
February 2, 2015, Williams Partners L.P. merged with and into
Access Midstream Partners, L.P. Transco’s subsidiaries are
Cardinal Operating Company, LLC; Cardinal Pipeline Company,
LLC; Pine Needle Operating Company, LLC; TransCardinal
Company, LLC; and TransCardinal LNG Company, LLC.
4

See 15 U.S.C. § 717a(6) (2012).

138a
of 1,480 pounds per square inch gauge (psig)
from milepost L114.0 on Transco’s Leidy Line
in Columbia County, Pennsylvania, to the
proposed Zick Meter Station in Susquehanna
County, Pennsylvania (Zick Interconnection);
• Central Penn Line South, a 127.3-mile-long,
42-inch-diameter natural gas pipeline with a
MAOP of 1,480 psig from milepost 1683.3
on Transco’s mainline in Lancaster County,
Pennsylvania, to milepost L114.0 on Transco’s
Leidy Line in Columbia County, Pennsylvania;5
• Chapman Loop, a 2.5-mile-long, 36-inch-diameter pipeline loop on Transco’s Leidy Line with
an MAOP of 1,200 psig from milepost L186.0 to
milepost L188.6 in Clinton County, Pennsylvania;
and
• Unity Loop, an 8.5-mile-long, 42-inch-diameter
pipeline loop on Transco’s Leidy Line with an
MAOP of 1,200 psig from milepost L120.3 to milepost L128.9 in Lycoming County, Pennsylvania.6
6. Transco also proposes to replace 2.5 miles of
noncontiguous segments of its existing 30-inchdiameter Mainline A pipeline and 30-inch-diameter
Mainline B pipeline between milepost 1578.7 and
milepost 1581.0 in Prince William County, Virginia
(Mainline A & B Replacements).7

5

Central Penn Line North and Central Penn Line South are
collectively known as the Central Penn Line.
6

Once placed into service, the Chapman and Unity Loops
would be referred to as the Leidy Line D.
7

The pipeline replacements would be designed with an MAOP
of 800 psig.

139a
7. Transco proposes to construct the following
aboveground facilities:
• Compressor Station 605: two new 15,000horsepower (hp) electric motor-driven compressor units on the Central Penn Line North at
milepost 44.9 in Wyoming County, Pennsylvania;
• Compressor Station 610: two new 20,000-hp
electric motor-driven compressor units on the
Central Penn Line South at milepost 112.5 in
Columbia County, Pennsylvania;
• Two new meter stations (the Zick and
Springville Meter Stations in Susquehanna and
Wyoming Counties, Pennsylvania, respectively)
and three new regulator stations (the North
Diamond, West Diamond, and River Road
Regulator Stations in Luzerne, Columbia, and
Lancaster Counties, respectively) with interconnecting piping in Pennsylvania; and
• Related appurtenant aboveground facilities,
such as mainline valves, cathodic protection,
communication towers, and internal inspection
device launchers and receivers along the Central
Penn Line, Chapman Loop, Unity Loop, and the
Mainline A and B Replacements.
8. In addition to the proposed new construction,
Transco also proposes to make the following modifications to certain existing aboveground facilities:
• Install one new gas turbine compressor generator unit at each of its three existing Transco
compressor stations:

o A 16,000-hp unit at Compressor Station 520
in Lycoming County, Pennsylvania;

140a
o A 16,000-hp unit at Compressor Station 517
in Columbia County, Pennsylvania; and

o A 30,000-hp unit at Compressor Station 190
in Howard County, Maryland (includes
modifications to valves and yard piping for
bidirectional flow and installation of a
regulator setting);
• Make minor modifications to enable bidirectional flow at Transco’s existing Compressor
Stations 190, 185, 170, 160, 150, and 145 in
Maryland, Virginia, and North Carolina;
• Install odor masking/deodorization equipment
at Transco’s existing Compressor Stations 160,
155, 150, and 145 in North Carolina;
• Install supplemental odorization, odor detection, and odor masking/deodorization at 42
existing metering and regulating stations along
Transco’s existing mainline system in North
Carolina and South Carolina;
• Install odor masking/deodorization equipment
at 14 existing mainline valve locations in North
Carolina and South Carolina;
• Modify the existing Puddlefield Meter Station
in Pennsylvania for shared use of the existing
flare system, communication tower, and additional piping to the adjacent new Springville
Meter Station; and
• Install ancillary facilities, such as mainline valves,
cathodic protection, communication towers,
and internal inspection device launchers and
receivers.

141a
9. Pursuant to a Construction and Ownership
Agreement with Meade Pipeline Co LLC (Meade),8
Transco will construct the Central Penn Line. Once
constructed, Transco and Meade will jointly own the
Central Penn Line.9 Pursuant to a Lease Agreement
between Transco and Meade, once the project is in
service, Meade’s interests in the Central Penn Line
will be leased to Transco. Meade will be a passive
owner. Meade is currently not an NGA jurisdictional
entity and does not intend to become one as part of the
project ownership structure. Transco will be the sole
operator of the project.
10. Transco conducted two open seasons for the
project. The initial open season, held from August 8
through September 27, 2013, resulted in commitments
from eight shippers for 850,002 Dth per day of firm
transportation service on the project, from Transco’s
Leidy Line to Station 85. A ninth shipper, Cabot Oil &
Gas Corporation (Cabot), committed to 850,000 Dth
per day of firm transportation service from a new
interconnection in Susquehanna County, Pennsylvania,
to a new interconnection to Transco’s mainline in
Lancaster County, Pennsylvania (delivering 500,000
8

Meade is an electrical, natural gas, and utilities contractor
and is owned by WGL Midstream, Inc. (WGL Midstream); COG
Holdings LLC; Vega Midstream MPC LLC; and River Road
Interests LLC. WGL Midstream is the lead investor with a 55percent ownership interest in Meade. WGL Midstream, as noted
in this order, is a shipper on the project, having executed a precedent agreement for 44,048 Dth per day of firm transportation
service.
9

Central Penn Line South ownership interest will be divided
70.59 percent and 29.41 percent between Transco and Meade,
respectively, while Central Penn Line North will be divided 41.18
percent and 58.82 percent, respectively, between the two owners.
Transco’s Application at 7.

142a
of the 850,000 Dth per day), and to an existing
interconnection between Transco’s mainline and
Dominion Transmission’s pipeline in Fairfax County,
Virginia (delivering the remaining 350,000 Dth per
day). Transco held a supplemental open season in
February 2014 to gauge additional interest for firm
transportation service on the project. Transco received
no bids as a result of the second open season. Transco
also conducted a reverse open season from April 10 to
April 25, 2014, and received no offers.
11. As a result of the open seasons, Transco executed binding precedent agreements with the following
nine shippers (project shippers) for 100 percent of the
incremental firm transportation service provided by
the project (i.e., 1,700,002 Dth per day):
Shipper
Anadarko Energy
Services Company10
Cabot11
Chief Oil & Gas LLC13
Inflection Energy LLC14
MMGS, Inc.15

Contracted Volumes
44,048 Dth per day
850,000 Dth per day12
420,000 Dth per day
26,429 Dth per day
22,024 Dth per day

10

Anadarko Energy Services Company, a marketer, is a
subsidiary of Anadarko Petroleum Corporation.
11

Cabot is an exploration and production company.

12

See infra note 19.

13

Chief Oil & Gas LLC is an exploration and production
company.
14

Inflection Energy LLC is an exploration and production
company.
15

MMGS, Inc., a marketer, is a subsidiary of Mitsui & Co., Ltd.

Seneca Resources
Corporation16
Southern Company
Services, Inc.17
Southwestern Energy
Services Company18
WGL Midstream, Inc.19

143a
189,405 Dth per day
60,000 Dth per day
44,048 Dth per day
44,048 Dth per day

The precedent agreements require the project
shippers to execute 15-year term firm transportation
service agreements under Transco’s existing Rate
Schedule FT.
12. Transco estimates the cost of the proposed
project is approximately $2.588 billion, of which Transco
will be responsible for $1.839 billion.20 Transco states
that it will undertake permanent financing at a later
date as part of its overall, long-term financing program. Transco has proposed an incremental recourse
reservation rate for firm transportation service on the
16

Seneca Resources Corporation (Seneca), an exploration and
production company, is a subsidiary of National Fuel Gas
Corporation.
17

Southern Company Services, Inc. (Southern Company
Services), a public utility company, is a subsidiary of Southern
Company and serves as an agent for Alabama Power Company,
Georgia Power Company, Gulf Power Company, Mississippi
Power Company, and Southern Power Company.
18

Southwestern Energy Services Company is a marketer.

19

WGL Midstream, Inc., a marketer, is a subsidiary of
Washington Gas Resources Corp., which is a subsidiary of WGL
Holdings, Inc.
20

Exhibit K of Transco’s Application. Pursuant to the
Construction and Ownership Agreement between Transco and
Meade, Meade is responsible for funding its proportional share of
the project cost.

144a
project facilities, as described below. Each project
shipper has agreed to pay a negotiated rate. Transco
will provide service under the terms and conditions of
its existing Rate Schedule FT.
III. Notice, Interventions, and Comments
13. Notice of Transco’s application was published in
the Federal Register on April 15, 2015 (80 Fed. Reg.
20,213), with interventions, comments, and protests
due by April 29, 2015. The parties listed in Appendix
A filed timely, unopposed motions to intervene. The
North Carolina Utilities Commission and the New
York State Public Service Commission filed timely
notices of intervention. Timely, unopposed motions to
intervene and notices of intervention are granted by
operation of Rules 214(a)(2) and 214(c) of the
Commission’s Rules of Practice and Procedure.21 Late
interventions were granted by notice issued on
November 15, 2016 and are listed in Appendix B of
this order.22
14. Numerous entities and individuals filed comments regarding project route and system alternatives,
land use, construction and operational safety, noise
impacts, cumulative impacts, indirect effects, socioeconomic impacts, and project impacts on various natural
and cultural resources, such as geology, air, groundwater, and wetlands. These concerns are addressed in
the Final Environmental Impact Statement (EIS) and/
or below.
IV. Procedural Issues
15. The North Carolina Utilities Commission and
the New York State Public Service Commission (State
21

18 C.F.R. §§ 385.214(a)(2) and 385.214(c) (2016).

22

See id. § 385.214(d).

145a
Commissions) filed a joint protest to Transco’s application, the merits of which we discuss below.23 The State
Commissions also request an evidentiary hearing on
the issues of: (1) Transco’s use of a 15.34 percent pretax rate of return in developing its proposed recourse
rates; and (2) whether the lease arrangement associated with the project benefits ratepayers. The State
Commissions also request that we partially consolidate this proceeding with Transco’s proposals to
construct and operate the Virginia Southside Expansion
Project II (VSEP II)24 and the Dalton Expansion
Project25 in order to address issues about Transco’s
pre-tax rate of return. The Clean Air Council also
seeks a hearing on whether Transco has presented
enough evidence to demonstrate that the project is for
public use and required by public convenience and
necessity, and therefore eminent domain may be
exercised for the project.
16. Although our regulations provide for a hearing,
neither section 7 of the NGA nor our regulations
require that such hearing be a trial-type evidentiary
hearing.26 When, as is usually the case, the written

23

See infra section V.B.1.

24

In VSEP II, Transco was authorized to construct and operate
approximately 4.33 miles of pipeline and compression facilities.
See Transcontinental Gas Pipeline Co., LLC, 156 FERC ¶ 61,022
(2016), reh’g pending.
25

In the Dalton Expansion Project, Transco was authorized to
construct, lease, and operate approximately 115 miles of pipeline
and compression, metering, and appurtenant facilities in
Virginia, North Carolina, and Georgia. See Transcontinental Gas
Pipeline Co., LLC, 156 FERC ¶ 61,092 (2016), reh’g pending.
26

See Minisink Residents for Environmental Preservation and
Safety v. FERC, 762 F.3d 97, 114 (D.C. Cir. 2014) (stating

146a
record provides a sufficient basis for resolving the
relevant issues, it is our practice to provide for a paper
hearing.27 That is the case here. We have reviewed the
requests for an evidentiary hearing and conclude that
all issues of material fact relating to Transco’s
proposal are capable of being resolved on the basis of
the written record. Accordingly, we will deny the State
Commissions’ and the Clean Air Council’s requests for
a formal hearing.
17. As to the State Commissions’ request for partial
consolidation, the Commission’s policy is to consolidate matters only if a trial-type evidentiary hearing is
required to resolve common issues of law and fact and
consolidation will ultimately result in greater administrative efficiency.28 As we previously explained in the
VSEP II and Dalton orders, we do not believe administrative efficiency will be served by consolidating the
three separate certificate proceedings because the
issues raised in the motion are addressed in this order
without need for an evidentiary hearing.29 Thus, we

“FERC’s choice whether to hold an evidentiary hearing is
generally discretionary.”).
27

See NE Hub Partners, L.P., 83 FERC ¶ 61,043, at 61,192
(1998), reh’g denied, 90 FERC ¶ 61,142 (2000); Pine Needle LNG
Co., LLC, 77 FERC ¶ 61,229, at 61,916 (1996). Moreover, courts
have recognized that even where there are disputed issues, the
Commission need not conduct an evidentiary hearing if the
disputed issues “may be adequately resolved on the written
record.” Minisink Residents, 762 F.3d at 114 (quoting Cajun Elec.
Power Coop., Inc. v. FERC, 28 F.3d 173, 177 (D.C. Cir. 1994)).
28

See, e.g., Transcontinental Gas Pipeline Co., LLC, 156 FERC
¶ 61,092 at P 13.
29

See Transcontinental Gas Pipeline Co., LLC, 156 FERC
¶ 61,022 at P 26 and n.31; Transcontinental Gas Pipeline Co.,
LLC, 156 FERC ¶ 61,092 at P 13.

147a
deny the State Commissions’ request for partial
consolidation.
18. Transco filed an answer to the State Commissions’ protest and the State Commissions filed an
answer to Transco’s answer. Transco also filed an
answer to the Clean Air Council’s motion. Although
the Commission’s Rules of Practice and Procedure do
not permit answers to protests or answers to answers,
we find good cause to waive our rules and accept the
answers because they provide information that has
assisted in our decision making process.30
V. Discussion
19. Since the proposed facilities will be used to
transport natural gas in interstate commerce, subject
to the Commission’s jurisdiction, the construction and
operation of the facilities are subject to the requirements of subsections (c) and (e) of section 7 of the NGA.31
A. Certificate Policy Statement
20. The Certificate Policy Statement provides
guidance for evaluating proposals to certificate new
construction.32 The Certificate Policy Statement
establishes criteria for determining whether there is a
need for a proposed project and whether the proposed
project will serve the public interest. The Certificate
Policy Statement explains that in deciding whether to
authorize the construction of major new natural gas
facilities, the Commission balances the public benefits
30

See 18 C.F.R. § 385.213(a)(2) (2016).

31

15 U.S.C. §§ 717f(c) and 717f(e) (2012).

32

Certification of New Interstate Natural Gas Pipeline
Facilities, 88 FERC ¶ 61,227 (1999), order on clarification, 90
FERC ¶ 61,128, order on clarification, 92 FERC ¶ 61,094 (2000)
(Certificate Policy Statement).

148a
against the potential adverse consequences. The
Commission’s goal is to give appropriate consideration
to the enhancement of competitive transportation
alternatives, the possibility of overbuilding, subsidization by existing customers, the applicant’s responsibility
for unsubscribed capacity, the avoidance of unnecessary disruptions of the environment, and the unneeded
exercise of eminent domain in evaluating new pipeline
construction.
21. Under this policy, the threshold requirement for
pipelines proposing new projects is that the pipeline
must be prepared to financially support the project
without relying on subsidization from existing customers. The next step is to determine whether the
applicant has made efforts to eliminate or minimize
any adverse effects the project might have on the
applicant’s existing customers, existing pipelines in
the market and their captive customers, or landowners and communities affected by the construction. If
residual adverse effects on these interest groups are
identified after efforts have been made to minimize
them, the Commission will evaluate the project by
balancing the evidence of public benefits to be
achieved against the residual adverse effects. This is
essentially an economic test. Only when the benefits
outweigh the adverse effects on economic interests will
the Commission proceed to complete the environmental analysis where other interests are considered.
22. As stated, the threshold requirement is that the
applicant must be prepared to financially support
the project without relying on subsidization from its
existing customers. The Commission has determined,
in general, that where a pipeline proposes to charge
incremental rates for new construction that are higher
than the company’s existing system rates, the pipeline

149a
satisfies the threshold requirement that the project
will not be subsidized by existing shippers.33 As
discussed below, Transco proposes an incremental
recourse reservation rate that is higher than its
existing system-wide rate to recover the cost of the
project. The proposed incremental recourse reservation rate is calculated to recover all construction,
installation, operation, and maintenance costs associated with the project. Accordingly, we find that the
project will not be subsidized by Transco’s existing
customers and satisfies the threshold no-subsidy
requirement under the Certificate Policy Statement.
23. The Atlantic Sunrise Project will provide
1,700,002 Dth per day of incremental firm transportation service on Transco’s system from northern
Pennsylvania in its Zone 6 to its Station 85 in
Alabama. All of the proposed capacity has been
subscribed under long-term precedent agreements
with nine shippers.
24. The proposal will not adversely affect Transco’s
existing customers because the project will not
degrade any existing service. Also, the project will not
replace firm transportation service on any other pipeline. Further, no pipelines or their captive customers
have protested Transco’s application. Consequently,
we find that there will be no adverse impacts on other
pipelines or their captive customers.
25. Regarding the project’s impacts on landowners
and communities, the proposed Atlantic Sunrise
Project will disturb approximately 3,741.0 acres of
land during construction and about 1,235.4 acres
during operation. To minimize impacts on landowners,
33

Dominion Transmission, Inc., 155 FERC ¶ 61,106, at P 15
(2016).

150a
Transco will, to the extent practicable, collocate the
proposed pipeline facilities within or adjacent to
existing rights-of-way. For example, Transco states
that approximately 47 percent of the Central Penn
Line North is collocated within existing rights-of way,
approximately 11 percent of Central Penn Line South
is collocated within existing rights of way, and the
Chapman and Unity Loops and Mainline A & B
Replacements are collocated completely within the
right-of-way of Transco’s Leidy Line and Mainline.
Transco states that it will continue to negotiate
with landowners for use of their land. Accordingly, we
find that Transco’s proposal has been designed to
minimize impacts on landowners and the surrounding
communities.
26. Clean Air Council, Friends of Nelson, Wild
Virginia, and other commenters question the public
need for the project. Clean Air Council alleges demand
for the project is lacking because the project was not
designed to provide natural gas service to any
particular end user or market,34 none of the project
shippers are distribution companies, and some of the
natural gas appears to be destined for export. As
support, Clean Air Council filed a study by the
Institute for Energy Economics and Financial Analysis
(IEEFA), which argues, in part, that interstate pipeline
infrastructure to ship natural gas from the Marcellus

34

See Clean Air Council’s June 27, 2016 Comment on the Draft
EIS at 9 (citing Transco’s September 3, 2014 Response to Scoping
Issues Raised During the July 18, 2014 to August 18, 2014
Scoping Period at 14).

151a
and Utica region is overbuilt.36 Clean Air Council also
references an article that states the same.37
35

27. The IEEFA Study argues that five factors
contribute to overbuilding of natural gas infrastructure. First, low natural gas prices in the Marcellus and
Utica region are attracting natural gas developers,
including producers, to build the pipelines to highpriced markets. Second, the lack of a national or
regional planning process for natural gas infrastructure development impedes the ability to assess the
need for new pipeline projects. The study suggests that
the Commission should implement a planning process
for natural gas infrastructure development that
resembles the planning process for electric transmission instead of continuing to look primarily at whether
an individual pipeline proposal is fully subscribed,
35

The Marcellus shale formation extends deep underground
from Ohio and West Virginia, northeast through Pennsylvania
and southern New York. The Utica shale formation lies a few
thousand feet below Marcellus shale formation in primarily the
same, but slightly larger area as the Marcellus shale formation.
See Beardslee v. Inflection Energy, LLC, 761 F.3d 221, 224 (2d
Cir. 2014).
36

Institute for Energy Economics and Financial Analysis,
Risks Associated With Natural Gas Expansion in Appalachia,
April 2016 (filed as Exhibit E in Clean Air Council’s June 27, 2016
Comment on the Draft Environmental Impact Statement)
(IEEFA Study). Although the study focuses on the Mountain
Valley Project (CP16-10- 000) and Atlantic Coast Project (CP15554-000), both of which are not owned, operated, or constructed
by Transco, we consider the study analysis here because it
discusses in general terms risk factors that facilitate overbuilding
of pipeline infrastructure.
37

Natural Gas Intelligence, Marcellus/Utica On Pace for
Pipeline Overbuild, Says Braziel, http://www.naturalgasintel.
com/articles/106695-marcellusutica-on-pace-for-pipeline-overbuildsays-braziel (posted June 8, 2016).

152a
which it alleges would likely result in overbuilding.38
Third, authorized recourse rates for new pipeline
infrastructure that are based on a 14-percent or
greater return on equity, paired with the fact that in
the event of cost over-recovery, a Commission NGA
rate case would not result in a refund to the pipeline’s
customers. Fourth, state regulatory commissions lack
the authority to alter Commission-approved recourse
rates or negotiated rates. Last, the study asserts that
the natural gas industry expects to overbuild pipeline
capacity. The study provides analysis that pipeline
capacity out of the Marcellus and Utica region will
exceed expected production through 2030.39 As a result
of overbuilding, the study argues that investors in
pipelines risk financial loss and affected landowners
risk unnecessary land condemnation or property damage.
28. We disagree with the Clean Air Council’s
assertion that demand for the project is lacking. Under
the Certificate Policy Statement, the Commission
considers all evidence submitted reflecting on the need
for the project, including, but not limited to, precedent
agreements, demand projections, potential cost savings to consumers, or a comparison of projected
demand with the amount of capacity currently serving
the market.40 The IEEFA Study filed by Clean Air
38

Unlike under the Federal Power Act with respect to the
regulation of electric transmission lines and electric markets,
Congress has not authorized the Commission to plan either a
regional or national natural gas pipeline system. Under section
7(c) of the NGA, the Commission shall issue a certificate for any
proposal found to be required by the public convenience and
necessity.
39
40

See IEEFA Study, supra note 36, at 11-12.

See Florida Southeast Connection, LLC, 156 FERC ¶ 61,160,
at P 5 (2016), appeal docketed, No. 16-1329 (D.C. Cir. Oct. 24,
2016); see also Minisink Residents, 762 F.3d at 111, n.10 (stating

153a
Council speaks in generalities and does not assess the
market for the proposed Atlantic Sunrise Project.
However, it does suggest that pipelines like the
proposed project may serve to aid in the delivery of
lower-priced natural gas to higher-priced markets.
Such a result would serve the public interest.
Moreover, the Commission has found that long-term
commitments serve as “significant evidence of demand
for the project.”41 Here, nine project shippers have
executed long-term binding precedent agreements for
firm service using 100 percent of the design capacity
of the proposed project.
29. While it is true that a number of the project
shippers are producers, our policy does not require
that shippers be end-use consumers of natural gas.
Shippers may be marketers, local distribution companies, producers, or end users. As we have previously
stated, a project driven primarily by marketers and
producers does not render it speculative.42 Marketers
or producers who subscribe to firm capacity on a
proposed project on a long-term basis presumably
have made a positive assessment of the potential for
selling gas to end-use consumers in a given market
and have made a business decision to subscribe to the
capacity on the basis of that assessment.43 Here,
Transco designed its project to meet the growing
demand for natural gas in the Mid-Atlantic and souththat the Commission, under its Certificate Policy Statement,
may assess public benefits of a project by looking at precedent
agreements and other factors).
41

Certificate Policy Statement, 88 FERC at 61,748.

42

See Maritimes & Northeast Pipeline, L.L.C., 87 FERC ¶
61,061, at 61,241 (1999).
43

See id.

154a
eastern markets, and substantiated such demand by
executing precedent agreements for 100 percent of the
project’s capacity.
30. The IEEFA Study that the Clean Air Council
references does not demonstrate that natural gas is
not needed in the southeastern U.S. markets. To the
extent the IEEFA Study analyzes the underutilization
rate in the Transco’s service area, the study only states
that existing pipelines are being underutilized in
Virginia and North Carolina. Current underutilization does not presage low future demand for existing
capacity. In fact, as part of this project, Transco
proposes to utilize its underutilized capacity and reroute gas flows on its existing system in these two
states in lieu of constructing new pipeline facilities, to
serve the growing demand in the southeastern market.
Moreover, project shippers have provided evidence of
demand in the southeast. Southern Company Services,
one of the project shippers, owns and operates 42,000
megawatts of generation facilities to serve its retail
and wholesale customers in Alabama, Florida, Georgia,
and Mississippi, and states that it needs firm transportation service that will be made available through
the project.44 Another project shipper, Seneca, stated
that it has entered into long-term natural gas sales
contracts with natural gas and electric end users for
all of its capacity on the project.45 Washington Gas
Light Company, an existing end-use customer on
Transco’s southeastern system, also filed a similar

44

See Southern Company Services’ May 8, 2015 Motion for
Leave to Intervene Out of Time and Supporting Comments at 3-4.
45

See Seneca’s February 8, 2016 Comment at 1.

155a
comment that it needs the capacity provided by the
project.46
31. In addition, the IEEFA Study improperly relies
on a U.S. Department of Energy (DOE) study
concerning the implication of increased demand for
electricity on natural gas infrastructure.47 The DOE
Study does not demonstrate that pipelines are currently overbuilt. It concludes that demand for natural
gas from the electric power sector will only result in
modest additions of new pipeline capacity between
2015 and 2030 (34 to 38 billion cubic feet (Bcf) per day)
compared to historical capacity additions between
1998 and 2013 (127 Bcf per day).48 The study explains
that natural gas production and natural gas demand
are geographically dispersed and natural gas companies are increasingly utilizing underutilized capacity
on existing pipelines, re-routing natural gas flows, and
expanding existing pipeline capacity.49 The DOE
Study does not support the contention that natural gas
infrastructure is currently being overbuilt.
32. With regard to IEEFA Study’s argument that a
14-percent rate of return (ROE) generally is too high,
as discussed below, the Commission’s policy is to use
the ROE approved in the applicant’s last NGA general

46

See Washington Gas Light Company’s April 29, 2015 Motion
to Intervene and February 17, 2016 Comment.
47

U.S. DEP’T OF ENERGY, NATURAL GAS INFRASTRUCTURE
IMPLICATIONS OF INCREASED DEMAND FROM THE ELECTRIC POWER
SECTOR, http://energy.gov/epsa/downloads/report-natural-gas-inf
rastructure-implications-increased-demand-electric-power-sector
(issued Feb. 2015).
48

See id. at 31.

49

See id.

156a
section 4 rate proceeding,50 which for Transco is 15.34
percent.51
33. Based on the benefits that Transco’s proposal
will provide, the absence of adverse effects on existing
customers and other pipelines and their captive customers, and the minimal adverse effects on landowners
or surrounding communities, we find, consistent with
the Certificate Policy Statement and NGA section 7(c),
that the public convenience and necessity requires
approval of Transco’s proposal, subject to the conditions discussed below.
B. Rates
1. Pre-tax Rate of Return
34. In their protest, the State Commissions take
issue with Transco’s proposed use of a pre-tax return
of 15.34 percent in calculating its proposed incremental recourse rates. The State Commissions acknowledge
Transco’s use of the specified pre-tax return most
recently approved in a section 4 rate case is consistent
with Commission policy, but they emphasize that the
Commission approved the settlement in that rate case
almost 15 years ago. They argue the incremental
recourse rates approved in these proceedings should
take into account the significant changes in financial

50

Texas Gas Transmission, 153 FERC ¶ 61,323, at PP 18-19
(2015).
51

See infra P 38. We also note that even with respect to
greenfield natural gas pipeline projects, we have determined that
a 14-percent ROE, based on a 50-50 debt/equity capital structure,
is “in tune with prevailing returns in the marketplace.” Florida
Southeast Connection, 156 FERC ¶ 61,160 at P 20 (quoting
Gateway Pipeline Co., 55 FERC ¶ 61,488, at 62,678 (1991)).

157a
markets since then. The State Commissions assert
that the proposed pre-tax return of 15.34 percent
accounts for approximately half of Transco’s proposed
cost of service in these proceedings,53 and their
comments included a discounted cash flow analysis,
which they contend reflects current market conditions
and supports a median ROE of 10.95 percent for
natural gas pipelines.54
52

35. The State Commissions argue that recent Commission orders provide valuable perspective indicating
that Transco’s proposed 15.34 percent pre-tax return
is not reasonable. They reference a 2015 order where
the Commission relied on a discounted cash flow
analysis for a proxy group of pipelines based on a sixmonth period ending March 31, 2011, to limit Portland
Natural Gas Transmission System’s ROE to 11.59
percent, the top of the range of reasonable returns for
which the median ROE was 10.28 percent.55 The State
Commissions also point to the Commission’s 2013
orders that limited the ROEs for El Paso Natural Gas

52

Transco’s last section 4 rate case in which a specified rate of
return was used in calculating Commission-approved rates was
in Docket No. RP01-245-000, et al. A letter order issued in that
docket on July 23, 2002, accepted a partial settlement resolving
cost classification, cost allocation, and rate design subject to
certain reservations and adjustments, and revising Transco’s
generally applicable rates. Transcontinental Gas Pipe Line Corp.,
100 FERC ¶ 61,085, at P 2 (2002).
53

The State Commissions’ April 22, 2015 Notice of Intervention, Protest, and Requests for Partial Consolidation and
Evidentiary Hearing (State Commissions’ Protest).
54

Preliminary Pipeline Discount Cash Flow Analysis Exhibit
to the State Commissions’ Protest.
55

Portland Natural Gas Transmission System, Opinion 524-A,
150 FERC ¶ 61,107, at P 195 (2015).

158a
Company and Kern River Gas Transmission Company
to 10.55 percent and 11.55 percent, respectively.56
36. Transco’s answer maintains that its current
application is a section 7 certificate proceeding, not a
section 4 rate case, and that its proposed recourse
rates will be initial section 7 rates for incremental
services using new expansion capacity. Transco further
asserts its proposed initial section 7 recourse rates are
consistent with Commission policy in section 7 proceedings, in that they are appropriately designed to
recover the project’s incremental cost of service.57
37. In the State Commissions’ answer to Transco’s
answer, they contend that when the Commission
grants a pipeline company negotiated rate authority,
it relies on the availability of cost-based recourse rates
to prevent the pipeline from exercising market power
by ensuring that shippers will have the option of
choosing to pay cost-based recourse rates for expansion capacity that becomes available on either an
interruptible or firm basis.58 Therefore, the State

56

El Paso Natural Gas Co., Opinion No. 528, 145 FERC
¶ 61,040, at P 686 (2013); Kern River Gas Transmission Co.,
Opinion No. 486-F, 142 FERC ¶ 61,132, at P 263 (2013).
57

Transco cites the Commission’s order that certificated its
Rock Springs Lateral and additional mainline compression to
provide service for another new electric generating plant. In that
order, the Commission approved Transco’s proposed incremental
recourse rate for that expansion capacity, which was calculated
using the pre tax return of 15.34 percent from its settlement rates
in Docket No. RP01-245. Transcontinental Gas Pipe Line Co.,
LLC, 150 FERC ¶ 61,205, at PP 17-19 (2015).
58

The State Commissions’ May 27, 2015 Answer at 2 (citing
Alternatives to Traditional Cost-of-Service Ratemaking for Natural
Gas Pipelines and Regulation of Negotiated Transportation Services
of Natural Gas Pipelines, 74 FERC ¶ 61,076, at 61,240, order

159a
Commissions assert that even if a pipeline has negotiated rate agreements for all of the expansion capacity
proposed in a certificate proceeding, the recourse
rates nevertheless need to be properly designed and
based on a reasonable estimate of the actual costs to
construct and operate the expansion capacity.
38. The State Commissions are correct that “the
predicate for permitting a pipeline to charge a negotiated rate is that capacity is available at the recourse
rate,”59 and the Commission therefore requires that
shippers have the option of choosing to pay a costbased recourse rate for expansion capacity that becomes
available. However, as the State Commissions acknowledge, the Commission’s consistent policy in section 7
certificate proceedings is to require that a pipeline’s
cost-based recourse rates for incrementally-priced
expansion capacity be designed using the rate of
return from its most recent general rate case approved
by the Commission under section 4 of the NGA in
which a specified rate of return was used to calculate
the rates.60 Transco’s proposed incremental project
granting clarification, 74 FERC ¶ 61,194 (1996) (Alternatives to
Traditional Cost-of-Service Ratemaking)).
59

Columbia Gas Transmission Corp., 97 FERC ¶ 61,221, at
62,004 (2001) (citing Alternatives to Traditional Cost-of-Service
Ratemaking, 74 FERC at 61,241).
60

See, e.g., Trunkline Gas Co., LLC, 135 FERC ¶ 61,019, at
P 33 (2011); Florida Gas Transmission Co., LLC, 132 FERC
¶ 61,040, at P 35 & n.12 (2010); Northwest Pipeline Corp., 98
FERC ¶ 61,352, at 62,499 (2002); Mojave Pipeline Co., 69 FERC
¶ 61,244, at 61,925 (1994). See also Dominion Cove Point LNG,
LP, 115 FERC ¶ 61,337, at P 132 (2006), order on reh’g, 118 FERC
¶ 61,007, at PP 120 & 122-23 (2007) (allowing Dominion Cove
Point LNG to recalculate incremental rates using the rates of
return ultimately approved in its pending rate case, as opposed
to its proposed rates of return). If a pipeline’s most recent general

160a
recourse rate in this certificate proceeding is based on
the specified pre-tax return of 15.34 percent underlying the design of its approved settlement rates in
Docket No. RP01-245-000, et al.61 Since Transco’s more
recently approved general rate case settlements in
Docket Nos. RP12-993-000, et al.62 and RP06-569-004,
et al.63 were both “black box” settlements that did not
rate case involved a settlement that did not specify a rate of
return or pre-tax return, the Commission’s policy requires that
incremental rates in the pipeline’s certificate proceedings be
calculated using the rate of return or pre-tax return from its most
recent general rate case (or rate case settlement) in which a
specified return component was used to calculate the approved
rates. See, e.g., Equitrans, L.P., 117 FERC ¶ 61,184, at P 38
(2006). This policy applies even if a pipeline calculated its
proposed incremental rates for expansion capacity using a rate of
return lower than the most recently approved specified rate of
return. Id. (rejecting Equitrans’ proposed use of 14.25 percent
ROE component for incremental rates for mainline extension and
requiring recalculation using the specified pre-tax rate of return
of 15 percent that was approved in its rate case).
61

Transcontinental Gas Pipe Line Corp., 100 FERC ¶ 61,085
(2002). Transco has used the pre-tax return and certain other cost
factors underlying the Docket No. RP01- 245 Settlement rates,
because the more recent Docket No. RP12-993 Agreement is a
“black box” settlement, which does not specify most cost of service
components, including rate of return.
62

Transcontinental Gas Pipe Line Co., LLC, 144 FERC
¶ 63,029, at P 13 (2013) (certifying to the Commission an
uncontested settlement in which, “[w]ith the exception of certain
expressly designated items, the cost of service agreement was
reached on a ‘black box’ basis”); Transcontinental Gas Pipeline
Co., LLC, 145 FERC ¶ 61,205 (2013) (approving and accepting
tariff records to implement rate case settlement).
63

Transcontinental Gas Pipe Line Corp., 122 FERC ¶ 61,213
(2008) (approving and accepting tariff records to implement rate
case settlement); Transcontinental Gas Pipe Line Co., LLC, 147
FERC ¶ 61,102, at P 53 (2014) (explaining that settlement
reached in Docket No. RP06-569 was a “black box” settlement

161a
specify the rate of return or other cost-of-service
components used to calculate the settlement rates,
Transco calculated its proposed incremental rates in
this certificate proceeding consistent with Commission
policy by using the last Commission-approved specified pre-tax return of 15.34 percent from its prior rate
proceeding in Docket No. RP01-245.
39. Further, in section 7 certificate proceedings the
Commission reviews initial rates for service using
proposed new pipeline capacity under the public
convenience and necessity standard, which is a less
rigorous standard than the just and reasonable standard under NGA sections 4 and 5.64 The Commission
that did not specify most cost of service components including
rate of return).
64

Atlantic Refining Co. v. Public Serv. Comm’n of New York,
360 U.S. 378 (1959) (CATCO). In CATCO, the Court contrasted
the Commission’s authority under sections 4 and 5 of the NGA to
approve changes to existing rates using existing facilities and its
authority under section 7 to approve initial rates for new services
and services using new facilities. The court recognized “the
inordinate delay” that can be associated with a full-evidentiary
rate proceeding and concluded that was the reason why, unlike
sections 4 and 5, section 7 does not require the Commission to
make a determination that an applicant’s proposed initial rates
are or will be just and reasonable before the Commission
certificates new facilities, expansion capacity, and/or services. Id.
at 390. The Court stressed that in deciding under section 7(c)
whether proposed new facilities or services are required by the
public convenience and necessity, the Commission is required to
“evaluate all factors bearing on the public interest,” and an
applicant’s proposed initial rates are not “the only factor bearing
on the public convenience and necessity.” Id. at 391. Thus, as
explained by the Court, “[t]he Congress, in § 7(e), has authorized
the Commission to condition certificates in such manner as
the public convenience and necessity may require when the
Commission exercises authority under section 7,” id., and the
Commission therefore has the discretion in section 7 certificate

162a
develops the recourse rate for expansion capacity
based on the pipeline’s estimated cost of service. As
discussed above, the State Commissions’ protest
included a discounted cash flow analysis for natural
gas pipelines, which they contend reflects current
market conditions and a median ROE of 10.95 percent.
However, the Commission does not believe that conducting discounted cash flow analyses in individual
certificate proceedings would be the most effective or
efficient way for determining the appropriate ROEs
for proposed pipeline expansions. While parties have
the opportunity in section 4 rate proceedings to file
and examine testimony with regard to the composition
of the proxy group to use in the discounted cash flow
analysis, the growth rates used in the analysis, and
the pipeline’s position within the zone of reasonableness with regard to risk, it would be difficult, if not
impossible, to complete this type of analysis in section
7 certificate proceedings in a timely manner and attempting to do so would unnecessarily delay proposed
projects with time sensitive in-service schedules. The
Commission’s current policy of calculating incremental rates for expansion capacity using the Commissionapproved ROEs underlying pipelines’ existing rates is
an appropriate exercise of its discretion in section 7
certificate proceedings to approve initial rates that
will “hold the line” until just and reasonable rates are
adjudicated under section 4 or 5 of the NGA.
40. Here, Transco is required to file an NGA general
section 4 rate case by August 31, 2018, pursuant to the
comeback provision in Article 6 of the settlement in
proceedings to approve initial rates that will “hold the line” and
“ensure that the consuming public may be protected” while
awaiting adjudication of just and reasonable rates under the
more time-consuming ratemaking sections of the NGA. Id. at 392.

163a
Docket No. RP12-993-000.65 Parties in that future rate
case will have an opportunity to review Transco’s pretax return and other cost of service components and to
specifically address issues of concern relating to the
rate of return that should be used in calculating initial
rates in Transco’s future certificate proceedings.66
41. For the reasons discussed above, the Commission finds that it is appropriate to apply its general
policy to calculate Transco’s initial recourse rate in
this proceeding and that parties raise in Transco’s
upcoming general rate case any issues and concerns
they have regarding the rate of return or other cost of
service components to be used in calculating Transco’s
recourse rates in subsequent certificate proceedings.
2. Initial Recourse Transportation Rate
42. Transco proposes an incremental recourse
reservation charge of $0.77473/Dth and a commodity
charge of zero. In support of the proposed initial rates,
Transco submitted an incremental cost of service and
rate-design study showing the derivation of the project
recourse rate for the mainline based on the total first
year cost of service of $480,719,972 divided by billing
determinants of 1,700,002 Dth per day.67 The proposed
cost of service is based on Transco’s pre-tax rate of
return of 15.34 percent, as stated above, and Transco’s
system depreciation rates of 2.61 percent (for Transco’s
onshore transmission, including negative salvage) and
4.97 percent (for Transco’s Solar turbines, as included
65

Transcontinental Gas Pipeline Co., LLC, 144 FERC ¶ 63,029
at P 18.
66

See, e.g., Eastern Shore Natural Gas Co., 138 FERC ¶ 61,050
(2012) (approving settlement that established rates on “black
box” basis, but provided a specified pre-tax rate of return).
67

See Exhibit P of Transco’s Application.

164a
in the Stipulation and Agreement in Docket Nos.
RP12-993-000, et al).68
43. Section 284.7(e) of the Commission’s regulations
requiring the use of straight-fixed variable rate design
prohibits the recovery of variable costs in the reservation charge.69 Because Transco’s application included
$42,009,849 in Operation and Maintenance (O&M)
expenses, which are classified as variable costs under
the Commission’s Uniform System of Accounts, in the
reservation charge, Commission staff issued a data
request on June 17, 2015, directing Transco to provide
a breakdown of the O&M expenses by FERC account
number and labor and non-labor costs for the new
pipeline facilities, compression and measuring and
regulating facilities. In response, Transco identified a
total of $1,672,201 in non-labor O&M costs in Account
Nos. 853 and 864.70 Excluding the non-labor O&M
costs, Transco stated its total first year cost of service
is $479,047,771.71
44. In the data request, Commission staff also
requested that Transco recalculate the incremental
daily reservation charge to exclude the project’s
variable costs. In response, Transco recalculated the
reservation charge to be $0.77203 per Dth and the
incremental commodity charge to be $0.00152 per Dth

68

Transcontinental Gas Pipeline Co., LLC, 145 FERC ¶ 61,205.

69

18 C.F.R. § 284.7(e) (2016).

70

See Transco’s June 23, 2015 Response to Data Request No.
1, Schedule No. 1.
71

See Transco’s June 23, 2015 Response to Data Request No.
2, Schedule No. 2.

165a
(Zone 4), $0.00135 per Dth (Zone 5), and $0.00098 per
Dth (Zone 6).72
45. Under the Certificate Policy Statement, there
is a presumption that incremental rates should be
charged for proposed expansion capacity if the incremental rate will exceed the maximum system-wide
rate.73 Because Transco’s recalculated incremental
reservation charge of $0.77203 per Dth is higher than
the currently applicable Rate Schedule FT reservation
charge,74 we will require the use of the recalculated
incremental base reservation charge of $0.77203
per Dth per day as the initial recourse reservation
charge for firm service using the expansion capacity.
Furthermore, Transco’s estimated project commodity
charge is lower than the currently applicable Rate
Schedule FT commodity charge.75 Therefore, we will
require Transco to charge its currently applicable Rate
Schedule FT commodity charge for Zones 4, 5 and 6 for
this project.
46. Transco did not propose interruptible transportation rates. Consistent with Commission policy,
Transco is directed to charge its currently effective
system interruptible rates under Rate Schedule IT for

72

See id., Schedule Nos. 2 and 3.

73

See Certificate Policy Statement, 88 FERC at 61,746.

74

The current Zone 6-4/4-6 Rate Schedule FT maximum rate
is $0.41155 per Dth. Transcontinental Gas Pipe Line Company,
LLC, FERC NGA Gas Tariff, Fifth Revised Volume No. 1, Section
1.1.1, FT - Non-Incremental Rates, 14.0.0.
75

The currently effective Rate Schedule FT commodity charges
are: $0.01387 per Dth (Zone 4), $0.01020 per Dth (Zone 5), and
$0.00596 per Dth (Zone 6). Transcontinental Gas Pipe Line
Company, LLC, FERC NGA Gas Tariff, Fifth Revised Volume No.
1, Section 1.1.1, FT - Non-Incremental Rates, 14.0.0.

166a
any interruptible service rendered on the additional
capacity made available as a result of the project.76
47. Transco states that the project shippers have
elected to enter into negotiated rate agreements for
their capacity. Transco must file either its negotiated
rate agreements or tariff records setting forth the
essential terms of the agreements in accordance
with the Alternative Rate Policy Statement and the
Commission’s negotiated rate policies.77 Such filing
must be made at least 30 days, but not more than 60
days, before the proposed effective date for such rates.78
3. Reporting Incremental Costs
48. Consistent with the Certificate Policy Statement, the Commission directs Transco to keep separate
books and accounting of costs attributable to the
project. The books should be maintained with applicable cross-references, as required by section 154.309
of the Commission’s regulations.79 This information
must be in sufficient detail so that the data can be
identified in Statements G, I, and J in any future NGA

76

See, e.g., Dominion Carolina Gas Transmission, LLC, 155
FERC ¶ 61,231, at P 22 (2016); Texas Eastern Transmission, LP,
139 FERC ¶ 61,138, at P 31 (2012).
77

Natural Gas Pipelines Negotiated Rate Policies and Practices;
Modification of Negotiated Rate Policy, 104 FERC ¶ 61,134
(2003), order on reh’g and clarification, 114 FERC ¶ 61,042, reh’g
dismissed and clarification denied, 114 FERC ¶ 61,304 (2006).
78

Pipelines are required to file any service agreement
containing nonconforming provisions and to disclose and identify
any transportation term or agreement in a precedent agreement
that survives the execution of the service agreement. See 18
C.F.R. § 154.112(b) (2016).
79

Id. § 154.309.

167a
section 4 or 5 rate case and the information must be
provided consistent with Order No. 710.80
4. Fuel Retention and Electric Power Charges
49. Transco proposes to charge its applicable general system fuel retention and electric power charges
for services using the project’s expansion capacity.
Transco also proposes to assess its system fuel, lost
and unaccounted for retention charges under its
existing Rate Schedule FT for the project. Based on a
study that was designed to determine the impact of
fuel consumption (compressor fuel plus the fuel
equivalent of electricity consumed), Transco determined that the project would result in a 30.02 percent
reduction in system fuel use attributable to existing
shippers.81 Based on the projected overall reduction in
fuel use, the Commission approves Transco’s proposal
to charge its generally applicable system fuel retention
and electric power rates.
5. Lease of the Central Penn Line
50. On February 14, 2014, Meade and Transco
entered into three agreements concerning the ownership, operation, and lease of the Central Penn Line:
a Construction and Ownership Agreement, a Lease
Agreement, and an Operation and Maintenance
Agreement. Under the Construction and Ownership
Agreement, Transco will construct the Central Penn
80

See Revisions to Forms, Statements, and Reporting
Requirements for Natural Gas Pipelines, Order No. 710, FERC
Stats. & Regs. ¶ 31,267, at P 23 (2008).
81

The study was based on ten representative days from 2014.
The portion of Transco’s system studied includes all facilities
between Station 65 and Transco’s Leidy Hub in western
Pennsylvania, as well as the new pipeline to be constructed under
the project. See Exhibit Z-1 of Transco’s Application.

168a
Line, and Meade and Transco will jointly fund the
construction of the Central Penn Line facilities in
proportion to their respective ownership interests.
Specifically, Transco will hold a 41.18 percent undivided joint ownership interest in the Central Penn
Line North and a 70.59 percent undivided joint ownership interest in Central Penn Line South. Meade will
hold a 58.82 percent undivided joint ownership interest in the Central Penn Line North and a 29.41
percent undivided joint ownership interest in the
Central Penn Line South. Transco states that Meade
will be a passive owner. Meade is not currently an
NGA jurisdictional entity and does not intend to
become one as a result of the construction and operation of the Central Penn Line. Transco requests that
the Commission find that Meade does not require a
certificate in connection with the project and that the
certificate authority be granted solely to Transco.
51. Under the Lease Agreement, Meade will lease
its ownership interest in the Central Penn Line,
including its interest in the pipeline capacity, to
Transco for a 20-year primary term (beginning from
the date of service on the project) at a fixed monthly
lease charge of $7,964,908. At the termination of the
Lease Agreement, Transco and Meade will be discharged from any further obligations under such
agreement, including any obligation to provide (in the
case of Meade) or to pay for (in the case of Transco) the
lease of facilities, subject to the receipt of the
necessary authorizations from the Commission.
52. As the sole applicant for the NGA section 7(c)
certificate, Transco will operate and maintain the
Central Penn Line during the lease term. Pursuant to
the Lease Agreement, Transco will have full possessory and operational rights to the Central Penn Line

169a
and will have 100 percent of the capacity rights on the
Central Penn Line.
53. Transco asserts that it will utilize the capacity
rights under the Lease Agreement in conjunction with
the capacity to be created by the other project facilities
to provide transportation services under its tariff.
Transco further asserts that during the proposed
lease, all operating and maintenance expenses will be
Transco’s responsibility.
54. Consistent with Commission regulations, Transco
proposes to record the lease as a capital lease in
Account 101.1, Property under Capital Leases, and the
capital lease obligation in Account 243, Obligations
under Capital Leases – Current, and Account 227,
Obligations under Capital Leases – Noncurrent.82
Transco affirms that the lease qualifies as a capital
lease because the present value at the beginning of the
lease term of the minimum lease payments exceeds 90
percent of the fair value of the leased property to the
lessor at the inception of the lease, which is consistent
with section 367.18 of the Commission’s regulations.83
Transco states that the costs and revenues associated
with the project’s leased facilities will be accounted for
separately and segregated from its other system costs.
55. Historically, the Commission views lease arrangements differently from transportation services under
rate contracts. The Commission views a lease of interstate pipeline capacity as an acquisition of a property
interest that the lessee acquires in the capacity of the

82

18 C.F.R. § 367.19 (2016).

83

Id. § 367.18.

170a
lessor’s pipeline. To enter into a lease agreement, the
lessee generally is required to be a natural gas
company under the NGA and required to obtain
section 7(c) certificate authorization to acquire the
capacity. Once acquired, the lessee in essence owns
that capacity and the capacity is subject to the lessee’s
tariff. The leased capacity is allocated for use by the
lessee’s customers.
84

56. The Commission’s practice has been to approve
a lease if the Commissions finds that: (1) there are
benefits from using a lease arrangement; (2) the lease
payments are less than, or equal to, the lessor’s firm
transportation rates for comparable service over the
terms of the lease on a net present value basis; and
(3) the lease arrangement does not adversely affect
existing customers.85 We find that the proposed lease
agreement between Transco and Meade satisfies these
requirements. Therefore, we approve the capacity
lease arrangement because it is required by public
convenience and necessity.
57. First, the Commission has found that capacity
leases in general have several potential benefits.
Leases can promote efficient use of existing facilities,
avoid construction of duplicative facilities, reduce the
risk of overbuilding, reduce costs, and minimize environmental impacts.86 In this case, the lease will reduce
84

Florida Southeast Connection, LLC, 156 FERC ¶ 61,160 at P

12.
85

Islander East Pipeline Co., L.L.C., 100 FERC ¶ 61,276, at P
69 (2002).
86

See, e.g., Dominion Transmission, Inc., 104 FERC ¶ 61,267,
at P 21 (2003); Texas Gas Transmission, LLC, 113 FERC ¶
61,185, at P 9 (2005); Islander East Pipeline Co., L.L.C., 100
FERC ¶ 61,276 at P 70.

171a
Transco’s costs because the cost of leasing Meade’s
ownership interest is lower than the incremental cost
of Transco’s sole ownership of the Central Penn Line.
Second, we find that Transco has demonstrated that
the annual amount it would pay Meade under the
lease is less than what it would cost if Transco constructed and owned the facilities being leased from
Meade; thus, the lease arrangement will benefit
project shippers. During the lease term, Transco will
pay Meade a fixed lease payment of $7,964,908 per
month for Meade’s ownership interest in the Central
Penn Line. The annualized amount of such lease
charge is $95,578,896,87 which is then compared to the
estimated annual cost of service of $162,009,014,
assuming Transco constructed and owned Meade’s
share of the Central Penn Line.88 Since the annual
amount to be paid under the lease is less than the
comparable cost of service, approval of this lease
agreement will reduce Transco’s costs associated with
the project by an estimated $66,430,118 per year.89
58. The State Commissions argue that Transco has
not demonstrated that its annual lease payments will
be less than the equivalent cost of service that would
apply if Transco directly owned 100 percent of the
facilities. The State Commissions assert that Transco’s
analysis of its annual lease payments is deficient
because, while the project lease has a 20-year primary
term, Exhibit N of Transco’s application only analyzes
one year of the lease. Therefore, the State Commis87

See Exhibit N of Transco’s Application, Line 14.

88

See id., Line 13, reflecting an estimated incremental total
cost of service to construct Meade’s ownership share of the
Central Penn Line.
89

See id., Line 15.

172a
sions contend that Transco’s analysis does not take
into account the impact of depreciation of the leased
facilities on the cost of service. As the leased facilities
depreciate over time, the cost of service should
decrease due to the decrease in rate base. The State
Commissions contend that by limiting its analysis to
one year, Transco has failed to show that the lease
payments over the life of the lease will be less than the
equivalent cost of service that would apply if Transco
directly owned the facilities.
59. In response, Transco states that its application
compares the annual lease charges to an incremental
annual cost of service that would apply if Transco
constructed and owned 100 percent of the project
facilities. Transco states that its analysis used the first
year of the lease arrangement consistent with section
157.14(a)(19) of the Commission’s regulations, which
requires applicants to calculate its initial recourse
rates for the project using a cost of service for the first
calendar year of operation after the proposed facilities
are placed in service.90 Transco therefore argues that
when comparing Transco’s annual lease payments
under the lease arrangement to the estimated annual
cost of service assuming Transco constructed and
owned Meade’s share of the corresponding project
facilities, Transco appropriately used a first-year cost
of service analysis.
60. Transco’s analysis using the first year of
the lease arrangement is consistent with section
157.14(a)(19) of the Commission’s regulations, and our
approval of the lease agreement is consistent with
previous Commission orders in which the Commission
approved the leasing of new capacity being con90

18 C.F.R. § 157.14(a)(19)(ii)(A) (2016).

173a
structed as part of the project based on the costs of that
capacity.91 The State Commissions are correct that,
assuming Transco constructed and owned 100 percent
of the facilities, its cost of service should decrease over
time. But, as stated above, rates are based on a first
year cost of service, and the pipeline is under no
obligation to reduce those rates over time. Therefore,
the lease arrangement provides lower rates and a
benefit to shippers.
61. Third, we find that the lease arrangement will
not adversely affect Transco’s existing customers.
Transco proposes an incremental recourse rate designed
to recover the cost of service attributable to the project
facilities, including the payments under the Lease
Agreement. Therefore, existing shippers will not subsidize the lease arrangement. In addition, Transco
will separately account for the costs and revenues
associated with the leased facilities and segregate
those costs and revenues from its other system costs
during the lease term. Accordingly, the lease arrangement will not result in adverse effects to Transco’s
existing customers or on any other pipelines or its
customers.
62. The State Commissions assert that the Commission’s long-standing policy is that when examining
proposals to abandon service, it weighs all relevant
factors, but considers “continuity and stability of
existing services . . . the primary considerations in
assessing whether the public convenience and necessity permit an abandonment.” They are concerned that
the Lease Agreement could allow Transco to evade or
91

See, e.g., Tennessee Gas Pipeline Co., L.L.C., 150 FERC ¶
61,160 (2015); Constitution Pipeline Co., 149 FERC ¶ 61,199
(2014).

174a
weaken its obligations to continue service after the
lease term ends. Accordingly, the State Commissions
request that, in the event the Commission approves
the lease arrangement, it should clarify that nothing
therein prejudges any issues as to the status of the
leased facilities, or the service provided on those
facilities, at the end of the lease. Similarly, Geraldine
Turner Nesbitt, a landowner affected by the project, is
concerned whether the pipeline would be abandoned
at the end of the lease term.
63. Transco asserts that it is not requesting pregranted abandonment authority at the end of the lease
term. Transco further asserts that while Meade is not
obtaining a certificate in this proceeding, any certificate authority granted will attach to 100 percent of the
project facilities and not just to Transco’s ownership
interest. Moreover, Transco also acknowledges that at
the end of the lease term, if Transco intends to
abandon service or the facilities, Transco must obtain
the necessary abandonment authority under NGA
section 7(b).92 Interested parties would have ample
opportunity to participate in a NGA section 7(b)
proceeding for such abandonment.
64. The Commission clarifies that upon termination
of the lease, Transco must continue to provide jurisdictional service on the Central Penn Line facilities until
appropriate abandonment authorization is requested
and granted under NGA section 7(b). Further, if
Transco is authorized to abandon service, no other
entity will be able to use the capacity for jurisdictional
service prior to filing for and receiving the requisite
certification authorizations.

92

15 U.S.C. ¶ 717f(b) (2012).

175a
C. Passive Ownership of the Proposed Facilities
65. Ms. Nesbitt and the Clean Air Council argue
that because Meade, as a passive co-owner of the
project, will not be a natural gas company subject to
the Commission’s jurisdiction, we would be unable to
ensure the project will comply with the conditions of
the certificate order. We disagree. The Commission
does not certificate ownership under the NGA – mere
ownership of facilities does not subject an entity to
Commission’s jurisdiction under the NGA.93 Commission jurisdiction over the operator of facilities is
sufficient to ensure the Commission’s ability to
exercise its regulatory responsibilities.94 Here, Meade
will lease its ownership interest in the project to
Transco before the in-service date of the project. As a
result, Transco will have full possessory rights for the
project. Transco will also be the sole operator.95 As the
certificate holder, Transco will be responsible for
complying with the conditions of the order and the
Commission will be able to exercise its regulatory
responsibilities. If Transco intends to abandon jurisdictional facilities or services by transfer to Meade,
Transco would be required to file an application with
the Commission seeking such authorization under
section 7(b) of the NGA and Meade would be required
93

El Paso Natural Gas Co., 19 FPC 371 (1958); MontanaDakota Utilities Co., 8 FPC 409 (1949).
94

See generally Dome Pipeline Corp., 22 FERC ¶ 61,277 (1983);
El Paso Natural Gas Co., 47 FPC 1527, at 1532 (1972) (“It is
essential that some entity be identified as the recipient of regulatory responsibility and the source of regulatory responsiveness”).
95

See Transco’s Application at 8. The Clean Air Council
incorrectly alleges that Meade will operate the pipeline. See
Clean Air Council’s June 27, 2016 Comments on the Draft EIS at
30.

176a
to file an application pursuant to section 7(c) to acquire
and operate the jurisdictional facilities.
D. Eminent Domain
66. Clean Air Council argues that the Takings
Clause of the U.S. Constitution96 prohibits Transco
from exercising eminent domain if the project only
benefits private companies. In addition to demonstrating public convenience and necessity under the NGA,
Clean Air Council contends that Transco must also
demonstrate the project is for “public use” in order to
exercise eminent domain. In response, Transco maintains that Congress, by enacting section 7(h) of the
NGA,97 concluded that the use of eminent domain to
construct a pipeline to transport natural gas in interstate commerce is a public use and that a certificate of
public convenience and necessity is the only prerequisite to obtain the right of eminent domain.
67. To satisfy the Takings Clause, the taking must
serve a “public purpose.”98 The U.S. Supreme Court
has “[w]ithout exception . . . defined that concept
broadly, reflecting [the court’s] longstanding policy of
deference to the legislative judgments in this field.”99
In this case, Congress’ intent was clearly articulated
in the NGA: the transportation and sales of natural
gas in interstate commerce for ultimate distribution to

96

U.S. CONST. amend. V.

97

15 U.S.C. § 717f(h) (2012).

98

Kelo v. City of New London, Conn., 545 U.S. 469, 479-80
(2005) (explaining that the Court long ago adopted a broader and
more natural interpretation of “public use” within the meaning of
the Takings Clause as “public purpose”) (citing Fallbrook
Irrigation Dist. v. Bradley, 164 U.S. 112, 158-164 (1896)).
99

Kelo, 545 U.S. at 480.

177a
the public is in the public interest.100 Once a natural
gas company obtains a certificate of public convenience and necessity, it may exercise the right of
eminent domain in a U.S. District Court or a state
court. The power of eminent domain conferred by
section 7(h) of the NGA is a necessary part the
statutory scheme to regulate the transportation and
sale of natural gas in interstate commerce.101 In
regulating this area, Congress may delegate the power
of eminent domain to a corporation, which would be
subject to the regulation of the federal government.102
We therefore are not persuaded by Clean Air Council’s
argument that the U.S. Constitution requires a holder
of a certificate of public convenience and necessity
to separately demonstrate “public use” or that the
Constitution prohibits the use of eminent domain by
private companies that have demonstrated public
convenience and necessity.
E. Environmental Analysis
1. Pre-filing Review
68. On April 4, 2014, Commission staff granted
Transco’s request to use the pre-filing process in
Docket No. PF14-8-000. As part of the pre-filing
review, on July 18, 2014, the Commission issued a
Notice of Intent to Prepare an Environmental Impact
Statement for the Planned Atlantic Sunrise Expansion
Project, Request for Comments on Environmental
Issues, and Notice of Public Scoping Meetings (NOI).
100

15 U.S.C. § 717(a) (2012).

101

See Thatcher v. Tennessee Gas Transmission Co., 180 F.2d
644, 647 (5th Cir. 1950), cert. denied, 340 U.S. 829 (1950); Williams
v. Transcontinental Gas Pipe Line Corp., 89 F.Supp. 485, 487-88
(W.D.S.C. 1950).
102

See Thatcher, 180 F.2d at 647.

178a
The NOI was published in the Federal Register on July
29, 2014,103 and mailed to nearly 2,500 interested
parties, including federal, state, and local government
representatives and agencies; elected officials; environmental and public interest groups; Native American
tribes; affected property owners; other interested
parties; and local libraries and newspapers. The NOI
briefly described the project and the environmental
review process, provided a preliminary list of issues
identified by Commission staff, invited written comments
on the environmental issues that should be addressed
in the draft EIS, listed the date and location of four
public scoping meetings104 to be held in the project
area, and established August 18, 2014, as the deadline
for comments.
69. Ninety-three speakers provided oral comments
on the Atlantic Sunrise Project at the scoping meetings. In addition to the comments received at the
meetings, we received over 600 written comments
from federal, state, and local agencies; elected officials;
environmental and public interest groups; potentially
affected landowners; and other interested stakeholders regarding the project. These comments were
placed into the public record for the project for
consideration in the draft EIS.105
2. Application Review
70. Transco filed its project application on March
31, 2015. On October 22, 2015, Commission staff
103

79 Fed. Reg. 44,023 (2014).

104

Commission staff held the public scoping meetings between
August 4 and 7, 2014, in Millersville, Annville, Bloomsburg, and
Dallas, Pennsylvania.
105

Table 1.3-1 of the final EIS provides a detailed and comprehensive list of issues raised during scoping.

179a
mailed a letter to landowners potentially affected by
the path of several proposed project reroutes under
evaluation. The letter was mailed to over 300 affected
property owners, government officials, and other
stakeholders. The letter briefly described the proposed
alternative routes, invited newly affected landowners
to participate in the environmental review process,
and opened a special 30-day limited scoping period.
71. To satisfy the requirements of the National
Environmental Policy Act of 1969 (NEPA),106 Commission staff evaluated the potential environmental
impacts of the proposed project in an EIS. The U.S.
Army Corps of Engineers (U.S. Army Corps) and the
U.S. Department of Agriculture’s Natural Resources
Conservation Service (Conservation Service) participated as cooperating agencies in the preparation of the
EIS. Cooperating agencies have jurisdiction by law or
special expertise with respect to resources potentially
affected by the proposal.
72. Commission staff issued the draft EIS for the
project on May 5, 2016, which addressed the issues
raised during the scoping period and up to the point of
publication. Notice of the draft EIS was published in
the Federal Register on May 12, 2016, establishing a
45-day public comment period ending on June 27,
2016.107 The draft EIS was mailed to the environmental mailing list for the project, including additional
interested entities that were added since issuance of
the NOI. Commission staff held four public comment

106

42 U.S.C. §§ 4321 et seq. (2012). See also 18 C.F.R. pt. 380
(2016) (Commission’s regulations implementing NEPA).
107

81 Fed. Reg. 29,557 (2016).

180a
meetings between June 13 and 16, 2016.108 Approximately 203 speakers provided oral comments regarding
the draft EIS at these meetings. We also received
over 560 written comments from federal, state, and
local agencies; Native American tribes; companies/
organizations; and individuals in response to the draft
EIS. In addition, we received over 900 nearly identical
letters. The transcripts of the public comment meetings and all written comments on the draft EIS are
part of the public record for the project.
73. On October 13, 2016, the Commission staff
mailed a letter to landowners potentially affected by
two alternative pipeline routes identified following the
issuance of the draft EIS. The letter was mailed to
56 potentially affected property owners, government
officials, and other stakeholders. The letter briefly
described the proposed alternative routes, invited
potentially affected landowners to participate in the
environmental review process, and opened a special
30-day comment period. FERC staff received 25 comment letters from individuals regarding the proposed
alternative.
74. On November 3, 2016, the Commission issued
for comment a draft General Conformity Determination,
which assessed the potential air quality impacts
associated with construction of the project in accordance with NEPA, the Clean Air Act, and the
Commission’s regulations.109 The Pennsylvania Department of Environmental Protection (PADEP), Clean
108

Commission staff held the public comment meetings in
Lancaster, Annville, Bloomsburg, and Dallas, Pennsylvania.
109

The draft General Conformity Determination is publically
available at: https://elibrary.ferc.gov/idmws/common/opennat.asp?
fileID=14391786.

181a
Air Council, Lebanon Pipeline Awareness, Sierra Club
Pennsylvania Chapter, Concerned Citizens of Lebanon
County, Lancaster Against Pipelines, and Elise Kucirka
Salahub filed timely comments on the draft General
Conformity Determination. The final General Conformity Determination addressed all the comments
received prior to the close of the comment period on
December 5, 2016.110
75. On December 30, 2016, Commission staff issued
the final EIS for the project which was published in
the Federal Register on January 9, 2017.111 The final
EIS addresses timely comments received on the draft
EIS.112 The final EIS was mailed to the same parties
as the draft EIS, as well as to newly identified landowners and any additional parties that commented on
the draft EIS.113 The final EIS addresses geology; soils;
water resources; wetlands; vegetation; wildlife and
fisheries; special status species; land use, recreation,
and visual resources; socioeconomics; cultural resources;
air quality and noise; reliability and safety; cumulative impacts; and aboveground site alternatives and

110

The final General Conformity Determination is publically
available at: https://elibrary.ferc.gov/idmws/file_list.asp?accessi
on_num=20170117-3039.
111

82 Fed. Reg. 2,344 (2017).

112

Volume III of the final EIS includes responses to comments
on the draft EIS received through the close of the comment period
on June 27, 2016, and responses to additional comments received
between June 28 and November 14, 2016, that raised new issues
not previously identified prior to the close of the comment period.
Any new issues raised after November 14, 2016, which were not
previously identified, are addressed in this order.
113

EIS.

The distribution list is provided in Appendix A of the final

182a
minor route variations incorporated into the project’s
design.
3. The EIS Process and Procedural Concerns
76. Several commenters, including the Accokeek,
Mattawoman, Piscataway Creeks Community Council
(Accokeek), requested that the Commission extend the
draft EIS public comment period because Transco filed
supplemental information about a route alternative on
June 24, 2016, three days before the comment period
closed on June 27, 2016. On October 20, 2016,
Commission staff revised the environmental schedule,
postponing the issuance of the final EIS from October
21, 2016 to December 30, 2016.114 Nearly a hundred
additional comments were filed and considered by
staff during this period. Because Accokeek and other
stakeholders had the opportunity to submit comments
on the project during this additional period, we find
their request to be moot.
77. Accokeek also requested public meetings be held
in areas affected by Transco’s route alternative, as
identified in Transco’s June 24, 2016 Supplemental
Information filing. Our regulations and CEQ regulations do not require public meetings to be held for
alternatives proposed after issuance of the draft EIS.
The Commission accepts and gives full consideration
to all written comments. To that end, Commission
staff mailed notice on October 13, 2016, to all landowners potentially affected by the alternative, as well as
government officials, and other stakeholders. The
notice described the proposed alternative routes, invited
participation, and opened a special 30-day limited
114

See 81 Fed. Reg. 74,420 (2016) (Commission staff revised
the environmental schedule because a General Conformity
Determination was required).

183a
scoping period. We received twenty-five comments in
response to the notice, which are addressed in section
3.3.2 of the final EIS.
78. Accokeek requests that we deny Transco’s
request to treat site-specific information regarding
threatened and endangered species as privileged information. It is not uncommon for information regarding
the precise location of protected species to be afforded
privileged treatment, in order to protect the species
from illegal poaching and collecting. If the reason for
Accokeek’s request is to prevent Transco from withholding a comprehensive list of affected species, we
find that the final EIS fully identifies and analyzes the
project’s potential effects on federally-listed, statelisted, and other special status species.115 To the extent
Accokeek’s concerns are broader, as a party to this
proceeding, access to privileged, non-public filings is
available pursuant to the procedures set forth in 18
C.F.R. § 388.112(b)(2).
4. Major Environmental Issues Addressed
in the Final EIS
79. The final EIS concludes that the project will
result in some adverse environmental impacts, but
these impacts will be reduced to less-than-significant
levels with the implementation of the mandatory
mitigation measures, set forth in the 56 conditions in
Appendix C of this order.116 This determination is
based on a review of the information provided by
Transco, and in its application and in response to
115
116

See section 4.7 of the Final EIS.

See Final EIS at 5-1; 5-26 - 5-36. The final EIS contained 57
recommended conditions. Recommended Condition 35 in the final
EIS is no longer necessary because the required information has
since been filed.

184a
data requests; field investigations; scoping; literature
research; alternatives analyses; and consultation with
federal, state, and local agencies as well as Native
American tribes and individual members of the public.
Major issues of concern addressed in the final EIS
are summarized below and include: karst terrain and
abandoned mine lands; waterbodies and wetlands;
vegetation, forested land, and wildlife; threatened,
endangered, and other special status species; land
use concerns; cultural resources; air quality; safety;
cumulative impacts; and alternatives.
a. Geological Resources
i. Karst Terrain
80. Several commenters expressed concern regarding the potential for groundwater contamination and
subsidence affecting the integrity of the pipeline in
areas of karst terrain.
81. The final EIS determined that there are several
areas along the Central Penn Line South pipeline
route in Lancaster, Lebanon, and Columbia Counties,
Pennsylvania; and within the workspace for existing
Compressor Stations 190 and 145 in Howard County,
Maryland, and Cleveland County, North Carolina,
respectively, where a karst hazard may be present.
Transco developed a draft Karst Investigation and
Mitigation Plan, which includes mitigation measures
to be employed in areas of karst terrain to minimize
the risk of sinkhole formation.117 The mitigation
measures include designing the pipeline to maximize
its intrinsic ability to span sinkholes, minimizing the
extent and time that open-cut trench excavations for
pipeline installation are left open, reducing the
117

See Appendix J of the Final EIS.

185a
potential for surface water run-on and ponding in open
trenches by directing surface water runoff away from
work areas and removing ponded water from open
excavations as soon as practicable, directing stormwater runoff away from any known or exposed karst
feature during construction, completing refueling activities away from any known or exposed karst feature,
and regular monitoring during construction to observe
for signs of potentially developing sinkhole features.
In general, we find the draft plan will adequately
mitigate potential adverse impacts from karst hazards.
Accordingly, we require in Environmental Condition
22 that Transco file a final Karst Investigation and
Mitigation Plan that includes and addresses the
results of missing karst survey areas and any additional karst features identified through examination
of the 1937 to 1942 aerial photography, 2014 Light
Detection and Ranging imagery, and 1999 color
infrared imagery.
82. In addition, to mitigate the risk of subsidence and
groundwater contamination, Transco will implement
the measures in its Abandoned Mine Investigation
and Mitigation Plan, Karst Investigation and Mitigation Plan, and Spill Plan. We also require in
Environmental Condition 25 that Transco develop a
Well and Spring Monitoring Plan for the pre- and postconstruction monitoring of well yield and water
quality and identify any wells and springs within 150
feet of the construction workspace and, in areas of
known karst terrain, of wells within 500 feet of the
construction workspace and file that information prior
to construction. We agree with the final EIS’s conclusions that, with implementation Transco’s mitigation
measures, as well as its Abandoned Mine Investigation and Mitigation Plan, Karst Investigation and
Mitigation Plan, and the other plans contained in its

186a
Environmental Construction Plan118 (including the
Spill Plan), impacts on groundwater resources will be
adequately minimized.119
ii. Mine Fires
83. Several commenters expressed concern regarding the potential hazards of abandoned mines and
underground mine fires. Transco completed an investigation of mine fires as part of its Abandoned Mine
Investigation and Mitigation Plan. Transco’s investigation was based on its consultations with the
PADEP’s Bureau of Abandoned Mine Reclamation; a
study of active mine fires prepared for the PADEP; a
review of aerial photography; ground reconnaissance
to identify evidence of possible fires, such as smoke
plumes, posted warning signs, burnt vegetation, visible
flame, smoke, steam, and odor; and an evaluation of
the occurrence of the No. 8 Coal Vein (source of the
Glen Burn Luke Fidler Mine Fire) in relation to the
planned pipeline.
84. The final EIS found the project would not cross
any active mine fire.120 We did identify six historic
mine fires within three miles of the project, three of
which are active.121 The closest active mine fire (the
Glen Burn Luke Fidler Mine Fire) is about 0.4 mile
west of the project in Northumberland County,

118

Transco’s Environmental Construction Plan incorporates
measures adopted in the Commission’s Upland Erosion Control,
Revegetation and Maintenance Plan and Wetland and Waterbody
Construction and Mitigation Procedures.
119

Final EIS at 4-52.

120

Id. at 4-25.

121

Id. at 4-23 and 4-25.

187a
Pennsylvania.
There is no evidence, however, to
suggest that this or any of the other mine fires are
actively migrating.123 However, in recognition of the
safety and integrity concerns that mine fires could
pose during operation of the project facilities, we
require in Environmental Condition 23 that, before
construction, Transco file with the Commission an
Abandoned Mine Investigation and Mitigation Plan
that identifies: (1) the depth and extent of coal seams
that could pose a risk to the project facilities; and (2)
mitigation measures that would be implemented to
protect the integrity of the pipeline from underground
mine fires during the lifetime operation of the project.
If it is found that pipeline integrity and safety could be
compromised anytime during the lifetime operation of
the project due to the current and future predicted
location of the mine fires, the plan should also provide
for Transco proposing revisions to the pipeline route.
We note the Commission has the ongoing authority
during construction and through the life of the project
to impose any additional mitigating measures to
ensure the protection of all environmental resources
during construction and operation of the project.124
122

85. We agree with the conclusion in the final EIS
that the project’s effect on geological resources and the
potential for geological hazards will be minor.125 With
the implementation of Transco’s mitigation measures
as well as its Abandoned Mine Investigation and
Mitigation Plan, Karst Investigation and Mitigation
Plan, the other plans contained in its Environmental
122

Id. at 4-23 - 4-24.

123

Id. at 4-23.

124

See Environmental Condition 2 of this order.

125

Final EIS at 5-1 - 5-3.

188a
Construction Plan, as well as the environmental
conditions in Appendix C of this order, the impacts on
geological resources will be adequately minimized.126
b. Waterbodies
86. We received a number of comments regarding
potential effects on waterbodies during construction
and operation of the project due to sedimentation,
spills or leaks of hazardous materials, or the introduction of chemicals or biocides.
87. The project will cross 388 waterbodies.127
Implementation of the mitigation measures outlined
in Transco’s Environmental Construction Plan and
other project-specific mitigation plans will minimize
the impacts associated with the withdrawal and
discharge of water and impacts associated with opencut waterbody crossings during construction and
operation of the project. Construction-related effects
associated with dry-ditch crossing method would be
short term and would be minimized by several
mitigation measures, such as installing temporary
erosion controls and requiring bank stabilization.128 In
addition, Transco must obtain appropriate National
Pollutant Discharge Elimination System discharge
permits prior to conducting hydrostatic testing. Transco
does not propose to add any chemicals or biocides to
the test water. Accidental spills and leaks during
construction and operations will be prevented or
adequately minimized through implementation of
Transco’s Spill Plan for Oil and Hazardous Materials.
Thus, we agree with the final EIS’s conclusion that,
126

Id. at 5-3.

127

Id. at 4-52.

128

Id. at 4-67.

189a
with the implementation of the mitigation measures
in Environmental Conditions 26 through 29, the
project would not have adverse long-term impacts on
surface water resources.129
c. Wetlands
88. Construction of the pipeline facilities associated
with the project will affect a total of 46.4 acres of
wetlands, including 11.3 acres of forested wetlands,
4.3 acres of scrub-shrub wetlands, and 30.8 acres of
emergent wetlands.130
89. We received a number of comments regarding
impacts on exceptional value wetlands as a result of
construction and operation of the project. One hundred
five of the wetlands crossed by the proposed pipelines
in Pennsylvania are classified as exceptional value,
with 32 of these containing a forest component.131 Of
these 32 wetlands with a forest component, 17 are the
Hemlock/Mixed Hardwood Palustrine Forest Community type, which the Pennsylvania Department of
Conservation and Natural Resources identified as a
natural or special concern community. In total, construction will temporarily affect about 3.6 acres and
operation will permanently affect about 1.8 acres
of this community type. No exceptional/designated
wetland communities were identified along the
Virginia facilities.
90. In general, construction and operation-related
impacts on wetlands will be mitigated by Transco’s
compliance with the conditions of the Clean Water Act
sections 404 and 401 permits, administered by the
129

Id. at 4-72.

130

Id. at 4-75.

131

Id. at 4-74.

190a
U.S. Army Corps and PADEP, respectively, and by
implementing the wetland protection and restoration
measures contained in its Environmental Construction Plan. Transco will also conduct routine wetland
monitoring of all wetlands affected by construction
until revegetation is successful. Further, mitigation
measures will be implemented to control invasive
species.
91. Transco will minimize and compensate for
effects on the Hemlock/Mixed Hardwood Palustrine
Forest Community-type wetland in the same manner
as for other forested wetlands. Specifically, Transco is
developing its Permittee-Responsible Mitigation Plan
to compensate for unavoidable forested wetland impacts
by reestablishing, rehabilitating, enhancing, and preserving wetlands at off-site mitigation locations. We
require in Environmental Condition 31 that Transco
file its final Permittee-Responsible Mitigation Plan
with the Commission prior to construction. The final
EIS concludes that the construction and operation of
the project would result in minor adverse and longterm effects on wetlands.132 With implementation of
the acceptable avoidance and minimization measures,
as well as the environmental conditions in Appendix C
of this order, we agree with the final EIS’s conclusion that impacts on wetland resources, including
exceptional value wetlands, will be appropriately
mitigated and reduced to less than significant levels.133

132

Id. at 4-78.

133

Id. at 4-78.

191a
d. Vegetation, Forested
Wildlife

Land,

and

92. The project will affect vegetation communities
of special concern, including Hemlock/Mixed Hardwood
Palustrine Forest Communities, the Safe Harbor East
Woods – County Natural Heritage Inventory, and 45
interior forests. Transco routed the pipelines adjacent
to existing rights-of-way when possible (43 percent of
Central Penn Line North, 12 percent of Central Penn
Line South, and 100 percent of Chapman and Unity
Loops), to avoid and minimize effects on interior forest
habitat.134 After issuance of the draft EIS, Transco
incorporated several additional minor reroutes that
reduced the amount of interior forest crossed by 11.9
acres.135 Nevertheless, the project will affect 262.6
acres of interior forest habitat during construction and
118.5 acres during operations.136
93. The U.S. Fish and Wildlife Service (FWS) provided recommendations to Transco regarding mitigation
of forest impacts through avoidance and minimization
measures to address migratory bird habitat loss.
Transco is consulting with the FWS to develop a
project-specific memorandum of understanding that
will specify the voluntary conservation measures that
will be provided to offset the removal of upland forest
and indirect impacts on interior forest. We require in
Environmental Condition 34 that, prior to construction, Transco file the memorandum of understanding
with the FWS that specifies voluntary conservation
measures that Transco will provide to offset the
removal of upland forest and indirect impacts on
134

Id. at 4-85.

135

Id. at 4-86.

136

Id. at 4-83.

192a
interior forests. To further minimize impacts on
forested areas (including interior forests) during and
after construction of the project, Transco will implement the measures in its Environmental Construction
Plan, Migratory Bird Plan, final Permittee-Responsible
Mitigation Plan, and final Noxious and Invasive Plant
Management Plan.
94. Several commenters expressed concerns regarding potential disease spread to forest industries,
specifically tree farms, from the construction corridor.
To minimize forest disease spread and noxious weed
revegetation, we require in Environmental Condition
32 that, prior to construction, Transco file complete
results of noxious weed surveys and a final Noxious
and Invasive Plant Management Plan that includes
mitigation measures to address forest disease spread
from the construction corridor.
95. The final EIS concludes and we agree that, due
to the prevalence of forested habitats within the
project area, the eventual regrowth of the cleared
areas outside of the permanent right-of-way, and
Transco’s avoidance measures during pipeline routing
and alternatives consideration, impacts on vegetation,
including forested areas, will be reduced to less-thansignificant levels.137 In addition, impacts on forested
and non-forested vegetation types, as well as the
introduction or spread of noxious weeds or invasive
plant species, will be further mitigated through
adherence to the measures described in Transco’s
Environmental
Construction
Plan,
PermitteeResponsible Mitigation Plan, Transco’s Noxious and
Invasive Plant Management Plan, migratory bird
provisions, the environmental conditions in Appendix
137

Id. at 4-90.

193a
C of this order, and other mitigation measures
described above.138
96. We also concur with the final EIS’s conclusion
that the construction and operation of the project will
not have a significant adverse effect on wildlife based
on the presence of suitable adjacent habitat available for use and given Transco’s impact avoidance,
minimization, and mitigation measures as well as our
recommendations.139 In addition, Transco has or will
minimize effects to the extent possible through adhering to its Environmental Construction Plan, routing
the pipeline to minimize effects on sensitive areas;
and reducing the construction right-of-way through
wetlands and interior forests.
e. Threatened, Endangered, and Other
Special Status Species
97. Based on input from the FWS, the draft EIS
identified eight federally-listed species that potentially occur in the project area. The draft EIS later
concluded that four of the species (the gray bat, dwarf
wedgemussel, dwarf-flowered heartleaf, and harperella)
would not be affected by construction and operation of
the project.140 The final EIS concludes, and we agree,
that the project may affect but is not likely to
adversely affect the federally listed Indiana bat, bog
turtle, northern long-eared bat, and northeastern
bulrush.141 The final EIS recommended that Transco
not begin construction until Commission staff receives
written comments from the FWS regarding the
138

Id. at 5-9.

139

Id. at 5-10.

140

Draft EIS at 4-105 (Table 4.7.2-1).

141

Final EIS at 5-12.

194a
proposed action and completes formal consultation
with the FWS, if required. Commission staff received
a letter from the FWS on December 20, 2016 (while the
final EIS was in production), confirming its concurrence with the determinations of effect for these eight
federally-listed species. Therefore, consultation with
FWS for the project under the Endangered Species
Act142 is complete, making it unnecessary to adopt the
final EIS recommendation on this issue.
98. Although a number of other candidate, statelisted, or special-concern species143 were identified as
potentially present in the project area, none were
detected during surveys. Accordingly, no adverse effects
are expected given Transco’s proposed mitigation
measures. Based on implementation of these z and the
environmental conditions in Appendix C of this order,
we agree with the final EIS’s conclusion that impacts
on special-status species will be adequately avoided or
minimized.144
f. Land Use
99. Construction of the project will affect a total of
3,741.0 acres of land.145 About 75 percent of this
acreage will be utilized for the pipeline facilities,
including the construction right-of-way (62 percent)
and additional temporary workspace (13 percent). The
remaining acreage affected during construction will be
associated with contractor yards and staging areas
(11 percent), new and modified aboveground facilities
(8 percent), and access roads (6 percent). During
142

16 U.S.C. §§ 1531-1544 (2012).

143

See Table 4.7.3-1 of the final EIS.

144

Final EIS at 5-13.

145

Id. at 4-131.

195a
operation, the new permanent pipeline right-of-way,
aboveground facilities, and permanent access roads
will newly encumber 1,235.4 acres of land.
100. A number of landowners expressed concerns
regarding their ability to maintain organic certification of their farms because the project would cross
their farms.
101. The final EIS states that the Central Penn
Line would cross about 123 acres of organic farmland
during construction and 43.7 acres would be affected
by operations.146 Only Pennsylvania farmland would
be impacted. If accidental spilling of fuels, lubricants,
or other substances associated with the project were to
occur on certified organic farmland, only those affected
areas would be removed from organic certification.147
The final EIS recommends, and we require in
Environmental Condition 40, that prior to construction, Transco file an organic certification mitigation
plan developed in consultation with Pennsylvania
Certified Organic to ensure organic certification is
maintained on the organic farms crossed by the
project. Further, the mitigation plan will include a
plan to address landowners’ complaints about the loss
of organic certification, which would include measures
to facilitate reinstatement of certification or compensate landowners.148
102. The Pennsylvania Department of Conservation
and Natural Resources expressed concerns regarding
the project’s potential impacts on Pennsylvania park
146

Id. at 4-145.

147

Id. (referring to the policy of Pennsylvania Certified
Organic, an organic certifying organization).
148

Id.

196a
property that was previously funded with Federal
Land and Water Conservation Funds. The Pennsylvania
Department of Conservation and Natural Resources
states that any impacts to such land that will result
in a change of use or transfer of rights from the
Pennsylvania Department of Conservation and Natural
Resources would constitute conversion, which must
comply with the state’s conversion policy. The project
will cross several Pennsylvania parks.149 Transco
has worked with the Pennsylvania Department of
Conservation and Natural Resources to identify
suitable measures to minimize disturbances to the
parks. Moreover, the final EIS recommends, and we
require in Environmental Condition 41, that Transco
file copies of correspondence with the Pennsylvania
Department of Conservation and Natural Resources
confirming all Pennsylvania Department of Conservation and Natural Resources -funded properties crossed
by the project have been identified and any change
in use or transfer of rights for the Pennsylvania
Department of Conservation and Natural Resources funded properties is in compliance with Pennsylvania
Department of Conservation and Natural Resources’
conversion policies. Transco will also submit sitespecific crossing plans that would minimize the effects
on the parks.
103. Several commenters expressed concerns regarding local and private conservation easements not
previously identified, including Lancaster Farmland
Trust and Lebanon Valley Conservancy easements.
Transco provided an updated list of conservation
easements in Pennsylvania crossed by the project in
August 2016. This information was included in table
149

See id. at 4-152 - 4-159.

197a
4.8.6-3 of the draft and final EIS. To ensure that all
conservation easements have been identified prior to
construction, we require in Environmental Condition
44 that Transco file with its Implementation Plan a
revised table 4.8.6-3 that includes any newly identified
conservation easements and copies of correspondence
documenting any mitigation measures developed in
consultation with the administering agency. In
addition, we require in Environmental Condition 43
that Transco notify the Conservation Service one week
prior to the start of construction across Conservation
Service-held conservation easements to facilitate
Conservation Service monitoring of construction and
restoration of disturbed areas within these easements.
104. In general, the final EIS concludes that the
effects of the project on recreational and special
interest areas occurring outside of forestland will be
temporary and limited to the period of active construction, which typically lasts several weeks or months in
any one area.150 These effects will be minimized by
implementing the measures in Transco’s Environmental Construction Plan and other project-specific
construction plans. In addition, Transco will continue
to consult with the owners and managing agencies of
recreation and special interest areas regarding the
need for specific construction mitigation measures.
105. We agree with the final EIS’s conclusion
that, with adherence to Transco’s proposed impact
avoidance, minimization, and mitigation plans, and
implementation of the environmental conditions in

150

See id. at 5-15.

198a
Appendix C of this order, the overall impacts on land
use will be adequately minimized.151
g. Property Values,
Insurance

Mortgages,

and

106. Several commenters expressed concerns regarding the potential effect of the project on property
values, mortgages, and property insurance. The final
EIS identifies six studies that conclude that the
presence of a pipeline either has no effect or an
insignificant effect on property values.152 Accokeek
submitted a comment on the draft EIS, challenging
these studies’ conclusions. To support its claim,
Accokeek provides an analysis by Dr. Lynne Y. Lewis,
the Chair of Economics at Bates College, that
concludes that the project “can be expected to
negatively impact property values in the short term
and very likely in the long term as well.”153 Dr. Lewis
argues that in the event of environmental damage
caused by a pipeline (e.g., spills, ruptures, pollution, or
explosions), property values and market prices near
the source of the damage are expected to decrease.154
This argument does not support Accokeek’s claim that
the mere presence of a new pipeline facility will
devalue property. In fact, the study also notes that
home sales prices do not change (i.e., before and after
pipeline installation) if pipelines, whether related or
unrelated to the installed pipeline, operate safely and
do not experience fatal explosions. Dr. Lewis also
offers a study that concludes that homes near pipelines sell at a lower price because homebuyers
151

Id. at 5-17.

152

See id. at 4-183.

153

Accokeek’s June 27, 2016 Comment on the Draft EIS at 5.

154

See id. at 4-5.

199a
evaluate environmental and health risks primarily
based on emotions rather than risk analysis even if the
pipeline poses a low risk, accident-free, and “nonsensory disamenity.”155 That study’s finding that home
buying decisions are based, at least in part, on
subjective criteria does not discredit the studies cited
in the final EIS. Accordingly, we conclude here, as we
have in other cases, that the proposed project is not
likely to significantly impact property values in the
project area.156
107. Several commenters also expressed concern
about mortgage companies re-categorizing properties
based on proximity to pipelines or federally-insured
mortgages being revoked due to proximity to pipelines.
We have not been able to document any specific trends
regarding adverse effects of pipelines on mortgages or
the ability of landowners to obtain mortgages for
similar projects. Therefore, we concur with the final
EIS’s conclusion and find that nothing in the record
supports the claim that landowners would lose their
mortgages or experience a re-categorization as a result
of the project.157
108. Several landowners contend that their insurance policy holder would either cancel their homeowner’s
insurance due to the presence of a natural gas pipeline
on their property or amend the policy to exclude
155

See Julia Freybote and Eric Fruits, Perceived Environmental Risk, Media and Residential Sales Prices, at 24-25, http://
pages.jh.edu/jrer/papers/pdf/forth/accepted/Perceived%20Enviro
nmental%20Risk,%20Media%20and%20Residential%20Sales%2
0Prices.pdf.
156

See, e.g., Central New York Oil & Gas Co, LLC, 116 FERC
¶ 61,277, at P 44 (2006).
157

See Final EIS at 4-183; see also Algonquin Gas
Transmission, LLC, 150 FERC ¶ 61,163, at P 98 (2015).

200a
coverage for incidents related to the pipeline. We have
no insurance industry data to suggest that the project
will adversely affect homeowners’ insurance rates, the
ability to acquire a new homeowner’s insurance policy,
or that insurance policies will be discontinued due to
the presence of a natural gas pipeline on a property.
The final EIS concludes that insurance underwriters
do not consider the presence of a transmission pipeline
when determining the cost and coverage of the
property insurance.158 In addition, Transco’s insurance
coverage extends to landowners from the start of the
survey process through the life of the pipeline and will
pay for damage caused by the construction and
operation of the pipeline. However, to address any
potential insurance-related issues, we are requiring in
Environmental Condition 46 that Transco file reports
describing any documented complaints from a
homeowner that a homeowner’s insurance policy was
cancelled, voided, or amended due directly to the grant
of the pipeline right-of-way or installation of the
pipeline and/or that the premium for the homeowner’s
insurance increased materially and directly as a result
of the grant of the pipeline right-of-way or installation
of the pipeline, as well as how Transco has mitigated
the impact. Based on the foregoing, we agree with the
final EIS’s conclusion that the project would not
adversely affect homeowners’ insurance rates, the
ability to acquire a new homeowner’s insurance policy,
or that existing insurance policies would be discontinued due to the presence of a natural gas pipeline on
the property.159

158

Final EIS at 4-183 - 4-184.

159

Id. at 4-184.

201a
h. Cultural Resources
109. Transco identified 440 architectural resources
and 149 archaeological sites within the area of
direct impact for the proposed pipeline facilities in
Pennsylvania. The Pennsylvania State Historic Preservation Office’s (SHPO) preliminary review of the
architectural resources recommended that 415 of the
architectural resources be found ineligible and 24 be
found eligible for the National Register of Historic
Places (National Register). The Pennsylvania SHPO
has not yet commented on the eligibility of the one
remaining architectural resource site. Of the 24 architectural sites recommended as eligible, the Pennsylvania
SHPO made a recommendation of “no adverse effect”
for nine sites and a recommendation of “adverse effect”
for two sites, namely the Nesbitt Estate Rural Historic
District and the Pedrick Farm. The Pennsylvania
SHPO has not yet made a recommendation for the
other 13 eligible sites. Environmental Condition 47
provides that no construction or staging can occur
until all cultural resources reports and avoidance and
treatment plans, if appropriate, are reviewed by the
SHPO and the Commission.
110. Of the 149 archaeological sites, the Pennsylvania
SHPO approved the treatment plan for 3 sites, and
considered that 134 sites are not eligible for the
National Register and 5 sites will require additional
testing for the National Register or will be avoided.
Transco identified two additional sites as not eligible
but the Pennsylvania SHPO has not provided comments on their eligibility. Four additional sites were
not formally evaluated for their National Register
eligibility because they will not be affected during
construction. One site is listed on the National Register
but will be avoided by horizontal directional drill.

202a
There are pending comments from the Virginia SHPO
for one archaeological resource that was recommended
ineligible. As with respect to architectural resources,
Environmental Condition 47 provides that no construction or staging can occur until the SHPO has
commented on all the cultural resources surveys and
avoidance and treatment plans, if appropriate.
111. Commission staff consulted, and Transco conducted outreach, with 21 federally-recognized tribes
and three tribes not federally recognized, as well as
several other non-governmental organizations, local
historical societies, museums, historic preservation
and heritage organizations, conservation districts, and
other potential interested parties to provide them an
opportunity to comment on the project. Several tribes
and organizations requested additional consultation
or information, and the Delaware Nation requested
mitigation of sites that cannot be avoided by the project
in Lancaster County, Pennsylvania. The Reading
Company Technical and Historical Society requested
that railroad structures associated with the Reading
Railroad be preserved. Transco confirmed that railroad
structures crossed by the project will be avoided
through use of the bore-crossing method.
112. To ensure that our responsibilities under
section 106 of the National Historic Preservation Act160
are met, as indicated above we require in Environmental Condition 47 that Transco not begin construction
until any additional required surveys are completed,
survey reports and treatment plans (if necessary) have
been reviewed by the appropriate parties, and the
Director of the Office of Energy Projects provides
written notification to proceed. With the inclusion of
160

54 U.S.C.A. §§ 300101 et seq. (West 2016)

203a
Environmental Condition 47 in this order, we agree
with the final EIS’s conclusions that completion of the
studies and implementation of the impact avoidance,
minimization, and other measures proposed by Transco,
as well as the environmental conditions in Appendix C
of this order, will ensure that any adverse effects on
cultural resources and historic properties will be
appropriately mitigated.161
i. Air Quality Impacts
113. General Conformity Determinations stem from
section 176(c) of the Clean Air Act,162 which requires a
federal agency to demonstrate that a proposed action
conforms to the applicable State Implementation Plan,
a state’s plan to attain the National Ambient Air
Quality Standards (NAAQS) for nonattainment pollutants. A General Conformity Determination is required
when the federal agency determines that an action
will generate emissions exceeding conformity threshold levels of pollutants in the nonattainment area to
assess whether the federal action will conform to
the State Implementation Plan. Because the project
will be located in a nonattainment area, primarily in
Lancaster County, Pennsylvania, Commission staff
reviewed the criteria pollutant emissions expected to
be generated during construction of the project and
compared them to the General Conformity thresholds
in section 93.153(b)(1) of the Environmental Protection
Agency’s (EPA) regulations.163
114. Based on Transco’s September 2016 revised
construction emission estimates, which compressed
161

See Final EIS at 5-19.

162

42 U.S.C. § 7506(c) (2012).

163

40 C.F.R. § 93.153(b)(1) (2016).

204a
the construction schedule for the project to one year
(2017), the nitrogen oxides (NOX) emissions from
project construction emissions in Lancaster County,
Pennsylvania will exceed the General Conformity
applicability threshold.164 All other emissions generated during all years of construction will not exceed
General Conformity applicability thresholds.
115. Commission staff developed a draft General
Conformity Determination for the project and placed
it in the record on November 3, 2016, for 30-day public
notice. Transco has committed to using emission reduction credits to demonstrate conformity. On December
29, 2016, the PADEP informed the Commission that
the use of credits is an acceptable method for demonstrating compliance with the Pennsylvania State
Implementation Plan and that sufficient NOX credits
are available to offset the estimated 2017 NOX construction emissions for Lancaster County.165 The PADEP
process of approving any transfer of credits requires a
30-day public comment period. These credits, as indicated the January 13, 2017 final General Conformity
Determination, would satisfy the Clean Air Act requirement for federal agencies to ensure that the action
would be in conformance with the Pennsylvania State
Implementation Plan. We are modifying Environmental
Recommendation 49 in the final EIS and adopting
Environmental Condition 48 to require Transco to
provide final evidence of an enforceable credit transfer
prior to construction within Lancaster County. Should
the transfer not execute, or significant changes to the
project require a reevaluation of General Conformity,
164
165

Final EIS at 4-219.

See PADEP’s December 29, 2016 Comment for the Draft
General Conformity Determination at 1-2.

205a
Commission staff would undertake the reevaluation in
accordance with the Clean Air Act General Conformity
regulations.166
116. Air quality impacts associated with construction of the project will include emissions from fossilfueled construction equipment and fugitive dust. Local
emissions may be elevated, and nearby residents may
notice elevated levels of fugitive dust, but these would
not be significant. We agree with the final EIS’s
conclusion that, with implementation of Transco’s
proposed mitigation measures and the environmental
conditions in Appendix C of this order, air quality
impacts from construction activities, such as elevated
dust levels near construction areas, will be temporary
or short term, and will not result in a significant
impact on local and regional air quality.167
117. Commission staff conducted a supplemental
modeling of Compressor Stations 517, 520, and 190 to
analyze potential impacts associated with the operation of the existing emission sources at these stations,
along with the proposed new sources, including monitored background. Based on this analysis, the existing
sources at Compressor Stations 190, 517, and 520 are
shown to be in compliance with the NAAQS for all
pollutants, with the exception of the one-hour nitrogen
dioxide (NO2) standard at Compressor Stations 517
and 520. Based on the modeling analysis, concentrations for one-hour NO2 for existing sources at Compressor
Stations 517 and 520 have the potential to exceed the
NAAQS during some operating scenarios and meteorological conditions. However, project operations will
not incrementally contribute to the potential exceed166

40 C.F.R. § 93.157 (2016).

167

Final EIS at 4-221.

206a
ance of the one-hour NO2 standard. Rather, the
modeled exceedances are from existing equipment.168
118. To ensure that the operation of Compressor
Stations 190, 517, and 520 do not result in a violation
of the NAAQS, the final EIS recommends, and we
require in Environmental Condition 51, that Transco
continue to operate the air quality monitoring stations
at Compressor Stations 190, 517, and 520 for a period
of three years after the newly modified facilities begin
operation. In the event that the air quality monitoring
shows a violation of the NAAQS, Transco shall immediately contact the state air quality agency to report
the violation and establish a plan of action to correct
the violation in accordance with the terms of the
facility air permit and applicable state law.
119. We agree with the final EIS’s conclusion that,
with the additional data provided, continued monitoring at the compressor stations, and implementation of
the environmental conditions in Appendix C of this
order, operational emissions will not have a significant
impact on local or regional air quality.169
j. Safety
120. Numerous commenters questioned the general
safety of the project. The final EIS states that the project facilities must be designed, constructed, operated,
and maintained to meet or exceed the U.S. Department
of Transportation’s Minimum Federal Safety Standards170 and other applicable federal and state regulations.
These regulations include specifications for material
selection and qualification; minimum design require168

Id. at 4-228.

169

Id. at 5-20.

170

See 49 C.F.R. pt. 192 (2016).

207a
ments; and protection of the pipeline from internal,
external, and atmospheric corrosion.
121. Several commenters expressed concern about
long-term pipeline maintenance and operations. The
Commission has a Memorandum of Understanding
on Natural Gas Transportation Facilities with the
Department of Transportation, which has exclusive
authority to promulgate federal safety standards used
in the transportation of natural gas. These regulations
are implemented by the Department of Transportation’s
Pipeline and Hazardous Material Safety Administration
(PHMSA). Once a natural gas pipeline is constructed,
PHMSA maintains oversight of safety during operations. The Department of Transportation rules require
regular inspection and maintenance, including repairs
as necessary, to ensure the pipeline has adequate
strength to transport the natural gas safely.171 Further,
although regulations requiring remote control shut-off
valves have not yet gone into effect and would apply to
pipelines built in the future, Transco committed to the
use of remote control shut-off valves for the proposed
pipelines.
122. Several commenters expressed concerns regarding potential effects of a pipeline rupture and natural
gas ignition (the area of potential effect is sometimes
referred to as the potential impact radius). While a pipeline rupture does not necessarily ignite, the Department
of Transportation’s regulations define high consequence areas where a gas pipeline accident could do
considerable harm to people and their property and
require an integrity management program to minimize the potential for an accident. Transco routed the
pipeline to minimize risks to local residents and vul171

See 49 C.F.R. pt. 192 subpt. O (2016).

208a
nerable locations/populations (e.g., hospitals, prisons,
schools, daycare facilities, retirement or assisted-living
facilities) and will follow federal safety standards for
pipeline class locations based on population density.
The Department of Transportation regulations are
designed to ensure adequate safety measures are
implemented to protect all populations.
123. Based on available data, we agree with the
final EIS’s conclusions that Transco’s implementation
of the measures provided in the final EIS would ensure
compliance with the Department of Transportation regulations, which would minimize the risk of public harm
related to the construction and operation of the project.172
k. Indirect Effects
124. Several commenters, including Oil Change
International,173 request that the final EIS include the
greenhouse gas (GHG) emissions associated with the
upstream production and downstream combustion of
the natural gas to be transported by the projects. The
commenters cite the CEQ’s Final Guidance for Federal
Departments and Agencies on Consideration of Greenhouse Gas Emissions and the Effects of Climate Change
in National Environmental Policy Act Reviews issued
172

See Final EIS at 5-22 - 5-23; see also EarthReports, Inc. v.
FERC, 828 F.3d 949, 958-59 (D.C. Cir. 2016) (reliance on the
opinions and standards of relevant federal and state authorities,
including the Department of Transportation, is a reasonable
component of the Commission’s review of safety considerations).
173

Oil Change filed comments on behalf of the Sierra Club,
Earthworks, Appalachian Voices, Chesapeake Climate Action,
350.org, Bold Alliance, Environmental Action, Blue Ridge Environmental Defense League, Protect Our Water, Heritage and
Rights (Virginia & West Virginia), Friends of Water, Mountain
Lakes Preservation Alliance, Sierra Club West Virginia, and
Sierra Club Virginia.

209a
on August 1, 2016 (CEQ Final Guidance),174 noting
that the CEQ Final Guidance includes end use fossil
fuel combustion as an example of an indirect emission
that should be considered.
125. The CEQ Final Guidance recognizes this potential issue, recommending that the final guidance apply
“to all new proposed agency actions when a NEPA
review is initiated” and that “[a]gencies should exercise judgment when considering whether to apply this
guidance to the extent practicable to an on-going NEPA
process.”175 The CEQ Final Guidance also emphasizes
that “this guidance is not a rule or regulation, and the
recommendations it contains may not apply to a
particular situation based upon the individual facts
and circumstances,” and “agencies should provide the
public and decision makers with explanations of the
basis for agency determinations.”176
126. CEQ’s regulations direct federal agencies to
examine the indirect impacts of proposed actions.177
Indirect impacts are defined as those “which are
caused by the action and are later in time or farther
removed in distance, but are still reasonably foreseeable.”178 Indirect effects may include growth inducing
effects and other effects related to induced changes in
the pattern of land use, population density or growth
174

CEQ, Final Guidance for Federal Departments and
Agencies on Consideration of Greenhouse Gas Emissions and the
Effects of Climate Change in National Environmental Policy Act
Review (issued Aug. 1, 2016), https://www.whitehouse.gov/admin
istration/eop/ceq/initiatives/nepa/ghg-guidance.
175

Id. at 33.

176

Id. at 1-2.

177

See 40 C.F.R. § 1508.25(c) (2016).

178

Id. § 1508.8(b).

210a
rate, and related effects on air and water and other
natural systems, including ecosystems.”179 Accordingly,
to determine whether an impact should be studied as
an indirect impact, the Commission must determine
whether it: (1) is caused by the proposed action; and
(2) is reasonably foreseeable.
127. With respect to causation, “NEPA requires ‘a
reasonably close causal relationship’ between the
environmental effect and the alleged cause”180 in order
“to make an agency responsible for a particular effect
under NEPA.”181 As the Supreme Court explained, “a
‘but for’ causal relationship is insufficient [to establish
cause for purposes of NEPA].”182 Thus, “[s]ome effects
that are ‘caused by’ a change in the physical environment in the sense of ‘but for’ causation,” will not fall
within NEPA if the causal chain is too attenuated.183
Further, the Court has stated that “where an agency
has no ability to prevent a certain effect due to its
limited statutory authority over the relevant actions,

179

Id.

180

Dep’t of Transp. v. Pub. Citizen, 541 U.S. 752, 767 (2004)
(quoting Metro. Edison Co. v. People Against Nuclear Energy, 460
U.S. 766, 774 (1983)).
181

Pub. Citizen, 541 U.S. at 767.

182

Id.; see also Sierra Club v. FERC, 827 F.3d 36, 46 (D.C. Cir.
2016) (Freeport LNG) (FERC need not examine everything that
could conceivably be a but-for cause of the project at issue); Sierra
Club v. FERC, 827 F.3d 59, 68 (D.C. Cir. 2016) (Sabine Pass LNG)
(FERC order authorizing construction of liquefied natural gas
export facilities “are not the legally relevant cause” of increased
production of natural gas).
183

Metro. Edison Co., 460 U.S. at 774.

211a
the agency cannot be considered a legally relevant
‘cause’ of the effect.”184
128. An effect is “reasonably foreseeable” if it is
“sufficiently likely to occur that a person of ordinary
prudence would take it into account in reaching a
decision.”185 NEPA requires “reasonable forecasting,”
but an agency is not required “to engage in speculative
analysis” or “to do the impractical, if not enough
information is available to permit meaningful consideration.”186
129. The Commission does not have jurisdiction
over natural gas production. The potential impacts of
natural gas production, with the exception of greenhouse gas emissions and climate change, would be on
a local and regional level. Each locale includes unique
conditions and environmental resources. Production
activities are thus regulated at a state and local level.
In addition, deep underground injection and disposal
of wastewaters and liquids are subject to regulation by
the EPA under the Safe Drinking Water Act. The EPA
also regulates air emissions under the Clean Air Act.
On public lands, federal agencies are responsible for

184

Pub. Citizen, 541 U.S. at 770; see also Freeport LNG, 827
F.3d at 47 (affirming that Public Citizen is explicit that FERC, in
authorizing liquefied natural gas facilities, need not consider
effects, including induced production, that could only occur after
intervening action by DOE); Sabine Pass LNG, 827 F.3d at 68
(same); EarthReports, 828 F.3d at 956 (same).
185

Sierra Club v. Marsh, 976 F.2d 763, 767 (1st Cir. 1992). See
also City of Shoreacres v. Waterworth, 420 F.3d 440, 453 (5th Cir.
2005).
186

N. Plains Res. Council, Inc. v. Surface Transp. Bd., 668 F.3d
1067, 1078 (9th Cir. 2011).

212a
the enforcement of regulations that apply to natural
gas wells.
130. We have previously concluded in natural gas
infrastructure proceedings, based on the specifics of
the project being proposed in each proceeding, that the
environmental effects resulting from natural gas
production are generally neither sufficiently causally
related to specific natural gas infrastructure projects
nor are the potential impacts from gas production
reasonably foreseeable such that the Commission
could undertake a meaningful analysis that would aid
our determination.187 A causal relationship sufficient
to warrant Commission analysis of the upstream production activity as an indirect impact would only exist
if a proposed pipeline or Commission-jurisdictional
infrastructure project would transport new production
from a specified production area and such production
would not occur in the absence of the proposed project
facilities (i.e., there will be no other way to move the
gas).188 To date, the Commission has not been pre187

See, e.g., Central New York Oil and Gas Co., LLC, 137 FERC
¶ 61,121, at PP 81-101 (2011), order on reh’g, 138 FERC ¶ 61,104,
at PP 33-49 (2012), petition for review dismissed sub nom., Coal.
for Responsible Growth v. FERC, 485 Fed. Appx. 472, 474-75 (2d
Cir. 2012) (unpublished opinion).
188

Cf. Sylvester v. U.S. Army Corps of Eng’rs, 884 F.2d 394, 400
(9th Cir. 1989) (upholding the environmental review of a golf
course that excluded the impacts of an adjoining resort complex
project). See also Morongo Band of Mission Indians v. FAA, 161
F.3d 569, 580 (9th Cir. 1998) (concluding that increased air
traffic resulting from airport plan was not an indirect, “growthinducing” impact); City of Carmel-by-the-Sea v. U.S. Dep’t of
Transp., 123 F.3d 1142, 1162 (9th Cir. 1997) (acknowledging that
existing development led to planned freeway, rather than the
reverse, notwithstanding the project’s potential to induce additional development).

213a
sented with a proposed pipeline project that the record
shows will cause the predictable development of gas
reserves. In fact, the opposite causal relationship is
more likely, i.e., once production begins in an area,
shippers or end users will support the development of
a pipeline to move the produced gas.
131. Even accepting, arguendo, that a specific
pipeline project will cause natural gas production, to
date, we have found that the potential environmental
impacts resulting from such production are not reasonably foreseeable. As we have explained, generally there
is not sufficient information available to determine the
origin of the gas that will be transported. It is the
states, rather than the Commission, that have jurisdiction over the production of natural gas and thus
would be most likely to have the information necessary
to reasonably foresee future production. We are aware
of no such forecasts by the states or any other entities,
rendering the Commission unable to meaningfully
predict production-related impacts, many of which are
highly localized. Thus, even if the Commission knows
the general source area of gas likely to be transported
on a given pipeline, a meaningful analysis of production impacts would require more detailed information
regarding the number, location, and timing of wells,
roads, gathering lines, and other appurtenant facilities, as well as details about production methods, which
can vary per producer and depending on the applicable
regulations in the various states. Accordingly, to date,
the impacts of natural gas production are not reasonably foreseeable because they are “so nebulous” that
we “cannot forecast [their] likely effects” in the context
of an environmental analysis of the impacts related to

214a
construction and modification of natural gas pipeline
facilities.189
132. Nonetheless, we note that, although not required
by NEPA, a number of federal agencies have examined
the potential environmental issues associated with
unconventional natural gas production in order to provide the public with a more complete understanding of
the potential impacts. The DOE has concluded that
such production, when conforming to regulatory requirements, implementing best management practices, and
administering pollution prevention concepts, may
have temporary, minor impacts to water resources.190
The EPA has concluded that hydraulic fracturing can
impact drinking water resources under some circumstances and identified conditions under which impacts
from hydraulic fracturing activities can be more
frequent or severe.191 With respect to air quality, the

189

Habitat Educ. Ctr. v. U.S. Forest Serv., 609 F.3d 897, 902
(7th Cir. 2010) (agency need not discuss projects too speculative
for meaningful discussion).
190

U.S. DEP’T OF ENERGY, ADDENDUM TO ENVIRONMENTAL
REVIEW DOCUMENTS CONCERNING EXPORTS OF NATURAL GAS
FROM THE UNITED STATES (issued Aug. 2014) (DOE Addendum),
http://energy.gov/sites/prod/files/ 2014/08/f18/Addendum.pdf.
191

See U.S. EPA, HYDRAULIC FRACTURING FOR OIL AND GAS:
IMPACTS FROM THE HYDRAULIC FRACTURING WATER CYCLE ON
DRINKING WATER RESOURCES IN THE UNITED STATES, at ES3-4
(issued Dec. 2016) (final report), http://ofmpub.epa.gov/eims/eim
scomm.getfile?p_download_id=529930 (finding significant data
gaps and uncertainties in the available data prevented EPA from
calculating or estimating the national frequency of impacts on
drinking water resources from activities in the hydraulic fracturing water cycle). See also Oil and Gas; Hydraulic Fracturing on
Federal and Indian Lands, 80 Fed. Reg. 16,128, 16,130 (Mar. 26,
2015) (Bureau of Land Management promulgated regulations for
hydraulic fracturing on federal and Indian lands to “provide

215a
DOE found that natural gas development leads to both
short- and long-term increases in local and regional air
emissions.192 It also found that such emissions may
contribute to climate change.193 But to the extent that
natural gas production replaces the use of other
carbon-based energy sources, DOE found that there
may be a net positive impact in terms of climate
change.194
i. Causation
133. The record in this proceeding does not demonstrate the requisite reasonably close causal relationship
between the Atlantic Sunrise Project and the impacts
of future natural gas production to necessitate further
analysis. The fact that natural gas production and
transportation facilities are all components of the
general supply chain required to bring domestic
natural gas to market is not in dispute. This does not
mean, however, that the Commission’s approval of this
particular pipeline project will cause or induce the
effect of additional or further shale gas production.
The proposed project is responding to the need for
transportation, not creating it.
134. Furthermore, arguments raised by commenters about the Atlantic Sunrise project inducing natural
gas production are similar to the arguments that were
raised and rejected by both the Commission and Second
Circuit Court of Appeals in Central New York Oil and

significant benefits to all Americans by avoiding potential
damages to water quality, the environment, and public health”).
192

DOE Addendum at 32.

193

Id. at 44

194

Id.

216a
Gas Co., LLC. In that case, the Commission concluded, and the Second Circuit agreed, that under NEPA,
Marcellus shale development activities are not sufficiently causally-related to the project to warrant in-depth
consideration of the gas production impacts because,
in part, Marcellus shale development activities were
not “an essential predicate” for the project.196
195

135. Similarly here, the Commission has not found
any evidence that future gas development is an essential predicate for the project. Moreover, whether or
how much induced gas will travel through the project
cannot be known given that a significant amount of
unconventional natural gas production currently
exists.197 Commenters fail to identify any new production specifically associated with the proposed project.
136. As we have explained in other proceedings, a
number of factors, such as domestic natural gas prices
and production costs drive new drilling.198 If the pro195

Central New York Oil and Gas Co., LLC, 137 FERC ¶
61,121); order on reh’g, 138 FERC ¶ 61,104; pet. for review
dismissed sub nom. Coal. for Responsible Growth v. FERC, 485
Fed. App’x 472 (2d Cir. 2012).
196

Central New York, 137 FERC ¶ 61,121 at P 91; Coal. for
Responsible Growth, 485 F. App’x at 474 (“FERC reasonably
concluded that the impacts of that [shale gas] development are
not sufficiently causally-related to the project to warrant a more
in-depth [NEPA] analysis”).
197

For example, in 2014, unconventional natural gas production in Pennsylvania was approximately 11.15 Bcf per day. Penn.
Dep’t of Envtl. Prot., 2014 Oil and Gas Annual Report at 7 fig.
(July 2015), http://www.portal.state.pa.us/portal/server.pt/com
munity/annual_report/21786 (aggregate 2014 unconventional production divided by 365 days yields 11.15 billion cubic feet per day).
198

See e.g., Rockies Express Pipeline LLC, 150 FERC ¶ 61,161,
at P 39 (2015). See also Sierra Club v. Clinton, 746 F. Supp. 2d
1025, 1045 (D. Minn. 2010) (holding that the U.S. Department of

217a
posed project were not constructed, it is reasonable to
assume that any new production spurred by such
factors would reach intended markets through alternate pipelines or other modes of transportation.199
Again, any such production would take place pursuant
to the regulatory authority of state and local
governments.
ii. Reasonable Foreseeability
137. In addition, even if a causal relationship between
our action here and additional production were presumed, the scope of the impacts from any such induced
production in this case is not reasonably foreseeable.
Knowing the identity of a producer of gas to be shipped
on a pipeline, and the general area where that producer’s existing wells are located, does not alter the
fact that the number of and precise location of any
additional wells cannot be identified in this proceeding. As we have explained previously, factors such as
market prices and production costs, among others,
drive new drilling.200 These factors, combined with the
immense size of the Marcellus and Utica shale formations and the highly localized impacts of production
would result in general estimates. Thus, a broad
analysis, based on generalized assumptions will not
meaningfully assist the Commission in its decision
State, in its environmental analysis for an oil pipeline permit,
properly decided not to assess the transboundary impacts
associated with oil production because, among other things, oil
production is driven by oil prices, concerns surrounding the global
supply of oil, market potential, and cost of production); Florida
Wildlife Fed’n v. Goldschmidt, 506 F. Supp. 350, 375 (S.D. Fla.
1981) (ruling that an agency properly considered indirect impacts
when market demand, not a highway, would induce development).
199

Rockies Express, 150 FERC ¶ 61,161 at P 39.

200

Dominion Transmission, Inc., 153 FERC ¶ 61,284 (2015).

218a
making, e.g. evaluating potential alternatives. Accordingly, unless the Commission can ascertain specific
factual information regarding the nature of the induced
production, such induced production is not reasonably
foreseeable.
138. We acknowledge that the CEQ Final Guidance
includes the end-use combustion of coal as an example
of an indirect emission from coal production. However,
that example also notes that the indirect effects would
vary with the circumstances of the proposed action.
The final EIS explains that the upstream production
and downstream combustion of gas is not causally
connected because the production and end-use would
occur with or without this project.201 Therefore, the
circumstances in this case do not warrant the inclusion
of production or end-use as an indirect effect of the
project. Although EPA disagrees with this justification, this explanation does meet the CEQ Final
Guidance in considering specific project circumstances
and explaining the basis for the analysis that was
performed. Further, beyond a generic recommendation that we include upstream and end-use emission
in our NEPA document, EPA provides no information
to refute our justification that these emissions are not
causally connected.
139. As noted above, upstream and downstream
impacts of the type described by commenters do not
meet the definition of indirect impacts. Therefore, they
are not mandated as part of the Commission’s NEPA
review. However, to provide the public additional
information and to inform our public convenience and
necessity determination under section 7(e) of the

201

See Final EIS at 4-280 - 4-282.

219a
NGA, Commission staff, after reviewing publiclyavailable DOE and EPA methodologies, has prepared
the following analyses regarding the potential impacts
associated with unconventional gas production and
downstream combustion of natural gas. As summarized below, these analyses provide only an upperbound estimate of upstream and downstream effects.
In addition, these estimates are generic in nature
because no specific end uses have been identified and
reflect a significant amount of uncertainty.
202

140. With respect to upstream impacts, Commission
staff estimated the impacts associated with the production wells that would be required to provide 100
percent of the volume of natural gas to be transported
by the Atlantic Sunrise Project, on an annual basis for
GHGs. Commission staff also estimated land-use and
water use within the Marcellus shale basin for the life
of the project.203 Commission staff estimated that
approximately 1.48 acres of land is required for each
natural gas well pad and associated infrastructure
(i.e., road infrastructure, water impoundments, and
pipelines).204 Based upon the project volume and the
expected estimated ultimate recovery of Marcellus shale

202

15 U.S.C. § 717f(e) (2012).

203

Commission staff assumed a 30-year life for the project,
which is longer than the 15-year term of the precedent agreements and the 20-year term of the Lease Agreement. As a result,
the production wells impacts were liberally estimated.
204

U.S. DEP’T OF ENERGY, LIFE CYCLE ANALYSIS OF NATURAL
GAS EXTRACTION AND POWER GENERATION (issued Aug. 30, 2016),
at 22 (Table 3-6), https://www.netl.doe.gov/energy-analyses/te
mp/LifeCycleAnalysisofNaturalGasExtractionandPowerGenerat
ion_083016.pdf (2016 DOE Life Cycle Analysis).

220a
wells,
we have estimated that between 3,600and
7,100wells would be required to provide the gas over
the estimated 30-year lifespan of the project. Therefore,
on a normalized basis,206 these assumptions lead us to
estimate an upper bound of an additional 182 to 350
acres per year may be impacted by well drilling.207 This
estimate of the number of wells is imprecise and
subject to a significant amount of uncertainty.
205

141. Commission staff also estimates the amount of
water required for the drilling and development of
these wells over the 30 year period using the same
assumptions. Recent estimates208 show that an
average Marcellus shale well requires between 3.88
and 5.69 million gallons of water for drilling and well
development, depending on whether the producer uses
a recycling process in the well development. Therefore,
the production of wells required to supply the project
could require the normalized consumptive use of as
much as 470 to 1.3 billion gallons of water per year
over the 30 year life of the project.

205

James Staub, The Growth of U.S. Natural Gas: An
Uncertain Outlook for U.S. and World Supply, 2015 EIA Energy
Conference (2015), http://www.eia.gov/conference/2015/pdf/pres
entations/staub.pdf; U.S. DEP’T OF ENERGY, ENVIRONMENTAL
IMPACTS OF UNCONVENTIONAL NATURAL GAS DEVELOPMENT AND
PRODUCTION (May 29, 2014), https://www.netl.doe.gov/File%20
Library/Research/OilGas/publications/NG_Literature_Review3_
Post.pdf (DOE Production Report).
206

Thirty-year impacts averaged on a per year basis.

207

2016 DOE Life Cycle Analysis at 22 (Table 3-6). This DOE
Analysis estimates the land-use fractions of the Appalachian Shale
region to be 72.3 percent forested lands, 22.4 percent agricultural
land, and 5.3 percent grass or open lands. 2016 DOE Life Cycle
Analysis at 24, Table 3-8.
208

DOE Production Report at 76 (Exhibit 4-1).

221a
142. The final EIS includes the direct GHG emissions from construction and operation of the project,
mitigation measures to reduce GHG emissions, and
climate change impacts in the project region, as well
as generic downstream GHG emissions. The final EIS
discusses the direct GHG impacts from construction
and operation of the project and other projects that
were considered in the Cumulative Impacts analysis.
The final EIS includes a discussion of climate change
impacts in the region, the regulatory structure for
GHGs under the Clean Air Act, and the quantified
GHG emissions from Atlantic Sunrise project construction (152,850 metric tons per year, CO2-equivalent
[metric tpy CO2e]) and operation (667,580 metric tpy
CO2e).209 The final EIS does not include upstream emissions. However, Commission staff has conservatively
estimated the upstream GHG emissions as having an
upper bound of 1.4 million metric tpy CO2e from extraction, 2.7 million metric tpy CO2e from processing,
and 1.2 million metric tpy CO2e from the non-project
pipelines (both upstream and midstream reversed flow
pipelines).210 Again, this is an upper-bound estimate
that involves a significant amount of uncertainty.

209

These estimates include new project components, as well as
flow reversal components.
210

The upstream GHG emissions were estimated using DOE’s
Life Cycle Analysis of Natural Gas Extraction and Power
Generation, issued on May 29, 2014, https://www.netl.doe.gov/
energy-analyses/temp/NaturalGasandPowerLCAModelDocument
ationNG%20Report_052914.pdf (2014 Life Cycle Analysis).
Generally, Commission staff used the average leak and emission
rates identified in the 2014 Life Cycle Analysis for each segment
of extraction, processing, and transport. The method is outlined
in Section 2 of the 2014 Life Cycle Analysis, and the background
data used for the model is outlined in Section 3.1. Commission
staff used the results identified in Tables 4.3, 4.4, and 4.5 to look

222a
143. With respect to downstream GHG emissions,
Commission staff used an EPA-developed methodology to estimate the downstream GHG emissions from
a project, assuming all of the gas to be transported is
eventually combusted. As such, in response to EPA’s
comments, we conservatively estimated the GHG
emissions from the end-use combustion of the natural
gas to be transported by the project. If all 1.7 million
Dth per day of natural gas were transported to combustion end uses, downstream end-use would result in
the emission of about 32.9 million metric tpy of CO2e.211
We note that this CO2e estimate represents an upper
bound for the amount of end-use combustion that
could result from the gas transported by this project.
This is because some of the gas may displace fuels (i.e.,
fuel oil and coal) which could result in lower total CO2e
emissions. It may also displace gas that otherwise
would be transported via different means, resulting
in no change in CO2e emissions. This estimate also
assumes the maximum capacity is transported 365
days per year, which is rarely the case because many
projects are designed for peak use. As such, it is
unlikely that this total amount of GHG emissions
would occur, and emissions are likely to be significantly lower than the above estimate.
144. On August 8, 2016, Oil Change International
filed comments, consisting of one paragraph and an
at each segment and grossly estimate GHG emission. These
estimates are conservative as Commission staff did not account
for the new New Source Performance Standards oil and gas rules
or other GHG mitigation. Additionally, staff made a conservative
estimate of the length of non-jurisdictional pipeline prior to the
gas reaching project components as well as the length of reversed
flow pipelines.
211

Final EIS at 4-318.

223a
attached 32-page report, in 11 pipeline certificate
proceedings, including the matter at hand. Oil Change
International asserts that there should be a climate
test for all natural gas infrastructure, that, in light of
the CEQ Final Guidance, “the alignment of natural
gas infrastructure permitting with national climate
goals and plans should become a priority for FERC
and other federal government agencies,” and that the
Commission should “conduct full Greenhouse Gas
impact analysis as part of the NEPA process for all
listed projects.”212 The report asserts generally that
increased U.S. natural gas production in the Appalachian
Basin is not consistent with safe climate goals, and
that proposed pipeline projects will increase takeaway
capacity from the basin and provide financial incentives for increased production.
145. The comments and the report provide no
specific information about the Atlantic Sunrise Project
(or any of the other listed projects). Accordingly, this
material does not assist us in our analysis of the
project. As discussed above, we indeed do analyze the
greenhouse gas impacts of the proposed project as part
of our NEPA and NGA review.
146. As to the more global issues raised by Oil
Change International, while the Commission does not
utilize a specific “climate test,” we do examine the
impacts of the project before us, including impacts on
climate change. Under NEPA, we are required to take
a “hard look” at the environmental impacts of the proposed project and we have done so. To the extent that
Oil Change International suggests an alignment of
project permitting with national climate change goals,
we note that it is for Congress, the Executive Branch,
212

Oil Change International August 8, 2016 Comments at 1.

224a
and agencies with jurisdiction over broad environmental issues to establish such goals; our role under the
NGA is considerably more limited, and we have no
authority to establish national environmental policy.
l. Cumulative Impacts
i. Climate Change
147. The EPA requests that we remove the comparison of the project’s GHG emissions with state-wide
GHG emission levels to provide a frame of reference.
The EPA argues that although this type of comparison
was included in the CEQ’s draft guidance document,213
it has been removed from the CEQ Final Guidance.
Although this comparison was removed as a recommendation in the CEQ Final Guidance, it does not
indicate that an EIS cannot include such information.
We find that providing this frame of reference helps to
better understand the magnitude of GHG emissions
themselves compared to other pollutants. Further, the
final EIS responds to the EPA’s comment by explaining that while it compares project GHG emissions with
state GHG emissions, the final EIS does not dismiss
climate change impacts based on this comparison.
Instead, the final EIS includes a discussion on climate
change impacts in section 4.13.8.10 and identifies that
the project will contribute GHG emissions.214 We agree
that the final EIS’s discussion of climate change,
including the final EIS’s appendices, is adequate.

213

CEQ, Revised Draft Guidance for Federal Departments and
Agencies on Consideration of Greenhouse Gas Emissions and the
Effects of Climate Change in NEPA Reviews (Dec. 2014), https://
www.whitehouse.gov/sites/default/files/docs/nepa_revised_draft_
ghg_guidance_searchable.pdf.
214

Final EIS at 4-316 - 4-319.

225a
ii. Safety
148. Several comments were received regarding
potential cumulative impacts on safety caused by the
project and collocated pipelines that are unrelated to
the project.215 Based on the construction and design
methods of pipelines collocated within a shared
right-of-way and adherence to the Department of
Transportation safety regulations, the final EIS concludes it is unlikely that one pipeline failure would
cause the adjacent pipeline to also fail.216 As previously
described,217 the project will be designed and constructed in accordance with or in exceedance of the
Department of Transportation’s Minimum Federal
Safety Standards and to meet requirements established for protection of metallic facilities from external,
internal, and atmospheric corrosion. We agree with
the final EIS’s conclusion that, with implementation
of the mitigation measures adopted in Appendix C of
the order, no cumulative impacts on safety and
reliability are anticipated to occur as a result of the
project.218
m. Alternatives
149. A number of commenters suggested that the
contracted volumes of natural gas could be transported via existing pipeline systems. The final EIS
concludes that no existing pipeline system in the
vicinity of the project can meet the project’s purpose
without significant expansions, which would result in
215

Table 2.2.1-1 on pages 2-13 - 2-14 of the final EIS lists all
the collocated pipelines.
216

Final EIS at 4-320.

217

See supra at PP 120-123.

218

Final EIS at 4-320.

226a
environmental impacts similar to or greater than the
impacts of the proposed project.219 We agree with these
conclusions.
150. Commission staff evaluated the Transco System
Alternative, which would avoid a greenfield pipeline
alignment by siting the proposed facilities adjacent to
Transco’s existing Mainline and Leidy pipelines. The
Transco System Alternative would be collocated with
Transco’s existing pipelines for about 91 percent of its
length. The Transco System Alternative, however,
would involve a significant expansion of the proposed
project (it would require the construction of about 50
additional miles of pipeline)and would impact an additional 605 acres of land during construction. In addition,
development of the Transco System Alternative would
not be feasible in certain areas due to the significant
amount of commercial, industrial, and residential
development that has occurred adjacent to Transco’s
existing rights-of-way. The final EIS concludes, and
we agree, that the Transco System Alternative will not
be preferable to the project as proposed.220
151. Since pre-filing, Transco incorporated 132
route variations into the proposed route to avoid or
reduce effects on environmental or other resources,
resolve engineering or constructability issues, or address
stakeholder concerns. This represents about a 50
percent change to Transco’s original route design.
Commission staff reviewed the route variations and
agreed with Transco’s conclusions regarding their
incorporation into the proposed route. In response to
Commission staff’s recommendations in the draft EIS,
Transco incorporated Central Penn Line North
219

Id.

220

Id. at 5-25.

227a
Alternative 5, Central Penn Line South Alternative
22, and minor realignments of Alternative 24C and the
Neil Bushong Deviation into the proposed route to
increase the distance of the pipeline from residential
structures or to address other landowner concerns.
152. The final EIS evaluates five major route alternatives. The major route alternative that received the
most stakeholder interest was the Western Central
Penn Line South Alternative 3 (Alternative 3).
Alternative 3 was identified by Patrick Kelsey to
maximize collocation with existing rights-of-way. The
environmental advantages of Alternative 3 are that it
would increase the length of pipeline collocated with
existing rights-of-way thereby reducing impacts on
intact forest land. However, Alternative 3 would be
three miles longer and cross 13 more waterbodies and
two more wetlands than the corresponding segment of
the proposed route. The final EIS concludes, and we
agree, that the environmental advantages of Alternative
3 do not outweigh its additional environmental impacts
and, therefore, is not preferable to the proposed route.221
153. The final EIS also evaluates 11 minor route
alternatives along Central Penn Line North and 17
minor route alternatives along Central Penn Line
South. To further address landowner concerns, the
final EIS recommends, and we require in Environmental Conditions 13, 14, 16, 19, and 20, that Transco
incorporate five additional minor route variations,
each less than a mile in length, and one alternative
valve site location (Environmental Condition 17).
Transco identified the Conestoga River Alternative to
avoid crossing a conservation easement along Central
Penn Line South at milepost 12.3, where the proposed
221

Id. at 3-15.

228a
route crosses land subject to a Declaration of Restrictive Covenants for Conservation by PPL Holtwood,
LLC to satisfy a condition of its U.S. Army Corps
permit issued for construction and operation of the
Holtwood Hydroelectric Expansion Project on the
Susquehanna River. If Transco is unable to secure the
necessary easement on tract PA-LA-137 B.000 along
the proposed route due to the restrictive covenant,
Environmental Condition 18 requires Transco to
incorporate the Conestoga River Alternative.
154. Several comments were received regarding
Central Penn Line North Alternative 12 West. Central
Penn Line North Alternative 12 West was identified
by Ms. Nesbitt to avoid crossing her property and
minimize impacts on cultural resources and interior
forest. However, stakeholders located along this proposed alternative route identified concerns related to
the specific alignment across their property, pipeline
safety, and potential effects of the pipeline on property
values and future development. The final EIS concludes that both the proposed route and Central Penn
Line North Alternative 12 West have advantages and
disadvantages, trading increased impacts in certain
categories for less impacts in other categories. For
example, Central Penn Line North Alternative 12
West would reduce the amount of forestland and
forested wetland crossings; avoid the Perrins Marsh
Natural Heritage Area; and reduce the crossing length
of the Nesbitt Estate Rural Historic District. But it is
longer than the proposed route, would affect more land
during construction, and affect more landowners. To
mitigate the effect on Ms. Nesbitt, Transco modified
its original pipeline alignment across her property,
following issuance of the draft EIS, to avoid bisecting
her tract by following her eastern property boundary
and to reduce the amount of forested wetlands impacted.

229a
Ultimately, an alternative that results in equal or minor
advantages in terms of environmental impact would
not compel us to shift the impacts from the current set
of landowners to a new set of landowners.222
155. The final EIS states that the U.S. Army Corps
was in the process of completing its public interest
review of the proposed route and Central Penn Line
North Alternative 12 West as part of its permitting
requirements under section 404 of the Clean Water
Act.223 On December 20, 2016, the U.S. Army Corps
issued a public notice requesting comments from the
public; federal, state, and local agencies and officials;
Indian Tribes; and other interested parties, which will
be considered by the U.S. Army Corps to determine
whether to issue, modify, condition or deny a permit
for the project.224 Because the U.S. Army Corps has not
completed its public interest review, including site
visits and public comment reviews, the U.S. Army
Corps may acquire new data and conclude that the
environmental impacts of the proposed route outweigh
its advantages.225 In comparing impacts on different

222

See Vermonters for a Clean Env’t, Inc. v. Madrid, 73 F. Supp.
3d 417, 427 (D. Vt. 2014).
223

Final EIS at 3-31.

224

The public comment period ended on January 20, 2017, with
additional site visits pending. Under the EPA’s Clean Water Act
section 404(b)(1) guidelines, no discharge of dredged or fill
material shall be permitted if there is a practicable alternative to
the proposed discharge that would have less adverse impact on
the aquatic ecosystem, so long as the alternative does not have
other significant adverse environmental consequences. See 40
C.F.R. § 230.10(a) (2016).
225

If the U.S. Army Corps were to find Central Penn Line
North Alternative 12 West preferable, the final EIS finds this
route would be environmentally acceptable and Transco would be

230a
resources of the corresponding segment of the proposed route and Central Penn Line North Alternative
12 West, the final EIS concludes, and we agree, that
the data available does not indicate that the alternative provides a significant environmental advantage
over the proposed route.226
156. Over 400 comment letters were received that
support the Central Penn Line South Alternative 24C.
Alternative 24C was identified by Dr. Linda Quodomine
to avoid crossing her existing equine veterinary clinic
and pastures and to increase the distance of the
pipeline from residences. The draft EIS recommended
that Transco incorporate Alternative 24C into the proposed route. In its comments on the draft EIS, Transco
identified a minor realignment to Alternative 24C to
avoid a planned subdivision and improve the crossing
location of Interstate 80,227 but otherwise incorporated
Alternative 24C as its proposed route. We agree with
Transco’s adoption of this revised route, identified in
the final EIS as Alternative 24D, with minor modifications, as recommended in Environmental Condition 16.
157. Numerous comments regarding the Central
Penn Line South Conestoga Alternative Route were
received. During pre-filing, Transco’s initial proposed
alignment crossed Shenk’s Ferry Wildflower Preserve
and Tucquan Glen Nature Preserve. Through the prerequired to file an amendment to request approval of Central
Penn Line North Alternative 12 West.
226
227

Final EIS at 3-33.

The referenced realignment to Alternative 24C is identified
as Alternative 24D (see final EIS at 3-49). An additional minor
modification to 24D was recommended as Route Deviation
M-0431. See infra PP 166-167 and Environmental Condition 16
in Appendix C of this order.

231a
filing process, over 240 comment letters were filed
expressing concern about impacts on these nature
preserves. In response, Transco’s application modified
the proposed route to avoid these areas. Over 600
comments were filed on the draft EIS suggesting that
the pipeline alignment be moved back to the pre-filing
pipeline route (now called the Conestoga Alternative
Route) to minimize impacts on private landowners.
The Conestoga Alternative Route would be slightly
shorter, but would cross more recreation areas/
preserved lands and waterbodies than the corresponding segment of the proposed route. For this reason, the
final EIS concludes, and we agree, that the Conestoga
Alternative Route is not environmentally preferable to
the proposed route.228
158. On November 21, 2016, after the close of the
draft EIS comment period, David and Lucille Ruckle
filed comments requesting evaluation of alternative
alignments to Central Penn Line South Alternative
24D. The first alternative alignment would deviate
from the proposed route at milepost M-0423 3.5 and
proceed 1.3 miles north across primarily agriculture
land between Thomas and Millville Roads before
rejoining the proposed route at milepost 107.0. Our
evaluation of this variation shows that Thomas and
Millville Roads parallel Little Fishing Creek in this
area and, due to residential development east of
Thomas Road and steep slopes east of Millville Road
and west of Thomas Road, we could not identify a
practicable crossing location of Little Fishing Creek.
For these reasons, we conclude that the alternative
alignment is not preferable to the corresponding
segment of the proposed route. The second alignment
228

Final EIS at 3-57.

232a
identified by the Ruckles would deviate from the
proposed route at milepost M-0423 3.5 and proceed 0.2
mile north across agricultural land where it would
turn and proceed 0.4 mile northeast across Little
Fishing Creek and Mall Boulevard before rejoining the
proposed route at milepost M-0423 4.1. Due to steep
topography north of Mall Boulevard and the presence
of Little Fishing Creek south of Mall Boulevard, we
find that that the potential construction constraints
would not make this alignment practicable and are,
therefore, not recommending incorporation of either
variation.
5. Comments on the Final EIS
a. Conestoga Petitioners
159. On January 4, 2017, the Conestoga Petitioners
(Petitioners) filed a comment on the final EIS regarding the alternatives evaluation completed for the
Conestoga Alternative Route. The Petitioners argue
that information used in the alternatives analysis was
inaccurate because it was not based on field data
depicted on alignment sheets filed by Transco. As
explained in section 3.0 of the final EIS, in analyzing
the proposal and alternatives, Commission staff relied
on information provided by Transco, aerial photographs, U.S. Geological Survey topographic maps and
other publicly available information, input from cooperating and other agencies, public input from scoping,
and site visits. To ensure that the comparisons are
based on consistent data, Commission staff used these
same desktop sources of information to compare the
impacts of the proposed route and alternative routes.
160. The Petitioners also contend that the final EIS
inaccurately identifies Clark Run, a waterbody crossed
by the Conestoga Alternative Route, as a scenic river.

233a
They state that the Pennsylvania Department of
Conservation and Natural Resources only designates
Tucquan Creek, a waterbody crossed by both the
proposed route and the Conestoga Alternative Route,
as a scenic river. The Petitioners are incorrect.
Pennsylvania designates Clark Run as a scenic river
from its headwaters at Mount Nebo, Pennsylvania, to
its confluence with Tucquan Creek.229
161. The Petitioners also argue that because the
Conestoga Alternative Route is one mile shorter than
the proposed route, adopting the Conestoga Alternative Route would reduce construction emissions. While
a shorter pipeline length may result in lower emissions
during certain construction phases, the Conestoga
Alternative Route would require an increased amount
of forest clearing compared to the proposed route.
Clearing forested vegetation requires more time and
construction equipment compared to clearing vegetation on agricultural land, which is the dominant land
use along the proposed route. Forest clearing will
result in higher construction emissions during the clearing and grubbing phase of construction. Therefore, the
Conestoga Alternative Route will unlikely result in
lower construction emissions and could result in higher
construction emissions compared to the proposed route.
b. Transco
162. In a letter dated January 13, 2017, Transco
requested clarification of Commission staff’s Environmental Recommendations 18, 20, and 42, which were
included in section 5 of the final EIS.

229

Penn. Dep’t of Conservation and Nat. Res., Scenic Rivers,
http://www.dcnr.state.pa.us/brc/conservation/rivers/scenicrivers/
tucquancreek/index.htm.

234a
163. Environmental Recommendation 18 in the
final EIS recommends that, with its Implementation
Plan, Transco file documentation that it has acquired
the necessary easement on tract PA-LA-137_B.000. In
the event that Transco is unsuccessful in acquiring
this easement necessary for the construction of its
proposed route, the Recommendation would require
Transco to incorporate the Conestoga River Alternative
into the proposed route. In its January 13, 2017 letter,
Transco indicated that it is in the process of acquiring
the necessary easement on tract PA-LA-137_B.000.
However, Transco states it may not complete the
acquisition of the easement prior to the filing of its
Implementation Plan. As a result, Transco is requesting it be allowed to provide documentation that it has
acquired the easement necessary for construction of its
proposed route after the filing of its implementation
plan, but prior to construction. Transco also indicated
that it will file information related to the Conestoga
River Alternative with its Implementation Plan if it
intends to incorporate this alternative into the proposed route. In order to allow additional time for
Transco to secure the necessary easement across PALA-137_B.000, Environmental Recommendation 18 is
revised in Environmental Condition 18 of this order to
allow Transco to file the documentation that it has
acquired the necessary easement prior to construction.
164. Environmental Recommendation 20 in the
final EIS recommends that, prior to construction,
Transco shall file with the Secretary a revised alignment sheet that adjusts the construction workspace
associated with Route Deviation M-0209 to abut the
western property boundary of Reeves F. Goehring, III.
In its January 13, 2017 letter, Transco stated that
adjusting the workspace to abut Mr. Goehring’s property line will impact a gully and require constructing

235a
on side-sloping topography. As a result, Transco
indicted that it will reduce the construction right-ofway width to 75 feet and relocate additional temporary
extra workspace to agricultural land located south of
Mr. Goehring’s property to minimize forest clearing
impacts. In response to Transco’s filing, Mr. Goehring
submitted comments on January 13, 2017 indicating
that Transco’s modifications will not be acceptable to
him and requests that Transco comply with our environmental recommendation to adjust the construction
workspace to abut his western property boundary.
In order to address the concerns of Mr. Goehring,
Environmental Recommendation 20 is revised in
Environmental Condition 20 of this order to require
Transco to further assess the pipeline alignment
and workspace requirements in coordination with Mr.
Goehring and file with the Commission, for the review
and written approval by the Director of Office of
Energy Projects, revised alignment sheets and documentation of its landowner consultation regarding the
crossing of Mr. Goehring’s property.
165. Environmental Recommendation 42 in the final
EIS requires that Transco file copies of correspondence
with the Pennsylvania Department of Conservation
and Natural Resources confirming all Pennsylvania
Department of Conservation and Natural Resources funded properties crossed by the project have been
identified and any change in use or transfer of rights
for the Pennsylvania Department of Conservation and
Natural Resources -funded properties is in compliance
with PADCNR’s conversion policies. In its January 13,
2017 letter, Transco requested confirmation that this
recommendation will only apply to properties funded
with federal Land and Water Conservation Funds.
We received comments on the draft EIS from the
Pennsylvania Department of Conservation and Natural

236a
Resources regarding its policies regarding conversion
of property interest acquired with state or federal
grants (e.g., Federal Land and Water Conservation
Funds, Keystone Recreation, Park and Conservation
Funds, and Snowmobile/All-terrain Vehicle Funds).
Environmental Recommendation 42 applies to any
Pennsylvania Department of Conservation and Natural
Resources -funded property. We include Environmental
Recommendation 42 as Environmental Condition 42
in Appendix C of this order.
c. Kenneth Shannon
166. On November 14, 2016, Transco filed Route
Deviation M-0431 to avoid a new residence being
constructed by Kenneth Shannon. On November 16,
2016, Mr. Shannon filed a comment, recommending
that Route Deviation M-0431 be incorporated into the
proposed route. On November 21, 2016, Transco filed
a revised alignment of Route Deviation M-0431 to
avoid affecting another new landowner. In the final
EIS, we recommended that Transco incorporate Route
Deviation M-0431 that was filed on November 21,
2016. On January 17, 2017, Mr. Shannon identified
concerns with the alignment of Route Deviation M0431 and requested that Transco adopt the alignment
of Route Deviation M-0431 that was filed on November
14, 2016 to increase the distance separating the
pipeline from his new residence. In order to address
the concerns of Mr. Shannon, Environmental Recommendation 16 is revised in Environmental Condition
16 of this order to recommend Transco further assess
this route variation in coordination with Mr. Shannon
and file with the Commission, for the review and written approval by the Director of OEP, revised alignment
sheets and documentation of its landowner consultation regarding the crossing of Mr. Shannon’s property.

237a
d. Justin and Susan Cappiello
167. On January 19, 2017, Justin and Susan
Cappiello (Cappiellos) filed a comment on the final
EIS, clarifying their concerns about the effects of the
current pipeline alignment on an Amish family residing
on their property. In comments on the draft EIS, the
Cappiellos expressed concern that noise levels at the
Amish residence (identified as noise sensitive area 1,
which is the closest noise sensitive area to the horizontal directional drill entry site on figure 4.11.2-7 in the
EIS) will exceed the day-night sound level (Ldn) threshold
of 55 decibels on the A-weighted scale (dBA) at the
residence or will negatively affect the farm animals
kept on the property and that, according to the
Cappiellos, the family will not be able to temporarily
relocate due to the number of family members and
farm animals present. The current ambient sound
level at the Amish residence is 41.4 dBA Ldn. Transco
proposes to drill during the day time. However, when
Transco pulls back the drill (an action which is not a
significant noise source), it may occur at night at
certain sites because the pull-back process cannot be
interrupted. With implementation of the additional
noise mitigation measures proposed by Transco at the
Conestoga horizontal directional drill entry site, the
anticipated sound level at the Amish residence during
horizontal directional drill activities is estimated to be
52.9 dBA Ldn, which is below the 55 dBA Ldn threshold.
Once drilling activities are complete, the ambient
sound level at the Amish residence will return to 41.4
dBA Ldn. Transco will notify the owners of the properties at the nearby noise sensitive areas in advance of
planned nighttime construction activities, advising
them that noise-generating equipment may be operated during nighttime hours. Because mitigated noise
levels attributable to horizontal directional drills are

238a
anticipated to be below the FERC-sound criterion at
any noise sensitive areas, overnight construction, if
necessary, is not expected to create significant impacts
on surrounding noise sensitive areas. If the noise
levels cannot be reduced to target levels, Transco has
committed to providing temporary housing or equivalent monetary compensation to the occupants of
affected noise sensitive areas in the project area until
the construction activities are completed.
168. To further ensure that noise levels are adequately reduced at noise sensitive areas, we are requiring
in Environmental Condition 53 that Transco file in its
weekly construction status reports the noise measurements from the nearest noise sensitive area for the
Central Penn Line North Susquehanna River horizontal directional drill-entry site and the Central Penn
Line South Conestoga River horizontal directional
drill- entry and exit sites, obtained at the start of
drilling operations; any noise mitigation that Transco
implemented at the start of drilling operations; and
any additional mitigation measures that Transco will
implement if the initial noise measurements exceed an
Ldn of 55 dBA at the nearest noise sensitive area. Due
to the noise mitigation measures that Transco will
implement and with implementation of Environmental
Condition 53, the final EIS concludes, and we agree,
that the noise levels at the Amish residence will not
exceed the 55-dBA Ldn threshold or cause adverse
effects on the farm animals kept on the property.230
e. Cecilia Daubert
169. On January 20, 2017, Cecilia Daubert filed a
comment on the final EIS regarding an abandoned
landfill located near Central Penn Line South milepost
230

Final EIS at 4-250.

239a
66.8 and asked whether Transco will follow the
mitigation measures in its Unanticipated Discovery of
Contamination Plan. We fully expect Transco to implement the measures in the Unanticipated Discovery of
Contamination Plan and applicable state and federal
solid waste management regulations if contaminated
soils are encountered during construction, as described
in the final EIS.231 In addition, an environmental
compliance manager and environmental inspectors,
hired by and reporting to Transco, will have overall
responsibility for quality assurance and compliance
with mitigation measures, other applicable regulatory
requirements, and company specifications. Furthermore,
Transco has committed to funding a FERC third-party
compliance monitoring program during the construction phase of the project. Under this program, a
contractor is selected by, managed by, and reports
solely to the Commission staff to provide environmental compliance monitoring services.
170. In addition, Ms. Daubert expressed concern
that Transco will not give nearby residents adequate
notification of construction activities. Environmental
Condition 7 of this order requires Transco to provide
updated weekly status reports with the Commission,
including the construction status of each spread, work
planned for the following reporting period, any
schedule changes for stream crossings or work in other
environmentally sensitive areas, and a description of
any landowner/resident complaints that may relate to
compliance with the requirements of this order, and
the measures taken to satisfy their concerns. In addition, Environmental Condition 9 of this order requires
Transco to develop and implement an environmental
231

See sections 2.3.1.5, 4.2.2.6, and 4.8.7 of the final EIS.

240a
complaint resolution procedure. The procedure shall
provide landowners with clear and simple directions
for identifying and resolving their environmental
mitigation problems/concerns during construction and
restoration of the right-of-way.
171. Ms. Daubert also recommended that Transco
complete water well testing prior to and after construction. Environmental Condition 25 of this order
requires Transco to file a Well and Spring Monitoring
Plan for the pre- and post-construction monitoring of
well yield and water quality of wells within 150 feet of
the construction workspace and, in areas of known
karst terrain, of wells within 500 feet of the construction workspace.
6. Environmental Analysis Conclusion
172. We have reviewed the information and analysis
contained in the final EIS regarding the potential
environmental effects of the Atlantic Sunrise Project.
Based on our consideration of this information and
the discussion above, we agree with the conclusions
presented in the final EIS and find that the project, if
constructed and operated as described in the application and the final EIS, is an environmentally acceptable
action. We are accepting all but one of the environmental recommendations in the final EIS and are including
them as conditions in Appendix C to this order.232
173. Any state or local permits issued with respect
to the jurisdictional facilities authorized herein must
be consistent with the conditions of this certificate.
The Commission encourages cooperation between inter232

Recommended Condition 35 in the final EIS is not included
in Appendix C of this order because the required information has
since been filed.

241a
state pipelines and local authorities. However, this
does not mean that state and local agencies, through
application of state or local laws, may prohibit or
unreasonably delay the construction or operation of
facilities approved by this Commission.233
VI. Conclusion
174. The Commission on its own motion received
and made part of the record in this proceeding all
evidence, including the application, as supplemented,
and exhibits thereto, and all comments submitted, and
upon consideration of the record,
The Commission orders:
(A) A certificate of public convenience and necessity
is issued to Transco, authorizing it to construct and
operate the proposed Atlantic Sunrise Project, as
described and conditioned herein, and as more fully
described in the application as supplemented.
(B) A certificate of public convenience and necessity
is issued under section 7(c) of the NGA authorizing
Transco to lease from Meade, as described more fully
in the body of this order and in the application.
(C) The certificate authority issued in Ordering
Paragraph (A) is conditioned on:

233

See 15 U.S.C. § 717r(d) (state or federal agency’s failure to
act on a permit considered to be inconsistent with Federal law);
see also Schneidewind v. ANR Pipeline Co., 485 U.S. 293, 310
(1988) (state regulation that interferes with FERC’s regulatory
authority over the transportation of natural gas is preempted)
and Dominion Transmission, Inc. v. Summers, 723 F.3d 238,
245 (D.C. Cir. 2013) (noting that state and local regulation is
preempted by the NGA to the extent it conflicts with federal
regulation, or would delay the construction and operation of
facilities approved by the Commission).

242a
(1) Transco’s proposed Atlantic Sunrise Project
being constructed and made available for service
within 3 years of the date of this order, pursuant to
section 157.20(b) of the Commission’s regulations;
(2) Transco’s compliance with all applicable Commission regulations, particularly the general terms
and conditions set forth in Parts 154, 157, and 284,
and paragraphs (a), (c), (e), and (f) of section 157.20
of the Commission’s regulations;
(3) Transco’s compliance with the environmental
conditions listed in Appendix C to this order; and
(4) Transco’s execution of firm contracts for volumes and service terms equivalent to those in its
precedent agreements, prior to the commencement
of construction.
(D) Transco is required to maintain separate accounting and reporting for the lease facilities, including
separate accounting of the fuel costs due to compression, as explained in the body of this order, in a manner
to comply with the requirements of section 154.309 of
the Commission’s regulations.
(E) Transco’s initial incremental reservation charge
under Rate Schedule FT as recalculated for the project
to reflect the removal of variable costs is approved, as
discussed above.
(F) Transco is required to charge its generally
applicable Rate Schedule FT Zones 4, 5 and 6,
commodity charge as part of its initial recourse rate.
(G) Transco’s request for use of system fuel
retention and electric power rates is approved.
(H) Transco shall notify the Commission’s environmental staff by telephone, e-mail, and/or facsimile
of any environmental noncompliance identified by

243a
other federal, state, or local agencies on the same day
that such agency notifies Transco. Transco shall file
written confirmation of such notification with the
Secretary of the Commission (Secretary) within 24
hours.
By the Commission.
(SEAL)
Kimberly D. Bose,
Secretary.

244a
Appendix A
List of Timely Intervenors
Accokeek, Mattawoman, Piscataway Creeks
Communities Council, Inc.
Alabama Gas Corporation
Daryl L. Alger
Allegheny Defense Project
Township of Annville, Pennsylvania
Atmos Energy Marketing LLC
Henry M. Berger
Johan E. Berger
Lorrie and Bill Bernoski
Thomas Byron
Cabot Oil & Gas Corporation
Calpine Energy Services, L.P.
Chevron USA Inc.
Chief Oil & Gas LLC
Clean Air Council
Dennis M. College
Columbia Gas of Virginia, Inc.
Conestoga Community Group
ConocoPhillips Company
Consolidated Edison Company of New York, Inc.
Delaware Riverkeeper Network
Megan Detter
John and Linda Dietrichson

245a
Duke Energy Carolinas, LLC
Duke Energy Florida, Inc.
Duke Energy Progress, Inc.
Ralph Duquette
Exelon Corporation
Florida Power & Light Company
Eileen Gibson
Reaves F. Goehring, III
John Timothy Gross
John E. Ground
John W. and Andrea L. Harrell
Linda Hartung
Dennis Hauenstein
James and Rachel Helper
Gale D. Hess
Stephen and Dorothea Hoffman
Carolyn Hostetter
Cara Longacre Hurst
Kevin L. Hurst
Inflection Energy LLC
Nancy E. Jeffries
Glenda Johnson
Kimberly Kann
Donna Kilgore
Walter and Robyn Kochan

246a
Scott E. Kriner
Deirdre Lally
Lancaster County Conservancy
Lancaster Farmland Trust
Jeffrey Landis
Lebanon Pipeline Awareness
Lebanon Valley College
Lebanon Valley Conservancy
Laura Levy
Richard Lind
Robert H. Lowing
Lutheran Camping Corporation of Central
Pennsylvania
Lycoming County Landowners (consisting of 21
landowners: Mary Wolf, Mike Wolf, Joseph L. Carey,
Ellen R. Carey, Christine Heim, Joe Heim, Dennis
Gilbert, Harold Kropp, Colette Kropp, Stephen Cutter,
Margaret Cutter, Gloria Henne, Howard Henne,
Russell Reitz, Shirley Purkiss, Walter D. Kilburn, Pat
Dangle, Dave Dangle, Karen Lisi, Tony Lisi, Matt
Henderson, and Vicki Henderson)
Robin Maguire
Martic SOUL Inc.
MFS, Inc. Carol Mohr
Municipal Gas Authority of Georgia (consisting of the
following municipalities: Bowman, Buford, Commerce,
Covington, Elberton, Hartwell, Lawrenceville, Madison,
Monroe, Royston, Social Circle, Sugar Hill, Toccoa, and
Winder; Tri-County Natural Gas Company (consisting

247a
of Crawfordville, Greenboro and Union Point); the East
Central Alabama Gas District, Alabama; the towns of
Wadley and Rockford, Alabama; the Utilities Board of
the City of Roanoke, Alabama; Wedowee Water, Sewer
& Gas Board, Wedowee, Alabama; and the Maplesville
Waterworks and Gas Board, Maplesville, Alabama).
National Fuel Gas Distribution Corporation
National Grid Gas Delivery Companies
Native Preserve and Lands Council
New Jersey Natural Gas Company
John Dewitt Nicholson
NJR Energy Services Company
Sharon K. Olt
Casey Pegg
Philadelphia Gas Works
Piedmont Natural Gas Company, Inc.
Ann K. Pinca
Pipeline Safety Coalition
Jane Popko
PSEG Energy Resources & Trade LLC
Public Service Company of North Carolina
Quittapahilla Watershed Association
Linda Quodomine
Range Resources-Appalachia, LLC
Edward S. Ritz
Elise Kucirka Salahub
John Salahub

248a
Seneca Resources Corporation
Sequent Energy Management, L.P.
William M. Smith
Fred Snyder
Michelle Spitko
South Carolina Electric & Gas Company
South Londonderry Township
John R. Swanson
SWN Energy Services Company, LLC
Eva M. Telesco
Transco Municipal Group (consisting of Alabama cities
of Alexander City and Sylacauga; the South Carolina
Commissions of Public Works of Greenwood, Greer,
and Laurens; the South Carolina cities of Fountain Inn
and Union; the Patriots Energy Groups (consisting of the
Natural Gas Authorities of Chester, Lancaster, and York
Counties, South Carolina), and the North Carolina
cities of Bessemer City, Greenville, Kings Mountain,
Lexington, Monroe, Rocky Mount, Shelby, and Wilson)
UGI Distribution Companies (consisting of UGI
Utilities, Inc. and UGI Penn Natural Gas, Inc.)
Washington Gas Light Company
Joan Weaber
WGL Midstream, Inc.
Dale A. Wilkie
Sondra J. Wolferman
Eric Younkers
John Zerbe III and Patti Zerbe

249a
Appendix B
List of Untimely Intervenors
Atlanta Gas Light Company
David N. Bomgardner and Sharon J. Bomgardner
Luke Bunting and Leslie Bunting, jointly
Susan Cappiello and Justin Cappiello
Concerned Landowners Along the Atlantic Sunrise
and Energy Justice Network, jointly
County of Lebanon, Pennsylvania
Gary and Michelle Erb
David and Tracy Ferrick
Friends of Nelson
Eileen Gibson
Heartwood
Stephen Hoffman
Lancaster Against Pipelines
Rex Mohr
Geraldine Turner Nesbitt
Pivotal Utility Holdings, Inc.
Linda Quodomine
Follin Smith
Southern Company Services, Inc. (As agent for
Alabama Power Company, Georgia Power Company,
Gulf Power Company, Mississippi Power Company,
and Southern Power Company)
Sierra Club

250a
South Annville Township Supervisors
Virginia Natural Gas, Inc.
Wild Virginia

251a
Appendix C
Environmental Conditions
As recommended in the EA, this authorization
includes the following conditions:
As recommended in the final environmental impact
statement (EIS) and otherwise amended herein, this
authorization includes the following conditions. The
section number in parentheses at the end of a condition corresponds to the section number in which the
measure and related resource impact analysis appears
in the final EIS.
1. Transco shall follow the construction procedures
and mitigation measures described in its application
and supplements (including responses to staff data
requests) and as identified in the EIS, unless modified
by the order. Transco must:
a. request any modification to these procedures,
measures, or conditions in a filing with the Secretary
of the Commission (Secretary);
b. justify each modification relative to sitespecific conditions;
c. explain how that modification provides an
equal or greater level of environmental protection
than the original measure; and
d. receive approval in writing from the Director of
the Office of Energy Projects (OEP) before using
that modification.
2. The Director of OEP has delegated authority to
take whatever steps are necessary to ensure the
protection of all environmental resources during
construction and operation of the Atlantic Sunrise
Project. This authority shall allow:

252a
a. the modification of conditions of the order; and
b. the design and implementation of any additional
measures deemed necessary (including stop-work
authority) to assure continued compliance with the
intent of the environmental conditions as well as the
avoidance or mitigation of adverse environmental
impact resulting from project construction (and
operation).
3. Prior to any construction, Transco shall file an
affirmative statement with the Secretary, certified by
a senior company official, that all company personnel,
environmental inspectors (EI), and contractor personnel will be informed of the EI’s authority and have
been or will be trained on the implementation of the
environmental mitigation measures appropriate to
their jobs before becoming involved with construction
and restoration activities.
4. The authorized facility location(s) shall be as
shown in the EIS, as supplemented by filed alignment
sheets. As soon as they are available, and before the
start of construction, Transco shall file with the
Secretary any revised detailed survey alignment
maps/sheets at a scale not smaller than 1:6,000 with
station positions for all facilities approved by this
order. All requests for modifications of environmental
conditions of this order or site-specific clearances must
be written and must reference locations designated on
these alignment maps/sheets.
Transco’s exercise of eminent domain authority
granted under the Natural Gas Act (NGA) section 7(h)
in any condemnation proceedings related to this order
must be consistent with these authorized facilities and
locations. Transco’s right of eminent domain granted
under NGA section 7(h) does not authorize it to

253a
increase the size of its natural gas facilities to
accommodate future needs or to acquire a right-of-way
for a pipeline to transport a commodity other than
natural gas.
5. Transco shall file with the Secretary detailed
alignment maps/sheets and aerial photographs at a
scale not smaller than 1:6,000 identifying all route
realignments or facility relocations, and staging areas,
pipe storage yards, new access roads, and other areas
that would be used or disturbed and have not been
previously identified in filings with the Secretary.
Approval for each of these areas must be explicitly
requested in writing. For each area, the request must
include a description of the existing land use/cover
type, documentation of landowner approval, whether
any cultural resources or federally listed threatened or
endangered species would be affected, and whether
any other environmentally sensitive areas are within
or abutting the area. All areas shall be clearly identified on the maps/sheets/aerial photographs. Each area
must be approved in writing by the Director of OEP
before construction in or near that area.
This requirement does not apply to extra workspace
allowed by Transco’s Upland Erosion Control, Revegetation, and Maintenance Plan and/or minor field
realignments per landowner needs and requirements
that do not affect other landowners or sensitive environmental areas such as wetlands.
Examples of alterations requiring approval include
all route realignments and facility location changes
resulting from:
a. implementation of cultural resources mitigation measures;

254a
b. implementation of endangered, threatened, or
special concern species mitigation measures;
c. recommendations by state regulatory authorities; and
d. agreements with individual landowners that
affect other landowners or could affect sensitive
environmental areas.
6. Within 60 days of the acceptance of the certificate
and before construction begins, Transco shall file an
Implementation Plan with the Secretary for review
and written approval by the Director of OEP. Transco
must file revisions to the plan as schedules change.
The plan shall identify:
a. how Transco will implement the construction
procedures and mitigation measures described in its
application and supplements (including responses to
staff data requests), identified in the EIS, and
required by this order;
b. how Transco will incorporate these requirements into the contract bid documents, construction
contracts (especially penalty clauses and specifications), and construction drawings so that the
mitigation required at each site is clear to on-site
construction and inspection personnel;
c. the number of EIs assigned per spread, and
how the company will ensure that sufficient personnel are available to implement the environmental
mitigation;
d. company personnel, including EIs and contractors, who will receive copies of the appropriate
material;
e. the location and dates of the environmental
compliance training and instructions Transco will

255a
give to all personnel involved with construction and
restoration (initial and refresher training as the
project progresses and personnel change), with the
opportunity for OEP staff to participate in the
training session(s);
f. the company personnel (if known) and specific
portion of Transco’s organization having responsibility for compliance;
g. the procedures (including use of contract penalties) Transco will follow if noncompliance occurs; and
h. for each discrete facility, a Gantt or PERT
chart (or similar project scheduling diagram), and
dates for:
i. the completion of all required surveys and
reports;
ii. the environmental compliance training of
on-site personnel;
iii. the start of construction; and
iv. the start and completion of restoration.
7. Transco shall employ a team of EIs (i.e., two or
more or as may be established by the Director of OEP)
per construction spread. The EI(s) shall be:
a. responsible for monitoring and ensuring compliance with all mitigation measures required by
this order and other grants, permits, certificates, or
other authorizing documents;
b. responsible for evaluating the construction
contractor’s implementation of the environmental
mitigation measures required in the contract (see
condition 6 above) and any other authorizing
document;

256a
c. empowered to order correction of acts that
violate the environmental conditions of this order,
and any other authorizing document;
d. a full-time position, separate from all other
activity inspectors;
e. responsible for documenting compliance with
the environmental conditions of this order, as well
as any environmental conditions/permit requirements imposed by other federal, state, or local
agencies; and
f. responsible for maintaining status reports.
8. Beginning with the filing of its Implementation
Plan, Transco shall file updated status reports with
the Secretary, with copies provided to the appropriate
Pennsylvania Department of Environmental Protection
(PADEP) representative, on a weekly basis until all
construction and restoration activities are complete.
On request, these status reports will also be provided
to other federal and state agencies with permitting
responsibilities. Status reports shall include:
a. an update on Transco’s efforts to obtain the
necessary federal and state authorizations;
b. the construction status of each spread, work
planned for the following reporting period, and any
schedule changes for stream crossings or work in
other environmentally sensitive areas;
c. a listing of all problems encountered and each
instance of noncompliance observed by the EIs
during the reporting period (both for the conditions
imposed by the Federal Energy Regulatory Commission [FERC or Commission] and any environmental
conditions/permit requirements imposed by other
federal, state, or local agencies);

257a
d. a description of the corrective actions implemented in response to all instances of noncompliance,
and their cost;
e. the effectiveness of all corrective actions
implemented;
f. a description of any landowner/resident complaints that may relate to compliance with the
requirements of this order, and the measures taken
to satisfy their concerns; and
g. copies of any correspondence received by
Transco from other federal, state, or local permitting
agencies concerning instances of noncompliance,
and Transco’s response.
9. Transco shall develop and implement an
environmental complaint resolution procedure. The
procedure shall provide landowners with clear and
simple directions for identifying and resolving their
environmental mitigation problems/concerns during
construction of the project and restoration of the rightof-way. Prior to construction, Transco shall mail the
complaint procedures to each landowner whose property would be crossed by the project.
a. In its letter to affected landowners, Transco
shall:
i. provide a local contact that the landowners
should call first with their concerns; the letter
should indicate how soon a landowner should
expect a response;
ii. instruct the landowners that if they are not
satisfied with the response, they should call
Transco’s Hotline; the letter should indicate how
soon to expect a response; and

258a
iii. instruct the landowners that if they are still
not satisfied with the response from Transco’s
Hotline, they should contact the Commission’s
Landowner Helpline at 877-337-2237 or at
LandownerHelp@ferc.gov.
b. In addition, Transco shall include in its weekly
status report a copy of a table that contains the
following information for each problem/concern:
i. the identity of the caller and date of the call;
ii. the location by milepost and identification
number from the authorized alignment sheet(s) of
the affected property;
iii. a description of the problem/concern; and
iv. an explanation of how and when the problem was resolved, will be resolved, or why it has
not been resolved.
10. Prior to receiving written authorization from
the Director of OEP to commence construction of any
project facilities, Transco shall file with the Secretary
documentation that it has received all applicable
authorizations required under federal law (or evidence
of waiver thereof).
11. Transco must receive written authorization
from the Director of OEP before placing the project
into service. Such authorization will only be granted
following a determination that rehabilitation and restoration of the right-of-way and other areas affected by
the project are proceeding satisfactorily.
12. Within 30 days of placing the authorized
facilities in service, Transco shall file an affirmative
statement with the Secretary, certified by a senior
company official:

259a
a. that the facilities have been constructed in
compliance with all applicable conditions, and that
continuing activities will be consistent with all
applicable conditions; or
b. identifying which of the certificate conditions
Transco has complied with or will comply with. This
statement shall also identify any areas affected by
the project where compliance measures were not
properly implemented, if not previously identified in
filed status reports, and the reason for noncompliance.
13. Prior to construction, Transco shall file with the
Secretary a revised alignment sheet that incorporates
the Kochan Preferred Alternative 1 between mileposts
(MP) M-0142 0.1 and M-0142 0.4 into the proposed
route. (Section 3.3.2)
14. Prior to construction, Transco shall file with the
Secretary a revised alignment sheet that incorporates
the Byron Reroute along Central Penn Line (CPL)
North between MPs 23.3 and 24.1 into the proposed
route. (Section 3.3.2)
15. Prior to construction across the Byron property,
Transco shall develop and file with the Secretary, for
review and written approval by the Director of OEP, a
schedule for construction and restoration activities on
the Byron property that minimizes conflict with the
planned public use of the property. Transco shall
develop the restoration activities in consultation with
the Byrons. (Section 3.3.2)
16. Prior to construction, Transco shall further
assess the pipeline alignment and workspace requirements in coordination with Mr. Shannon and file with
the Secretary, for the review and written approval by
the Director of OEP, revised alignment sheets and
documentation of its landowner consultation regarding

260a
the crossing of Mr. Shannon’s property associated with
the revised Route Deviation M-0431 between MPs M0423 2.8 and M-0423 3.0. (Section 3.3.2)
17. Prior to construction, Transco shall file with the
Secretary a revised alignment sheet that incorporates
the Option A, B, or C valve site location for Alternative
24D. (Section 3.3.2)
18. Prior to construction, Transco shall file documentation that it has acquired the necessary easement
on tract PA-LA-137_B.000 along the proposed route.
In the event that Transco is unsuccessful in acquiring
the necessary easement, Transco shall incorporate the
Conestoga River Alternative into the proposed route.
(Section 3.3.2)
19. Prior to construction, Transco shall file with the
Secretary a revised alignment sheet that incorporates
the Sharon and Russel Olt Option 2 Alternative
between MPs 66.9 and M-0196 0.2 into the proposed
route. (Section 3.3.2)
20. Prior to construction, Transco shall further
assess the pipeline alignment and workspace requirements in coordination with Mr. Goehring and file with
the Secretary, for the review and written approval by
the Director of OEP, revised alignment sheets and
documentation of its landowner consultation regarding the crossing of Mr. Goehring’s property associated
with Route Deviation M-0209. (Section 3.3.3)
21. With its Implementation Plan, Transco shall file
with the Secretary, for review and written approval
by the Director of OEP, a final Abandoned Mine
Investigation and Mitigation Plan. The final plan shall
include the results of all abandoned mine land investigations, the results of secondary investigations to
further characterize potential mine-related features,

261a
and site-specific mitigation and monitoring measures
Transco will implement when crossing abandoned
mine lands, including measures to manage and
dispose of contaminated groundwater. (Section 4.1.7)
22. With its Implementation Plan, Transco shall file
with the Secretary, for review and written approval by
the Director of OEP, a final Karst Investigation and
Mitigation Plan. The final plan shall include results of
missing karst survey areas and any additional karst
features identified through examination of the 1937 to
1942 aerial photography, 2014 Light Detection and
Ranging (LiDAR) imagery, and 1999 color infrared
imagery. (Section 4.1.7)
23. With its Implementation Plan, Transco shall
file with the Secretary, for review and written
approval by the Director of OEP, an Abandoned Mine
Investigation and Mitigation Plan that:
a. identifies methods and surveys completed to
define the locations of existing mine fires near the
project and the depth and extent of coal seams that
could pose a risk to the project facilities;
b. identifies any mitigation measures that Transco
will implement to protect the integrity of the
pipeline from underground mine fires during the
lifetime operation of the project; and
c. provides for revisions to the pipeline route if it
is found that pipeline integrity could be compromised anytime during the lifetime operation of the
project due to the current and future predicted
location of the mine fires. (Section 4.1.7)
24. Prior to construction, Transco shall file with the
Secretary, for review and written approval by the
Director of OEP, a revised table 4.3.1-2 that includes

262a
an updated list of water wells and springs within 150
feet of construction workspaces based on completed
surveys. This table shall indicate any water wells and
springs that are within 500 feet of construction
workspaces in areas of known karst. (Section 4.3.1.4)
25. Prior to construction, Transco shall file with the
Secretary, for review and written approval by the
Director of OEP, a Well and Spring Monitoring Plan
for the pre- and post-construction monitoring of well
yield and water quality of wells within 150 feet of the
construction workspace and, in areas of known karst
terrain, of wells within 500 feet of the construction
workspace. Within 30 days of placing the project facilities in service, Transco shall file with the Secretary a
report describing any complaints it received regarding
water well yield or quality, the results of any water
quality or yield testing performed, and how each
complaint was resolved. (Section 4.3.1.7)
26. Prior to construction, Transco shall file with
the Secretary, for review and written approval by the
Director of OEP, a notification plan developed in
consultation with surface water intake operators. The
notification plan shall identify the specific points of
contact and procedures that Transco will implement in
the event of an inadvertent release of hazardous
materials within 3 miles upstream of a surface water
intake or within Zone A source water protection areas.
(Section 4.3.2.6)
27. Prior to construction, Transco shall file with the
Secretary, and provide to other applicable agencies, a
schedule identifying when trenching or blasting will
occur within each waterbody greater than 10 feet wide,
or within any coldwater fishery. Transco shall revise
the schedule as necessary to provide at least 14 days
advance notice. Changes within this last 14-day period

263a
must provide for at least 48 hours advance notice.
(Section 4.3.2.6)
28. In the event that the horizontal directional
drill of the Central Penn Line North Susquehanna
River, Central Penn Line South Susquehanna River,
Conestoga River, or Interstate 80 (I-80)/Little Fishing
Creek fails, Transco shall file with the Secretary, for
review and written approval by the Director of OEP,
final site-specific crossing plans concurrent with its
application to the U.S. Army Corps of Engineers for an
alternative crossing method. These plans shall include
scaled drawings identifying all areas that will be
disturbed by construction and a description of the
mitigation measures Transco will implement to minimize effects on water quality and recreational boating.
In addition, a scour analysis shall be conducted for
each crossing and filed concurrently with the sitespecific crossing plan. (Section 4.3.2.6)
29. With its Implementation Plan, Transco shall file
with the Secretary additional justification for the
additional temporary workspace associated with the
waterbodies identified in bold in table K-5 in appendix
K of the EIS. (Section 4.3.2.6)
30. With its Implementation Plan, Transco shall file
with the Secretary additional justification for the
additional temporary workspace associated with the
wetlands identified in bold in table L-2 in appendix L
of the EIS. (Section 4.4.5)
31. Prior to construction, Transco shall file with the
Secretary a final copy of the Permittee-Responsible
Mitigation Plan, including any comments and required
approvals from the U.S. Army Corps of Engineers and
the PADEP. The plan shall designate wetland seed

264a
mixes to be used and which agency recommended
them. (Section 4.4.6)
32. Prior to construction, Transco shall file with the
Secretary, for review and written approval by the
Director of OEP, complete results of noxious weed
surveys and a final Noxious and Invasive Plant
Management Plan. The final Noxious and Invasive
Plant Management Plan shall be revised to include
mitigation measures to prevent forest disease spread
from the construction corridor. (Section 4.5.4)
33. Prior to construction of project facilities in
Pennsylvania, Transco shall file with the Secretary
all documentation of its correspondence with the
Pennsylvania Game Commission and the Pennsylvania
Department of Conservation and Natural Resources
and any avoidance or mitigation measures developed
with these agencies regarding the State Game Land
and Sproul State Forest crossings. (Section 4.6.1.2)
34. With its Implementation Plan, Transco shall file
with the Secretary, for review and written approval by
the Director of OEP, its memorandum of understanding with the U.S. Fish and Wildlife Service (FWS)
regarding the voluntary conservation measures that
Transco will provide to offset the removal of upland
forest and indirect impacts on interior forests. (Section
4.6.1.3)
35. With its Implementation Plan, Transco shall file
with the Secretary, for review and written approval by
the Director of OEP, a complete set of site-specific
residential construction plans for all project facilities.
For all residences located within 10 feet of the
construction work area, the plans shall be revised to
either: (1) modify the construction work area so that it
is not closer than 10 feet to a residence, or (2) provide

265a
site-specific justification, including documentation of
landowner or resident concurrence with the plan, for
the use of any construction workspace within 10 feet
of a residence. (Section 4.8.3.1)
36. Prior to construction across the commercial
property at 1010 Susquehannock Drive near Central
Penn Line South MPs 2.0 and 2.1, Transco shall file
with the Secretary, for review and approval by the
Director of OEP, a site-specific plan for minimizing
impacts on the commercial structures, stormwater
management facilities, and planned future warehouse
expansion on the property, including documentation of
consultation with the owner. (Section 4.8.3.1)
37. Prior to construction across the Justin and
Susan Cappiello property, Transco shall file with the
Secretary, for review and written approval by the
Director of OEP, a site-specific plan for minimizing
construction impacts on the Cappiello’s newly constructed barn including documentation of consultation
with the landowner. (Section 4.8.3.1)
38. With its Implementation Plan, Transco shall file
with the Secretary the final results of consultations
with the landowner/developer of the Eastern Land and
Resources Corporation commercial and residential
development, including any project modifications or
mitigation measures Transco will implement to
minimize impacts on the Eastern Land and Resources
Corporation development. (Section 4.8.3.2)
39. Prior to construction across the McCallum
property, Transco shall file with the Secretary, for
review and written approval by the Director of OEP, a
plan to minimize impacts on the market garden and
previously unidentified greenhouse structure. (Section
4.8.4)

266a
40. Prior to construction, Transco shall file with the
Secretary, for review and written approval by the
Director of OEP, an organic certification mitigation
plan developed in consultation with Pennsylvania
Certified Organic to ensure organic certification is
maintained on the organic farms crossed by the
project. The plan shall include:
a. specific mitigation measures to be implemented to maintain certification during and after
construction of the project;
b. a plan for addressing complaints from landowners regarding loss of certification during and
after construction, including measures to facilitate
reinstatement of certification or to compensate the
landowner if certification is lost or canceled; and
c. copies of consultations with Pennsylvania
Certified Organic. (Section 4.8.4.1)
41. With its Implementation Plan, Transco shall
file copies of correspondence with the Pennsylvania
Department of Conservation and Natural Resources
confirming all Pennsylvania Department of Conservation and Natural Resources -funded properties crossed
by the project have been identified and any change
in use or transfer of rights for the Pennsylvania
Department of Conservation and Natural Resources funded properties is in compliance with Pennsylvania
Department of Conservation and Natural Resources’
conversion policies. (Section 4.8.6.1)
42. With its Implementation Plan, Transco shall file
with the Secretary final site-specific crossing plans for
each of the recreation and special interest areas listed
as being crossed or otherwise affected in table 4.8.6-1.
The site-specific crossing plans shall include, as
applicable:

267a
a. site-specific timing restrictions;
b. proposed closure details and notifications (e.g.,
reroutes, signage, public notices);
c. specific safety measures; and/or
d. other mitigation Transco will implement to
minimize effects on the recreation areas and their
users during construction and operation of the
project.
In addition, the site-specific crossing plan for State
Game Land 206 shall include specific safety measures
Transco will implement during work activities in the
vicinity of the on-site shooting range. (Section 4.8.6.1)
43. Transco shall notify the U.S. Department of
Agriculture’s Natural Resources Conservation Service
(Conservation Service) at least 1 week prior to the
start of construction activities within each Conservation Service -held easement to facilitate Conservation
Service monitoring of construction and restoration of
disturbed areas within the Conservation Service -held
easements. The Conservation Service notifications
shall be documented in Transco’s weekly status reports.
(Section 4.8.6.2)
44. With its Implementation Plan, Transco shall file
with the Secretary a revised table 4.8.6-3 that includes
any newly identified conservation easements including copies of correspondence documenting any mitigation
measures Transco will implement based on its consultation with the administering agency or agencies.
(Section 4.8.6.2)
45. Prior to construction, Transco shall file with
the Secretary copies of the Aids to Navigation Plans,
approved by the Pennsylvania Fish and Boat

268a
Commission, for each of the waterbody crossings listed
in table 4.8.6-4. (Section 4.8.6.3)
46. Transco shall file with the Secretary reports
describing any documented complaints from a homeowner that a homeowner’s insurance policy was
cancelled, voided, or amended due directly to the grant
of the pipeline right-of-way or installation of the
pipeline and/or that the premium for the homeowner’s
insurance increased materially and directly as a result
of the grant of the pipeline right-of-way or installation
of the pipeline. The reports shall also identify how
Transco has mitigated the impact. During construction, these reports shall be included in Transco’s
weekly status reports (see recommendation 8) and in
quarterly reports for a 2-year period following inservice of the project. (Section 4.9.6)
47. Transco shall not begin construction of facilities
in Pennsylvania or use of staging, storage, or temporary work areas and new or to-be-improved access
roads until:
a. Transco completes the remaining cultural
resources surveys and files with the Secretary all
remaining cultural resources survey and evaluation
reports, any necessary avoidance or treatment
plans that outline measures to avoid, reduce, and/or
mitigate, effects on historic properties, and the
Pennsylvania State Historic Preservation Office’s
comments on the reports and plans;
b. Transco completes the remaining geomorphological investigation of the west bank of Swatara
Creek and files the report with the Secretary;
c. the Advisory Council of Historic Preservation
is provided an opportunity to comment on the

269a
undertaking if historic properties would be adversely
affected; and
d. the Commission staff reviews and the Director
of OEP approves all cultural resources survey
reports and plans, and notifies Transco in writing
that treatment plans/mitigation measures may be
implemented or construction may proceed.
All material filed with the Secretary containing
location, character, and ownership information about
cultural resources must have the cover and any
relevant pages therein clearly labeled in bold lettering:
“CONTAINS PRIVILEGED INFORMATION – DO
NOT RELEASE.” (Section 4.10.5)
48. Prior to construction in Lancaster County,
Transco shall file with the Secretary final evidence of
an enforceable transfer of oxides of nitrogen (NOX)
emission reduction credits to offset the estimated 2017
NOX construction emissions for Lancaster County,
Pennsylvania that exceed General Conformity thresholds. Transco must notify Commission staff if the
transfer does not execute or significant changes to the
project require a reevaluation of General Conformity.
(Section 4.11.1.2)
49. Prior to construction, Transco shall file with
the Secretary, for review and written approval by
the Director of OEP, a Construction Emission Plan
identifying how Transco would track its construction
schedule for each component of the project within the
Lebanon County PM2.5234 Nonattainment Area and
ensure that construction emissions of NOX would remain
below the General Conformity applicability threshold.
234

PM2.5 stands for inhalable particulate matter with an
aerodynamic diameter less than or equal to 2.5 microns.

270a
If a change in the construction schedule or Project
results in emissions of NOX greater than the General
Conformity applicability threshold of 100 tons per
year, Transco shall provide and document all mitigation measures it will implement to comply with the
General Conformity regulations at 40 C.F.R. § 93.158.
(Section 4.11.1.2)
50. Transco shall review the Northeast Diesel
Collaborative’s recommendations for reducing diesel
emissions from new on- and off-road construction equipment and indicate in the project’s Implementation Plan
what measures it would implement. (Section 4.11.1.3)
51. Transco shall continue to operate the existing
air quality monitors at Compressor Stations 517, 520,
and 190 for carbon dioxide (CO2), nitrogen dioxide
(NO2), inhalable particulate matter with an aerodynamic
diameter less than or equal to10 microns (PM10) and
2.5 microns (PM2.5), and sulfur dioxide (SO2) for a
period of 3 years after the newly modified facilities
begin operation. Transco shall file quarterly air quality
monitoring reports with the Secretary. In the event
that the air quality monitoring shows a violation of the
National Ambient Air Quality Standards, Transco
shall immediately contact the state air quality agency
to report the violation and establish a plan of action to
correct the violation in accordance with the terms of
the facility air permit and applicable state law.
(Section 4.11.1.3)
52. Prior to construction at the Central Penn Line
South I-80/Little Fishing Creek horizontal directional
drill at milepost M-0423 3.3, Transco shall file with the
Secretary, for review and written approval by the
Director of OEP, the results of the noise impact
assessment for the nearest noise-sensitive areas
within a 0.5-mile radius of the horizontal directional

271a
drill- entry and exit points. If the results of the noise
impact assessment indicate that the estimated noise
attributable to horizontal directional drill-equipment
operations would exceed FERC’s day-night sound level
(Ldn) criterion of 55 decibels on the A-weighted scale
(dBA) at any of the noise-sensitive areas, Transco
shall provide additional information on the mitigation
measures, such as sound barriers, that will be implemented to reduce noise levels below 55 dBA. (Section
4.11.2.2)
53. Transco shall file in its weekly construction
status reports the following information for the Central
Penn Line North Susquehanna River horizontal directional drill-entry site and the Central Penn Line South
Conestoga River horizontal directional drill-entry and
exit sites:
a. the noise measurements from the nearest
noise-sensitive area for the Central Penn Line North
Susquehanna River horizontal directional drill-entry
site and the Central Penn Line South Conestoga
River horizontal directional drill-entry and exit
sites, obtained at the start of drilling operations;
b. any noise mitigation that Transco implemented at the start of drilling operations; and
c. any additional mitigation measures that Transco
will implement if the initial noise measurements
exceed an Ldn of 55 dBA at the nearest noisesensitive area. (Section 4.11.2.3)
54. Transco shall file a noise survey with the
Secretary no later than 60 days after placing the
authorized units at Compressor Stations 517 and 190
in service. If a full load condition noise survey is not
possible, Transco shall provide an interim survey at
the maximum possible horsepower load and provide

272a
the full load survey within 6 months. If the noise
attributable to the operation of all of the equipment at
Compressor Stations 517 and 190 under interim or full
horsepower load conditions exceeds an Ldn of 55 dBA
at any nearby noise-sensitive areas, Transco shall file
a report on what changes are needed and shall install
the additional noise controls to meet the level within 1
year of the in-service date. Transco shall confirm
compliance with the above requirement by filing a
second noise survey with the Secretary no later than
60 days after it installs the additional noise controls.
(Section 4.11.2.3)
55. Transco shall conduct a noise survey at
Compressor Station 520 to verify that the noise from
all the equipment operated at full capacity does not
exceed the previously existing noise levels that are at
or above an Ldn of 55 dBA at the nearby noise-sensitive
areas. The results of this noise survey shall be filed
with the Secretary no later than 60 days after placing
the modified units in service. If any of these noise
levels are exceeded, Transco shall, within 1 year of the
in-service date, implement additional noise control
measures to reduce the operating noise level at the
noise-sensitive areas to at or below the previously
existing noise level. Transco shall confirm compliance
with this requirement by filing a second noise survey
with the Secretary no later than 60 days after it
installs the additional noise controls. (Section 4.11.2.3)
56. Transco shall file a noise survey with the
Secretary no later than 60 days after placing
Compressor Stations 605 and 610 in service. If a full
load condition noise survey is not possible, Transco
shall provide an interim survey at the maximum
possible horsepower load and provide the full load
survey within 6 months. If the noise attributable to the

273a
operation of all of the equipment at Compressor
Stations 605 and 610 under interim or full horsepower
load conditions exceeds an Ldn of 55 dBA at any nearby
noise-sensitive areas, Transco shall file a report on
what changes are needed and shall install the additional noise controls to meet the level within 1 year of
the in-service date. Transco shall confirm compliance
with the above requirement by filing a second noise
survey with the Secretary no later than 60 days after
it installs the additional noise controls. (Section
4.11.2.3)

274a
APPENDIX G
161 FERC ¶ 61,250
UNITED STATES OF AMERICA
FEDERAL ENERGY REGULATORY COMMISSION
Docket Nos. CP15-138-001
CP15-138-004
Before Commissioners: Neil Chatterjee, Chairman;
Cheryl A. LaFleur and Robert
F. Powelson.
Transcontinental Gas Pipe Line Company, LLC
ORDER ON REHEARING
(Issued December 6, 2017)
1. On February 3, 2017, the Commission issued an
order under section 7(c) of the Natural Gas Act (NGA)1
authorizing Transcontinental Gas Pipe Line Company,
LLC (Transco) to construct, lease, and operate its
proposed Atlantic Sunrise Project in Pennsylvania,
Maryland, Virginia, North Carolina, and South
Carolina.2 The project will include approximately 200
miles of new interstate pipeline and related facilities,
the bulk of which will be constructed in Columbia,
Susquehanna, Luzerne, Lancaster, Clinton, Lycoming,
and Wyoming Counties, Pennsylvania. The project
will connect to Transco’s existing interstate natural
gas pipeline to transport 1.7 million dekatherms (Dth)
per day of natural gas from Appalachian supply areas
in northeast Pennsylvania to its Station 85 in
Alabama, including to markets in Pennsylvania,
1
2

15 U.S.C. § 717f(c) (2012).

Transcontinental Gas Pipe Line Co., LLC, 158 FERC ¶ 61,125
(2017) (February 3 Order).

275a
Maryland, Virginia, North Carolina, South Carolina,
Georgia, Alabama, and Florida. On May 18, 2017, the
Commission approved a certificate amendment to
modify the route location.3
2. On February 10, 2017, Allegheny Defense Project,
Clean Air Council, Concerned Citizens of Lebanon
County (Concerned Citizens of Lebanon), Heartwood,
Lancaster Against Pipelines, Lebanon Pipeline Awareness, and Sierra Club (collectively, Allegheny) sought
rehearing of the February 3 Order. On February 24,
2017, the Accokeek, Mattawoman, and Piscataway
Creeks Communities Council Inc. (Accokeek) sought
rehearing.
3. On March 6, 2017, the North Carolina Utilities
Commission (NCUC) and the New York Public Service
Commission (NYPSC) (collectively, State Commissions);
the Narragansett Indian Tribe and the Wampanoag
Tribe of Gay Head (Aquinnah) (collectively, the Tribes);
and several landowners, including: Susan and Justin
Cappiello (collectively, the Cappiellos); Stephen and
Dorothea Hoffman and Gary and Michelle Erb (collectively, the Hoffman and Erb Landowners); Lynda
Like; Blair and Megan Mohn (collectively, the Mohns);
Geraldine Nesbitt; and Follin Smith sought rehearing.
Also on March 6, Appalachian Mountain Advocates
and Sierra Club (collectively, Mountain Advocates)
submitted comments on the project.4 On March 7,
3

Transcontinental Gas Pipe Line Co., LLC, 159 FERC ¶ 62,181
(2017).
4

Rule 713(c)(2) of the Commission’s Rules of Practice and
Procedure requires that a rehearing request include a separate
section entitled “Statement of Issues” listing each issue presented
to the Commission in a separately enumerated paragraph. Any
issue not so listed will be deemed waived. 18 C.F.R. § 385.713(c)(2)
(2017). Mountain Advocates’ comments do not satisfy these

276a
2017, Walter and Robyn Kochan (collectively, the
Kochans) and John Timothy Gross separately filed
untimely requests for rehearing.5
4. Many of the requests for rehearing also sought a
stay of the February 3 Order. The Commission denied
those stay requests in an order issued on August 31,
2017.6 On October 2, 2017, Allegheny and Accokeek
(together, Intervenors) sought rehearing of the Stay
Order.
5. For the reasons discussed below, the requests for
rehearing of the February 3 Order and of the Stay
Order are dismissed or denied.
I. Procedural Matters
A. Party Status
6. Under section 19(a) of the NGA and Rule 713(b)
of our regulations, only a party to a proceeding has
standing to request rehearing of a final Commission
decision.7 Any person seeking to intervene to become a
party must file a motion to intervene pursuant to Rule
214 of the Commission’s rules of Practice and

requirements and thus we will not treat them as a request for
rehearing. Accordingly, we dismiss Mountain Advocates’ Filing.
5

On April 7, 2017, MFS, Inc. d/b/a Eastern Land and
Resources Company (EL&RC) filed a request for an order to show
cause on Transco’s alleged non-compliance with the February 3
Order. EL&RC subsequently withdrew this request on April 11,
2017. See Letter from Thomas J. Zagami, Counsel to EL&RC, to
Alisa Lykens, Chief, Gas Branch 2, Office of Energy Projects,
Federal Energy Regulatory Commission (Apr. 11, 2017).
6

Transcontinental Gas Pipe Line Co., 160 FERC ¶ 61,042
(2017) (Stay Order).
7

15 U.S.C. § 717r(a) (2012); 18 C.F.R. § 385.713(b) (2017).

277a
Procedure. The Concerned Citizens of Lebanon never
sought to intervene in this proceeding and thus we
must deny their attempt to join in the rehearing
request filed by Allegheny.
8

7. On rehearing, the Mohns contend that their
earlier comments submitted during the environmental
review process should be construed as requests to
intervene and that, as affected landowners, they should
be permitted to intervene at this stage to protect their
property rights. The Tribes contend that their consultation request under the National Historic Preservation
Act is the functional equivalent of a motion to intervene.
8. The earlier filings by the Mohns and the Tribes
do not meet the requirements of a motion to intervene.
Nowhere in those earlier filings did either the Mohns
or the Tribes seek to intervene in this proceeding.9 And
they may not avoid this requirement by joining other
intervenors’ requests for rehearing.10
9. With regard to the Mohns’ motion to intervene
out-of-time, the Commission has explained that “when
late intervention is sought after the issuance of a
dispositive order, the prejudice to other parties and
burden upon the Commission of granting the late
8

18 C.F.R. § 385.214(a)(3) (2017).

9

Motions to intervene must also state, to the extent known,
the position taken by the movant and the basis in fact and law for
that position, as well as the movant’s interest in sufficient factual
detail to demonstrate that the movant has a right to participate
conferred by statute or rule, an interest that may be directly
affected by the outcome of the proceeding, or that the movant’s
participation is in the public interest. 18 C.F.R. § 385.214(b)(1)
and (2) (2017).
10

The Mohns joined Follin Smith’s rehearing request, and the
Tribes joined the rehearing request filed by Geraldine Nesbitt.

278a
intervention may be substantial.”11 In such circumstances, movants bear a higher burden to demonstrate
good cause for the granting of late intervention.12 The
Mohns did not explain why they waited to intervene in
this proceeding and have not met their burden.
Because the Mohns and the Tribes are not parties to
this proceeding, they have no standing to seek
rehearing of the February 3 Order, and we therefore
dismiss the pertinent rehearing requests as to them.
We nonetheless note that by answering other intervenors’ concerns below, we also address the issues raised
by the Concerned Citizens of Lebanon and the Mohns.
B. Untimely Requests for Rehearing
10. Pursuant to section 19(a) of the NGA, an
aggrieved party must file a request for rehearing
within 30 days after the issuance of the Commission’s
order.13 In this case, the deadline to seek rehearing

11

PJM Interconnection, L.L.C., 157 FERC ¶ 61,193, P 10
(2016).
12

See, e.g., Midwest Independent Transmission System
Operator, Inc., 102 FERC ¶ 61,250, at P 7 (2003).
13

15 U.S.C. §717r(a) (2012) (“Any person, State, municipality,
or State commission aggrieved by an order issued by the
Commission in a proceeding under this act to which such person,
State, municipality, or State commission is a party may apply for
a rehearing within thirty days after the issuance of such order”).
The Commission has no discretion to extend this deadline.
See, e.g., North Amer. Elec. Reliability Corp., 147 FERC ¶ 61,140
(2014) (rejecting untimely request for rehearing); City of
Campbell v. FERC, 770 F.2d 1180, 1183 (D.C. Cir. 1985) (“The
30-day time requirement of [the analogous provision in the
Federal Power Act] is as much a part of the jurisdictional
threshold as the mandate to file for a rehearing.”); Boston Gas Co.
v. FERC, 575 F.2d 975, 977-98, 979 (1st Cir. 1978) (describing
section 19(a) of the NGA as “a tightly structured and formal

279a
was 5:00 pm U.S. Eastern Time, March 6, 2017.14 The
Kochans and John Timothy Gross filed requests for
rehearing after the 5:00 pm deadline on March 6,
2017; therefore, they effectively sought rehearing on
March 7, 2017.15 Because the Kochans and Mr. Gross
failed to meet the deadline, their requests must be
dismissed as untimely.16
C. Certificate Amendment and Nesbitt Request
11. On March 6, 2017, Ms. Nesbitt and the Tribes
filed a joint request for rehearing. The request urged
the Commission to grant an alternative route to
avoid Ms. Nesbitt’s land based on alleged Commission
violations of the National Historic Preservation Act,
the National Environmental Policy Act (NEPA), the
Clean Water Act, and Commission regulations.

provision. Neither the Commission or the courts are given any
form of jurisdictional discretion.”).
14

The Commission’s regular business hours end at 5:00 PM,
U.S. Eastern Time. 18 C.F.R. § 375.101(c) (2017).
15

Documents received after regular business hours are deemed
filed on the next regular business day. 18 C.F.R. § 385.2001(a)(2)
(2017).
16

On July 31, 2017, Mr. Gross filed a motion for leave to
answer and answer to Transco’s answer to his request for rehearing and motion for stay. In that filing, Mr. Gross attempted to
explain why his rehearing request was filed late. The Commission’s
regulations do not generally permit answers to answers and we
reject Mr. Gross’s filing. 18 C.F.R. § 385.213(a)(2). Moreover, as
noted above, the Commission has no discretion to waive the
rehearing time limit. See, e.g., Tennessee Gas Pipeline Company,
95 FERC 61,169 (2001) (“Both the Commission and the courts
have consistently held that the thirty-day requirement in section
19(a) is a jurisdictional requirement that the Commission does
not have the discretion of waiving, even for good cause.”).

280a
12. On May 18, 2017, the Commission approved a
request by Transco to amend its certificate to modify a
6.48 mile segment of the originally certificated route
in Luzerne and Wyoming Counties, Pennsylvania, to
address landowner and US Army Corps of Engineers
(Army Corps) concerns. The new route, known as
Central Penn Line North Alternative 13, avoids Ms.
Nesbitt’s property. Ms. Nesbitt supported the route
amendment.17
13. Under section 19(a) of the NGA, only a party
that has been aggrieved by a Commission order may
file a request for rehearing. To establish aggrievement, a party must demonstrate, among other things,
a concrete injury fairly traceable to the Commission’s
action.18 Here, because the Commission has already
granted the remedy supported by Ms. Nesbitt, we find
that she has failed to demonstrate that she remains
aggrieved by the February 3 Order. Accordingly, we
dismiss Ms. Nesbitt’s rehearing request.
II. Discussion
A. Initial Recourse Rates
1. Rehearing Request
14. In granting Transco’s requested certificate in
the February 3 Order, the Commission accepted, over
protest from the State Commissions, Transco’s use of
a pre-tax return of 15.34 percent in calculating its
proposed incremental recourse rates for the Atlantic
17

See Motion to Intervene of Geraldine Turner Nesbitt in
Support of Amendment to Application, filed in Docket No. CP17212-000 (May 12, 2017).
18

See Green Island Power Authority v. FERC, 577 F.3d 148,
159 (2d Cir. 2009) (construing substantially similar provision of
the FPA, 16 U.S.C. § 825l (2012)).

281a
Sunrise Project. The Commission also rejected concerns raised by State Commissions regarding Transco’s
calculation of annual lease payments under its project
lease, finding that using costs from the first year of
the lease to calculate rates for the | 20-year term
was consistent with Commission regulations and
precedent, and that the lease arrangement provided
benefits to shippers.20
19

15. In their request for rehearing, State Commissions renew their concerns regarding the rate of return
used to calculate Transco’s incremental recourse rates.
They contend that the Commission erred by failing
to take into account the significant changes in the
financial markets which have occurred since the
Commission’s approval of a 15.34 percent pre-tax
return for Transco, which was the last specified rate of
return from Transco’s general rate case approved by
the Commission under section 4 of the NGA in 2002
and the rate of return used to calculate Transco’s
incremental recourse rates. State Commissions also
seek rehearing of the Commission’s decision to accept
Transco’s lease of capacity based on a single year of
cost and revenue. State Commissions contend that
such an analysis fails to take into account the
depreciation of the leased facilities and cannot support
a finding that the lease payments will be less than the
equivalent cost of service had Transco constructed the

19

February 3 Order, 158 FERC ¶ 61,125 at PP 34-41. Transco
proposed to use the same rate of return in calculating proposed
recourse rates for its Dalton Expansion Project in Docket No.
CP15-117-000 and Virginia Southside Expansion II Project in
Docket No. CP15-118-000.
20

February 3 Order, 158 FERC ¶ 61,125 at P 60.

282a
facilities itself. State Commissions advocate for a lifeof-the-lease analysis of the pertinent costs.
16. For the reasons discussed below, we deny the
request for rehearing.
2. Commission Determination
a. Rate of Return
17. State Commissions acknowledge that, in the
February 3 Order, the Commission applied its
established policy in section 7 proceedings of requiring
incremental recourse rates to be designed using the
rate of return specified in the pipeline’s most recent
general rate case approved under section 4 of the
NGA.21 If the most recent section 4 rate case involved
a settlement that did not specify a rate of return or
pre-tax return, we look to the most recent prior rate
case that did so specify.22 State Commissions nevertheless assert that the Commission was arbitrary and
capricious and failed to engage in reasoned decisionmaking because it: (1) failed to protect consumers from
excessive rates by permitting Transco to calculate its
recourse rates using an excessive pre-tax return,23 and
(2) did not require that the return be calculated based
on current market conditions.24 These arguments were
advanced by State Commissions in their initial

21

State Commissions Rehearing Request at 14. See also
February 3 Order, 158 FERC ¶ 61,125 at P 38 (explaining
Commission’s policy).
22

See February 3 Order, 158 FERC ¶ 61,125 at P 38 n.60 (citing
cases).
23

State Commissions Rehearing Request at 13-18.

24

Id. at 19-21.

283a
pleadings, and fully addressed in the February 3
Order.26 State Commissions present no new evidence
or arguments that warrant reversing the Commission’s
application of its consistent policy in the February 3
Order, nor have they demonstrated that circumstances have changed such that the policy should no
longer apply.
25

18. In addition to reiterating arguments addressed
in the February 3 Order, State Commissions contend
on rehearing that the Commission erred in referring
to Atlantic Refining Co. v. Pub. Serv. Comm’n of N.Y.
(CATCO),27 a case regarding the Commission’s discretion in section 7 proceedings to approve initial rates
that will “hold the line” until just and reasonable rates
are adjudicated under sections 4 or 5 of the NGA.28
According to State Commissions, the cited case is
inapplicable because it pre-dates the existence of
negotiated rates, and the fact that Transco will need
to file an NGA general section 4 rate case by August
31, 2018, fails to protect customers from excessive
rates charged before that time. We disagree.
19. Initially, State Commissions fail to explain how
the advent of negotiated rates constitutes a “change in
circumstance” negating the Commission’s discretion
to approve initial rates in this section 7 certificate
proceeding under the public convenience and necessity
standard pending the adjudication of just and reasonable rates in Transco’s next NGA general section 4

25

See State Commissions April 22, 2015 Protest at 9-13; State
Commissions May 27, 2015 Answer at 2-5.
26

February 3 Order, 158 FERC ¶ 61,125 at PP 34-41.

27

360 U.S. 378 (1959).

28

State Commissions Rehearing Request at 20-21.

284a
rate case. In the February 3 Order, the Commission
cited CATCO to contrast the less rigorous public convenience and necessity standard of review employed
under section 7 to assess initial rates for new service
or facilities with the just and reasonable standard of
review for rate changes under sections 4 and 5.30 The
less exacting standard of review used in a section 7
certificate proceeding is intended to mitigate the delay
associated with a full evidentiary rate proceeding, and
the Commission has discretion to approve initial rates
that will “hold the line” while awaiting the adjudication of just and reasonable rates.31 State Commissions’
observation that CATCO was decided before the
development of negotiated and recourse rates does not
detract from these basic tenets or their applicability in
this proceeding. Whether the initial rates in question
are recourse rates, serving as a check against the
exercise of market power by pipelines with negotiated
rate authority, or the rates actually charged to
shippers, the Commission retains the discretion to
protect the public interest while preventing the delays
that can accompany full evidentiary proceedings.
29

20. The fact that the rates in Transco’s next NGA
general section 4 rate case will go into effect prospectively does not change this analysis. Indeed, this is
always the case.32 Here, the Commission appropriately
29

Id. at 20 (“To begin, negotiated rates did not exist in 1959 at
the time of this decision. This change in circumstance renders
this decision inapposite.”).
30

February 3 Order, 158 FERC ¶ 61,125 at P 39 and n.64
(citing CATCO, 360 U.S. at 390).
31
32

Id. (citing CATCO, 360 U.S. at 391-92).

See CATCO, 360 U.S. at 389 (noting that new rate changes
filed under section 4 become effective upon filing, subject to
suspension and the posting of a bond, where required, and that

285a
examined Transco’s proposal under the public convenience and necessity standard, applied its consistent
policy to accept recourse rates designed using the last
Commission-approved rate of return from a NGA
general section 4 rate case in which a rate of return
was specified in order to calculate the rates, but
pointed out that, in any event, parties would have the
opportunity to raise concerns regarding Transco’s pretax return and other cost of service components in the
next NGA general section 4 rate case, to be filed by
August 31, 2018.33 State Commissions have not persuaded us on rehearing to revisit this determination.
b. Lease Payments
21. In the February 3 Order, the Commission
accepted a proposed lease arrangement under which
the Central Penn line facilities constructed for the
Atlantic Sunrise Project would be jointly owned by
Transco and Meade Pipeline Co LLC (Meade), with
Meade leasing its ownership interest in the facilities
to Transco for a primary term of 20 years.34 As relevant
here, the Commission found that the annual amount
Transco would pay Meade under the lease (based on
fixed lease payments of $7,964,908 per month) was
$66,430,118 per year less than the equivalent cost of
service that would result if Transco constructed and
owned the facilities itself. The Commission thus concluded that the lease arrangement benefited shippers.35
In so finding, the Commission rejected State Commissions’ contention that Transco’s analysis of the cost of
just and reasonable rates fixed in a section 5 proceeding become
effective prospectively only).
33

February 3 Order, 158 FERC ¶ 61,125 at P 40.

34

Id. P 50.

35

Id. P 57.

286a
the lease versus equivalent service on pipeline-owned
facilities was deficient because Transco only analyzed
cost data for the first year of the lease and did not
account for depreciation of the facilities over the 25year term.36
22. On rehearing, State Commissions again argue
that the Commission’s finding that approval of the
lease agreement will reduce the amount shippers
will pay under the recourse rate by an estimated
$66,430,118 per year is unfounded because the
Commission did not take into account depreciation of
the facilities that should decrease the cost of service
over the life of the lease.37 State Commissions thus
claim that the Commission “ignor[ed] 95% of the life of
the lease in its economic analysis” and therefore failed
to evaluate all factors bearing on the public interest
determination regarding the lease.38
23. We deny rehearing. In the February 3 Order,
the Commission analyzed the three factors of its leaseapproval analysis, and found that the lease arrangement provides a lower rate than if Transco constructed
the facilities itself and, as such, benefits shippers.39 As
36

Id. PP 58-60. See State Commissions April 22, 2015 Protest
at 14-15; State Commissions May 27, 2015 Answer at 6-8.
37

State Commissions Rehearing Request at 21-25.

38

Id. at 25. State Commissions also claim that the Commission’s reliance on section 157.14(a)(18)(c)(ii)(a) of the Commission’s
regulations to approve the lease is misplaced. To clarify, that
regulation addresses the support needed for initial rates and we
agree that it does not directly address our lease policy. However,
as explained in the February 3 Order and herein, the Commission’s approval of the lease is consistent with our precedent.
39

See February 3 Order, 158 FERC ¶ 61,125 at P 56
(explaining that “[t]he Commission’s practice has been to approve
a lease if it finds that: (1) there are benefits from using a lease

287a
the Commission explained, rates are based on a first
year cost of service and pipelines are under no obligation to revise their cost of service and associated
recourse rates over time to account for depreciation.40
Moreover, other cost factors could increase, or billing
determinants could decrease, that would have the
effect of offsetting the impact of depreciation on the
cost of service in the future. There is simply no way to
predict what the future cost of service or rates for the
project would be over the lease term to the extent
that Transco constructed and owned all of the project
facilities. For these reasons, we reject the State
Commissions’ assertion that the Commission ignored
all factors bearing on the public interest and reaffirm
that the lease arrangement provides lower rates and
benefits shippers and is consistent with Commission
precedent.
B. Public Purpose
1. Rehearing Requests
24. In the February 3 Order, the Commission rejected
the Clean Air Council’s assertion that Transco must
demonstrate that the project is for “public use” in
order to exercise eminent domain.41 The Commission
explained that, while the taking must serve a public
purpose to satisfy the Takings Clause of the U.S.
Constitution,42 the United States Supreme Court has
defined this concept broadly, “reflecting [the court’s]
arrangement; (2) the lease payments are less than, or equal to,
the lessor’s firm transportation rates for comparable service over
the term of the lease on a net present value basis; and (3) the
lease arrangement does not adversely affect existing customers”).
40

Id. P 60.

41

February 3 Order, 158 FERC ¶ 61,125 at PP 66-67.

42

U.S. CONST. amend. V.

288a
longstanding policy of deference to the legislative
judgments in this field.”43 With respect to natural gas
pipelines, the Commission explained, Congress has
determined the business of transporting and selling
natural gas for ultimate distribution to the public to
be in the public interest,44 and has provided that a
company that has obtained a certificate of public
convenience and necessity may exercise the right of
eminent domain.45
25. On rehearing, the Hoffman and Erb Landowners,
the Cappiellos, Follin Smith, and Lynda Like argue
that the Commission erred in finding that the Project
serves a “public purpose” for purposes of exercising
the right of eminent domain.46 The Hoffman and Erb

43

February 3 Order, 158 FERC ¶ 61,125 at P 67 (quoting Kelo
v. City of New London, Conn., 545 U.S. 469, 479-80 (2005) (Kelo)
(citing Fallbrook Irrigation Dist. v. Bradley, 164 U.S. 112, 158-64
(1896)).
44

15 U.S.C. § 717(a) (2012).

45

February 3 Order, 158 FERC ¶ 61,125 at P 67. See 15 U.S.C.
§ 717f(h) (“When any holder of a certificate of public convenience
and necessity cannot acquire by contract, or is unable to agree
with the owner of property to the compensation to be paid for, the
necessary right-of-way to construct, operate, and maintain a pipe
line or pipe lines for the transportation of natural gas, and the
necessary land or other property, in addition to right-of-way, for
the location of compressor stations, pressure apparatus, or other
stations or equipment necessary to the proper operation of such
pipe line or pipe lines, it may acquire the same by the exercise of
the right of eminent domain in the district court of the United
States for the district in which such property may be located, or
in the State courts.”).
46

Hoffman and Erb Landowners Rehearing Request at 2-3, 1013; Cappiello Rehearing Request at 4-5, 9-12; Smith Rehearing
Request at 5, 11-3; Like Rehearing Request at 3, 7-9. Geraldine
Nesbitt also included this argument in her joint request for

289a
Landowners further allege that the application of
sections 717f(h) and 717r(a) of the NGA and the
Commission’s Rules of Practice and Procedure, combined with the Commission’s practice of issuing tolling
orders in response to rehearing requests, deprives landowners of their due process rights under the Fifth and
Fourteenth Amendments.47 Finally, the Cappiellos and
Lynda Like assert that the February 3 Order violates
the Uniform Relocation Act48 because the Commission
failed to instruct Transco’s parent company, Williams
Partners Operating LLC (Williams), to provide
financial assistance to tenant farmers on their
properties who could be displaced by the project.49
26. We deny rehearing for the reasons discussed
below.
2. Commission Determination
a. Project Need
27. Allegheny and the Hoffman and Erb landowners
assert that the Commission placed too much weight on
the fact that Transco had secured long-term commitments from shippers as evidence of public need for
the project, citing to former Commissioner Bay’s

rehearing, which has been dismissed as moot as discussed above.
See Nesbitt Rehearing Request at 81-84.
47

Hoffman and Erb Landowners Rehearing Request at 3-4, 1316. Other parties advance similar arguments in connection with
their motions for stay of the certificate. See Allegheny Rehearing
Request at 38-39 (asserting that issuance of a tolling order would
constitute an effective denial the rehearing requests).
48
49

42 U.S.C. § 4601 (2012).

Cappiello Rehearing Request at 3-4, 7-8; Like Rehearing
Request at 3, 6-7.

290a
statement in National Fuel Gas Supply Corp.50 It is
well-established, however, that long-term commitments serve as “significant evidence of demand for the
project.”51 And the Commission typically does not look
behind such agreements to assess shippers’ business
decisions.52 The United States Court of Appeals for the
District of Columbia Circuit (D.C. Circuit) has confirmed that nothing in the Certificate Policy Statement,
nor any precedent construing it, indicates that the
Commission must look beyond the market need
reflected by the applicant’s contracts with shippers.53
Here, all of the project’s proposed capacity has been
subscribed under long-term precedent agreements
with nine shippers.54
28. To the extent these parties argue that the
Commission should have independently evaluated the
need for the project, we note that, in the February 3
Order, the Commission looked to the comments by
three project shippers affirming their need for project
50

158 FERC ¶ 61,145 (2017) (Commissioner Bay, Separate
Statement). See Allegheny Rehearing Request at 36-38; Hoffman
and Erb Landowners Rehearing Request at 11-12.
51

Certification of New Interstate Natural Gas Pipeline
Facilities, 88 FERC ¶ 61,227, at 61,748 (1999), clarified, 90 FERC
¶ 61,128, further clarified, 92 FERC ¶ 61,094 (2000) (Certificate
Policy Statement).
52

See, e.g., Transcontinental Gas Pipe Line Co., LLC, 157
FERC ¶ 61,095, at P 5 (2016); Algonquin Gas Transmission, LLC,
154 FERC ¶ 61,048, at P 39 (2016); Paiute Pipeline Co., 151 FERC
¶ 61,132, at P 33 (2015).
53

Minisink Residents for Envtl. Pres. and Safety v. FERC, 762
F.3d 97, 112 n.10 (D.C. Cir. 2014); see also Myersville Citizens for
a Rural Cmty., Inc. v. FERC, 783 F.3d 1301, 1311 (D.C. Cir. 2015)
(rejecting argument that precedent agreements are inadequate to
demonstrate market need).
54

See February 3 Order, 158 FERC ¶ 61,125 at P 23.

291a
service. While the parties assert that the Commission should not accept these “self-serving statements
from a prime beneficiary of the project,”56 it would
seem that as a pipeline project is intended to serve
need for transportation services, statements from
those entities actually experiencing the need for such
services would be precisely the kind of evidence the
Commission should look to. And where, as here, the
shippers have backed their words with subscriptions
for all of the proposed project’s capacity, we generally
decline to look beyond the evidence of need demonstrated by those contracts to make an independent
determination of the quality of the subscribing shippers’ business judgment. Nonetheless, the Commission
also analyzed a study by the Institute for Energy
Economics and Financial Analysis (IEEFA) submitted
by Clean Air Council.57 The Commission found that
while the IEEFA study was general and not directly
applicable to the project’s proposed market, it did
suggest that pipelines like the Atlantic Sunrise Project
may serve to aid in the delivery of lower-priced natural
55

55

See February 3 Order, 158 FERC ¶ 61,125 at P 30 (citing
evidence of demand provided by Southern Company Services,
Inc., Seneca Resources Corporation, and Washington Gas Light
Company).
56

See Cappiello Rehearing Request at 11-12; Smith Rehearing
Request at 13; Like Rehearing Request at 9 (citing City of
Pittsburgh v. FPC, 237 F.2d 741 (D.C. Cir. 1956); Hoffman and
Erb Landowners Rehearing Request at 2, 11 (arguing that FERC
failed to “exercise a degree of skepticism in dealing with selfserving statements from a prime beneficiary of the project”)
(citing Simmons v. U.S. Army Corps of Engineers, 120 F.3d 664,
669 (7th Cir. 1997); Citizens Against Burlington, Inc. v. Busey,
938 F.2d 190, 209 (D.C. Cir. 1991) (Buckley, J., dissenting)).
57

February 3 Order, 158 FERC ¶ 61,125 at PP 26, 28.

292a
gas to higher-priced markets.58 The Commission
further noted that, to the extent that the study showed
underutilization of existing capacity in Virginia and
North Carolina, Transco proposes to make use of
underutilized capacity instead of constructing new
pipeline facilities in these states.59
29. With respect to arguments premised on the
potential export of project gas, our policy does not
require shippers to be end-use consumers of natural
gas to establish demand for the project, and a project
is not deemed speculative simply because it is driven
primarily by marketers and producers.60 The Commission
determined that Transco designed its project to meet
the growing demand for natural gas in the Mid-Atlantic
and southeastern markets and executed precedent
agreements for 100 percent of the project’s capacity.61
b. Constitutional Takings
30. Several landowners assert that the “public
interest” referenced in the NGA is distinguishable
from finding that the project serves a “public use”
sufficient to justify a taking,62 but that, in any event,
58

Id. P 28.

59

Id. P 30.

60

Id. P 29 (citing Maritimes & Northeast Pipeline, L.L.C., 87
FERC ¶ 61,061, at 61,241 (1999)).
61
62

Id.

Hoffman and Erb Landowners Rehearing Request at 2-3, 1213 (noting that Cabot Oil & Gas Corporation, one the project’s
major subscribers, has stated that its anticipated pricing for gas
transported on the pipeline will be based on the D.C. market area
and the Gulf Coast market area and stating that “[t]he fact that
87% of the Project’s capacity is subscribed to by four gas
production companies that, upon completion of the Project, will
have direct access to export facilities, raises serious concerns that
the main driver behind the Project is to provide these companies

293a
the project meets neither standard because most of the
natural gas to be transported by the project will be
exported and not ultimately distributed to the public.63
31. As we recently have explained,64 the Commission
itself does not confer eminent domain powers. Under
NGA section 7, the Commission has jurisdiction
to determine if the construction and operation of
proposed interstate pipeline facilities are in the public
convenience and necessity. Once the Commission
makes that determination and issues a natural gas
company a certificate of public convenience and
necessity, it is NGA section 7(h) that authorizes that
certificate holder to acquire the necessary land or
property to construct the approved facilities by
exercising the right of eminent domain if it cannot
acquire the easement by an agreement with the
landowner.65
32. As noted above, Congress provided in NGA
section 7(h) that a certificate holder was entitled to use
with access to higher priced markets overseas”); Cappiello
Rehearing Request at 11-12 (“[T]he record shows that a 350,000
Dth/day of gas carried along the CPL Line will be exported to
Japan, while the remainder will be sold [at] WGL Midstream
potentially for export or spot market sales.”); Smith Rehearing
Request at 12-13; Like Rehearing Request at 8-9. Similarly,
Allegheny argues that the precedent agreements fail to establish
demand for the project because most of the natural gas to be
transported is destined for export. See Allegheny Rehearing
Request at 37-38.
63

Cappiello Rehearing Request at 10-11; Smith Rehearing
Request at 12-13; Like Rehearing Request at 8.
64

Atlantic Coast Pipeline, LLC, 161 FERC ¶ 61,042, at P 77
(2017); Mountain Valley Pipeline, LLC, 161 FERC ¶ 61,043, at
P 61 (2017).
65

15 U.S.C. § 717f(h) (2012).

294a
eminent domain. Congress did not suggest that there
was a further test, beyond the Commission’s determination under NGA section 7(c)(e),66 that a proposed
pipeline was required by the public convenience and
necessity, such that certain certificated pipelines
furthered a public use, and thus were entitled to
use eminent domain, while others did not. The
Commission has interpreted the section 7(c)(e) public
convenience and necessity determination as requiring
the Commission to weigh the public benefit of the
proposed project against the project’s adverse effects.67
We undertake this balancing through our application
of the Certificate Policy Statement criteria, under
which we balance the public benefits of a project
against the residual adverse effects.68 Thus, through
this balancing process we make findings that support
our ultimate conclusion that the public interest is
served by the construction of the proposed project.69
66

15 U.S.C. § 717f(e) (2012).

67

As the agency that administers the NGA, and in particular
as the agency with expertise in addressing the public convenience
and necessity standard in the Act, the Commission’s
interpretation and implementation of that standard is accorded
deference. See Chevron, USA, Inc. v. Nat. Res. Def. Council, Inc.,
467 U.S. 837, 842-43 (1984); Del. Riverkeeper Network v. FERC,
857 F.3d 388, 392 (D.C. Cir. 2017); Office of Consumers Counsel
v. FERC, 655 F.2d 1132, 1141 (D.C. Cir. 1980); Total Gas & Power
N. Am., Inc. v. FERC, No. 4:16-1250, 2016 WL 3855865, at *21
(S.D. Tex. July 15, 2016), aff’d, 859 F.3d 325 (5th Cir. 2017); see
also MetroPCS Cal., LLC v. FCC, 644 F.3d 410, 412 (D.C. Cir.
2011) (under Chevron, the Court “giv[es] effect to clear statutory
text and defer[s] to an agency’s reasonable interpretation of any
ambiguity”).
68

Certificate Policy Statement, 88 FERC ¶ 61,227 at 61,74761,749.
69

Midcoast Interstate Transmission, Inc. v. FERC, 198 F.3d
960, 973 (D.C. Cir. 2000) (because the Commission declared that

295a
Accordingly, once a natural gas company obtains a
certificate of public convenience and necessity, it may
exercise the right of eminent domain in a U.S. District
Court or a state court.
33. The Commission, having determined that the
Atlantic Sunrise Project is in the public convenience
and necessity, was not required to make separate
finding that the project serves a “public use” to allow
the certificate holder to exercise eminent domain.70
In short, the Commission’s public convenience and
necessity finding is equivalent to a “public use” determination.71 In enacting the NGA, Congress clearly
articulated that the transportation and sales of
natural gas in interstate commerce for ultimate
distribution to the public is in the public interest.72
the subject pipeline would serve the public convenience and
necessity, the takings complained of did serve a public purpose);
see also Guardian Pipeline, L.L.C. v. 529.42 Acres of Land, 210 F.
Supp. 2d 971, 974 (N.D. Ill. 2002) (no evidence of public necessity
other than the Commission’s determination is required).
70

See Atlantic Coast Pipeline, LLC, 161 FERC ¶ 61,042 at P
79; Mountain Valley Pipeline, LLC, 161 FERC ¶ 61,043 at P 61.
71

See Midcoast Interstate Transmission, Inc. v. FERC, 198
F.3d 960, 973 (D.C. Cir. 2000); see also, e.g., Troy Ltd. v. Renna,
727 F.2d 287, 301 (3rd Cir. 1984) (“authoriz[ing] an occupation of
private property by a common carrier . . . engaged in a classic
public utility function” is an “exemplar of a public use”); E. Tenn.
Natural Gas Co. v. Sage, 361 F.3d 808 (4th Cir. 2004) (“Congress
may, as it did in the NGA, grant condemnation power to ‘private
corporations . . . execut[ing] works in which the public is
interested.’”) (quoting Miss. & Rum River Boom Co. v. Patterson,
98 U.S. 403, 406 (1878)).
72

15 U.S.C. § 717(a) (2012) (declaring that the “business of
transporting and selling natural gas for ultimate distribution to
the public is affected with a public interest”). See also Thatcher v.
Tenn. Gas Transmission Co., 180 F.2d 644, 647 (5th Cir. 1950),
cert. denied, 340 U.S. 829 (1950) (explaining that Congress, in

296a
This congressional recognition that natural gas transportation furthers the public interest is consistent
with the Supreme Court’s emphasis on legislative
declarations of public purpose in upholding the power
of eminent domain.73
34. Through the transportation of natural gas from
the project, the public at large will benefit from
increased reliability of natural gas supplies. To the
extent that natural gas transported by the project is
exported, we note that the Department of Energy
(DOE) first would need to find that such exportation is
not inconsistent with the public interest.74 Furthermore,
upstream natural gas producers will benefit from the
project by being able to access additional markets for
their product. Therefore, we continue to find that the
proposed project is required by the public convenience
and necessity.
35. Finally, we dismiss as beyond the scope of this
proceeding the Cappiellos’ argument that, even if the
use of eminent domain is not found to be unconstitutional for the project in general, it should be disallowed
enacting the NGA, recognized that “vast reserves of natural gas
are located in States of our nation distant from other States
which have no similar supply, but do have a vital need of the
product; and that the only way this natural can be feasibly
transported from one State to another is by means of a pipe
line.”).
73

Kelo v. City of New London, Conn., 545 U.S. 469, 479-80
(2005) (upholding a state statute that authorized the use of
eminent domain to promote economic development); see also id.
at 480 (noting that without exception the Court has defined the
concept of “public purpose” broadly, reflecting the Court’s
longstanding policy of deference to the legislative judgments in
this field).
74

See 15 U.S.C. § 717b(a) (2012); 10 C.F.R. § 590.201 (2017).

297a
for their property because the current route may not
be built.75 The Cappiellos note that approval of a sitespecific plan for minimizing construction impacts on
the Cappiellos’ barn, and amending a restrictive
covenant to permit construction must be met before
the pipeline can go forward.76 In the February 3 Order,
the Commission found under section 7(c) of the NGA
that the public convenience and necessity requires
approval of Transco’s proposal. Once the Commission
has authorized pipeline construction, the Commission
does not oversee the acquisition of necessary property
rights. Issues related to the acquisition of property
rights by a pipeline under the eminent domain
provisions of section 7(h) of the NGA are matters for
the applicable state or federal court.77
c. Due Process
36. On March 13, 2017, consistent with its standard
practice, the Commission issued an order in this
proceeding granting rehearing for further consideration. Absent this tolling order, the timely rehearing
requests in this proceeding would have been deemed
denied by operation of law after 30 days.78 Nevertheless,
the Hoffman and Erb Landowners argue that issuance
75

Cappiello Rehearing Request at 8-9, 12.

76

Id. at 8, 12. The Cappiellos further represent that they do
not intend to sign a letter authorizing Williams to apply for a
permit from the Pennsylvania Department of Transportation to
use an access road on their property. Id. at 8-9.
77

Rover Pipeline LLC, 158 FERC ¶ 61,109 at PP 68, 70 (2017)
(explaining that “[t]he Commission does not oversee the
acquisition of property rights through eminent domain
proceedings”).
78

18 C.F.R. § 385.713(f) (2017) (“Unless the Commission acts
upon a request for rehearing within 30 days after the request is
filed, the request is denied.”).

298a
of a tolling order in this proceeding, absent a concurrent stay of the effectiveness of the February 3 Order,
deprives landowners of a meaningful opportunity for
judicial review of the Commission’s decision regarding
public use and taking of their property.79
37. We disagree. The Commission’s use of tolling
orders has been found to be valid by the courts,80 and
it is well settled that, “[i]n the absence of a stay, the
[Commission’s] orders are entitled to have administrative operation and effect during the disposition of the
proceedings.”81
38. The Hoffman and Erb Landowners fail to
establish that issuance of a tolling order followed by
a substantive rehearing order will deprive them of
79

Hoffman and Erb Landowners Rehearing Request at 3, 14.
Specifically, the Hoffman and Erb Landowners state that the
pipeline company may exercise the power of eminent domain once
it has obtained a certificate of public convenient and necessity,
while landowners cannot seek judicial review of the Commission’s
determination that the project serves a public purpose until they
have filed for rehearing with the Commission, which does not
stay the effectiveness of the grant of certificate. Id. at 14.
80

Del. Riverkeeper Network v. FERC, 243 F.Supp.3d 141, 146
(D.D.C. 2017) (“Tolling orders have no explicit statutory basis,
but have been upheld by the First and Fifth Circuits, as well as
by the D.C. Circuit in several unpublished orders.”); Kokajko v.
FERC, 837 F.2d 524, 525 (1st Cir. 1988); California Co. v. FPC,
411 F.2d 720 (D.C. Cir. 1969). See also, City of Glendale v. FERC,
No. 03-1261, 2004 WL 180270, at *1 (D.C. Cir. Jan. 22, 2004)
(“Nor is there merit to petitioner’s contention that this court
should treat FERC’s orders tolling the period for resolving petitioner’s requests for agency rehearing as effectively denying
rehearing; the tolling orders do not resolve the rehearing requests
but simply extend the time to consider them.”).
81

Ecee, Inc. v. FPC, 526 F.2d 1270, 1274 (5th Cir. 1974), cert.
denied, 429 U.S. 867 (1976) (citing Jupiter Corp. v. FPC, 424 F.2d
783, 791 (D.C. Cir. 1969), cert. denied, 397 U.S. 937 (1970)).

299a
the chance to be heard “at a meaningful time and in
a meaningful manner.”82 The Hoffman and Erb
Landowners had notice of, and participated in, the
certificate proceeding before the Commission. Thus,
their reliance on Brody v. Vill. Of Port Chester83
is misplaced, as that case focused on whether the
landowner had received sufficient notice of the
commencement of the 30-day period to challenge the
public use determination.84 The Hoffman and Erb
Landowners do not argue that they have been deprived
of the opportunity to seek review of the February 3
Order. Rather, they assert that the potential delay in
receiving a substantive order on rehearing will deprive
them of their right to judicial review of the public use
determination.85
39. As the Supreme Court has recognized, “due
process is flexible and calls for such procedural protections as the particular situation demands.”86 The
courts have recognized the importance of permitting
the Commission “to give complete and deliberate
consideration” to matters before it, and have rejected
arguments that delays in rendering final decisions,

82

Matthews v. Eldridge, 424 U.S. 319, 333 (1976) (quoting
Armstrong v. Manzo, 380 U.S. 545, 552 (1965)).
83

434 F.3d 121 (2d Cir. 2005).

84

See id. at 126-27.

85

See Hoffman and Erb Landowners Rehearing Request at 16
(asserting that “the due process rights that the Landowners are
guaranteed by the Constitution here require that FERC timely
decide the request for rehearing, without issuing a tolling order,
or they require FERC to issue a stay while any such tolling order
is pending”).
86

Morrissey v. Brewer, 408 U.S. 471, 481 (1972).

300a
within reason, raise due process concerns.87 Here, the
Hoffman and Erb Landowners do not argue that they
will not be able to seek review of the February 3 Order,
but only that such review must await the Commission’s consideration of their requests for rehearing.
But “[w]here only property rights are involved, mere
postponement of the judicial enquiry is not a denial of
due process, if the opportunity given for the ultimate
judicial determination of the liability is adequate.”88 In
sum, the Hoffman and Erb Landowners fail to show
that they have been substantially prejudiced by the
Commission following its longstanding procedure of
issuing a tolling order while affording the multiple
rehearing requests in this proceeding the careful
consideration they are due.89
d. Uniform Relocation Act
40. The Cappiellos and Lynda Like argue, for the
first time on rehearing, that the February 3 Order
violates the Uniform Relocation Assistance and Real
87

See Kokajko v. FERC, 837 F.2d 524 (1st Cir. 1988) (rejecting
claim that due process was violated when a final rehearing order
had not been issued by the Commission five years after the filing
of a complaint).
88

Phillips v. Internal Revenue Comm’r, 283 U.S. 589, 596-97
(1931). See also Council of & for the Blind of Delaware Cty. Valley,
Inc. v. Regan, 709 F.2d 1521, 1533-34 (D.C. Cir. 1983) (“In order
to state a legally cognizable constitutional claim, appellants must
allege more than the deprivation of the expectation that the
agency will carry out its duties.”) (emphasis in original); see also
Polk v. Kramarsky, 711 F.2d 505, 508-09 (2d Cir. 1983) (plaintiff's
property right, while delayed, was not extinguished, and that no
deprivation of property interest occurred).
89

Arthur Murray Studio of Washington, Inc. v. F.T.C., 458 F.2d
622 (5th Cir. 1972) (showing of substantial prejudice is required
to make a case of denial of procedural due process in administrative proceedings).

301a
Property Acquisitions Policies for Federal and Federally
Assisted Programs Act (Uniform Relocation Act)90
because the Commission did not direct Transco’s
parent company, Williams, to provide for payments to
tenants on the Cappiello and Like properties who may
be displaced by construction of the pipeline.91 As a
rule, we reject requests for rehearing that raise a novel
issue, unless we find that the issue could not have
been previously presented.92
41. Even if we were to consider the merits of this
argument, we would reject it. Section 4622(a) of the
Uniform Relocation Act provides for the payment to
“displaced persons” of reasonable expenses for moving
and reestablishing a business or farm.93 There is no

90

42 U.S.C. §§ 4601 et seq. (2012).

91

Cappiello Rehearing Request at 7-8; Like Rehearing Request
at 6-7.
92

Algonquin Gas Transmission, LLC, 154 FERC ¶ 61,048, at P
250 (2016) (explaining that novel issues raised on rehearing are
rejected “because our regulations preclude other parties from
responding to a request for rehearing and such behavior is
disruptive to the administrative process because it has the effect
of moving the target for parties seeking a final administrative
decision”) (internal quotations omitted); Baltimore Gas & Electric
Co., 91 FERC ¶ 61,270, at 61,922 (2000) (“we look with disfavor
on parties raising issues that should have been raised earlier.
Such behavior is disruptive to the administrative process because
it has the effect of a moving target for parties seeking a final
administrative decision.”).
93

“Whenever a program or project to be undertaken by a
displacing agency will result in the displacement of any person,
the head of the displacing agency shall provide for the payment
to the displaced person of-(1) actual reasonable expenses in moving himself, his family,
business, farm operation, or other personal property;

302a
directive relating to the Uniform Relocation Act in the
February 3 Order because the Act does not apply at
this point in NGA section 7(c) proceedings. To the
extent the use of eminent domain proves necessary,
it would be the natural gas company, not the
Commission, that would be the “displacing agency” for
the purposes of the Uniform Relocation Act.94 And, the
compensation requirements generally do not apply
until the party has been “displaced,” i.e., moved from
the property and filed a claim for reimbursement.95
Accordingly, the Cappiellos and Ms. Like fail to
establish that the Commission should have included
(2) actual direct losses of tangible personal property as a result
of moving or discontinuing a business or farm operation, but not
to exceed an amount equal to the reasonable expenses that would
have been required to relocate such property, as determined by
the head of the agency;
(3) actual reasonable expenses in searching for a replacement
business or farm; and
(4) actual reasonable expenses necessary to reestablish a
displaced farm, nonprofit organization, or small business at its
new site, but not to exceed $25,000, as adjusted by regulation, in
accordance with section 4633(d) of this title.”
42 U.S.C. § 4622(a) (2012).
94

Section 4601(11) defines “displacing agency” as “any Federal
agency carrying out a program or project . . . which causes a
person to be a displaced person.” As defined in section 4601(1),
“Federal agency” includes “any person who has the authority to
acquire property by eminent domain under Federal law.” See
Tenn. Gas Pipeline Co. v. New England Power, C.T.L., Inc., 6
F.Supp.2d 102, 105 (D. Mass. 1998) (noting that pipeline in
possession of a certificate of public convenience and necessity
under the NGA would be the “federal agency” for purposes of the
Uniform Relocation Assistance Act.).
95

Tenn. Gas Pipeline Co., 6 F.Supp.2d at 105 (finding that a
party who had not yet left the premises was not entitled to
prepayment of relocation expenses).

303a
any directives regarding the Uniform Relocation Act
in the February 3 Order.
C. Environmental Analysis
1. Certificate Environmental Conditions
a. Rehearing Requests
42. Allegheny, Accokeek, the Hoffman and Erb
Landowners, and Follin Smith assert that the
February 3 Order granting a conditional certificate
violates NEPA and Commission regulations. Citing
Commission regulations requiring all federal agencies
to issue final permits within 90 days after issuing a
final Environmental Impact Statement (EIS), Follin
Smith claims that the Commission acted too “hasty”
in issuing a certificate conditioned on the Army
Corps’ Clean Water Act section 404 permit before that
period elapsed.96 Accokeek and the Hoffman and Erb
Landowners join Allegheny’s request by arguing that
the February 3 Order’s environmental conditions violated the Council on Environmental Quality’s (CEQ)
regulations requiring that environmental information
be publicly available before decisions are made and
actions taken.97 Allegheny contends that the Commission should have supplemented the EIS because
the mitigation plans required by these conditions
constitute substantial changes from the original
environmental analysis.

96

Smith Rehearing Request at 10 (citing 18 C.F.R. § 157.22)
(2017).
97

Allegheny Rehearing Request at 7 (citing 40 C.F.R. §
1500.1(b), 18 C.F.R. 380.11(a) (2017)).

304a
b. Commission Determination
i. Coordination
Authorizations

of

Federal

43. We reject the claim that the Commission
violated its own regulations by issuing a certificate
conditioned on the Army Corps’ section 404 permit.
The regulation cited by Follin Smith establishes a 90day time limit, not a 90-day waiting period, for federal
approvals.98 Nor is there any requirement that the
Commission not act until that time period has lapsed.
The courts have consistently affirmed the Commission’s
practice of issuing conditional certificates.99
ii. Conditional Authorization
44. The Commission also complied with NEPA
when it conditioned its approval on compliance with
environmental conditions. Of the 56 environmental
conditions included in the certificate order, Allegheny
alleges that 35 conditions will require additional
98

18 C.F.R. § 157.22 (“a final decision on a request for a Federal
authorization is due no later than 90 days after the Commission
issues its final environmental document, unless a schedule is
otherwise established by Federal law”).
99

See Del. Riverkeeper Network v. FERC, 857 F.3d at 399
(upholding Commission’s approval of a natural gas project conditioned on securing state certification under section 401 of the
Clean Water Act); see also Myersville, 783 F.3d at 1320-21
(upholding FERC’s conditional approval of a natural gas facility
construction project where FERC conditioned its approval on the
applicant securing a required federal Clean Air Act air quality
permit from the state); Del. Dep't. of Nat. Res. & Envtl. Control v.
FERC, 558 F.3d 575, 578-79 (D.C. Cir. 2009) (holding Delaware
suffered no concrete injury from FERC's conditional approval of
a natural gas terminal construction despite statutes requiring
states’ prior approval because FERC conditioned its approval of
construction on the states' prior approval).

305a
information and therefore additional NEPA analysis.
In particular, Allegheny focuses on environmental
conditions 21 and 23, which together direct Transco to
submit a final Abandoned Mine Investigation and
Mitigation Plan (Mine Fire Plan) to protect the
pipeline from potential underground mine fire migration during operations. According to Allegheny, this
alleged new information should have been subjected to
additional NEPA analysis.
45. When a federal agency determines that a licensee
must mitigate potential impacts, NEPA does not
require a “complete mitigation plan” that is “actually
formulated and adopted” when the EIS is issued.100
46. The Commission properly analyzed in the final
EIS the potential environmental impacts associated
with environmental conditions and then went beyond
NEPA’s mandate by conditioning the certificate on
this additional mitigation. For example, the final EIS
analyzed Transco’s submitted Mine Fire Plan, which
showed that the project would not cross an active mine
fire, but would be within three miles of three active
fires.101 Although nothing suggested that these fires
would migrate, the final EIS recommended that Transco
update its Mine Fire Plan to include mitigation measures to guard against any migration in the future.102
We disagree that a supplemental EIS is necessary to
review the plan. Such supplemental analysis is only
required if “there remains ‘major Federal actio[n]’ to
occur, and if the new information will affect the quality
100

Robertson v. Methow Valley Citizens Council, 490 U.S. 332,
333 (1989).
101

December 2016 Final Environmental Impact Statement for
the Atlantic Sunrise Project (Final EIS) at 4-25.
102

Id. at 4-30.

306a
of the human environment in a significant manner or
to a significant extent not already considered.”103 That
is not the case here.
47. The other environmental conditions of concern
to Allegheny were also proper. These conditions –
environmental mitigation, ensuring other federal
approvals have been met, and finalizing workspace plans
once property has been acquired – must be completed
before the Commission will authorize construction.104
All environmental impacts associated with these conditions were analyzed in the final EIS. We see no
evidence suggesting that these environmental conditions, once fulfilled, demanded additional analysis
pursuant to NEPA.
2. Project Scope and Alternatives
a. Rehearing Requests
48. Accokeek and the Hoffman and Erb Landowners
join Allegheny’s claim that the Commission failed to
properly identify or evaluate the project’s purpose and
need, and therefore, failed to evaluate a reasonable
range of alternatives. Allegheny claims the final
EIS failed to even identify the project’s purpose and
need, pointing to a statement in the EIS that the
Commission “will not determine whether the need for
103
104

Marsh v. Oregon Nat. Res. Council, 490 U.S. 360, 361 (1989).

For example, these conditions include requirements that
Transco: perform post-construction noise surveys to ensure
that operation noise levels at the compressor stations meet the
Commission’s noise criterion (condition numbers 53 - 56); finalize
and file alignment and workspace requirements (conditions 4, 5);
finalize and file an implementation plan for workspace monitoring; and show that all other necessary federal authorizations
have been obtained (condition 6). February 3 Order, 158 FERC
¶ 61,125.

307a
the Project exists” as part of the NEPA process, noting
that “this will later be determined by the Commission
[under section 7 of the NGA].”105 Allegheny also claims
that the Commission unreasonably narrowed its alternatives analysis by excluding generation of electricity
from renewable energy sources and conservation.
Allegheny alleges that the Commission excluded these
alternatives because other agencies and states regulate these resources. We disagree.
b. Commission Determination
i. Purpose and Need
49. Contrary to Allegheny’s claim, the final EIS
explains that the purpose of the project was to provide
enhanced access to Marcellus Shale gas supplies and
incremental, firm natural gas transportation capacity
between Marcellus Shale producing areas and Transco’s
existing markets.106 The statement relied upon by
Allegheny was intended to advise that the determination of a project’s purpose under NEPA differs from the
Commission’s determination of need under the public
convenience and necessity standard of section 7(c) of
the NGA. As discussed above, when determining
whether a project is in the public convenience and
necessity, the Commission examines several different

105
106

Allegheny Rehearing at 9 (citing Final EIS at 1-2).

To the extent Allegheny argues that the project purpose and
need statement should be broader, we note that when an agency
is tasked to decide whether to adopt a private applicant’s
proposal, and if so, to what degree, a reasonable range of
alternatives to the proposal includes rejecting the proposal to
adopting it to varying degrees or with modification. See Theodore
Roosevelt Conservation P’ship v. Salazar, 661 F.3d 66, 72-74 (D.C.
Cir. 2011).

308a
factors when analyzing a project’s market need before
balancing public benefits against project impacts.
ii. Alternatives
50. Under NEPA, alternatives are reasonable if
they can feasibly achieve the project’s aims.107
The final EIS properly considered and rejected
commenters’ requests for renewable energy and energy
conservation alternatives because neither would meet
project objectives.108 Although the EIS noted that
renewable energy and energy conservation could potentially provide equivalent amounts of energy, neither
were transportation alternatives and thus would not
meet the project’s objectives. Moreover, renewable
energy and energy conservation measures could not
provide additional natural gas supplies for residential
and commercial uses, including heating and cooking,
without extensive conversion of existing systems to
electric-based systems. As the final EIS explained,
“because the purpose of the Project is to transport
natural gas, and the generation of electricity from
renewable energy sources or the gains realized from
increased energy efficiency and conservation are not

107

See, e.g., Friends of Southeast’s Future v. Morrison, 153 F.3d
1059, 1066-67 (9th Cir. 1998) (stating that while agencies are
afforded “considerable discretion to define the purpose and need
of a project,” agencies’ definitions will be evaluated under the rule
of reason.). See also City of Alexandria v. Slater, 198 F.3d 862,
867 (D.C. Cir. 1999); 43 C.F.R. § 46.420(b) (2017) (defining “reasonable alternatives” as those alternatives “that are technically and
economically practical or feasible and meet the purpose and need
of the proposed action”).
108

Final EIS at 3-2.

309a
transportation alternatives, they are not considered or
evaluated further in this analysis.”109
51. Allegheny cites the final EIS for the
Constitution Pipeline Project as an example of where
the Commission did consider these renewable energy
and energy conservation alternatives. But, as is the
case here, those alternatives were rejected in the
Constitution proceeding because they would not meet
project objectives.110
3. Segmentation
a. Rehearing Requests
52. Allegheny, the Hoffman and Erb Landowners,
and Accokeek claim that the Commission impermissibly segmented the environmental analysis for the
Atlantic Sunrise Project from four other purportedly
interdependent pipeline projects: Transco’s Hillabee
Expansion Project (CP15-16-000); American Midstream’s
Magnolia Extension Project; Transco’s Rock Springs
Expansion Project (CP14-504-000); and Transco’s Northeast Supply Enhancement Project (CP17-101-000).

109
110

Id.

Final EIS for the Constitution Pipeline and Wright
Interconnect Projects, Docket Nos. CP13-499-000, CP13-502-000
(Oct. 2014) (Constitution EIS), at 3-4 to 3-5, 3-7 to 3-13. The
Constitution EIS explained that gains in energy efficiency would
only occur on a much longer time-line than the shippers’
contracted service and would not be expected to eliminate the
increasing demand for energy or natural gas in New England.
The Constitution EIS also concluded that renewable resources
would not meet overall anticipated consumer needs and would
not be completely interchangeable with natural gas.

310a
b. Commission Determination
53. Segmentation refers to the requirement that an
agency must consider other connected and cumulative
actions, and may consider similar actions, in a single
environmental document to “prevent agencies from
dividing one project into multiple individual actions”
with less significant environmental effects.111 Connected
actions include actions that: (1) automatically trigger
other actions, which may require an EIS; (2) cannot or
will not proceed without previous or simultaneous
actions; (3) are interdependent parts of a larger action
and depend on the larger action for their justification.112 Such actions must be proposed or pending at
the same time.113 The Commission is not required to
consider in its NEPA analysis other potential projects
for which the project proponent has not yet filed an
application, or where construction of a project is not
underway.114
54. In evaluating whether connected actions are
improperly segmented, courts apply a “substantial
independent utility” test. The test asks “whether one
project will serve a significant purpose even if a second
related project is not built.”115 For proposals that
111

Myersville, 783 F.3d at 1326 (Court approved FERC's
determination that, although a Dominion-owned pipeline
project's excess capacity may be used to move gas to the Cove
Point terminal for export, the projects are “unrelated” for
purposes of NEPA).
112

40 C.F.R. § 1508.25(a)(1)(i)-(iii) (2017).

113

40 C.F.R. §1508.25 (a)(1) - (2) (2017) (defining connected and
cumulative actions).
114
115

See Minisink, 762 F.3d at 113, n.11.

Coal. on Sensible Transp., Inc. v Dole, 826 F.2d 60, 69 (D.C.
Cir., 1987); see also O’Reilly v. U.S. Army Corps of Eng’rs, 477
F.3d 225, 237 (5th Cir. 2007) (defining independent utility as

311a
connect to or build upon an existing infrastructure
network, this standard distinguishes between those
proposals that are separately useful and those that are
not. Similar to a highway network, “it is inherent in
the very concept of” the interstate pipeline grid “that
each segment will facilitate movement in many others;
if such mutual benefits compelled aggregation, no
project could be said to enjoy independent utility.”116
55. Allegheny’s concerns about the Hillabee Expansion Project and the Magnolia Extension Project were
raised well outside the EIS scoping and comment
periods.117 Commenters should raise concerns about
the scope of the project during these periods. In any
event, as discussed below, the Commission did not segment from its environmental analysis either project.
56. Allegheny claims that the Hillabee Expansion,
which is a component of the Southeast Market
Expansion Project, relies on the Atlantic Sunrise
Project to deliver Marcellus shale gas because both
projects use Transco’s Station 85 hub in Alabama.
Although Atlantic Sunrise Project delivers to, and the
Hillabee Expansion can receive natural gas from, the
Station 85 hub, the projects are not interdependent.
Transco’s Station 85 hub consists of the zone 4a and
zone 4 pooling points connecting several interstate
pipelines—including Transco’s mainline, Sabal Trail’s
whether one project “can stand alone without requiring
construction of the other [projects] either in terms of the facilities
required or profitability”).
116
117

Coal. on Sensible Transp., Inc. v Dole, 826 F.2d at 69.

See Dep’t of Transp. v. Pub. Citizen, 541 U.S. 752, 764 (2004)
(“Persons challenging an agency's compliance with NEPA must
‘structure their participation so that it . . . alerts the agency to
the [parties’] position and contentions,’ in order to allow the
agency to give the issue meaningful consideration.”).

312a
leased Hillabee Expansion, Midcontinent Express
Pipeline, LLC, and Gulf South Pipeline Co., LP—as
well as intrastate pipelines. The existing Station 85
hub already has capacity to deliver more gas than the
Hillabee Expansion could accept. This is unlike the
circumstances in Delaware Riverkeeper Network v.
FERC, where the court ruled that individual pipeline
proposals were interdependent parts of a larger action
where four pipeline projects, when taken together,
would result in “a single pipeline” that was “linear and
physically interdependent” and where those projects
were financially interdependent.118 Such factors are
absent here when the Hillabee Expansion will be able
to receive natural gas from a number of sources and
does not rely on the Atlantic Sunrise Project to move
forward.
57. Because no pipeline has filed an application
with the Commission for the Magnolia Extension
Project, the Commission had no basis to evaluate the
Magnolia Extension in the context of this proceeding.
58. We also dismiss Allegheny’s claims relating to
the Rock Springs Expansion Project, as they were
raised for the first time on rehearing. The Commission
looks with disfavor on parties raising issues for the
first time on rehearing that should have been raised
earlier, particularly during NEPA scoping119 in part,

118

Del. Riverkeeper Network v. FERC, 753 F.3d 1304, 1316
(D.C. Cir. 2014).
119

Baltimore Gas & Elec. Co., 91 FERC ¶ 61,270, at 61,922
(2000) (“We look with disfavor on parties raising issues that
should have been raised earlier. Such behavior is disruptive to
the administrative process because it has the effect of a moving
target for parties seeking a final administrative decision.”).

313a
because other parties are not permitted to respond to
requests for rehearing.120
59. But, again, even if we were to consider the
merits of Allegheny’s request, we would reject it. The
Rock Springs Expansion Project was placed into
service on August 1, 2016, and provides service from
Transco’s system in Lancaster County, Pennsylvania,
to Old Dominion Electric Cooperative’s generating
facility in Cecil County, Maryland. Because both
projects have facilities in Lancaster County, the
Commission considered the Rock Springs Expansion
Project throughout its analysis of cumulative impacts
in the final EIS. But there was no indication that
either project relied on the other and no project
facilities overlapped.
60. As for Transco’s Northeast Supply Enhancement Project, the project is not “connected” for
purposes of NEPA to the Atlantic Sunrise Project The
Northeast Supply Enhancement Project was proposed
on March 27, 2017, well after the Atlantic Sunrise

120

See, e.g., Nw. Pipeline, LLC, 157 FERC ¶ 61,093, at P 27
(2016) (dismissing argument raised for the first time on rehearing
and noting that the “Commission looks with disfavor on parties
raising issues for the first time on rehearing that should have
been raised earlier, particularly during NEPA scoping, in part,
because other parties are not permitted to respond to requests for
rehearing”); PJM Interconnection, L.L.C., 126 FERC ¶ 61,030, at
P 15 and n.10 (2009) (“The Commission has held that raising
issues for the first time on rehearing is disruptive to the
administrative process and denies parties the opportunity to
respond.”); Allegheny Energy Supply Co., L.L.C., 122 FERC ¶
61,104, at P 6 (2008) (same); 18 C.F.R. § 385.713(d) ( “The
Commission will not permit answers to requests for rehearing.”).

314a
Project was approved. As discussed, if a project is
not yet proposed, it is not subject to NEPA review.
121

61. Moreover, the Atlantic Sunrise Project in no
way depends on the Northeast Supply Enhancement
Project, a much smaller, regional project that will
transport natural gas north to New York City, in the
opposite direction as the Atlantic Sunrise Project. And
although the natural gas made available by the
Atlantic Sunrise Project could, theoretically, serve
Northeast Supply Enhancement Project customers,
this service does not depend on the Atlantic Sunrise
Project. Without the Atlantic Sunrise Project, natural
gas could be sourced from other areas on Transco’s
system for the Northeast Supply Enhancement Project
customers.122
4. Local Siting Concerns
a. Rehearing Requests
62. The Cappiellos and Follin Smith claim the
Commission failed to consider and avoid project
impacts to their properties. The Cappiellos argue that
Commission erred by failing to recognize that, in the
short term, pipeline construction will cause noise and
disrupt the use of their farm and, in the long term,
future building and farm equipment operations will
121

Transco Application for Certificate of Public Convenience
and Necessity for the Northeast Supply Enhancement Project,
filed in Docket No. CP17-101-000 (Mar. 26, 2017) (Northeast
Supply Enhancement Project Application).
122

Based on an engineering review by Commission staff, the
Northeast Supply Enhancement project could receive gas from
the Gulf or north from its Leidy Line. See id. at Exhibit G,
Transco Application for Certificate of Public Convenience and
Necessity for the Atlantic Sunrise Project, at Exhibit G (Mar. 15,
2015).

315a
not be permitted on the pipeline right of way. Follin
Smith claims that a portion of the project known as the
Central Penn Line will impact her neighbor’s organic
farm, preclude future organic farming on her land, and
adversely impact cultural and archaeological resources.
Ms. Smith argues that the Commission failed to consider alternatives to prevent such impacts. We disagree.
b. Commission Determination
63. The Cappiellos had previously expressed concern
that pipeline construction noise would adversely
impact an Amish family residing on their property.
The February 3 Order explained that the project is not
expected to exceed target noise levels. Nonetheless,
the Commission required Environmental Condition
53, directing Transco to file in its weekly construction
status reports the noise measurements and any
necessary mitigation near the Cappiellos’ property.
64. With respect to cultural and archeological
resources on Follin Smith’s land, the EIS explained
that Transco would complete a cultural resource report
once it gained access to the project area. The project
area on Ms. Smith’s property was subsequently
reviewed for cultural resources and although historic
period artifacts were recovered, no archaeological sites
or historic properties were identified. Regarding
Ms. Smith’s land, the Pennsylvania State Historic
Preservation Officer and Commission staff agreed that
there would be no effects to historic properties.
65. We dismiss the Cappiellos’ and Follin Smith’s
remaining concerns relating to post-construction impacts
because these arguments are raised for the first time
on rehearing, without any explanation for their delay.123
123

See supra at n.119 & 120.

316a
66. Nonetheless, the Commission fully considered
post-construction surface impacts from the project
easement. The EIS explained that most preconstruction land use, such as farming, would resume on the
surface of the project easement following construction.124
We also note that, although the existence of the
easements would prevent landowners from altering
the easement land by constructing structures or
improvements on the land, property owners can
request specific routing adjustments and mitigation,
including compensation for lost development potential,
during the right-of-way acquisition process. Minor
route modifications may be made after surveys are
conducted to resolve landowner concerns. Finally,
with regard to organic farming, the Commission also
required an organic certification mitigation plan as
Environmental Condition 40. This includes measures
to maintain organic certification of agricultural land
by limiting the use of materials, such as fertilizer or
composted matter that contains a prohibited synthetic
substance, which would mitigate the effect of the
project on the certification of organic farms.125
67. In any event, we note that the Commission
nonetheless fully considered several alternatives to
the route crossing her property.126 But none of these
routes offered overall environmental advantages.
Ultimately, crossing Ms. Smith’s property was necessary to minimize impacts on natural resources and
proximity to nearby homes.

124

Final EIS at 4-311.

125

Id. at 3-42.

126

Id. at 3-8 to 3-55.

317a
5. Direct and Indirect Impacts on Water
Resources
a. Rehearing Requests
68. Allegheny, the Hoffman and Erb Landowners,
and Accokeek claim that the Commission violated
NEPA by failing to take a hard look at the direct and
indirect effects of the Atlantic Sunrise Project on water
resources, including high-quality and exceptional
value streams and wetlands. Allegheny argues that
required mitigation was not supported by substantial
evidence and will be insufficient to ensure adequate
mitigation of project impacts on waterbodies. Allegheny
cites to violations by Tennessee Gas Pipeline Corporation (Tennessee Gas) of Pennsylvania’s Clean Streams
Law127 during construction of the 300 Line Project as
evidence that mitigation is not sufficient to ensure
that pipeline projects’ impacts on water resources will
be adequately mitigated.128
b. Commission Determination
69. That Tennessee Gas was found to have violated
Pennsylvania’s Clean Streams Law during construction of a different pipeline project provides no support
for Allegheny’s allegation that Commission requirements are inadequate to prevent or sufficiently minimize
the environmental impact of the Atlantic Sunrise
Project. The issue raised is one of compliance, rather
than adequacy of the required mitigation. One instance
127

Pennsylvania’s Clean Streams Law was enacted on June 22,
1937, and subsequently amended to align its requirements with
the Clean Water Act. 35 PA. Cons. Stat. § 691.1, et seq.
128

Allegheny Rehearing Request at 15-16. Tennessee Gas’s 300
Line Project included, inter alia, the construction of 127.4 miles
of pipeline loop. Tenn. Gas Pipeline Co., L.L.C., 131 FERC ¶
61,140 (2010).

318a
of non-compliance does not support a conclusion that
there are pervasive flaws in the required mitigation
measures. To that point, in the course of this
proceeding Allegheny has not identified any parts of
the required plans that it believes to have been
deficient. Neither has Allegheny identified any project
impacts that may not be adequately mitigated by
Transco’s compliance with its required plans.
70. We note that the Commission required that
Transco implement several mitigation plans to protect
water resources, including: a Horizontal Directional
Drilling Contingency Plan; an Abandoned Mine Investigation and Mitigation Plan; a Karst Investigation
and Mitigation Plan; Spill Plan for Oil and Hazardous
Materials; and mitigation based on the Commission’s
Upland Erosion Control, Revegetation, and Maintenance
Plan (Erosion Control Plan or Plan) and Wetland and
Waterbody Construction and Mitigation Procedures
(Wetland and Waterbody Mitigation Procedures or
Procedures).129
71. The Commission also required on-site monitoring of these plans’ requirements. Project-specific
environmental inspectors, along with pipeline reporting
must be in place before, during, and after facility
construction. Prior to construction, Transco must have
129

Final EIS at ES-4. The Erosion Control Plan and Wetland
and Waterbody Mitigation Procedures identify mitigation measures
that are required, as applicable, to minimize erosion, enhance
revegetation, and minimize the extent and duration of disturbance on wetlands and waterbodies during and following project
construction. Notice of Availability of Final Revisions to the Plan
and Procedures, 78 Fed. Reg. 34,374 (June 7, 2013). The current
versions of the Plan and Procedures are available on the
Commission’s website at http://www.ferc.gov/industries/gas/env
iro/guidelines.asp.

319a
in place a construction Implementation Plan to ensure
that construction activities will fully comply with
all required mitigation measures and have an onsite
Environmental Inspector.130 During construction,
Transco must file weekly status reports, which would
notify staff of any problem areas, noncompliance
events, and any corrective actions taken.131 After construction, the February 3 Order conditioned receipt of
authorization to begin service on a showing that
Transco was satisfactorily restoring areas affected by
the project.132 The February 3 Order required an additional affirmation statement confirming compliance
with all conditions within thirty days of placing the
authorized facilities into service.133 The EIS thus
properly relied on these mitigation measures to reduce
any minor adverse impacts on water quality to well
below a level of significance.
6. Indirect Effects on Gas Production
a. Rehearing Requests
72. In the February 3 Order, the Commission
declined commenters’ requests to consider the greenhouse gas (GHG) emissions associated with the upstream
production of the natural gas to be transported by
the project in the final EIS.134 Consistent with prior
natural gas infrastructure proceedings, the Commission
found that the record in this proceeding did not demonstrate a reasonably close causal relationship between
130

February 3 Order, 158 FERC ¶ 61,125, Condition Nos. 3, 6,
and 7.
131

Id. at Condition No. 8.

132

Id. at Condition No. 11.

133

Id. at Condition No. 12.

134

February 3 Order, 158 FERC ¶ 61,125 at PP 124-146.

320a
the project and the impacts of future natural gas
production warranting their review under NEPA.135
The Commission further held that, even if a causal
relationship were presumed to exist between approval
of the project and additional natural gas production,
the scope of impacts from any such induced production
was not reasonably foreseeable.136
Nevertheless, Commission staff provided upperbound estimates of upstream and downstream effects
based on DOE and Environmental Protection Agency
(EPA) methodologies.137
73. On rehearing, Allegheny argues that the
Commission violated NEPA by failing to consider the
indirect effects of induced gas production, and should
therefore rescind the February 3 Order to prepare a
revised EIS.138 According to Allegheny, the Commission should have taken a “hard look” at the indirect
effects of induced shale gas development in the
Marcellus and Utica shale formations, which Allegheny
alleges are both causally related to,139 and reasonably
foreseeable as a result of,140 the project.
74. We deny rehearing for the reasons discussed
below.
135

Id. PP 133-136.

136

Id. PP 137-139.

137

Id. PP 139-143.

138

Allegheny Rehearing Request at 3, 16-26. Accokeek and the
Hoffman and Erb Landowners support this argument. See
Accokeek Rehearing Request at 2, 4 (incorporating by reference
the arguments in Allegheny’s request for rehearing); Hoffman
and Erb Landowners Rehearing Request at 7-8, 10 (same).
139

Allegheny Rehearing Request at 17-23.

140

Id. at 23-26.

321a
b. Commission Determination
75. CEQ regulations direct federal agencies to examine the “indirect impacts” of their proposed actions, i.e.
effects that are later in time or farther removed in
distance, but are still (1) caused by the proposed action
and (2) reasonably foreseeable.141 The Commission has
previously found that the environmental effects resulting from natural gas production are generally neither
caused by a proposed pipeline (or other natural gas
infrastructure) project nor are they reasonably foreseeable consequences of our approval of an infrastructure
project.142
76. With respect to causation, “NEPA requires a
‘reasonably close causal relationship’ between the
environmental effect and the alleged cause”143 in
order “to make an agency responsible for a particular
effect under NEPA.”144 In the February 3 Order, the
Commission explained that such a relationship could
141

40 C.F.R. § 1508.25(c) (2017); 40 C.F.R. § 1508.8(b) (2017).

142

See, e.g., Central New York Oil and Gas Co., LLC, 137 FERC
¶ 61,121, at PP 81-101 (2011), order on reh’g, 138 FERC ¶ 61,104,
at PP 33-49 (2012), petition for review dismissed sub nom. Coal.
for Responsible Growth v. FERC, 485 Fed. Appx. 472, 474-75
(2012) (unpublished opinion); Columbia Gas Transmission, LLC,
153 FERC ¶ 61,064, at PP 26-29 (2015) (finding that Commission
approval of a pipeline project will not induce further gas production, nor is the scope of any increased production reasonably
foreseeable); Texas Gas Transmission, LLC, 153 FERC ¶ 61,323,
at P 62 (2015); Rockies Express Pipeline LLC, 150 FERC ¶ 61,161,
at P 39 (2015); Sabine Pass Liquefaction Expansion, LLC, 151
FERC ¶ 61,253, at P 21 (2015).
143

Pub. Citizen, 541 U.S. at 767 (quoting Metro. Edison Co. v.
People Against Nuclear Energy, 460 U.S. 766, 774 (1983)
(Metropolitan Edison)).
144

Id.

322a
exist if the project would transport new production
from a specified production area and such production
would not occur absent the project (i.e., there would be
no other way to move the gas).145 In this case, the
Commission did not find any evidence that the
proposed project was predicated on future gas development; the Commission concluded that the project was
not creating the need for transportation, but responding
to it.146 Despite its determination that study of the
impacts of natural gas production is not mandated as
part of the Commission’s NEPA review, Commission
staff nonetheless prepared an analysis regarding the
potential impacts associated with natural gas production.147 Allegheny is thus mistaken in asserting that
the public has been left to make these assessments.148
77. Allegheny attempts to distinguish the precedent
cited in the February 3 Order, but ultimately fails to
show that the Commission erred in finding no reasonably close causal relationship between the Atlantic
Sunrise Project and further shale gas extraction in the
Marcellus and Utica shale formations. For example,
Allegheny does not dispute the applicability of Central
N.Y. Oil and Gas Co.,149 but instead points out that the
145

February 3 Order, 158 FERC ¶ 61,125 at P 130 (citing
Sylvester v. U.S. Army Corps of Eng’rs, 884 F.2d 394, 400 (9th
Cir. 1989); Morongo Band of Mission Indians v. FAA, 161 F.3d
569, 580 (9th Cir. 1998); City of Carmel-by-the-Sea v. U.S. Dep’t
of Transp., 123 F.3d 1142, 1162 (9th Cir. 1997)).
146

Id. PP 133-135.

147

February 3 Order, 158 FERC ¶ 61,125 at PP 139-143.

148

Allegheny Rehearing Request at 25.

149

Id. P 134 (citing Central N.Y. Oil and Gas Co., LLC, 137
FERC ¶ 61,121, at P 91; order on reh’g, 138 FERC ¶ 61,104; pet.
for review dismissed sub nom. Coal. for Responsible Growth v.
FERC, 485 Fed. App’x 472, 474 (2d Cir. 2012) (finding that

323a
order by the Second Circuit Court of Appeals (Second
Circuit) affirming the Commission’s finding, Coalition
for Responsible Growth v. FERC, was a summary
order that does not have precedential effect under the
Second Circuit’s rules of civil procedure.150 Allegheny
further alleges that, despite expressly affirming
that the Commission reasonably concluded that the
impacts of shale gas development were not sufficiently
causally-related to the project to warrant a more indepth analysis, the Second Circuit offered no “independent analysis, but merely accepted FERC’s rationale
for the specific case at issue.”151 Allegheny fails to
explain why the fact that the Second Circuit affirmed
the Commission via a summary order calls the Commission’s reasoning in that proceeding into question,
or why the Commission could not draw the same
conclusion in this proceeding.
78. Allegheny distinguishes the details of several
other cases, without showing that the precedent
established in these cases is not sound or cannot be
applied in this proceeding.152 According to Allegheny,
Metropolitan Edison is not on point because, unlike
the psychological effects alleged in that proceeding,
environmental effects are within the zone of interests
NEPA was intended to address. Allegheny’s reasoning
Marcellus shale development activities were not sufficiently
causally-related to a pipeline project to warrant in-depth
consideration of the gas production impacts)).
150

Allegheny Rehearing Request at 17 (citing 2nd Cir. L.R.
32.1.1). The rules note that summary orders may be cited, as long
as they are so designated.
151
152

Allegheny Rehearing Request at 17.

Id. at 17-19; February 3 Order, 158 FERC ¶ 61,125 at P 127
(citing Pub. Citizen, 541 U.S. at 767; Metropolitan Edison, 460
U.S. at 774).

324a
seems to read out the requirement for a “reasonably
close causal relationship” in Metropolitan Edison,
suggesting that, because the impacts alleged are
environmental in nature, they are automatically
reasonably foreseeable.153
79. Allegheny then attempts to distinguish Public
Citizen based on the fact that, in that case, the Federal
Motor Carrier and Safety Administration had no
discretion to deny registration of motor carriers meeting certain requirements and the Court therefore
found no causal relationship between increased emissions and its lifting a presidential moratorium on
cross-border operation of Mexican motor carriers.154
Allegheny claims that Public Citizen’s limitation on
NEPA155 does not apply in this case, because the
Commission has the discretion to attach conditions to
a certificate, and to deny a certificate that is not
required by the public convenience and necessity.156
Similarly, Allegheny attempts to distinguish two cases
in which the D.C. Circuit found that the Commission
need not consider the environmental consequences of
the export of natural gas in authorizing the construc-

153

See Allegheny Rehearing Request at 18 (“Unlike the
psychological harm resulting from the risk of a nuclear accident
in Metropolitan Edison, the impacts related to reasonably
foreseeable Marcellus and Utica shale gas drilling involve harms
to the environment.”).
154

Id. at 18-19.

155

See Pub. Citizen, 541 U.S. at 770 (stating that “where an
agency has no ability to prevent a certain effect to its limited
statutory authority over the relevant actions, the agency cannot
be considered a legally relevant ‘cause’ of the effect”).
156

Allegheny Rehearing Request at 19 (citing Or. Natural Res.
Council Fund v. Brong, 492 F.3d 1120, 1134 n.20 (9th Cir. 2007)).

325a
tion of natural gas export facilities157 on the grounds
that DOE has statutory authority over the export of
natural gas, whereas the Commission has sole discretion to approve construction of the Atlantic Sunrise
Project.158
80. First, although the Commission explained in
the February 3 Order that it has no jurisdiction over
natural gas production,159 the Commission did not rely
solely on its lack of statutory authority, but instead
reviewed the record in this proceeding and found no
evidence that approval of the project would cause or
induce additional shale gas production.160 Moreover,
the D.C. Circuit recently has clarified that DOE, which
has statutory authority over gas exports, acted
reasonably in declining to consider the indirect effects
of the proposed Freeport export facility on natural gas
production. The court found that DOE “was not
required to ‘foresee the unforeseeable,’” and acted reasonably in concluding that any attempts to estimate the
location and magnitude of any resulting gas production would be too speculative to be useful.161
81. The Commission does not have jurisdiction over
natural gas production.162 This does not mean, however,
157

Sierra Club v. FERC, 827 F.3d 36, 46 (D.C. Cir. 2016)
(Freeport LNG), and Sierra Club v. FERC, 827 F.3d 59, 68 (D.C.
Cir. 2016).
158

Allegheny Rehearing Request at 22-23.

159

February 3 Order, 158 FERC ¶ 61,125 at P 129.

160

See id. PP 133-136.

161

Sierra Club v. U.S. Dep’t of Energy, 867 F.3d 189, 199 (D.C.
Cir. 2017) (Sierra Club v. DOE).
162

February 3 Order, 158 FERC ¶ 61,125 at P 129 (explaining
that natural gas production is regulated at the local and regional
level and, as to GHG emissions and deep underground injection

326a
that the environmental impacts of any future production will remain unevaluated.163 The potential impacts
of natural gas production, with the exception of GHG
emissions and climate change, would be localized.
Each locale includes unique conditions and environmental resources. Production activities are thus
regulated at a state and local level.164 In addition, deep
underground injection and disposal of wastewaters
and liquids are subject to regulation by the EPA under
the Safe Drinking Water Act, as well as air emissions
under the Clean Air Act. On public lands, federal agencies are responsible for the enforcement of regulations
that apply to natural gas wells.
82. Contrary to Allegheny’s assertions, the Atlantic
Sunrise Project and gas extraction in the Marcellus
and Utica shale formations are not “two links of a
single chain.”165 Allegheny focuses on the fact that,
once produced, natural gas is transported to consumers via pipeline.166 But, as the Supreme Court has
explained, “a ‘but for’ causal relationship is insufficient” to trigger a hard look under NEPA.167 Additional
and disposal of wastewaters and liquids, the EPA); id. P 136
(noting that any potential new production would be driven by a
number of factors and “would take place pursuant to the
regulatory authority of state and local governments”).
163

See Allegheny Rehearing Request at 23.

164

See February 3 Order, 158 FERC ¶ 61,125 at P 129.

165

Id. at 19-23 (citing Sylvester v. U.S. Army Corps of Eng’rs,
884 F.2d 394, 400 (9th Cir. 1989)).
166
167

Id. at 19-20.

Pub. Citizen, 541 U.S. at 767. Allegheny asserts that
Morongo Band of Mission Indians v. FAA, 161 F.3d 569 (9th Cir.
1998) is not on point because the Atlantic Sunrise Project is not
simple “rearranging” existing gas production, but represents “a
direct stepping stone to further gas development.” Allegheny

327a
production might not be possible without additional
transportation capacity– whether provided by the current project or alternate pipelines – to convey the
product to consumers. However, the Commission
reviewed the record in this proceeding and found that
the project was not being constructed to induce future
gas development, but rather to respond to the current
need for transportation.168 That the Surface Transportation Board considered induced coal production in
reviewing a railroad proposal has no bearing on this
determination.169 Neither does the fact that four of the
subscribed shippers are production companies.170 The
Commission does not require that shippers be end-use
consumers of natural gas,171 and the fact that production companies have subscribed to the project does not,
in itself, imply that those companies will produce
additional gas that would not reach intended markets
through other means if the project were not approved.172
Rehearing Request at 21-22. The Commission cited Morongo in
one footnote in the section of the February 3 Order explaining the
type of sufficiently close causal relationship the Commission
looks for in determination whether indirect effects should be
considered under NEPA. February 3 Order, 158 FERC ¶ 61,125
at P 130 n.188. In any event, as explained later in the February
3 Order, the Commission found that a number of factors drive
new natural gas production and that it would be reasonable to
assume that any new production spurred by such factors would
reach the market through alternate routes were the project not
approved. Id. P 136.
168

February 3 Order, 158 FERC ¶ 61,125 at PP 133-136.

169

Allegheny Rehearing Request at 20-21.

170

Id. at 21

171

February 3 Order, 158 FERC ¶ 61,125 at P 29.

172

See id. P 136 (“If the proposed project were not constructed,
it is reasonable to assume that any new production spurred by
such factors [i.e., domestic natural gas prices and production

328a
While Allegheny maintains that “[t]he fact that other
factors may influence drilling does not mean that
additional pipeline capacity does not drive additional
shale gas development,”173 Allegheny fails to point to
record evidence demonstrating the requisite close
causal between the proposed project and the environmental effects from natural gas production area have
a close causal relation to the proposed project. We
continue to find no evidence that the project will transport new production from a specified production area
that would not occur in the absence of this project.174
83. We further affirm that, even if a causal relationship between our action in the February 3 Order and
additional production were presumed, the scope of
impacts from any such induced production in this case
is not reasonably foreseeable.175 Allegheny insists that
“a person of ordinary prudence would take Marcellus
and Utica shale gas drilling into account before
reaching a decision about whether to approve the
Atlantic Sunrise Project,” and asserts that the
Commission must consider these impacts even if it
does not know the precise location and timing of future
development.176 However, while NEPA requires “reasonable forecasting,” agencies are not required “to engage
in speculative analysis” or “to the do the impractical,
costs] would reach intended markets through alternate pipelines
or other modes of transportation.”) (citing Rockies Express
Pipeline LLC, 150 FERC ¶ 61,161, at P 39 (2015)).
173

Allegheny Rehearing Request at 23 (citing Energy
Information Administration data showing a connection between
pipeline capacity and natural gas prices).
174

February 3 Order, 158 FERC ¶ 61,125 at PP 130, 133-136.

175

Id. PP 137-138.

176

Allegheny Rehearing Request at 23-25.

329a
if not enough information is available to permit
meaningful consideration.”177 Given the immense size
of the Marcellus and Utica shale formations, the
inability to determine the number and precise locations of any additional wells, the highly localized
nature of any impacts from future production, and
the myriad factors that drive new drilling, the
Commission concluded that the impacts of natural gas
production were not reasonably foreseeable.178 We find
that this conclusion was reasonable. Finally, while
Allegheny cites to former Commissioner Bay’s separate
statement from National Fuel Gas Supply Corp. in
support of its argument that the Commission should
have considered the impacts of potential additional
gas production, as Commissioner Bay acknowledged in
his statement “there is no legal requirement for the
Commission to do such a review of gas production from
shale formations.”179
177

N. Plains Res. Council, Inc. v. Surface Transp. Bd., 668 F.3d
1067, 1078 (9th Cir. 2011) (citing Envtl. Prot. Info. Ctr. v. U.S.
Forest Serv., 451 F.3d 1005, 1014 (9th Cir. 2006)).
178

February 3 Order, 158 FERC ¶ 61,125 at P 137. See also
Columbia Gas Transmission, LLC, 149 FERC ¶ 61,255, at P 120;
see also Sierra Club v. DOE, 867 F.3d at 198-200 (increased gas
production not reasonably foreseeable when agency cannot
predict the incremental quantity of natural gas that might be
produced in response to an incremental increase in LNG exports).
179

National Fuel Gas Supply Corp., 158 FERC ¶ 61,145 (2017)
(Commissioner Norman C. Bay, Separate Statement). See also
Cent. N.Y. Oil & Gas Co., 137 FERC ¶ 61,121, at PP 99-101 (2011)
(holding that the extent and location of future Marcellus Shale
wells and the associated development were not reasonably foreseeable with respect to a proposed 39-mile long pipeline located
in Pennsylvania, in the heart of Marcellus Shale development),
on reh’g, 138 FERC ¶ 61,104 (2012), aff’d, Coal. for Responsible
Growth & Res. Conservation v. FERC, 485 F. App’x 472, 474 (2d
Cir. 2012). See also Sierra Club v. DOE, 867 F.3d at 202 (holding

330a
7. Cumulative Impacts
a. Rehearing Request
84. On rehearing, Allegheny argues that the
Commission’s public interest analysis was insufficient
in that it: (1) failed to address cumulative impacts on
water resources, vegetation and wildlife, fisheries,
land use, or air quality; (2) improperly limited the
analysis to areas directly affected by the project and
surrounding areas; (3) understated the cumulative
impacts on wildlife and interior forests; (4) failed to
consider the impacts associated with shale gas
development in the Marcellus and Utica shale formations; and (5) failed to adequately address the
project’s downstream impacts on GHG emissions and
climate change.180
85. We affirm the February 3 Order, and find that
the Commission appropriately analyzed the project’s
cumulative impacts under NEPA, consistent with
CEQ guidance.
b. Commission Determination
86. NEPA requires federal agencies to take a
“hard look” at “their proposed actions’ environmental
that DOE’s generalized discussion of the impacts associated with
non-conventional natural gas production fulfill its obligations
under NEPA; DOE need not make specific projections about
environmental impacts stemming from specific levels of exportinduced gas production).
180

Allegheny Rehearing Request at 3, 26-34. See also Accokeek
Rehearing Request at 3, 4 (incorporating by reference the
arguments in Allegheny’s request for rehearing); Hoffman and
Erb Landowners Rehearing Request at 8, 10 (same). Geraldine
Nesbitt also raised similar issues in her joint request for
rehearing, which has been dismissed as discussed above. See
Nesbitt Rehearing Request at 8-10, 43-48.

331a
consequences” –including the cumulative effects in
light of other past, present and future actions – before
deciding whether and how to proceed.181 Allegheny
alleges that the Commission failed to take a hard look
at the cumulative impacts of the Atlantic Sunrise
Project because it did not address the potential
cumulative impacts of the project on water resources,
vegetation and wildlife, fisheries, land use, or air
quality in the February 3 Order.182 In fact, these issues
were discussed at length in the final EIS.183 Allegheny
suggests that the Commission should have reiterated
the analysis in the final EIS in the certificate order
itself.184 We fail to see why doing so would be necessary
to render a “fully informed and well-considered”
decision.185
87. Neither has Allegheny shown that the Commission improperly limited the cumulative impacts analysis
181

See Sierra Club v. DOE, 867 F.3d at 196 (citing Sierra Club
v. U.S. Army Corps of Eng’rs, 803 F.3d 31, 37 (D.C. Cir. 2015); 40
C.F.R. § 1508.7 (2017).
182

Allegheny Rehearing Request at 26-27.

183

Final EIS at 4-292 – 4-299 (water resources); id. at 4-299 –
4-302 (vegetation and wildlife); id. at 4-302 (fisheries and other
aquatic resources); id. at 4-303 – 4-308 (land use, recreation,
special interest areas, and visual resources); id. at 4-311 – 4-316
(air quality at noise).
184

Allegheny Rehearing Request at 27 (“In the Certificate
Order, FERC addressed cumulative impacts in just two
paragraphs about climate change and safety.”).
185

Sierra Club v. DOE, 867 F.3d at 196 (citing Del. Riverkeeper
Network v. FERC, 753 F.3d at 1309-10 (D.C. Cir. 2014) (quoting
Vt. Yankee Nuclear Power Corp. v. NRDC, 435 U.S. 519, 558
(1978)) (the purpose of NEPA “is to insure a fully informed and
well-considered decision, not necessarily a decision the judges of
the Court of Appeals or of this Court would have reached had they
been members of the decisionmaking unit of the agency”)).

332a
area to the area directly affected by the project and
surrounding areas.186 Allegheny hinges its argument
on 1997 guidance from CEQ and 1999 guidance from
EPA suggesting that the geographic boundaries for
cumulative impacts analyses usually should be expanded
beyond the immediate project area.187 However, the
“determination of the extent and effect of [cumulative
impacts], and particularly identification of the geographic area within which they may occur, is a task
assigned to the special competency of the appropriate
agencies.”188 CEQ has explained that “it is not
practical to analyze the cumulative effects of an action
on the universe;”189 rather, the analysis should be
proportional to the magnitude of the environmental
impacts of a proposed action. CEQ has explained that
actions that will have no significant direct and indirect
impacts usually require only a limited cumulative
186

Allegheny Rehearing Request at 27-30.

187

Id. at 28-29 (citing CEQ, Considering Cumulative Effects
Under the National Environmental Policy Act, at 12 (January
1997) (1997 CEQ Guidance), https://energy.gov/sites/prod/files/ne
papub/nepa_documents/RedDont/G-CEQ-ConsidCumulEffects.pdf;
EPA, Consideration of Cumulative Impacts in EPA Review of
NEPA Documents, at 8 (May 1999), https://energy.gov/sites/prod/
files/nepapub/nepa_documents/RedDont/G-EPA-cumulative_imp
acts.pdf).
188

Kleppe v. Sierra Club, 427 U.S. 390, 413 (1976). See also
Freeport LNG, 827 F.3d at 49-50 (rejecting argument that the
Commission should have undertaken a nationwide cumulative
impacts analysis for a proposed liquefied natural gas terminal);
WildEarth Guardians v. Jewell, 738 F.3d 298, 312 (D.C. Cir.
2013) (because the NEPA process “involves an almost endless
series of judgment calls . . . [t]he line-drawing decisions . . . are
vested in the agencies, not the courts”) (quoting Duncan’s Point
Lot Owners Ass’n, Inc. v. FERC, 522 F.3d 371, 376 (D.C. Cir.
2008)).
189

1997 CEQ Guidance at 8.

333a
impacts analysis. Consistent with this guidance, the
final EIS determined that the impacts of most actions
would affect only the project and surrounding areas.
The final EIS nevertheless considered cumulative
impacts for certain resources on a “broader, more
regional basis,” explaining that “[t]he potential cumulative impact area for certain resources, such as air
quality, watersheds, and visual impacts encompasses
a larger geographic area.”191
190

88. The Commission did not narrow the geographic
scope of its cumulative impacts analysis of natural gas
well permitting and development projects following
the issuance of the draft EIS, as Allegheny contends.192
As was the case in the draft EIS, the final EIS analyzed projects within 10 miles of the Atlantic Sunrise
Project, as reflected in Appendix Q.193 Allegheny’s
argument is largely based upon Appendix I to the final
EIS, which provides more detailed information regarding a subset of these projects, mineral resources within
0.25 mile of the project. Allegheny also points to a map
set forth in the final EIS (Figure 4.13.1-1), which was
intended to provide perspective on the location of the
planned developments discussed in Commission staff’s
geographic analysis of cumulative impacts. The fact
190

See CEQ, Memorandum on Guidance on Consideration of
Past Actions in Cumulative Effects Analysis, at 2-3 (June 24,
2005), https://energy.gov/sites/prod/files/nepapub/nepa_docume
nts/RedDont/G-CEQ-PastActsCumulEffects.pdf.
191

Final EIS at 4-274.

192

Allegheny Rehearing Request at 29, 33.

193

See Final EIS at 4-276; Appendix Q at Q-33 (noting that the
table shows “the projects that have the most potential to contribute to the cumulative impacts within the vicinity of the proposed
Atlantic Sunrise Project,” but may not reflect all projects in the
region).

334a
that this map does not identify gas wells or all associated access roads does not, as Allegheny implies,194
mean that the potential cumulative impacts of these
items were not considered.195
89. Allegheny asserts that the Commission understated the cumulative impacts of the project and gas
development on wildlife and interior forests.196 While
Commission staff was not aware of other major
recently constructed or future projects within the
geographic scope of the cumulative impact assessment
that would affect the same interior forest habitats as
the project, the final EIS explained that Transco had
reduced the potential for cumulative impacts associated with the project by collocating the pipeline and
aboveground facilities where possible with existing
rights-of-way and aboveground facilities.197 We continue to agree with the conclusion in the final EIS
that cumulative impacts on vegetation and general
wildlife resulting from the project, Marcellus Shale
development, and other Commission-regulated and
non-jurisdictional actions would be moderate. With
respect to migratory birds, while Allegheny asserts
that issuance of the certificate was premature because
Transco had not yet obtained a Migratory Bird Treaty
Act permit from the U.S. Fish & Wildlife Service

194

Allegheny Rehearing Request at 30.

195

See, e.g., Final EIS at 4-276 (noting that the area to the west
of the Atlantic Sunrise Project in Susquehanna County has been
affected by past and ongoing development of natural gas wells
and associated facilities); id. at Appendix Q, Q-3 (line item noting
production well permits issued in Susquehanna and other
counties).
196

Allegheny Rehearing Request at 31.

197

Final EIS at 4-301.

335a
(USFWS), we note that USFWS filed a letter in this
proceeding on February 16, 2017, and does not
indicate that such a permit is required.199
198

90. We confirm that the level of detail in the final
EIS was appropriate to ensure that the Commission
was able to make a fully-informed decision regarding
the cumulative environmental impacts of the Atlantic
Sunrise Project. Allegheny does not identify any
particular information that was overlooked in the
Commission’s analysis of cumulative impacts on land
use, recreation, special interest areas, and visual
resources. Instead, Allegheny contends that the final
EIS was faulty because it discusses these impacts “in
just four paragraphs.”200 First, Allegheny is factually
incorrect.201 Second, NEPA does not prescribe a certain
level of detail, and certainly does not dictate a minimum number of paragraphs. While “[i]t is of course
always possible to explore a subject more deeply and
to discuss it more thoroughly,” agencies must make
198

Allegheny Rehearing Request at 31.

199

Letter from Lora Z. Lattanzi, Field Office Supervisor,
USFWS, to Alisa M. Lykens, Chief, Division of Gas-Environment
and Engineering, FERC, at 2, filed in Docket No. CP15-138-000
(Feb. 16, 2017) (“The Migratory Bird Treaty Act prohibits the
taking, killing, possession, transportation, and importation of
migratory birds, their eggs, parts, and nests, except when
specifically authorized by the Department of the Interior. While
the MBTA has no provision for allowing unauthorized take, the
FWS recognizes that some birds may be taken during activities
such as pipeline construction even if all reasonable measures to
avoid take are implemented.”).
200
201

Allegheny Rehearing Request at 33.

Allegheny points to the discussion on pages 4-303 and 4-304
of the Final EIS. However, consideration of recreation, special
interest areas, and visual resources continues on pages 4-305
through 4-309.

336a
“[t]he line-drawing decisions necessitated by this fact
of life.”202
91. According to Allegheny, the Commission relied
on “outdated and incomplete data” because the final
EIS refers to a 2013 U.S. Forest Service report
regarding the condition of interior forests that uses
data from 2004 to 2009.203 Allegheny does not point to
other sources with relevant information that Commission could have used in its analysis. And the 2013
Forest Service report was the most recent inventory at
the time Commission staff prepared the final EIS. We
note, however, that the Forest Service recently published a new inventory of Pennsylvania forests, using
data from 2009 to 2014.204 These updated findings
remain consistent with the final EIS, which acknowledged that the project, combined with the effects of
nearby projects, would contribute to the cumulative
long-term permanent loss of forest, including interior
forest habitat, and noted the trend that some parts of
the state are gaining forest cover, while others are
losing it, with the amount of forested acreage generally remaining stable at around 16.7 million acres.205
202

Coal. on Sensible Transp., Inc. v. Dole, 826 F.2d at 66. See
also, Sierra Club v. DOE, 867 F.3d at 196; Freeport LNG, 827
F.3d at 46 (explaining that “our task is not to ‘flyspeck’ the Commission’s environmental analysis for ‘any deficiency no matter
how minor’”) (quoting Theodore Roosevelt Conservation P'ship v.
Salazar, 661 F.3d 66, 75 (D.C. Cir. 2011)).
203

Allegheny Rehearing Request at 32-33 (citing Final EIS at
4-85).
204

U.S. Dep’t of Agriculture, Forest Service, Pennsylvania
Forests 2014 (May 2017) (2014 Inventory), https://www.nrs.fs.
fed.us/pubs/54420.
205

See id. at 12 (“Forest land area in Pennsylvania remained
relatively stable between 2009 and 2014; however, some areas of
the State experienced forest loss, while others saw increased in

337a
Indeed, while noting loss of forest land converted to
developed uses, including activities associated with
Marcellus shale gas development, the 2014 Inventory
determines that “[o]verall, there was a small net gain
in forest land in Pennsylvania from 2009 to 2014.”206
92. Finally, we find that the Commission adequately considered the project’s downstream impacts
on GHG emissions and climate change.207 While
determining that downstream combustion impacts
did not meet the definition of indirect impacts, the
Commission nevertheless considered and quantified
an upperbound estimate of downstream GHG emissions
in the February 3 Order. We note that, subsequently,
the D.C. Circuit has held that the Commission should
have provided a quantitative estimate of the downstream greenhouse emissions that will result from
burning the natural gas that the Southeast Market
Pipelines Project will transport.208 In this case, the
Commission estimated the GHG emissions associated
with burning the gas to be transported by the project,
consistent with the quantification that the Sabal Trail

forest land.”); id. (estimating forest land at 16.9 million acres and
58 percent of the total area of the State); Final EIS at 4-300 – 4301.
206

2014 Inventory at 16-17.

207

Final EIS at 4-316 – 4-319; February 3 Order, 158 FERC ¶
61,125 at PP 143-147.
208

Sierra Club v. FERC, 867 F.3d 1357, 1374 (D.C. Cir. 2017)
(Sabal Trail) (“We conclude that the EIS for the Southeast Market
Pipelines Project should have either given a quantitative estimate of the downstream greenhouse emissions that will result
from burning the natural gas that the pipelines will transport or
explained more specifically why it could not have done so.”).

338a
court required.
In the final EIS and February 3
Order we estimated that, if all 1.7 million Dth per day
of natural gas were transported to combustion end
uses, this would result in about 32.9 million metric tpy
of CO2e.210 Commission staff used an EPA-developed
methodology to arrive at this estimate.211
209

93. This estimate represents an upper bound of
GHG emissions because it assumes the total maximum capacity is transported 365 days per year. As
such, it is unlikely that this total amount of GHG
emissions would occur. Additionally, were the demand
for natural gas instead met by coal or oil, the GHG
emissions would be greater. Obviously, if any portion
of that demand could be met by renewables (solar,
wind), the GHG emissions would be substantially less.

209

Further, Sabal Trail and this case are factually distinct, in
that the record in Sabal Trail showed that the natural gas to be
transported on the new project would be delivered to specific
destinations – power plants in Florida – such that the court
concluded that the burning of the gas in those plants was
reasonably foreseeable and the impacts of that activity warranted
environmental examination. In contrast, the gas to be transported by the Atlantic Sunrise Project will be delivered to markets
along Transco’s pipeline system in seven states, as well as to
interconnects with existing pipelines serving Florida markets,
and its end use is not predictable.
210

Final EIS at 4-318; February 3 Order, 158 FERC ¶ 61,125
at P 143.
211

February 3 Order, 158 FERC ¶ 61,125 at P 143. The D.C.
Circuit outlined a similar strategy (i.e., estimating the amount of
gas carried by a pipeline daily and using DOE emissions
estimates per unit of energy generated for various plants) in
explaining that it should be feasible for the Commission to
provide such an estimate for the Southeast Market Pipelines
Project. Sabal Trail, 867 F.3d at 1374.

339a
94. To give this estimate context, we suggested that
the best way to provide perspective on the magnitude
of a project’s GHG emissions is by comparison to
regional GHG emissions (313 million metric tons of
CO2e in Pennsylvania per a 2005 inventory in the final
EIS).212 Transco has indicated that the project has not
been designed to provide natural gas service to any
particular end user or market.213 Rather, the gas supplies
provided by the Atlantic Sunrise Project would be
delivered into the Transco and Dominion pipeline
systems that can deliver gas to 16 states.214 Therefore,
we reevaluated the GHG emissions in context of the
Sabal Trail decision, looked at the inventory of those
16 states, and compared the potential increase in GHG
emissions from the Atlantic Sunrise Project to the
total 2015 GHG fossil fuel combustion inventory from
the states, as well as the National GHG Inventory. The
estimated 32.9 million metric tons of GHG emissions
would result in no more than a 1.4 percent increase in
GHG emissions from fossil fuel combustion to the

212

Final EIS at 4-317. See Allegheny Rehearing Request at 34
(asserting that the Commission failed to explain how it arrived at
this number or analyze how potential emissions would impact
climate change).
213
214

Final EIS at 1-2.

The 16 states are: Texas, Louisiana, Mississippi, Alabama,
Georgia, Florida, North Carolina, South Carolina, Virginia, West
Virginia, Ohio, Maryland, Delaware, Pennsylvania, New Jersey,
and New York.

340a
states in which the gas would be delivered,215 and a 0.6
percent increase in national emissions.216
95. Allegheny is correct that the final EIS did not
quantify the amount by which this upper limit of the
project’s potential emissions might be reduced by the
project displacing some use of higher carbon-emitting
fuels;217 indeed, any estimate provided for this offset
would be too uncertain, given the many variables
involved (i.e., which fuels would be displaced, to what
extent, for how long, etc.). While it is possible that
gas transported on the project could offset renewable
energy production, as Allegheny suggests, this effect
likewise cannot be quantified.218 In considering the
downstream effects of a liquefied natural gas export
facility, the D.C. Circuit recently rejected as “flyspecking” the argument that DOE should have considered
the potential for natural gas to compete with renewables
in import markets.219 As we noted in the February 3
Order, natural gas transported by the project may also
displace gas that otherwise be transported via different means, resulting in no change in emissions, and
the project likely will not transport maximum capacity

215

Based upon Texas, Louisiana, Mississippi, Alabama,
Georgia, Florida, North Carolina, South Carolina, Virginia, West
Virginia, Ohio, Maryland, Delaware, Pennsylvania, New Jersey,
and New York GHG emissions of 2,590 million metric tons for
2015, per year according to U.S. Energy Information Administration
(October, 2017), https://www.eia.gov/environment/emissions/state/.
216

Based on 5,411 million metric tons of CO2 in 2015 as
presented by the EPA at https://www.epa.gov/sites/production/
files/2017-02/documents/2017_complete_report.pdf.
217

Allegheny Rehearing Request at 34.

218

Id.

219

Sierra Club v. DOE, 867 F.3d at 202.

341a
every day of the year, reducing the estimated
emissions.220
D. Intervenors’ Request For Rehearing Of The
Stay Order
1. Rehearing Request
96. In the Stay Order, the Commission determined
that justice did not require a stay of the Atlantic
Sunrise project. The Commission found, among other
things, that Allegheny and Accokeek had failed to
establish that they would suffer irreparable harm in
the absence of a stay of the project.221 On rehearing,
Intervenors argue that the Commission erred in concluding that they would not likely suffer irreparable
harm. Intervenors further assert that, because of the
Commission’s determination regarding the lack of
irreparable injury, the “FERC consequently failed to
examine the other relevant factors” pertinent to the
question of whether justice requires a stay.222 For the
reasons discussed below, we deny rehearing.
2. Commission Determination
97. In the Stay Order, the Commission found that
Allegheny and Accokeek had failed to “provide[]
specific information regarding the alleged injury
inflicted upon their members by the Atlantic Sunrise
Project.”223 On rehearing, Intervenors attempt to remedy
this shortcoming by citing declarations submitted to
the Commission in September 2017 – nearly seven
months after Intervenors moved for a stay – in connec220

February 3 Order, 158 FERC ¶ 61,125 at P 143.

221

Stay Order, 160 FERC ¶ 61,042 at PP 7-19.

222

Intervenors’ Request for Rehearing of Stay Order at 3-8.

223

Stay Order, 160 FERC ¶ 61,042 at P 7.

342a
tion with Intervenors’ challenge to the Commission’s
issuance of a notice to proceed with construction.224
The purpose of the rehearing requirement, however, is
identify alleged errors in the Commission’s initial
decision,225 not to raise new issues or introduce new
evidence.
98. The Commission has a long-standing policy of
rejecting arguments raised, and evidence introduced,
for the first time on rehearing, absent a compelling
showing of good cause.226 Because Rule 713(d)(1) of the
Commission’s Rules of Practice and Procedure227
prohibit answers to requests for rehearing, “allowing
parties to introduce new evidence at the rehearing
stage would raise concerns of fairness and due process
for other parties to the proceeding.”228 Intervenors
offer no explanation for why these declarations could
not have been submitted with their motions for stay.
Accordingly, we reject Intervenors’ efforts to introduce
supplemental evidence and new issues at the rehearing stage of the proceeding.
99. Intervenors’ request for rehearing also reiterates their previous contention that the project would
have adverse land use and air quality impacts, but
makes no effort address the Commission’s analysis of

224

Intervenors’ Request for Rehearing of Stay Order at 3.

225

See Ecee, Inc. v. FERC, 611 F2d 554, 565 (5th Cir. 1980)
(“The purpose of a rehearing requirement is not give the administrative agency an initial opportunity to correct its errors”).
226

See, e.g., Kinetica Deepwater Express, LLC, 155 FERC ¶
61,183, at P 20 (2016); Aguirre Offshore GasPort, LLC, 155 FERC
¶ 61,139, at P 14 (2016).
227

18 C.F.R. § 385.713(d) (2017).

228

Kinetica Deepwater Express, 155 FERC ¶ 61,183 at P 20.

343a
these issues in the Stay Order.229 Accordingly, we deny
rehearing on this issue.
100. Where, as here, a party requesting a stay is
unable to establish that it will suffer irreparable harm
absent a stay, the Commission need not examine other
factors.230 Intervenors contend that, in light of our
decision regarding the lack of irreparable harm, the
Commission failed to examine whether a stay would
harm other parties or serve the public interest.231 But
that is incorrect. The Commission found that a stay
could jeopardize compliance with the limited tree clearing window recommended by the Fish and Wildlife
Service in order to mitigate impacts on threatened
and endangered species in the project area.232 The
Commission also found that “any delay in construction
could delay completion of a project that the Commission has found to be required by the public interest.”233
Intervenors fail to address these findings. Instead,
Intervenors suggest that permitting construction to
continue pending a final decision could foreclose
alternatives.234 But as we explained in the Stay Order,
“[t]o the extent that Transco elects to proceed with
construction, it bears the risk that . . . our orders will
be overturned on appeal. If this were to occur, Transco
might not be able to utilize any new facilities, and

229

Intervenors’ Request for Rehearing of Stay Order at 3.

230

Tennessee Gas Pipeline, L.L.C., 160 FERC ¶ 61,062, at P 4
(2017).
231

Intervenors’ Request for Rehearing of Stay Order at 4-6.

232

Stay Order, 160 FERC ¶ 61,042 at P 17.

233

Id.

234

Intervenors’ Request for Rehearing of Stay Order at 5.

344a
could be required to remove them or to undertake
further remediation.”235
101. Intervenors also argue that justice requires a
stay because they are likely to succeed on the merits.
In this regard, Intervenors contend that the EIS fails
to comply with the D.C. Circuit’s directives in Sabal
Trail.236 But “the factors we examine when considering
whether to grant a stay . . . do not include the
likelihood of success on the merits.”237 In any event, we
have addressed Intervenors contention in this regard
above and do not believe it to be meritorious.
102. Finally, Intervenors contend that a stay is
appropriate because there are questions regarding the
finality of the February 3 Order in light of ongoing
appellate litigation regarding the validity of the tolling
order issued in this case.238 With the issuance of this
order on rehearing, we believe that any such dispute
is now moot and does not support rehearing of the Stay
Order.
The Commission orders:
The requests for rehearing are denied, rejected, or
dismissed as discussed above. By the Commission.
Commissioner Glick is not participating.
(SEAL)
Nathaniel J. Davis, Sr.,
Deputy Secretary.

235

Stay Order, 160 FERC ¶ 61,042 at P 18.

236

Intervenors’ Request for Rehearing of Stay Order at 6-7.

237

Florida Southeast Connection, LLC, 154 FERC ¶ 61,264, at
P 4 (2017).
238

Intervenors’ Request for Rehearing of Stay Order at 7-8.

345a
APPENDIX H
15 USCS § 717a
Current through PL 116-19, approved May 31, 2019
United States Code Service - Titles 1 through 54
TITLE 15. COMMERCE AND TRADE
CHAPTER 15B. NATURAL GAS
§ 717a. Definitions
When used in this Act [15 USCS §§ 717 et seq.],
unless the context otherwise requires–
(1) “Person” includes an individual or a corporation.
(2) “Corporation” includes any corporation, joint-stock
company, partnership, association, business trust,
organized group of persons, whether incorporated or
not, receiver or receivers, trustee or trustees of any of
the foregoing, but shall not include municipalities as
hereinafter defined.
(3) “Municipality” means a city, county, or other
political subdivision or agency of a State.
(4) “State” means a State admitted to the Union, the
District of Columbia, and any organized Territory of
the United States.
(5) “Natural gas” means either natural gas unmixed,
or any mixture of natural and artificial gas.
(6) “Natural-gas company” means a person engaged in
the transportation of natural gas in interstate
commerce, or the sale in interstate commerce of such
gas for resale.
(7) “Interstate commerce” means commerce between
any point in a State and any point outside thereof, or
between points within the same State but through any

346a
place outside thereof, but only insofar as such commerce takes place within the United States.
(8) “State commission” means the regulatory body of
the State or municipality having jurisdiction to
regulate rates and charges for the sale of natural gas
to consumers within the State or municipality.
(9) “Commission” and “Commissioner” means the
Federal Power Commission, and a member thereof,
respectively.
(10) “Vehicular natural gas” means natural gas that
is ultimately used as a fuel in a self-propelled vehicle.
(11) “LNG terminal” includes all natural gas facilities
located onshore or in State waters that are used to
receive, unload, load, store, transport, gasify, liquefy,
or process natural gas that is imported to the United
States from a foreign country, exported to a foreign
country from the United States, or transported in
interstate commerce by waterborne vessel, but does
not include–
(A) waterborne vessels used to deliver natural gas
to or from any such facility; or
(B) any pipeline or storage facility subject to the
jurisdiction of the Commission under section 7
[15 USCS § 7171.

347a
APPENDIX I
15 USCS § 717r
Current through PL 116-19, approved May 31, 2019
United States Code Service - Titles 1 through 54
TITLE 15. COMMERCE AND TRADE
CHAPTER 15B. NATURAL GAS
§ 717r. Rehearing and review
(a) Application for rehearing; time. Any person, State,
municipality, or State commission aggrieved by an
order issued by the Commission in a proceeding under
this Act [15 USCS §§ 717 et seq.] to which such person,
State, municipality, or State commission is a party
may apply for a rehearing within thirty days after the
issuance of such order. The application for rehearing
shall set forth specifically the ground or grounds upon
which such application is based. Upon such application the Commission shall have power to grant or deny
rehearing or to abrogate or modify its order without
further hearing. Unless the Commission acts upon the
application for rehearing within thirty days after it
is filed, such application may be deemed to have
been denied. No proceeding to review any order of the
Commission shall be brought by any person unless
such person shall have made application to the
Commission for a rehearing thereon. Until the record
in a proceeding shall have been filed in a court of
appeals, as provided in subsection (b), the Commission
may at any time, upon reasonable notice and in such
manner as it shall deem proper, modify or set aside, in
whole or in part, any finding or order made or issued
by it under the provisions of this Act [15 USCS §§ 717
et seq.].

348a
(b) Review of Commission order. Any party to a
proceeding under this Act [15 USCS §§ 717 et seq.]
aggrieved by an order issued by the Commission in
such proceeding may obtain a review of such order in
the [circuit] court of appeals of the United States for
any circuit wherein the natural-gas company to which
the order relates is located or has its principal place of
business, or in the United States Court of Appeals for
the District of Columbia, by filing in such court, within
sixty days after the order of the Commission upon the
application for rehearing, a written petition praying
that the order of the Commission be modified or set
aside in whole or in part. A copy of such petition shall
forthwith be transmitted by the clerk of the court to
any member of the Commission and thereupon the
Commission shall file with the court the record upon
which the order complained of was entered, as
provided in section 2112 of title 28, United States Code
[28 USCS § 2112]. Upon the filing of such petition such
court shall have jurisdiction, which upon the filing of
the record with it shall be exclusive, to affirm, modify,
or set aside such order in whole or in part. No objection
to the order of the Commission shall be considered by
the court unless such objection shall have been urged
before the Commission in the application for rehearing
unless there is reasonable ground for failure so to
do. The finding of the Commission as to the facts, if
supported by substantial evidence, shall be conclusive.
If any party shall apply to the court for leave to adduce
additional evidence, and shall show to the satisfaction
of the court that such additional evidence is material
and that there were reasonable grounds for failure to
adduce such evidence in the proceedings before the
Commission, the court may order such additional
evidence to be taken before the Commission and to be
adduced upon the hearing in such manner and upon

349a
such terms and conditions as to the court may seem
proper. The Commission may modify its findings as to
the facts by reason of the additional evidence so taken,
and it shall file with the court such modified or new
findings, which if supported by substantial evidence,
shall be conclusive, and its recommendations, if any,
for the modification or setting aside of the original
order. The judgment and decree of the court, affirming, modifying, or setting aside, in whole or in part,
any such order of the Commission, shall be final,
subject to review by the Supreme Court of the United
States upon certiorari or certification as provided in
sections 239 and 240 of the Judicial Code, as amended
[28 USCS § 1254].
(c) Stay of Commission order. The filing of an application for rehearing under subsection (a) shall not,
unless specifically ordered by the Commission, operate
as a stay of the Commission’s order. The commencement of proceedings under subsection (b) of this section
shall not, unless specifically ordered by the court,
operate as a stay of the Commission’s order.
(d) Judicial review.
(1) In general. The United States Court of Appeals
for the circuit in which a facility subject to section 3
or section 7 [15 USCS § 717b or 7171 is proposed to
be constructed, expanded, or operated shall have
original and exclusive jurisdiction over any civil
action for the review of an order or action of a
Federal agency (other than the Commission) or
State administrative agency acting pursuant to
Federal law to issue, condition, or deny any permit,
license, concurrence, or approval (hereinafter collectively referred to as “permit”) required under Federal
law, other than the Coastal Zone Management Act
of 1972 (16 U.S.C. 1451 et seq.).

350a
(2) Agency delay. The United States Court of
Appeals for the District of Columbia shall have
original and exclusive jurisdiction over any civil
action for the review of an alleged failure to act by
a Federal agency (other than the Commission) or
State administrative agency acting pursuant to
Federal law to issue, condition, or deny any permit
required under Federal law, other than the Coastal
Zone Management Act of 1972 (16 U.S.C. 1451 et
seq.), for a facility subject to section 3 or section 7
[15 USCS § 717b or 7171. The failure of an agency
to take action on a permit required under Federal
law, other than the Coastal Zone Management Act
of 1972, in accordance with the Commission schedule established pursuant to section 15(c) [16 USCS
§ 717n(c)] shall be considered inconsistent with
Federal law for the purposes of paragraph (3).
(3) Court action. If the Court finds that such order
or action is inconsistent with the Federal law governing such permit and would prevent the construction,
expansion, or operation of the facility subject to
section 3 or section 7 [15 USCS § 717b or 7171, the
Court shall remand the proceeding to the agency to
take appropriate action consistent with the order of
the Court. If the Court remands the order or action
to the Federal or State agency, the Court shall set a
reasonable schedule and deadline for the agency to
act on remand.
(4) Commission action. For any action described in
this subsection, the Commission shall file with the
Court the consolidated record of such order or action
to which the appeal hereunder relates.
(5) Expedited review. The Court shall set any
action brought under this subsection for expedited
consideration.

351a
APPENDIX J
N.C. Gen. Stat. § 62-2
Current through Session Laws 2018-145 of the
2018 Regular Session and the 1st, 2nd, and 3rd
Extraordinary Sessions of the General Assembly,
but not including Session Laws 2018-146 or
corrections and changes made to Session Laws 2018132 through 2018-145 by the Revisor of Statutes,
and through Session Laws 2019-3 of the 2019
Regular Session of the General Assembly, but not
including corrections and changes made to the
2019 legislation by the Revisor of Statutes.
NC - General Statutes of North Carolina Annotated
CHAPTER 62. PUBLIC UTILITIES
ARTICLE 1. GENERAL PROVISIONS
§ 62-2. Declaration of policy
(a) Upon investigation, it has been determined that
the rates, services and operations of public utilities as
defined herein, are affected with the public interest
and that the availability of an adequate and reliable
supply of electric power and natural gas to the people,
economy and government of North Carolina is a
matter of public policy. It is hereby declared to be the
policy of the State of North Carolina:
(1) To provide fair regulation of public utilities in
the interest of the public;
(2) To promote the inherent advantage of regulated
public utilities;
(3) To promote adequate, reliable and economical
utility service to all of the citizens and residents of
the State;

352a
(3a) To assure that resources necessary to meet
future growth through the provision of adequate,
reliable utility service include use of the entire
spectrum of demand-side options, including but not
limited to conservation, load management and efficiency programs, as additional sources of energy
supply and/or energy demand reductions. To that
end, to require energy planning and fixing of rates
in a manner to result in the least cost mix of
generation and demand-reduction measures which
is achievable, including consideration of appropriate
rewards to utilities for efficiency and conservation
which decrease utility bills;
(4) To provide just and reasonable rates and charges
for public utility services without unjust discrimination, undue preferences or advantages, or unfair or
destructive competitive practices and consistent
with long-term management and conservation of
energy resources by avoiding wasteful, uneconomic
and inefficient uses of energy;
(4a) To assure that facilities necessary to meet
future growth can be financed by the utilities operating in this State on terms which are reasonable
and fair to both the customers and existing investors
of such utilities; and to that end to authorize fixing
of rates in such a manner as to result in lower costs
of new facilities and lower rates over the operating
lives of such new facilities by making provisions in
the rate-making process for the investment of public
utilities in plants under construction;
(5) To encourage and promote harmony between
public utilities, their users and the environment;
(6) To foster the continued service of public utilities
on a well-planned and coordinated basis that is

353a
consistent with the level of energy needed for the
protection of public health and safety and for the
promotion of the general welfare as expressed in the
State energy policy;
(7) To seek to adjust the rate of growth of regulated
energy supply facilities serving the State to the
policy requirements of statewide development;
(8) To cooperate with other states and with the
federal government in promoting and coordinating
interstate and intrastate public utility service and
reliability of public utility energy supply;
(9) To facilitate the construction of facilities in and
the extension of natural gas service to unserved
areas in order to promote the public welfare throughout the State and to that end to authorize the
creation of expansion funds for natural gas local
distribution companies or gas districts to be
administered under the supervision of the North
Carolina Utilities Commission; and
(10) To promote the development of renewable
energy and energy efficiency through the implementation of a Renewable Energy and Energy Efficiency
Portfolio Standard (REPS) that will do all of the
following:
a. Diversify the resources used to reliably meet
the energy needs of consumers in the State.
b. Provide greater energy security through the
use of indigenous energy resources available
within the State.
c. Encourage private investment in renewable
energy and energy efficiency.
d. Provide improved air quality and other benefits to energy consumers and citizens of the State.

354a
(b) To these ends, therefore, authority shall be vested
in the North Carolina Utilities Commission to regulate
public utilities generally, their rates, services and
operations, and their expansion in relation to long-term
energy conservation and management policies and
statewide development requirements, and in the
manner and in accordance with the policies set forth
in this Chapter. Nothing in this Chapter shall be
construed to imply any extension of Utilities Commission regulatory jurisdiction over any industry or
enterprise that is not subject to the regulatory jurisdiction of said Commission.
Because of technological changes in the equipment
and facilities now available and needed to provide
telephone and telecommunications services, changes
in regulatory policies by the federal government,
and changes resulting from the court-ordered divestiture of the American Telephone and Telegraph
Company, competitive offerings of certain types of
telephone and telecommunications services may be
in the public interest. Consequently, authority shall
be vested in the North Carolina Utilities Commission to allow competitive offerings of local exchange,
exchange access, and long distance services by
public utilities defined in G.S. 62-3(23)a.6. and
certified in accordance with the provisions of G.S.
62-110, and the Commission is further authorized
after notice to affected parties and hearing to deregulate or to exempt from regulation under any or all
provisions of this Chapter: (i) a service provided by
any public utility as defined in G.S. 62-3(23)a.6.
upon a finding that such service is competitive and
that such deregulation or exemption from regulation
is in the public interest; or (ii) a public utility as
defined in G.S. 62-3(23)a.6., or a portion of the
business of such public utility, upon a finding that

355a
the service or business of such public utility is
competitive and that such deregulation or exemption from regulation is in the public interest.
Notwithstanding the provisions of G.S. 62-110(b)
and G.S. 62-134(h), the following services provided
by public utilities defined in G.S. 62-3(23)a.6. are
sufficiently competitive and shall no longer be regulated by the Commission: (i) intraLATA long distance
service; (ii) interLATA long distance service; and
(iii) long distance operator services. A public utility
providing such services shall be permitted, at its
own election, to file and maintain tariffs for such
services with the Commission up to and including
September 1, 2003. Nothing in this subsection shall
limit the Commission’s authority regarding certification of providers of such services or its authority
to hear and resolve complaints against providers of
such services alleged to have made changes to the
services of customers or imposed charges without
appropriate authorization. For purposes of this subsection, and notwithstanding G.S. 62-110(b), “long
distance services” shall not include existing or future
extended area service, local measured service, or
other local calling arrangements, and any future
extended area service shall be implemented consistent with Commission rules governing extended
area service existing as of May 1, 2003.
The North Carolina Utilities Commission may develop
regulatory policies to govern the provision of telecommunications services to the public which promote
efficiency, technological innovation, economic growth,
and permit telecommunications utilities a reasonable opportunity to compete in an emerging
competitive environment, giving due regard to consumers, stockholders, and maintenance of reasonably

356a
affordable local exchange service and long distance
service.
(b1) Broadband service provided by public utilities as
defined in G.S. 62-3(23)a.6. is sufficiently competitive
and shall not be regulated by the Commission.
(c) The policy and authority stated in this section
shall be applicable to common carriers of passengers
by motor vehicle and their regulation by the North
Carolina Utilities Commission only to the extent that
they are consistent with the provisions of the Bus
Regulatory Reform Act of 1985.

357a
APPENDIX K
N.C. Gen. Stat. § 62-32
Current through Session Laws 2018-145 of the
2018 Regular Session and the 1st, 2nd, and 3rd
Extraordinary Sessions of the General Assembly,
but not including Session Laws 2018-146 or
corrections and changes made to Session Laws 2018132 through 2018-145 by the Revisor of Statutes,
and through Session Laws 2019-3 of the 2019
Regular Session of the General Assembly, but not
including corrections and changes made to the
2019 legislation by the Revisor of Statutes.
NC - General Statutes of North Carolina Annotated
CHAPTER 62. PUBLIC UTILITIES
ARTICLE 3. POWERS AND DUTIES OF
UTILITIES COMMISSION
§ 62-32. Supervisory powers; rates and service
(a) Under the rules herein prescribed and subject to
the limitations hereinafter set forth, the Commission
shall have general supervision over the rates charged
and service rendered by all public utilities in this
State.
(b) Except as provided in this Chapter for bus
companies, the Commission is hereby vested with all
power necessary to require and compel any public
utility to provide and furnish to the citizens of this
State reasonable service of the kind it undertakes to
furnish and fix and regulate the reasonable rates and
charges to be made for such service.

358a
APPENDIX L
N.C. Gen. Stat. § 62-36.01
Current through Session Laws 2018-145 of the
2018 Regular Session and the 1st, 2nd, and 3rd
Extraordinary Sessions of the General Assembly,
but not including Session Laws 2018-146 or
corrections and changes made to Session Laws 2018132 through 2018-145 by the Revisor of Statutes,
and through Session Laws 2019-3 of the 2019
Regular Session of the General Assembly, but not
including corrections and changes made to the
2019 legislation by the Revisor of Statutes.
NC - General Statutes of North Carolina Annotated
CHAPTER 62. PUBLIC UTILITIES
ARTICLE 3. POWERS AND DUTIES OF
UTILITIES COMMISSION
Notice
This section has more than one version with varying
effective dates. To view a complete list of the versions
of this section see Table of Contents.
§ 62-36.01. Regulation of natural gas service
agreements
Whenever the Commission, after notice and hearing,
finds that additional natural gas service agreements
(including “backhaul” agreements) with interstate or
intrastate pipelines will provide increased competition
in North Carolina’s natural gas industry and (i) will
likely result in lower costs to consumers without substantially increasing the risks of service interruptions
to customers, or (ii) will substantially reduce the risks
of service interruptions without unduly increasing
costs to consumers, the Commission may enter and
serve an order directing the franchised natural gas

359a
local distribution company to negotiate in good faith to
enter into such service agreements within a reasonable time. In considering costs to consumers under this
section, the Commission may consider both short-term
and long-term costs.

360a
APPENDIX M
N.C. Gen. Stat. § 62-48
Current through Session Laws 2018-145 of the
2018 Regular Session and the 1st, 2nd, and 3rd
Extraordinary Sessions of the General Assembly,
but not including Session Laws 2018-146 or
corrections and changes made to Session Laws 2018132 through 2018-145 by the Revisor of Statutes,
and through Session Laws 2019-3 of the 2019
Regular Session of the General Assembly, but not
including corrections and changes made to the
2019 legislation by the Revisor of Statutes.
NC - General Statutes of North Carolina Annotated
CHAPTER 62. PUBLIC UTILITIES
ARTICLE 3. POWERS AND DUTIES OF
UTILITIES COMMISSION
§ 62-48. Appearance before courts and agencies
(a) The Commission is authorized and empowered to
initiate or appear in such proceedings before federal
and State courts and agencies as in its opinion may
be necessary to secure for the users of public utility
service in this State just and reasonable rates and
service; provided, however, that the Commission shall
not appear in any State appellate court in support of
any order or decision of the Commission entered in a
proceeding in which a public utility had the burden of
proof.
(b) The Commission may, when appearing before
federal courts and agencies on behalf of the using and
consuming public in matters relating to the wholesale
rates and supply of natural gas, employ, subject to the
approval of the Governor, private legal counsel and be
reimbursed for any resulting legal fees and costs from

361a
past and future refunds received by the North Carolina
natural gas distribution companies, and may establish
procedures for those natural gas distribution companies to set aside reasonable amounts of those refunds
for this purpose. The Commission is also authorized to
establish procedures whereby the State may be reimbursed from past and future refunds received by the
North Carolina natural gas distribution companies for
travel expenses incurred by staff members of the
Commission and Public Staff designated to provide
assistance to the Commission’s private legal counsel in
natural gas matters before federal courts and agencies.

362a
APPENDIX N
N.C. Gen. Stat. § 62-133.4
Current through Session Laws 2018-145 of the
2018 Regular Session and the 1st, 2nd, and 3rd
Extraordinary Sessions of the General Assembly,
but not including Session Laws 2018-146 or
corrections and changes made to Session Laws 2018132 through 2018-145 by the Revisor of Statutes,
and through Session Laws 2019-3 of the 2019
Regular Session of the General Assembly, but not
including corrections and changes made to the
2019 legislation by the Revisor of Statutes.
NC - General Statutes of North Carolina Annotated
CHAPTER 62. PUBLIC UTILITIES
ARTICLE 7. RATES OF PUBLIC UTILITIES
§ 62-133.4. Gas cost adjustment for natural gas
local distribution companies
(a) Rate changes for natural gas local distribution
companies occasioned by changes in the cost of natural
gas supply and transportation may be determined
under this section rather than under G.S. 62-133(b),
(c), or (d).
(b) From time to time, as changes in the cost of
natural gas require, each natural gas local distribution company may apply to the Commission for
permission to change its rates to track changes in the
cost of natural gas supply and transportation. The
Commission may, without a hearing, issue an order
allowing such rate changes to become effective
simultaneously with the effective date of the change in
the cost of natural gas or at any other time ordered by
the Commission. If the Commission has not issued an
order under this subsection within 120 days after the

363a
application, the utility may place the requested rate
adjustment into effect. If the rate adjustment is finally
determined to be excessive or is denied, the utility
shall make refund of any excess, plus interest as provided in G.S. 62-130(e), to its customers in a manner
ordered by the Commission. Any rate adjustment
under this subsection is subject to review under
subsection (c) of this section.
(c) Each natural gas local distribution company shall
submit to the Commission information and data for an
historical 12-month test period concerning the utility’s
actual cost of gas, volumes of purchased gas, sales
volumes, negotiated sales volumes, and transportation
volumes. This information and data shall be filed on
an annual basis in the form and detail and at the time
required by the Commission. The Commission, upon
notice and hearing, shall compare the utility’s prudently incurred costs with costs recovered from all the
utility’s customers that it served during the test
period. If those prudently incurred costs are greater or
less than the recovered costs, the Commission shall,
subject to G.S. 62-158, require the utility to refund any
overrecovery by credit to bill or through a decrement
in its rates and shall permit the utility to recover any
deficiency through an increment in its rates.
(d) Nothing in this section prohibits the Commission
from investigating and changing unreasonable rates
as authorized by this Chapter, nor does it prohibit the
Commission from disallowing the recovery of any gas
costs not prudently incurred by a utility.
(e) As used in this section, the word “cost” or “costs”
shall be defined by Commission rule or order and
may include all costs related to the purchase and
transportation of natural gas to the natural gas local
distribution company’s system.

364a
APPENDIX O
18 CFR 385.214
This document is current through the
June 24, 2019 issue of the Federal Register.
Title 3 is current through June 7, 2019.
Code of Federal Regulations
TITLE 18 CONSERVATION OF
POWER AND WATER RESOURCES
CHAPTER I – FEDERAL ENERGY REGULATORY
COMMISSION, DEPARTMENT OF ENERGY
SUBCHAPTER X – PROCEDURAL RULES
PART 385 – RULES OF PRACTICE
AND PROCEDURE
SUBPART B – PLEADINGS, TARIFF AND RATE
FILINGS, NOTICES OF TARIFF OR RATE
EXAMINATION, ORDERS TO SHOW CAUSE,
INTERVENTION, AND SUMMARY DISPOSITION
§ 385.214 Intervention (Rule 214).
(a) Filing.
(1) The Secretary of Energy is a party to any
proceeding upon filing a notice of intervention in
that proceeding. If the Secretary’s notice is not filed
within the period prescribed under Rule 210(b), the
notice must state the position of the Secretary on the
issues in the proceeding.
(2) Any State Commission, the Advisory Council
on Historic Preservation, the U.S. Departments of
Agriculture, Commerce, and the Interior, any state
fish and wildlife, water quality certification, or
water rights agency; or Indian tribe with authority
to issue a water quality certification is a party to
any proceeding upon filing a notice of intervention
in that proceeding, if the notice is filed within the

365a
period established under Rule 210(b). If the period
for filing notice has expired, each entity identified
in this paragraph must comply with the rules for
motions to intervene applicable to any person under
paragraph (a)(3) of this section including the content
requirements of paragraph (b) of this section.
(3) Any person seeking to intervene to become a
party, other than the entities specified in paragraphs (a)(1) and (a)(2) of this section, must file a
motion to intervene.
(4) No person, including entities listed in paragraphs (a)(1) and (a)(2) of this section, may
intervene as a matter of right in a proceeding arising
from an investigation pursuant to Part 1 b of this
chapter.
(b) Contents of motion.
(1) Any motion to intervene must state, to the
extent known, the position taken by the movant and
the basis in fact and law for that position.
(2) A motion to intervene must also state the
movant’s interest in sufficient factual detail to
demonstrate that:
(i) The movant has a right to participate which is
expressly conferred by statute or by Commission
rule, order, or other action;
(ii) The movant has or represents an interest
which may be directly affected by the outcome of
the proceeeding, including any interest as a:
(A) Consumer,
(B) Customer,
(C) Competitor, or

366a
(D) Security holder of a party; or
(iii) The movant’s participation is in the public
interest.
(3) If a motion to intervene is filed after the end of
any time period established under Rule 210, such a
motion must, in addition to complying with paragraph (b)(1) of this section, show good cause why the
time limitation should be waived.
(c) Grant of party status.
(1) If no answer in opposition to a timely motion to
intervene is filed within 15 days after the motion to
intervene is filed, the movant becomes a party at the
end of the 15 day period.
(2) If an answer in opposition to a timely motion to
intervene is filed not later than 15 days after the
motion to intervene is filed or, if the motion is not
timely, the movant becomes a party only when the
motion is expressly granted.
(d) Grant of late intervention. (1) In acting on any
motion to intervene filed after the period prescribed
under Rule 210, the decisional authority may consider
whether:
(i) The movant had good cause for failing to file
the motion within the time prescribed; (ii)Any
disruption of the proceeding might result from
permitting intervention;
(iii) The movant’s interest is not adequately
represented by other parties in the proceeding;
(iv) Any prejudice to, or additional burdens upon,
the existing parties might result from permitting
the intervention; and

367a
(v) The motion conforms to the requirements of
paragraph (b) of this section.
(2) Except as otherwise ordered, a grant of an
untimely motion to intervene must not be a basis for
delaying or deferring any procedural schedule established prior to the grant of that motion.
(3)
(i) The decisional authority may impose limitations on the participation of a late intervener to
avoid delay and prejudice to the other participants.
(ii) Except as otherwise ordered, a late intervener
must accept the record of the proceeding as the
record was developed prior to the late intervention.
(4) If the presiding officer orally grants a motion
for late intervention, the officer will promptly
issue a written order confirming the oral order.

